APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit
(June 12, 2020) .......................................................... 1a
Judgment of the United States District Court for
the Northern District of California
(June 18, 2019) .......................................................... 6a
Order of the United States District Court for the
Northern District of California Granting
Motion to Dismiss (July 18, 2019) ............................ 7a
REHEARING ORDER AND MANDATE
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc (July 21, 2020) ....................... 13a
Mandate of the United States Court of Appeals
for the Ninth Circuit (July 30, 2020) ..................... 14a
STATUTES AND EXECUTIVE ORDER
Title 47, United States Code, Section 230 ............. 16a
Executive Order 13925 of May 28, 2020
Preventing Online Censorship ............................... 22a
The Department of Justice’s Review of Section 230
of the Communications Decency Act of 1996 ......... 33a

APPENDIX TABLE OF CONTENTS (Cont.)
APPELLATE CASE MATERIALS
Appellant’s Opening Brief
(September 18, 2019) .............................................. 37a
Appellee’s Answering Brief
(November 18, 2019) ............................................... 80a
Appellant’s Reply Brief
(January 3, 2020) .................................................. 104a
Petition for Rehearing En Banc
(July 26, 2020)....................................................... 131a
DISTRICT CASE MATERIALS
[FROM THE APPELLANT RECORD FILE]
Verified Complaint and Demand for Jury Trial
(August 22, 2018) .................................................. 152a
Conformed Response in Opposition to Defendant’s
November 1, 2018, Motion to Dismiss
(December 14, 2018) ............................................. 194a
Exhibit A. 47 U.S.C. § 230 [SEE APP.16A] ...... 226a
Exhibit B. Facebook Screenshots ................. 227a
Exhibit C. Facebook Emails Show Its Real
Mission : Making Money and Crushing
Competition (December 5, 2018).................... 232a
Exhibit D. Facebook Internal Emails Show

Zuckerberg Targeting Competitor Vine

(December 5, 2018) ......................................... 239a
Exhibit E. Facebook Emails Suggest Company

Explored Selling People’s Data Despite
Pledges Not To (December 5, 2018) ............... 243a

APPENDIX TABLE OF CONTENTS (Cont.)
Order Denying Defendant’s November 1, 2018,
Motion to Dismiss (Proposed, Unsigned) ............. 250a
Defendant Facebook’s Motion to Dismiss
(November 1, 2018) ............................................... 251a
Order Granting Defendant Facebook’s Motion
to Dismiss (Proposed, Unsigned) ................... 274a
Reply in Support of Facebook’s Motion to Dismiss
(December 28, 2018) ............................................. 275a
U.S. District Court Docket Details....................... 296a
Notice of Appeal from a Judgment or Order of a
United States District Court ................................ 309a
Justice Thomas’ Statement in Malwarebytes, Inc.

v. Enigma Software Group USA, LLC

(October 13, 2020) ................................................. 312a
Mark Zuckerberg, Understanding Facebook’s
Business Model (January 24, 2019) ..................... 324a

Is Facebook a Publisher in Public It Says No, But
in Court It Says Yes (October 28, 2020)............... 329a

App.1a
MEMORANDUM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(JUNE 12, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
JASON FYK,

Plaintiff-Appellant,
v.
FACEBOOK, INC,

Defendant-Appellee.
________________________
No. 19-16232
D.C. No. 4:18-cv-05159-JSW
Appeal from the United States District Court
for the Northern District of California
Jeffrey S. White, District Judge, Presiding
Submitted June 10, 2020
San Francisco, California
Before: M. SMITH and HURWITZ, Circuit Judges,
and EZRA, District Judge.
 This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
 The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.2a

Jason Fyk appeals the district court’s order and
judgment dismissing with prejudice his state law
claims against Facebook, Inc. (Facebook) as barred
pursuant to the Communications Decency Act (CDA).
We have jurisdiction pursuant to 28 U.S.C. § 1291.
“We review de novo the district court’s grant of a
motion to dismiss under Rule 12(b)(6), accepting all
factual allegations in the complaint as true and
construing them in the light most favorable to the
nonmoving party.” Ebner v. Fresh, Inc., 838 F.3d
958, 962 (9th Cir. 2016).1 We affirm.
1. Pursuant to § 230(c)(1) of the CDA, 47 U.S.C.
§ 230(c)(1), “[i]mmunity from liability exists for ‘(1) a
provider or user of an interactive computer service (2)
whom a plaintiff seeks to treat, under a state law
cause of action, as a publisher or speaker (3) of information provided by another information content provider.’” Dyroff v. Ultimate Software Grp., Inc., 934
F.3d 1093, 1097 (9th Cir. 2019) (quoting Barnes v.
Yahoo!, Inc., 570 F.3d 1096, 1100–01 (9th Cir. 2009)).
“When a plaintiff cannot allege enough facts to overcome Section 230 immunity, a plaintiff’s claims should
be dismissed.” Id. The district court properly determined that Facebook has § 230(c)(1) immunity from
Fyk’s claims in this case.
 The Honorable David A. Ezra, United States District Judge
for the District of Hawaii, sitting by designation.
1 We reject Fyk’s argument that the district court impermissibly
converted the motion to dismiss into a motion for summary judgment. The district court did not deviate from the Rule 12(b)(6)
standard by alluding to the allegation in Fyk’s complaint that
Facebook de-published one of his pages concerning urination,
nor did that allusion affect the court’s analysis.

App.3a
The first and second requirements for § 230(c)(1)
immunity are not in dispute.2 Fyk focuses on the
third requirement. He contends that Facebook is not
entitled to § 230(c)(1) immunity because it acted as a
content developer by allegedly de-publishing pages
that he created and then re-publishing them for
another third party after he sold them to a competitor.
We disagree.
“[A] website may lose immunity under the CDA
by making a material contribution to the creation or
development of content.” Kimzey v. Yelp! Inc., 836 F.3d
1263, 1269 (9th Cir. 2016); see also Fair Hous., 521
F.3d at 1166. Fyk, however, does not identify how
Facebook materially contributed to the content of the
pages. He concedes that the pages were the same
after Facebook permitted their re-publication as when
he created and owned them. We have made clear
that republishing or disseminating third party content
2 Fyk concedes that Facebook is the provider of an “interactive
computer service.” 47 U.S.C. § 230(f)(2); see also Fair Hous. Council
v. Roommates.com, LLC, 521 F.3d 1157, 1162 n.6 (9th Cir.
2008) (en banc) (“[T]the most common interactive services are
websites[.]”). He has also not challenged the district court’s determination that his claims seek to treat Facebook as a publisher
and has therefore waived that issue. See Indep. Towers of
Wash. v. Wash., 350 F.3d 925, 929 (9th Cir. 2003) (“[W]e will
not consider any claims that were not actually argued in appellant’s opening brief.”). In any event, it is clear that Fyk seeks to
hold Facebook liable as a publisher for its decisions to depublish and re-publish the pages. See Barnes, 570 F.3d at 1103
(“[R]emoving content is something publishers do. . . . It is because
such conduct is publishing conduct that we have insisted that
section 230 protects from liability any activity that can be
boiled down to deciding whether to exclude material that third
parties seek to post online.” (emphasis in original) (citation and
internal quotation marks omitted)).

App.4a
“in essentially the same format” “does not equal creation
or development of content.” Kimzey, 836 F.3d at 1270,
1271.
That Facebook allegedly took its actions for
monetary purposes does not somehow transform
Facebook into a content developer. Unlike 47 U.S.C.
§ 230(c)(2)(A), nothing in § 230(c)(1) turns on the alleged
motives underlying the editorial decisions of the provider of an interactive computer service. We otherwise
reject Fyk’s argument that his case is like Fair
Housing because Facebook allegedly “discriminated”
against him by singling out his pages. Fyk mistakes
the alleged illegality of the particular content at issue
in Fair Housing with an antidiscrimination rule that we
have never adopted to apply § 230(c)(1) immunity.
2. Contrary to Fyk’s arguments here regarding a
so-called “first party” and “third party” distinction between §§ 230(c)(1) and 230(c)(2)(A), the fact that he
generated the content at issue does not make § 230(c)(1)
inapplicable. We have explained that “[t]he reference
to ‘another information content provider’ [in § 230(c)(1)]
distinguishes the circumstance in which the interactive
computer service itself meets the definition of ‘information content provider’ with respect to the information in question.” Batzel v. Smith, 333 F.3d 1018, 1031
(9th Cir. 2003), superseded in part by statute on

other grounds as stated in Breazeale v. Victim Servs.,
Inc., 878 F.3d 759, 766–67 (9th Cir. 2017). As to

Facebook, Fyk is “another information content provider.” See Sikhs for Justice “SFJ”, Inc. v. Facebook,
Inc., 144 F.Supp.3d 1088, 1094 (N.D. Cal. 2015), aff’d,
697 F.App’x 526, 526 (9th Cir. 2017).
3. We reject Fyk’s argument that granting
§ 230(c)(1) immunity to Facebook renders § 230(c)(2)(A)

App.5a
mere surplusage. As we have explained, § 230(c)(2)(a)
“provides an additional shield from liability.” Barnes,
570 F.3d at 1105 (emphasis added). “[T]he persons
who can take advantage of this liability shield are
not merely those whom subsection (c)(1) already protects, but any provider of an interactive computer
service. Thus, even those who cannot take advantage
of subsection (c)(1), perhaps because they developed,
even in part, the content at issue can take advantage
of subsection (c)(2).” Id.
4. Finally, we reject Fyk’s argument that Facebook
is estopped from relying on § 230(c)(1) immunity based
on its purported pre-suit reliance on § 230(c)(2)(A)
immunity to justify its conduct. The CDA precludes
the imposition of liability that is inconsistent with its
provisions. 47 U.S.C. § 230(e)(3).
AFFIRMED.

App.6a
JUDGMENT OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF CALIFORNIA
(JUNE 18, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF CALIFORNIA
________________________
JASON FYK,

Plaintiff,
v.
FACEBOOK, INC,

Defendant.
________________________
No. C 18-05159 JSW
Before: Jeffrey S. WHITE, United States District Judge.
Pursuant to the Court’s Order granting Defendant Facebook, Inc’s motion to dismiss, it is HEREBY
ORDERED AND ADJUDGED that judgment is entered
in favor of Defendant and against Plaintiff.
IT IS SO ORDERED.
/s/ Jeffrey S. White
United States District Judge
Dated: June 18, 2019

App.7a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF
CALIFORNIA GRANTING MOTION TO DISMISS
(JULY 18, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF CALIFORNIA
________________________
JASON FYK,

Plaintiff,
v.
FACEBOOK, INC,

Defendant.
________________________
No. C 18-05159 JSW
Before: Jeffrey S. WHITE, United States District Judge.
Now before the Court is Defendant Facebook, Inc.
(“Facebook”)’s motion to dismiss. Plaintiff, Jason Fyk,
filed suit under diversity jurisdiction, for intentional
interference with prospective economic advantage,
violation of California Business and Professions Code
section 17200 et seq., civil extortion, and fraud for
Facebook’s devaluation of Plaintiff’s online pages.
Plaintiff had used Facebook’s free online platform to
create a series of, among other amusing things, pages
dedicated to videos and pictures of people urinating.
In enforcing its community standards, Plaintiff alleges
that Facebook blocked content posted by Plaintiff and

App.8a
removed content in order to make room for its own
sponsored advertisements. Plaintiff contends these
actions by Facebook destroyed or severely devalued his
pages.
Facebook moves to dismiss on two bases. First,
that the claims are barred by Section 230(c)(1) of the
Communications Decency Act (“CDA”) which immunizes internet platforms like Facebook for claims
relating to moderation of third-party content on the
platform such as “reviewing, editing, and deciding
whether to publish or to withdraw publication of
third-party content.” Barnes v. Yahoo!, 570 F.3d
1096, 1102 (9th Cir. 2009). Second, Facebook contends
that Plaintiff fails to state a cause of action for each
of his individual claims.
ANALYSIS
Facebook invokes Section 230 of the CDA which
“immunizes providers of interactive computer services
against liability arising from content created by third
parties.” Perkins v. Linkedin Corp., 53 F.Supp.3d
122, 124 (N.D. Cal. 2014) (internal citations omitted).
Specifically, Section 230(c)(1) provides that “[n]o provider or user of an interactive service shall be treated
as the publisher or speaker of any information provided by another information content provider.” 47
U.S.C. § 230(c)(1). Section 230(c)(1) “establish[es]
broad federal immunity to any cause of action that
would make service providers liable for information
originating with a third-party user of the service.”
Perfect 10, Inc. v. CCBill LLC, 481 F.3d 751, 767 (9th
Cir. 2007) (internal citations omitted). Immunity
extends to activities of a service provider that involve its
moderation of third-party content, such as “reviewing,

App.9a
editing, and deciding whether to publish or to withdraw from publication third-party content.” Barnes,
570 F.3d at 1102.
The immunity, “like other forms of immunity, is
generally accorded effect at the first logical point in
the litigation process” because “immunity is an
immunity from suit rather than a mere defense to
liability.” Nemet Chevrolet, Ltd. v. Consumeraffairs.
com, Inc., 591 F.3d 250, 254 (9th Cir. 2009); see also
Levitt v. Yelp! Inc., 2011 WL 5079526, at *8-9 (N.D.
Cal. Oct. 26, 2011) (holding that Section 230(c)(1)
immunity protects service providers from lawsuits
for their “exercise of a publisher’s traditional editorial
functions.”); see also Fair Housing Council of San
Fernando Valley v. Roommates.com, LLC, 521 F.3d
1157, 1162 (9th Cir. 2008) (holding that Section 230
should be “interpreted to protect websites not merely
from ultimate liability, but from having to fight costly
and protracted legal battles.”).
The CDA immunizes Facebook from suit if three
conditions are met: (1) Facebook is a “provider or
user of an interactive computer service;” (2) the information for which Plaintiff seeks to hold Facebook
liable is “information provided by another information
content provider;” and (3) Plaintiff’s claim seeks to
hold Facebook liable as the “publisher or speaker” of
that information. See Sikhs for Justice “SFJ”, Inc. v.
Facebook, Inc., 144 F.Supp.3d 1088, 1092-93 (2015)
(citing 47 U.S.C. § 230(c)(1); see also Klayman v.
Zuckerberg, 753 F.3d 1354, 1357 (D.C. Cir. 2014)).
Facebook qualifies as an interactive computer
service provider. The CDA defines this element as
“any information service, system, or access software
provider that provides or enables computer access by

App.10a
multiple users to a computer server.” 47 U.S.C.
§ 230(f)(2). Here, the complaint itself alleges that
Facebook provides an internet-based platform where
millions of users can access third party content,
including the content uploaded on Plaintiff’s pages.
(See Complaint ¶ 2.) The first element of the CDA
immunity provision is therefor met. See Sikhs for
Justice, 144 F.Supp.3d at 1093; see also Fraley v.
Facebook, Inc., 830 F.Supp.2d 785, 801-02 (N.D. Cal.
2011) (finding that Facebook acts as an interactive
computer service).
With regard to the second element of the CDA
immunity provision, Plaintiff contends that Facebook
is not entitled to immunity because although the
statute provides immunity for a website operator for
the removal of third-party material, here there is no
third party as Plaintiff himself contends that he
created the content on his pages. This was precisely
the argument rejected by this Court in Sikhs for
Justice which distinguished the reference to “another
information content provider” from the instance in
which the interactive computer service itself is the
creator or developer of the content. 144 F.Supp.3d at
1093-94. In other words, “the CDA immunizes an
interactive computer service provider that ‘passively
displays content that is created entirely by third
parties,’ but not an interactive computer service provider by creating or developing the content at issue.”
Id. at 1094. Put another way, “‘third-party content’ is
used to refer to content created entirely by individuals or entities other than the interactive computer
service provider.” Id. (citing Roommates, 521 F.3d at
1162). Here, there is no dispute that Plaintiff was
the sole creator of his own content which he had

App.11a
placed on Facebook’s pages. As a result, those pages
created entirely by Plaintiff, qualifies as “information
provided by another information content provider”
within the meaning of Section 230. See id .
Lastly, Plaintiff’s claims here seek to hold
Facebook liable as the “publisher or speaker” of that
third party content. The three causes of action alleged
in the complaint arise out of Facebook’s decision to
refuse to publish or to moderate the publication of
Plaintiff’s content. To determine whether a plaintiff’s
theory of liability treats the defendant as a publisher,
“what matters is whether the cause of action inherently
requires the court to treat the defendant as the
‘publisher or speaker’ of content provided by another.”
Id. (citing Barnes, 570 F.3d at 1101). Consequently,
if the duty that the plaintiff alleges was violated by
defendant “derives from the defendant’s status or
conduct as a ‘published or speaker,’ . . . section 230(c)(1)
precludes liability.” Id. (citing Barnes 570 F.3d at
1102). Publication “involves the reviewing, editing,
and deciding whether to publish or to withdraw from
publication third-party content.” Id. Thus, “any activity
that can be boiled down to deciding whether to exclude
material that third parties seek to post online is
perforce immune under section 230.” Id. (citing
Roommates, 521 F.3d at 1170-71).
Here, all three of Plaintiff’s claims arise from
the allegations that Facebook removed or moderated
his pages. (See Complaint ¶¶ 20, 49-73.) Because the
CDA bars all claims that seek to hold an interactive
computer service liable as a publisher of third party
content, the Court finds that the CDA precludes
Plaintiff’s claims. In addition, the Court concludes
that granting leave to amend would be futile in this

App.12a
instance as Plaintiff’s claims are barred as a matter
of law. See, e.g., Bonin v. Calderon, 59 F.3d 815, 845
(9th Cir. 1995) (“Futility of amendment can, by itself,
justify the denial of a motion for leave to amend.”);
see also Lopez v. Smith, 293 F.3d 1122, 1127 (9th
Cir. 2000) (en banc) (holding that dismissal without
leave to amend is justified where “pleading could not
possibly be cured by the allegation of other facts.”)
CONCLUSION
For the foregoing reasons, the Court GRANTS
Facebook’s motion to dismiss without leave to amend.
A separate judgment shall issue and the Clerk shall
close the file.
IT IS SO ORDERED.
/s/ Jeffrey S. White
United States District Judge
Dated: June 18, 2019

App.13a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(JULY 21, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
JASON FYK,

Plaintiff-Appellant,
v.
FACEBOOK, INC,

Defendant-Appellee.
________________________
No. 19-16232
D.C. No. 4:18-cv-05159-JSW
Northern District of California, Oakland
Before: M. SMITH and HURWITZ, Circuit Judges,
and EZRA, District Judge.
The full court has been advised of the petition
for rehearing en banc, and no judge of the court has
requested a vote on it. Fed. R. App. P. 35. Accordingly,
the petition for rehearing en banc is DENIED. (Dkt. No.
41.)
 The Honorable David A. Ezra, United States District Judge for
the District of Hawaii, sitting by designation.

App.14a
MANDATE OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(JULY 30, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
JASON FYK,

Plaintiff-Appellant,
v.
FACEBOOK, INC,

Defendant-Appellee.
________________________
No. 19-16232
D.C. No. 4:18-cv-05159-JSW
U.S. District Court for Northern California, Oakland
The judgment of this Court, entered June 12, 2020,
takes effect this date.
This constitutes the formal mandate of this Court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.
FOR THE COURT:
Molly C. Dwyer
Clerk of Court

App.15a
By: Rhonda Roberts
Deputy Clerk
Ninth Circuit Rule 27-7

App.16a
TITLE 47, UNITED STATES CODE, SECTION 230
47 U.S.C. § 230—Protection for private Blocking and
Screening of Offensive Material
(a) Findings
The Congress finds the following:
(1) The rapidly developing array of Internet and
other interactive computer services available to
individual Americans represent an extraordinary advance in the availability of educational
and informational resources to our citizens.
(2) These services offer users a great degree of
control over the information that they receive, as
well as the potential for even greater control in
the future as technology develops.
(3) The Internet and other interactive computer
services offer a forum for a true diversity of
political discourse, unique opportunities for
cultural development, and myriad avenues for
intellectual activity.
(4) The Internet and other interactive computer
services have flourished, to the benefit of all
Americans, with a minimum of government
regulation.
(5) Increasingly Americans are relying on
interactive media for a variety of political, educational, cultural, and entertainment services.
(b) Policy
It is the policy of the United States—

App.17a
(1) to promote the continued development of
the Internet and other interactive computer
services and other interactive media;
(2) to preserve the vibrant and competitive free
market that presently exists for the Internet and
other interactive computer services, unfettered
by Federal or State regulation;
(3) to encourage the development of technologies
which maximize user control over what information is received by individuals, families, and
schools who use the Internet and other interactive
computer services;
(4) to remove disincentives for the development
and utilization of blocking and filtering technologies that empower parents to restrict their
children’s access to objectionable or inappropriate
online material; and
(5) to ensure vigorous enforcement of Federal
criminal laws to deter and punish trafficking in
obscenity, stalking, and harassment by means of
computer.
(c) Protection for “Good Samaritan” Blocking and
Screening of Offensive Material
(1) Treatment of Publisher or Speaker
No provider or user of an interactive computer
service shall be treated as the publisher or
speaker of any information provided by another
information content provider.

App.18a
(2) Civil Liability
No provider or user of an interactive computer
service shall be held liable on account of—
(A) any action voluntarily taken in good faith to
restrict access to or availability of material
that the provider or user considers to be
obscene, lewd, lascivious, filthy, excessively
violent, harassing, or otherwise objectionable, whether or not such material is constitutionally protected; or
(B) any action taken to enable or make available
to information content providers or others
the technical means to restrict access to
material described in paragraph (1).
(d) Obligations of Interactive Computer Service
A provider of interactive computer service shall,
at the time of entering an agreement with a
customer for the provision of interactive computer service and in a manner deemed appropriate
by the provider, notify such customer that parental control protections (such as computer hardware,
software, or filtering services) are commercially
available that may assist the customer in
limiting access to material that is harmful to
minors. Such notice shall identify, or provide the
customer with access to information identifying,
current providers of such protections.

App.19a
(e) Effect on Other Laws
(1) No Effect on Criminal Law
Nothing in this section shall be construed to
impair the enforcement of section 223 or 231 of
this title, chapter 71 (relating to obscenity) or
110 (relating to sexual exploitation of children) of
title 18, or any other Federal criminal statute.
(2) No Effect on Intellectual Property Law
Nothing in this section shall be construed to
limit or expand any law pertaining to intellectual
property.
(3) State Law
Nothing in this section shall be construed to
prevent any State from enforcing any State law
that is consistent with this section. No cause of
action may be brought and no liability may be
imposed under any State or local law that is inconsistent with this section.
(4) No Effect on Communications Privacy Law
Nothing in this section shall be construed to
limit the application of the Electronic Communications Privacy Act of 1986 or any of the amendments made by such Act, or any similar State law.
(5) No Effect on Sex Trafficking Law
Nothing in this section (other than subsection
(c)(2)(A)) shall be construed to impair or limit—
(A) any claim in a civil action brought under
section 1595 of title 18, if the conduct under-

App.20a
lying the claim constitutes a violation of
section 1591 of that title;
(B) any charge in a criminal prosecution brought
under State law if the conduct underlying
the charge would constitute a violation of
section 1591 of title 18; or
(C) any charge in a criminal prosecution brought
under State law if the conduct underlying
the charge would constitute a violation of
section 2421A of title 18, and promotion or
facilitation of prostitution is illegal in the
jurisdiction where the defendant’s promotion
or facilitation of prostitution was targeted.
(f)

Definitions
As used in this section:
(1) Internet
The term “Internet” means the international
computer network of both Federal and non-Federal interoperable packet switched data networks.
(2) Interactive computer service
The term “interactive computer service” means
any information service, system, or access software
provider that provides or enables computer
access by multiple users to a computer server,
including specifically a service or system that
provides access to the Internet and such systems
operated or services offered by libraries or educational institutions.

App.21a
(3) Information content provider
The term “information content provider” means
any person or entity that is responsible, in whole
or in part, for the creation or development of
information provided through the Internet or
any other interactive computer service.
(4) Access software provider
The term “access software provider” means a
provider of software (including client or server
software), or enabling tools that do any one or
more of the following:
(A) filter, screen, allow, or disallow content;
(B) pick, choose, analyze, or digest content; or
(C) transmit, receive, display, forward, cache,
search, subset, organize, reorganize, or
translate content.
(June 19, 1934, ch. 652, title II, § 230, as added Pub.
L. 104–104, title V, § 509, Feb. 8, 1996, 110 Stat. 137;
amended Pub. L. 105–277, div. C, title XIV, § 1404(a),
Oct. 21, 1998, 112 Stat. 2681–739; Pub. L. 115–164, §
4(a), Apr. 11, 2018, 132 Stat. 1254.)

App.22a
EXECUTIVE ORDER 13925 OF MAY 28, 2020
PREVENTING ONLINE CENSORSHIP
PRESIDENTIAL DOCUMENTS
Federal Register Vol. 85, No. 106
Tuesday, June 2, 2020
________________________
By the authority vested in me as President by
the Constitution and the laws of the United States of
America, it is hereby ordered as follows:
Section 1. Policy.
Free speech is the bedrock of American democracy. Our Founding Fathers protected this sacred
right with the First Amendment to the Constitution.
The freedom to express and debate ideas is the foundation for all of our rights as a free people.
In a country that has long cherished the freedom
of expression, we cannot allow a limited number of
online platforms to hand pick the speech that Americans may access and convey on the internet. This
practice is fundamentally un-American and antidemocratic. When large, powerful social media companies censor opinions with which they disagree, they
exercise a dangerous power. They cease functioning as passive bulletin boards, and ought to be viewed
and treated as content creators.
The growth of online platforms in recent years
raises important questions about applying the ideals
of the First Amendment to modern communications
technology. Today, many Americans follow the news,
stay in touch with friends and family, and share
their views on current events through social media

App.23a
and other online platforms. As a result, these platforms
function in many ways as a 21st century equivalent
of the public square.
Twitter, Facebook, Instagram, and YouTube wield
immense, if not unprecedented, power to shape the
interpretation of public events; to censor, delete, or
disappear information; and to control what people
see or do not see.
As President, I have made clear my commitment
to free and open debate on the internet. Such debate
is just as important online as it is in our universities,
our town halls, and our homes. It is essential to
sustaining our democracy.
Online platforms are engaging in selective
censorship that is harming our national discourse.
Tens of thousands of Americans have reported, among
other troubling behaviors, online platforms “flagging”
content as inappropriate, even though it does not
violate any stated terms of service; making unannounced and unexplained changes to company
policies that have the effect of disfavoring certain
viewpoints; and deleting content and entire accounts
with no warning, no rationale, and no recourse.
Twitter now selectively decides to place a warning
label on certain tweets in a manner that clearly
reflects political bias. As has been reported, Twitter
seems never to have placed such a label on another
politician’s tweet. As recently as last week, Representative Adam Schiff was continuing to mislead his
followers by peddling the long-disproved Russian
Collusion Hoax, and Twitter did not flag those tweets.
Unsurprisingly, its officer in charge of so-called “Site

App.24a
Integrity” has flaunted his political bias in his own
tweets.
At the same time online platforms are invoking
inconsistent, irrational, and groundless justifications
to censor or otherwise restrict Americans’ speech
here at home, several online platforms are profiting
from and promoting the aggression and disinformation
spread by foreign governments like China. One United
States company, for example, created a search engine
for the Chinese Communist Party that would have
blacklisted searches for “human rights,” hid data
unfavorable to the Chinese Communist Party, and
tracked users determined appropriate for surveillance.
It also established research partnerships in China
that provide direct benefits to the Chinese military.
Other companies have accepted advertisements paid
for by the Chinese government that spread false
information about China’s mass imprisonment of
religious minorities, thereby enabling these abuses of
human rights. They have also amplified China’s
propaganda abroad, including by allowing Chinese
government officials to use their platforms to spread
misinformation regarding the origins of the COVID–
19 pandemic, and to undermine pro-democracy protests
in Hong Kong.
As a Nation, we must foster and protect diverse
viewpoints in today’s digital communications environment where all Americans can and should have a
voice. We must seek transparency and accountability
from online platforms, and encourage standards and
tools to protect and preserve the integrity and openness
of American discourse and freedom of expression.

App.25a
Sec. 2. Protections Against Online Censorship.
(a) It is the policy of the United States to foster
clear ground rules promoting free and open debate
on the internet. Prominent among the ground rules
governing that debate is the immunity from liability
created by section 230(c) of the Communications
Decency Act (section 230(c)). 47 U.S.C. § 230(c). It is
the policy of the United States that the scope of that
immunity should be clarified: the immunity should
not extend beyond its text and purpose to provide
protection for those who purport to provide users a
forum for free and open speech, but in reality use
their power over a vital means of communication to
engage in deceptive or pretextual actions stifling free
and open debate by censoring certain viewpoints.
Section 230(c) was designed to address early
court decisions holding that, if an online platform
restricted access to some content posted by others, it
would thereby become a “publisher” of all the content
posted on its site for purposes of torts such as
defamation. As the title of section 230(c) makes clear,
the provision provides limited liability “protection” to
a provider of an interactive computer service (such
as an online platform) that engages in “‘Good
Samaritan’ blocking” of harmful content. In particular, the Congress sought to provide protections for
online platforms that attempted to protect minors
from harmful content and intended to ensure that such
providers would not be discouraged from taking down
harmful material. The provision was also intended to
further the express vision of the Congress that the
internet is a “forum for a true diversity of political
discourse.” 47 U.S.C. § 230(a)(3). The limited protec-

App.26a
tions provided by the statute should be construed with
these purposes in mind.
In particular, subparagraph (c)(2) expressly
addresses protections from “civil liability” and specifies
that an interactive computer service provider may
not be made liable “on account of” its decision in
“good faith” to restrict access to content that it
considers to be “obscene, lewd, lascivious, filthy, excessively violent, harassing or otherwise objectionable.”
It is the policy of the United States to ensure that, to
the maximum extent permissible under the law, this
provision is not distorted to provide liability protection for online platforms that—far from acting in
“good faith” to remove objectionable content—instead
engage in deceptive or pretextual actions (often contrary to their stated terms of service) to stifle viewpoints with which they disagree. Section 230 was not
intended to allow a handful of companies to grow into
titans controlling vital avenues for our national
discourse under the guise of promoting open forums
for debate, and then to provide those behemoths
blanket immunity when they use their power to
censor content and silence viewpoints that they dislike.
When an interactive computer service provider removes
or restricts access to content and its actions do not
meet the criteria of subparagraph (c)(2)(A), it is
engaged in editorial conduct. It is the policy of the
United States that such a provider should properly
lose the limited liability shield of subparagraph (c)(2)(A)
and be exposed to liability like any traditional editor
and publisher that is not an online provider.
(b) To advance the policy described in subsection
(a) of this section, all executive departments and
agencies should ensure that their application of sec-

App.27a
tion 230(c) properly reflects the narrow purpose of
the section and take all appropriate actions in this
regard. In addition, within 60 days of the date of this
order, the Secretary of Commerce (Secretary), in consultation with the Attorney General, and acting through
the National Telecommunications and Information
Administration (NTIA), shall file a petition for rulemaking with the Federal Communications Commission (FCC) requesting that the FCC expeditiously
propose regulations to clarify:
(i) the interaction between subparagraphs (c)(1)
and (c)(2) of section 230, in particular to clarify
and determine the circumstances under which a
provider of an interactive computer service that
restricts access to content in a manner not specifically protected by subparagraph (c)(2)(A) may also
not be able to claim protection under subparagraph (c)(1), which merely states that a provider
shall not be treated as a publisher or speaker for
making third-party content available and does
not address the provider’s responsibility for its
own editorial decisions;
(ii) the conditions under which an action restricting access to or availability of material is not
“taken in good faith” within the meaning of
subparagraph (c)(2)(A) of section 230, particularly whether actions can be “taken in good faith” if
they are:
(A) deceptive, pretextual, or inconsistent with a
provider’s terms of service; or
(B) taken after failing to provide adequate notice,
reasoned explanation, or a meaningful
opportunity to be heard; and

App.28a
(iii) any other proposed regulations that the NTIA
concludes may be appropriate to advance the
policy described in subsection (a) of this section.
Sec. 3. Protecting Federal Taxpayer Dollars from
Financing Online Platforms That Restrict Free
Speech.
(a) The head of each executive department and
agency (agency) shall review its agency’s Federal
spending on advertising and marketing paid to online
platforms. Such review shall include the amount of
money spent, the online platforms that receive Federal
dollars, and the statutory authorities available to
restrict their receipt of advertising dollars.
(b) Within 30 days of the date of this order, the
head of each agency shall report its findings to the
Director of the Office of Management and Budget.
(c) The Department of Justice shall review the
viewpoint-based speech restrictions imposed by each
online platform identified in the report described in
subsection (b) of this section and assess whether any
online platforms are problematic vehicles for government speech due to viewpoint discrimination, deception to consumers, or other bad practices.
Sec. 4. Federal Review of Unfair or Deceptive Acts or
Practices.
(a) It is the policy of the United States that large
online platforms, such as Twitter and Facebook, as
the critical means of promoting the free flow of
speech and ideas today, should not restrict protected
speech. The Supreme Court has noted that social
media sites, as the modern public square, “can pro-

App.29a
vide perhaps the most powerful mechanisms available to a private citizen to make his or her voice
heard.” Packingham v. North Carolina, 137 S. Ct. 1730,
1737 (2017). Communication through these channels
has become important for meaningful participation
in American democracy, including to petition elected
leaders. These sites are providing an important forum
to the public for others to engage in free expression
and debate. Cf. PruneYard Shopping Center v. Robins,
447 U.S. 74, 85–89 (1980).
(b) In May of 2019, the White House launched a
Tech Bias Reporting tool to allow Americans to
report incidents of online censorship. In just weeks,
the White House received over 16,000 complaints of
online platforms censoring or otherwise taking action
against users based on their political viewpoints. The
White House will submit such complaints received to
the Department of Justice and the Federal Trade
Commission (FTC).
(C) The FTC shall consider taking action, as
appropriate and consistent with applicable law, to
prohibit unfair or deceptive acts or practices in or
affecting commerce, pursuant to section 45 of title
15, United States Code. Such unfair or deceptive acts
or practice may include practices by entities covered
by section 230 that restrict speech in ways that do
not align with those entities’ public representations
about those practices.
(d) For large online platforms that are vast
arenas for public debate, including the social media
platform Twitter, the FTC shall also, consistent with
its legal authority, consider whether complaints allege
violations of law that implicate the policies set forth
in section 4(a) of this order. The FTC shall consider

App.30a
developing a report describing such complaints and
making the report publicly available, consistent with
applicable law.
Sec. 5. State Review of Unfair or Deceptive Acts or
Practices and Anti-Discrimination Laws.
(a) The Attorney General shall establish a working group regarding the potential enforcement of
State statutes that prohibit online platforms from
engaging in unfair or deceptive acts or practices. The
working group shall also develop model legislation
for consideration by legislatures in States where
existing statutes do not protect Americans from such
unfair and deceptive acts and practices. The working
group shall invite State Attorneys General for
discussion and consultation, as appropriate and consistent with applicable law.
(b) Complaints described in section 4(b) of this
order will be shared with the working group, consistent
with applicable law. The working group shall also
collect publicly available information regarding the
following:
(i) increased scrutiny of users based on the other
users they choose to follow, or their interactions
with other users;
(ii) algorithms to suppress content or users based
on indications of political alignment or viewpoint;
(iii) differential policies allowing for otherwise
impermissible behavior, when committed by
accounts associated with the Chinese Communist Party or other anti-democratic associations
or governments;

App.31a
(iv) reliance on third-party entities, including
contractors, media organizations, and individuals, with indicia of bias to review content; and
(v) acts that limit the ability of users with particular viewpoints to earn money on the platform
compared with other users similarly situated.
Sec. 6. Legislation.
The Attorney General shall develop a proposal
for Federal legislation that would be useful to
promote the policy objectives of this order.
Sec. 7. Definition.
For purposes of this order, the term “online
platform” means any website or application that
allows users to create and share content or engage in
social networking, or any general search engine.
Sec. 8. General Provisions.
(a) Nothing in this order shall be construed to
impair or otherwise affect:
(i) the authority granted by law to an executive
department or agency, or the head thereof; or
(ii) the functions of the Director of the Office of
Management and Budget relating to budgetary,
administrative, or legislative proposals.
(b) This order shall be implemented consistent
with applicable law and subject to the availability of
appropriations.
(c) This order is not intended to, and does not,
create any right or benefit, substantive or procedural,
enforceable at law or in equity by any party against

App.32a
the United States, its departments, agencies, or
entities, its officers, employees, or agents, or any
other person.

Donald J. Trump
THE WHITE HOUSE,
May 28, 2020.

App.33a
THE DEPARTMENT OF JUSTICE’S REVIEW OF
SECTION 230 OF THE COMMUNICATIONS
DECENCY ACT OF 1996
As part of the President's Executive Order on
Preventing Online Censorship, and as a result of the
Department's long standing review of Section 230,
the Department has put together the following legislative package to reform Section 230. The proposal
focuses on the two big areas of concern that were
highlighted by victims, businesses, and other stakeholders in the conversations and meetings the Department held to discuss the issue. First, it addresses
unclear and inconsistent moderation practices that
limit speech and go beyond the text of the existing
statute. Second, it addresses the proliferation of
illicit and harmful content online that leaves victims
without any civil recourse. Taken together, the
Department's legislative package provides a clear path
forward on modernizing Section 230 to encourage a
safer and more open internet.
AREAS RIPE FOR SECTION 230 REFORM
The Department identified four areas ripe for
reform:
1.

Incentivizing Online Platforms to Address Illicit
Content

The first category of potential reforms is aimed
at incentivizing platforms to address the growing
amount of illicit content online, while preserving the
core of Section 230’s immunity for defamation.

App.34a
a. Bad Samaritan Carve-Out.
First, the Department proposes denying Section
230 immunity to truly bad actors. The title of Section
230’s immunity provision—“Protection for ‘Good Samaritan’ Blocking and Screening of Offensive Material”—
makes clear that Section 230 immunity is meant to
incentivize and protect responsible online platforms.
It therefore makes little sense to immunize from civil
liability an online platform that purposefully facilitates or solicits third-party content or activity that
would violate federal criminal law.
b. Carve-Outs for Child Abuse, Terrorism, and
Cyber-Stalking.
Second, the Department proposes exempting from
immunity specific categories of claims that address
particularly egregious content, including (1) child
exploitation and sexual abuse, (2) terrorism, and (3)
cyber-stalking. These targeted carve-outs would halt
the over-expansion of Section 230 immunity and
enable victims to seek civil redress in causes of action
far afield from the original purpose of the statute.
c. Case-Specific Carve-outs for Actual Knowledge
or Court Judgments.
Third, the Department supports reforms to make
clear that Section 230 immunity does not apply in a
specific case where a platform had actual knowledge
or notice that the third party content at issue violated
federal criminal law or where the platform was provided with a court judgment that content is unlawful in
any respect.

App.35a
2.

Clarifying Federal Government Enforcement
Capabilities to Address Unlawful Content

A second category reform would increase the
ability of the government to protect citizens from
harmful and illicit conduct. These reforms would
make clear that the immunity provided by Section
230 does not apply to civil enforcement actions brought
by the federal government. Civil enforcement by the
federal government is an important complement to
criminal prosecution.
3.

Promoting Competition

A third reform proposal is to clarify that federal
antitrust claims are not covered by Section 230
immunity. Over time, the avenues for engaging in both
online commerce and speech have concentrated in
the hands of a few key players. It makes little sense to
enable large online platforms (particularly dominant
ones) to invoke Section 230 immunity in antitrust
cases, where liability is based on harm to competition,
not on third-party speech.
4.

Promoting Open Discourse and Greater Transparency

A fourth category of potential reforms is intended
to clarify the text and original purpose of the statute
in order to promote free and open discourse online
and encourage greater transparency between platforms
and users.
a. Replace Vague Terminology in (c)(2).
First, the Department supports replacing the
vague catch-all “otherwise objectionable” language in
Section 230(c)(2) with “unlawful” and “promotes

App.36a
terrorism.” This reform would focus the broad blanket
immunity for content moderation decisions on the
core objective of Section 230—to reduce online content
harmful to children—while limiting a platform's ability
to remove content arbitrarily or in ways inconsistent
with its terms or service simply by deeming it
“objectionable.”
b. Provide Definition of Good Faith.
Second, the Department proposes adding a statutory definition of “good faith,” which would limit
immunity for content moderation decisions to those
done in accordance with plain and particular terms
of service and accompanied by a reasonable explanation, unless such notice would impede law enforcement or risk imminent harm to others. Clarifying the
meaning of "good faith" should encourage platforms to
be more transparent and accountable to their users,
rather than hide behind blanket Section 230 protections.
c. Explicitly Overrule Stratton Oakmont to Avoid
Moderator’s Dilemma.
Third, the Department proposes clarifying that a
platform’s removal of content pursuant to Section
230(c)(2) or consistent with its terms of service does
not, on its own, render the platform a publisher or
speaker for all other content on its service.

App.37a
APPELLANT’S OPENING BRIEF
(SEPTEMBER 18, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
JASON FYK,

Plaintiff-Appellant,
v.
FACEBOOK, INC.

Defendant-Appellee.
________________________
No. 19-16232
On Appeal from Dismissal with Prejudice and
Judgment of the United States District Court
for the Northern District of California,
No. 4:18-cv-05159-JSW (Hon. Jeffrey S. White)
Callagy Law, P.C.
Sean R. Callagy, Esq.
scallagy@callagylaw.com
Michael J. Smikun, Esq.
msmikun@callagylaw.com
650 From Rd., Ste 565
Paramus, NJ 07652
(201) 261-1700 (o)
(201) 261-1775 (f)

App.38a
Jeffrey L. Greyber, Esq.
jgreyber@callagylaw.com
1900 N.W. Corporate Blvd., Ste 310W
Boca Raton, FL 33431
(561) 405-7966 (o)
(201) 549-8753 (f)
Putterman Yu, LLP
Constance J. Yu, Esq.
cyu@plylaw.com
345 California St., Suite 1160
San Francisco, CA 94104
(415) 839-8779 (o)
(415) 737-1363 (f)

Attorneys for Plaintiff-Appellant
[TOC & TOA Omitted]
JURISDICTIONAL STATEMENT
The United States District Court for the Northern
District of California exercised jurisdiction under Title
28, United States Code, Section 1332, as the parties
are diverse and the amount in controversy exceeds
$75,000.00 exclusive of fees, costs, interest, or otherwise. Venue was/is proper in the Northern District of
California pursuant to Title 28, United States Code,
Section 1391(b), as Defendant-Appellee, Facebook,
Inc. (“Facebook”), maintains its principal place of
business in that judicial district and various events
or omissions giving rise to the action occurred within
that judicial district.
The District Court erred in dismissing this case.
This appeal stems from the District Court’s legally,
factually, and equitably wayward June 18, 2019, Order
Granting Motion to Dismiss (“Dismissal Order”),

App.39a
4:18-cv-05149-JSW, and the District Court’s June 18,
2019, Judgment, id. (ER 1-6).1 This appeal revolves
around the only aspect of the Dismissal Order—the
Communications Decency Act, “CDA,” Title 47, United
States Code, Section 230(c)(1) immunity defense.2
This Court “has jurisdiction pursuant to 28
U.S.C. § 1291—regardless of the basis for the district
court’s dismissal of Plaintiff’s complaint, its entry of
judgment constituted a final decision of the court.”
Applied Underwriters, Inc. v. Lichtenegger, 913 F.3d
884, 890 (9th Cir. 2019).
On June 19, 2019, Plaintiff-Appellant, Jason
Fyk (“Fyk”), filed his Notice of Appeal from a Judgment
or Order of a United States District Court, along with
his Representation Statement. On June 20, 2019,
the Time Schedule Order was entered, prescribing
August 19, 2019, as Fyk’s opening brief deadline.
Thereafter, an enlargement of the August 19, 2019,
deadline was procured, extending that deadline to
September 18, 2019.
The Dismissal order was with prejudice as to the
entire case, and the District Court entered related
judgment as to the entire case; hence, this appeal.

1 “ER ___” refers to Plaintiff’s/Appellant’s Excerpt of Record.
2 Hereafter, the germane subsection of the CDA is drafted in
shortest form. For example, (c)(1) will refer to Title 47, United
States Code, Section 230(c)(1). As other examples, (c)(2)(A) will
refer to Title 47, United States Code, Section 230(c)(2)(A) and
(f)(3) will refer to Title 47, United States Code, Section 230(f)(3).

App.40a
ISSUES PRESENTED
This appeal asks: (1) Whether Facebook, under
the deceptive pre-text of CDA immunity, can perpetrate
any and all unlawful or discriminatory action (e.g.,
intentional interference with prospective economic
advantage/relations, unfair competition, civil extortion,
fraud/intentional misrepresentation) against Fyk. Put
differently, this appeal asks whether (c)(1) completely
immunizes Facebook from its unlawful, discriminatory
“information content provider” “development”3 of Fyk
businesses/pages (and necessarily the content therein).4
Put more specifically, this appeal asks whether (c)(1)

3 Fair Hous. Council of San Fernando Valley v. Roommates.com,
LLC, 521 F.3d 1157, 1166-1169 (9th Cir. 2008) (in deciding that
Roommates.com had lost CDA immunity because it acted as a
“developer” of information content, this Court engaged in an indepth discussion of development versus creation given (f)(3)
defines “information content provider” as someone who is “responsible, in whole or in part, for the creation or development of
information provided through the Internet or any other interactive
computer service”); cf. the wayward Dismissal Order that failed
to apply the (f)(3) “creation” versus “development” distinction
elaborated on by this Court in Fair Housing. Put differently,
and as discussed in greater detail below, the District Court did
not understand that Facebook’s conduct (at the very least with
respect to Facebook’s post-October 2016 actions, which such
actions are the heart of this lawsuit) put it into the “development” realm of (f)(3) (i.e., made it an “information content provider” under (f)(3)) not subject to any (c) immunity.
4 The CDA, as a whole, was 1990’s legislation enacted to make the
Internet safer, not legislation enacted to “sovereignly” immunize
social media giants from running roughshod over the rest of the
Internet community through any number of otherwise illegal
and/or discriminatory activities.

App.41a
immunizes Facebook from its own active5 hand in (a)
its unlawfully destroying/devaluing the subject businesses/pages while in Fyk’s name just because the
businesses/pages were then owned and operated by
Fyk;6, 7 (b) its unlawfully orchestrating the distribution of the subject businesses/pages to Fyk’s former
competitor and revaluing the businesses/pages the
moment they were owned and operated by someone else
who not-so-coincidentally paid Facebook significantly
more money than Fyk in relation to Facebook’s purportedly “optional” paid-for-reach program;8 and (c)
its discriminatorily allowing this new owner to
operate the businesses/pages with the exact same
5 Fair Hous., 521 F.3d at 1162 (“A website operator can be both a
service provider and a content provider: If it passively displays
content that is created entirely by third parties, then it is only a
service provider with respect to that content. But as to content
that it . . . is ‘responsible, in whole or in part’ for . . . developing,
the website is also a content provider,” emphasis added).
6 Which such destruction/devaluation was effectuated unlawfully, see, e.g., ER 24-28 at ¶¶ 49-57 (First Claim for Relief—
Intentional Interference with Prospective Economic Advantage/
Relations”) and ER 32-33 at ¶¶ 72-78 (Fourth Claim for Relief—
Fraud/Intentional Misrepresentation), and effectuated discriminatorily, see ER 23-24 at ¶¶ 45-47.
7 Facebook’s discrimination against Fyk is no different than
“Sorry, sir, but I can’t show you any listings on this block because
you are gay/female/black/a parent.” Fair Hous. at 1167. Here,
Facebook’s saying “Sorry, Fyk, these businesses/pages cannot be
on Facebook’s block because you are Fyk.”
8 Which such redistribution/revaluation was effectuated unlawfully, see, e.g., ER 28-30 at ¶¶ 58-66 (Second Claim for Relief—
Violation of California Business & Professions Code Sections
17200—17210 (Unfair Competition)); ER 30-31 at ¶¶ 67-71
(Third Claim for Relief—Civil Extortion), and effectuated
discriminatorily, see ER 23-24 at ¶¶ 45-47.

App.42a
content Facebook had previously declared problematic
(i.e., violative of the CDA/Community Standards) when
owned and operated by Fyk.
(2) Whether the District Court erred in deviating
from the applicable legal standard at the dismissal
stage when it plainly injected Facebook’s version of
facts (i.e., propaganda such as the factually false and
out-of-context nonsense about one of Fyk’s supposed
pages supposedly being dedicated to featuring public
urination) into its ruling.
(3) Whether (c)(1) immunity applies in a “firstparty” (rather than a “third-party”) setting and whether
it has been proper for some district courts (e.g., Sikhs
and Lancaster) to apply (c)(1) immunity to the (c)(2)(A)
immunity paradigm. As discussed in Fyk’s Response
in Opposition to Motion to Dismiss and as many
cases cited in Facebook’s Motion to Dismiss have
directly or indirectly recognized, unless (c)(2)(A) is
mere surplusage to (c)(1) (in contravention of ordinary
canons of statutory construction), the Legislature
had to have intended (c)(1) immunity for “third-party”
scenarios (e.g., defamation or false information cases),
rather than “first-party” scenarios (e.g., “good faith”
content “regulation”/“policing” cases under (c)(2)(A)).
See ER 43-46.
STATEMENT OF THE CASE/RELEVANT FACTS
In adopting the carte blanche, sovereign-like
(c)(1) immunity defense advanced by Facebook, the
District Court allowed Facebook to destroy Fyk’s
businesses/pages by employing an inapposite analytical
framework and relying on distinguishable case law.
As to “inapposite analytical framework,” CDA immunity
is inapplicable in this case, as this case is not about

App.43a
(de-)creation of Fyk’s content. Rather, this case falls
under the development prong of (f)(3)—no CDA
immunity (whether that is (c)(1) or (c)(2)(A) immunity)
is available to Facebook because it was “responsible,
in whole or in part, for the . . . development of information provided through the Internet.” 47 U.S.C.
§ 230(f)(3) (emphasis added). More specifically,
Facebook was responsible for the development, in
whole or in part, of the relevant Fyk businesses/pages
(i.e., “information provided through the Internet”),
for his competitor, thereby turning Facebook into an
“information content provider” that is not entitled to
any CDA immunity.
As to “distinguishable case law,” this is a case
involving a “first-party” claim. As such, case law
involving “third-party” (c)(1) immunity does not apply.
If, by contrast, this was a case eligible for any CDA
immunity, which it is not, at best Facebook would be
eligible for (c)(2)(A) immunity, not (c)(1) immunity. If
that was not so, (c)(2)(A) would be rendered superfluous
to (c)(1). The District Court erred in relying on case
law that wrongly applied (c)(1) immunity to a (c)(2)(A)
immunity paradigm (like the Sikhs district decision,
the crux of the Dismissal Order). This is a case
governed by Fair Housing,9 not a case governed by
Sikhs.
To be clear, this lawsuit is about the business
strategy employed by Facebook to develop information
for select, “high-quality” valued individuals/entities
(i.e., individuals/entities who pay Facebook more),
while fraudulently exploiting the protections of CDA
9 See footnote 5, supra (assessing passive content display versus
active content development, with our case being the latter).

App.44a
immunity in order to tortiously interfere with other
businesses targeted for eradication by eliminating those
businesses’ ability to make money by “disrupt[ing]
the[ir] incentives.” As a result, Facebook creates a
lawless marketplace immersed in unfair competition,10
and, according to the District Court, is immune from
any liability for such acts. As applied specifically to
Fyk, this lawsuit is about the several unlawful (i.e.,
fraudulent, extortionate, unfairly competitive) methods
selectively and discriminatorily employed by Facebook
to “develop” Fyk’s “information content” for an entity
Facebook values more (Fyk’s competitor, who paid
Facebook more), in interference with Fyk’s economic
advantage to augment Facebook’s corporate revenue.
In conjunction with wrongly affording Facebook
(c)(1) immunity in a “development” case where no
CDA immunity whatsoever is available, the District
Court also erred in myriad other ways, including: (1)
embracing a Facebook “fact” that was not true (e.g.,
the inaccurate assertion that Fyk supposedly maintained a page dedicated to featuring public urination),
in violation of well-settled law concerning a trial
court’s having to accept as true the facts pleaded in
the four corners of the Complaint and construe same
in a light most favorable to the plaintiff; (2) applying
(c)(1) immunity in a manner that contravenes canons
10 Facebook does not hide its “development” business strategy.
See, e.g., https://newsroom.fb.com/news/2019/04/people-publishersthe-community/ (“so we’re working to set incentives that encourage
the creation of these types of content,” which goes purely to the
“development” of content, nothing else such as the “policing” of
bad content). What Facebook does try to hide (via manipulation
of the CDA, as here) is the unlawful conduct it employs (as
here) in carrying out its business strategy.

App.45a
of statutory construction (e.g., rendering the next
section, (c)(2)(a), superfluous); and (3) ignoring applicable equitable tenets. Whether viewed legally, factually, or equitably, Fyk did not deserve to have his
well-pleaded Complaint dismissed. We turn now to
relevant facts.
By way of background, Fyk filed suit against
Facebook for damages in excess of $100,000,000.00.
See, e.g., ER 8 at ¶ 2. For years, Fyk created and
posted humorous content on Facebook’s free social
media platform. Id. at ¶ 2. Fyk’s creative content was
extremely popular and, ultimately, he had more than
25,000,000 followers at his peak on Facebook pages
(ranked fifth in Facebook viewership presence in the
entire world) ahead of competitors like BuzzFeed,
College Humor, and Upworthy, and other large media
companies like CNN. Id. at ¶ 1. As a result of this
presence and reach, the Fyk businesses/pages housing
his humorous content generated hundreds of thousands
of dollars a month in advertising and lead generating
activities, all of which derived from Fyk’s valuable
high-volume fanbase. Id. at ¶ 2.
From 2010 to 2016, Facebook implemented a purportedly “optional” pay-to-play “reach” program, and,
in doing so, became the competitor of content providers like Fyk. ER 11-13 at ¶¶ 17-19. In an effort to
justify removing “problematic” competition like Fyk,
Facebook created deliberately ambiguous Community
Standards with the intent to selectively enforce these
“rules” in order to force out any businesses (like
Fyk’s) who Facebook no longer valued. ER 13 at ¶ 20.
Facebook’s anti-competitive tactics resulted in
the deactivation or crippling restriction of Fyk’s businesses/pages in October 2016. ER 13-22 at ¶¶ 20-41.

App.46a
Facebook’s deactivation or crippling restriction of
Fyk’s businesses/pages rendered same valueless, forcing
Fyk into fire selling same to a competitor in Los
Angeles who was in bed with Facebook. ER 22 at
¶¶ 42-43.
In the months following October 2016, at the
request of Fyk’s competitor to Facebook, the businesses/pages were reactivated (i.e., “developed”) by
Facebook for the competitor simply because the businesses/pages were no longer owned by Fyk. ER 22-24
at ¶¶ 42-47. Again, the content of these businesses/
pages was identical to that which Facebook had
deemed (in conjunction with its supposed content
“regulation”/“policing” in October 2016 or prior) violative
of its Community Standards and/or the CDA when
owned by Fyk. ER 23 at ¶ 45. And, upon information
and belief, Facebook orchestrated the redistribution/
steering of Fyk’s businesses/pages to the competitor
because the competitor paid Facebook significantly
more “optional” pay-to-play “reach” program money
than did Fyk. ER 22-24 at ¶¶ 42-47.
If Facebook’s pre-suit justification for destroying/
devaluing Fyk’s livelihood can be said to revolve
around anything CDA-related, it most clearly would
have to be said to have revolved around (c)(2)(A).
See, e.g., ER 20-21, 29 at ¶¶ 38, 64. The pre-suit
content-related “justification” (i.e., (c)(2)(A)-related
“justification”) slung about by Facebook in relation to
the deactivation or severe restriction of Fyk’s livelihood
culminating in October 2016 was lies/fraud/bad faith,
as evidenced by Facebook’s active hand in developing
the businesses/pages for Fyk’s competitor and allowing
the exact same supposedly offensive Fyk content to
be published on the Internet or the Facebook inter-

App.47a
active computer service by or for the competitor. See,
e.g., ER 22-24, 29 at ¶¶ 42-47, 64.
SUMMARY OF THE ARGUMENT
As discussed in Section A below, the District
Court erred by deviating from the required legal
standard in entering the Dismissal Order. More specifically, as discussed in Section A below, the District
Court’s embracing an out-of-line, out-of-context, and
untrue “fact” injected by Facebook outside the four
corners of the Complaint (in a light most favorable to
Facebook, rather than Fyk) directly contravened the
dismissal standard of review set forth below. Compounding this problem is the fact that the District
Court inserted Facebook’s “fact” into the very start of
the Dismissal Order, strongly suggesting that the
“fact” was a predicate for the ruling . . . not to mention,
suggesting bias in favor of Facebook.
As discussed in Section B below, if this Court’s
analysis somehow proceeds past Section A, this case
(with a fact pattern in line with Fair Housing, for
example, when juxtaposed with the backdrop of all
the CDA case law out there) is not eligible for any
CDA immunity (whether that is (c)(1) or (c)(2)(A)
immunity) because of the Fair Housing understanding
that active “development” renders the “interactive
computer service” an “information content provider.”
As discussed in Section C below, if this Court’s
analysis somehow proceeds past Sections A and B,
(c)(1) in no way immunizes Facebook from its
destructive acts here for more than one reason.
Immunity under (c)(1) is only available to Facebook
(an “interactive computer service”) where (as not
here) it is being pursued by someone else for Fyk’s

App.48a
publications or speeches (i.e., content/”information
provided”) or by Fyk for someone else’s publications
or speeches ( i.e., content/“information provided”).
Simply put, (c)(1) applies to a “third-party” setting
and (c)(2)(A) applies to a “first-party” setting. This is
evidenced by the proper application of (c)(1) immunity
in defamation and/or false information cases (which,
historically, are the bulk of (c)(1) cases) where, for
example, John sues Facebook over something libelous
that Susan posted about John on Facebook.
If this was not the case, (c)(1) would swallow
(c)(2)(A) in contravention of the ordinary surplusage/
superfluidity canon of statutory construction. This
canon-repugnant conflation of (c)(1) and (c)(2)(A) was
at the heart of wrong results at the district level in
Sikhs and Lancaster, for examples. While content
“regulation”/“policing” (which is what Sikhs and
Lancaster were about as pleaded by the plaintiffs in
those cases, not as recast by the defendants in those
cases) can enjoy immunity under some circumstances, that would be the (c)(2)(A) circumstance and only
if there is “good faith” behind the de-creation of
content. That would not be a (c)(1) circumstance. The
Sikhs and Lancaster courts (and, by extension, the
District Court here) should have never applied (c)(1)
to a (c)(2)(A) fact-pattern and perhaps, as other
courts in this jurisdiction have properly done, should
have denied a (c)(2)(A) immunity defense as premature
at the dismissal stage because discovery was needed
regarding the justification (or lack thereof) for the
content removal such that the “good faith” component
of (c)(2)(A) could be analyzed in an informed fashion.
As discussed in Section D below, if this Court’s
analysis somehow proceeds past Sections A-C, Facebook

App.49a
must be estopped from wielding (or deemed to have
waived any right it may have had to wield) (c)(1)
immunity against Fyk.
For any of the reasons discussed in Sections A-D
of this brief (whether considered separately or together),
the Dismissal Order is due to be reversed and this
matter is due to be remanded to the District Court
for resolution on the merits; i.e., resolution of the
illegalities and discrimination giving rise to Fyk’s
claims for relief.
ARGUMENT
This Court’s review of a district court’s failure to
state a claim dismissal with prejudice is de novo.
See, e.g., Disability Rights Montana, Inc. v. Batista,
No. 15-35770, 2019 WL 3242038, *4 (9th Cir. Jul. 19,
2019); Applied Underwriters, Inc. v. Lichtenegger,
913 F.3d 884, 890 (9th Cir. 2019). And dismissal
without leave to amend is improper unless it is clear,
upon de novo review, that the complaint could not be
saved by any amendment. See, e.g., Missouri ex rel.
Koster v. Harris, 847 F.3d 646, 655-656 (9th Cir. 2017).
A.

The District Court Wrongly Deviated from the
Dismissal Standard

In ruling on a Federal Rule of Civil Procedure
12(b)(6) motion to dismiss for failure to state a claim,
which necessarily involves an immunized claim because
such a claim would “lack[ ] a cognizable legal theory
or sufficient facts to support a cognizable legal theory,”
Mendiondo v. Centinela Hosp. Med. Ctr., 521 F.3d
1097, 1104 (9th Cir. 2008), on its face, see, e.g., Sato
v. Orange Cty. Dep. of Ed., 861 F.3d 923, 927 (9th
Cir. 2017), a district court must observe this standard:

App.50a
The standard for surviving a motion to
dismiss under Federal Rule of Civil Procedure
12(b)(6) after the Supreme Court’s decisions
in Twombly and Iqbal is that the plaintiff
must provide ‘a short and plain statement
of the claim showing the pleader is entitled
to relief’ which ‘contains sufficient factual
matter, accepted as true, to state a claim to
relief that is plausible on its face.’ Sheppard
v. David Evans & Assoc., 694 F.3d 1045,
1048 (9th Cir. 2012) (citing Twombly, 550 U.S.
at 555, 127 S. Ct. 1955, and Iqbal, 556 U.S.
at 678, 129 S. Ct. 1937). To meet this burden,
‘the nonconclusory factual content’ of [plaintiff’s] complaint and ‘reasonable inferences
from that content,’ must be at least ‘plausibly
suggestive of a claim entitling the plaintiff
to relief.’ Moss v. U.S. Secret Serv., 572 F.3d
962, 969 (9th Cir. 2009) (citing Twombly,
550 U.S. at 557, 127 S. Ct. 1955). We must
‘take all allegations of material fact as true
and construe them in the light most favorable
to the nonmoving party.’ Steinle v. City and
Cty. of S.F., 919 F.3d 1154, 1160 (9th Cir.
2019) (quoting Parks Sch. of Bus., Inc. v.
Symington, 51 F.3d 1480, 1484 (9th Cir. 1995)).

Batista, 2019 WL 3242038 at *4.
In sum, a very high bar must be cleared by a
defendant to achieve dismissal; i.e., deprive a plaintiff
of his day in court. Dismissal is the ultimate sanction
in the adversarial system and should be reserved for
those aggravating circumstances in which a different
course would not achieve a just result. Facebook’s
dismissal briefing did not clear the very high bar

App.51a
and, thus, the District Court should not have sanctioned
Fyk via dismissal of his well-pleaded Complaint.
The Dismissal Order begins as follows:
Now before the Court is Defendant Facebook,
Inc. (‘Facebook’)’s motion to dismiss. Plaintiff,
Jason Fyk, filed suit under diversity jurisdiction, for intentional interference with
prospective economic advantage, violation of
California Business and Professions Code
section 17200 et seq., civil extortion, and
fraud for Facebook’s devaluation of Plaintiff’s
online pages. Plaintiff had used Facebook’s
free online platform to create a series of,
among other amusing things, pages dedicated
to videos and pictures of people urinating.
ER 1 (emphasis added).
The factually inaccurate and out-of-context redherring about a page supposedly “dedicated” to “people
urinating” came from Facebook’s Motion to Dismiss.
See ER 86. As if this statement (which has no place
in the Motion to Dismiss) was not enough, the reference
was to a particular Facebook page, www.facebook.com/
takeapissfunny, that was not even about public
urination.11 Rather, upon information and belief, that
11 “Upon information and belief” because, as would have been
explained to the District Court had the District Court not
deprived Fyk of his literal day in court (i.e., the June 2019
hearing), Fyk does not know much about the www.facebook.com/
takeapissfunny business/page because such was not Fyk’s business/page. More specifically, as would have been explained to
the District Court (in a fleshing out of footnote 1 of the
Response in Opposition to Motion to Dismiss, ER 40 at n. 1,
though such explanation should not have been required because
the District Court should have been construing the subject

App.52a
business/page simply had that domain name because
of the common expression “I laughed so hard that I
almost peed my pants.” Fyk’s Response in Opposition
to Motion to Dismiss gave Facebook’s urination
“factual” red-herring short-shrift, see ER 40 at n. 1,
because Fyk reasonably believed the District Court
would adhere to the above dismissal standard of
review by not injecting a “fact” (especially a Facebook
“fact”) into the dismissal analysis and/or by not
construing the facts alleged in the Complaint in a
light most favorable to Facebook (rather than Fyk).
It is reversible error for a district court to not
follow the applicable standard of review, especially
where (as here) the “factual” deviation converted the
motion to dismiss into a motion for summary judgment
and the “factual” deviation influenced the result. See,
e.g., Alaska NW Pub. Co. v. A.T. Pub. Co., 458 F.2d
387 (9th Cir. 1972) (treating a motion to dismiss as a
motion for summary judgment where, as here, matters
outside the pleading were presented to and not
excluded by the court, and holding that the granting
of summary judgment was not proper where, as here,
there was a genuine issue on the material fact);
Jackson v. S. Cal. Gas Co., 881 F.2d 638, 642 n. 4
(9th Cir. 1989); Fed. R. Civ. P. 12(d).
matter of footnote 1 in a light most favorable to Fyk in never
interspersing the public urination “fact” into the dismissal analysis), Fyk inadvertently included this business/page in paragraph 22 of the Complaint. See ER 14-15 at ¶ 22. “Inadvertently”
because this was not a business/page that Fyk owned, it was a
business/page of somebody else bearing the first name “Jason.”
To be clear, Fyk did not own a business/page dedicated to public
urination . . . and, actually, to the contrary, Fyk has reported
public urination pages to Facebook as filthy and Facebook did
not take action.

App.53a
Here, the District Court deviated from the standard of review set forth above by injecting Facebook’s
“facts” (the off-base bit about a page supposedly
being dedicated to featuring public urination) into
the dismissal analysis and/or not construing the facts
pleaded by Fyk in a light most favorable to him.
Here, the District Court’s reliance on “facts” injected
by Facebook converted Facebook’s Rule 12(b)(6) or
12(c) Motion to Dismiss into a Rule 56 motion for
summary judgment. Here, the District Court erred in
granting Facebook summary judgment because there
is genuine dispute as to the public urination “fact”
that the District Court deemed material enough to
prominently feature in the Dismissal Order. The
Dismissal Order is due to be reversed; but, in an
abundance of caution, we continue.
B.

The District Court Erred in Failing to Recognize
That Facebook Was a “Developer”/“Active Hand”
(i.e., “Information Content Provider”) in Relation
to the Wrongs That Fyk Complains of, Removing
Facebook from the Comforts of Any CDA
Immunity

There is what this case is about (as pleaded by
Fyk), and there is what this case is not about (as
recast by Facebook and its supporter, the District
Court). Part and parcel with that, there is apposite
case law (relied on by Fyk) and there is inapposite
case law (relied on by Facebook and the District
Court) . . . we begin with the former and turn to the
later.

App.54a
1. Fyk’s Circuit (e.g., Fair Housing, Batzel) and
District (e.g., Perkins, Fraley) Authority Is
Apposite
In Fair Housing Council of San Fernando Valley
v. Roommates.com, LLC, 521 F.3d 1157 (9th Cir.
2008) (not-so-surprisingly not cited in Facebook’s
Motion to Dismiss, see ER 86-103, and only glancingly
mentioned in Facebook’s Reply in Support of Facebook’s
Motion to Dismiss, see ER 112, 114), this Court
determined that the “interactive computer service” at
play there (Roommates.com) went too far for it to
enjoy any CDA immunity; i.e., engaged in the “development of information provided through the Internet
or any other interactive computer service,” rendering
it an “information content provider” per (f)(3) outside
the reach of CDA immunity. And that is precisely
what Fyk alleges in relation to the heart of his
case—that Facebook went too far in its post-October
2016 actions relating to Fyk’s competitor; i.e., became
the “information content provider” with respect to
Fyk’s businesses/pages at least in relation to its postOctober 2016 “development”/active treatment of Fyk’s
businesses/pages, putting this case outside of any
CDA immunity.
Indeed, Fyk’s Response in Opposition to Motion
to Dismiss cited Fair Housing for that very proposition.
For example, Fyk’s Response in Opposition to Motion
to Dismiss stated as follows: “Then there is Fair
Housing Council, 521 F.3d 1157 as another example,
where Section 230 of the CDA was found inapplicable
because Roommates.com’s own acts . . . were entirely
Roommates.com’s doing.” ER 45. As another example,
Fyk’s Response in Opposition to Motion to Dismiss
stated as follows:

App.55a
Subsection (c)(1) immunity is only afforded
to an ‘interactive computer service’ under
some situations, not to the ‘publisher’ (i.e.,
‘information content provider’). But Facebook’s
conduct . . . took it outside the shoes of an
‘interactive computer service’ and inside the
shoes of ‘information content provider,’ in
whole or in part; thus, Facebook is not Subsection (c)(1) immune. See, e.g., Fair Hous.
Council, 521 F.3d at 1165 (‘the party responsible for putting information online may
be subject to liability, even if the information originated with a user,’ citing Batzel v.
Smith, 333 F.3d 1018, 1033 (9th Cir. 2003));
Fraley, 830 F. Supp. 2d 785 (denying the
CDA motion to dismiss, as Facebook’s being
both an ‘interactive computer service’ and an
‘information content provider’ went beyond a
publisher’s traditional editorial functions
when it allegedly took members’ information without their consent and used same to
create
new
content
published
as
endorsements of third-party products or
services); Perkins v. LinkedIn Corp., 53 F.
Supp. 3d 1222, 1247 (N.D. Cal. 2014)
(denying the CDA motion to dismiss wherein
LinkedIn sought immunity as an interactive
computer service, with the court endorsing,
at least at the dismissal stage, plaintiffs’
claim that LinkedIn provided no means by
which a user could edit or otherwise select
the language included in reminder emails
and that true authorship of the reminder
emails laid with LinkedIn); Jurin, 695 F.
Supp. 2d at 1122 (holding, in part, that

App.56a
‘[u]nder the CDA an interactive computer
service qualifies for immunity so long as it
does not also function as an ‘information
content provider’ for the portion of the statement or publication at issue,’ citing Carafano,
339 F.3d at 1123). Facebook’s attempt to
distance itself from the ‘information content
provider’ role in have its cake and eat it too
fashion translates to: ‘Accuse your enemy of
what you are doing. As you are doing it to
create confusion.’—Karl Marx. The M2D
must be denied as a matter of law.
ER 48-49.
Notably, Facebook’s Motion to Dismiss does not
analyze Fair Housing, Batzel, Fraley, and Perkins,
nor does the Reply in Support of Facebook’s Motion
to Dismiss other than glancing reference to Fair
Housing. The Dismissal Order briefly cites to Perkins
and Fraley, but not in relation to the germane
holdings. Perhaps most importantly, the Dismissal
Order’s brief citations to Fair Housing clearly
demonstrate that the District Court did not thoroughly
analyze (or did not comprehend) this apposite Ninth
Circuit decision. See ER 2 (citing Fair Housing for
none of the holdings germane to this case) and ER 34 (citing Fair Housing in relation to the limited use
of same in a case wholly inapplicable to this case—
Sikhs for Justice v. Facebook, Inc., 144 F. Supp. 3d
1088 (N.D. Cal. 2015)).
The District Court’s citation of Perkins speaks to
“content created.” See ER 2. The District Court’s
citation of Fraley speaks to Facebook’s being “an
interactive computer service.” See ER 3. And the District Court’s citation of Fair Housing only goes to the

App.57a

Sikhs district court’s limited use of Fair Housing in
relation to the Sikhs “content created” discussion.
See ER 3.
This is not a (f)(3) “creation” case like Sikhs and
other cases cited in Facebook’s dismissal briefing and
in the Dismissal Order. What the District Court completely missed was this Court’s lengthy discussion in
Fair Housing as to the difference between content
creation and content development under (f)(3) and
how an “interactive computer service” can also be an
“information content provider” when it engages in
development. The Sikhs district level decision dealt
with content created by someone not named Facebook.
Again, our case is not a (f)(3) “creation” case, our case
is a (f)(3) “development” case. Again, what Facebook
did after October 2016 is the thrust of our case, and
what Facebook did after October 2016 has everything
to do with its own active development of the subject
businesses/pages (i.e., nothing to do with its “regulation”/“policing” of content created by Fyk in or before
October 2016).12 Again, any naïve notion that
Facebook was genuinely “regulating”/“policing” Fyk’s
content necessarily ended in October 2016 when it
took away 14,000,000 of Fyk’s fans and then proceeded
with developing them for Fyk’s competitor. So, we
return to discussion of cases that actually pertain to
this case, chief among which is Fair Housing.

12 And, again, even Facebook’s pre-October 2016 content “regulation”/“policing” enjoys no immunity when assessed under the
appropriate CDA lens—(c)(2)(A). Because, again, such “regulation”/“policing” was not grounded in “good faith” as evidenced
by (among other things) Facebook’s restoring identical content
for Fyk’s competitor.

App.58a
In Fair Housing, the Ninth Circuit properly
determined that Roommates.com lost any CDA
immunity when (just as Facebook did here) it engaged
in the “development of information provided through
the Internet or any interactive computer service” per
(f)(3). Fair Housing holdings germane to this case
(and not cited by Facebook and overlooked by the
District Court) are as follows:
•

“This grant of immunity applies only if the
interactive computer service provider is not
also an ‘information content provider,’ which
is defined as someone who is ‘responsible, in
whole or in part, for the creation or development
of’ the offending content. Id. § 230(f)(3).” Fair
Hous., 521 F.3d at 1162.
o Here, Facebook is no doubt an “interactive
computer service.” Fyk concedes that and
the District Court properly observed as
much. But, here, there is also no doubt that
Facebook is an “information content provider” under (f)(3)’s “development” prong.
The District Court missed that in its misplaced focus on “creation” (via cases like
Sikhs) that is inapplicable here rather than
on “development” (via cases like Fair Housing,
Perkins, and Fraley) that is applicable
here.

•

“A website operator can be both a service provider and a content provider: If it passively
displays content that is created entirely by
third parties, then it is only a service provider
with respect to that content. But as to content
that it . . . is ‘responsible, in whole or in part’

App.59a
for . . . developing, the website is also a content
provider.” Id. at 1162 (emphasis added).
o Here, Facebook was “responsible, in whole
or in part, for developing” Fyk’s businesses/pages by way of (at the very least)
its orchestration (or facilitation, at minimum) of the redistribution of Fyk’s businesses/pages and its revaluation of same for
Fyk’s competitor (along with its actively
allowing the competitor to publish the
same content that was supposedly CDA/
Community Standard violative when owned
by Fyk).
•

“For example, a real estate broker may not
inquire as to the race of a prospective buyer,
and an employer may not inquire as to the
religion of a prospective employee. If such
questions are unlawful when posed face-toface or by telephone, they don’t magically
become lawful when asked electronically online.
The Communications Decency Act was not
meant to create a lawless no-man’s-land on
the Internet.” Id. at 1164.
o Here, Facebook’s tortious interference, unfair
competition, civil extortion, and fraud did
not “magically become lawful” because such
wrongdoing was carried out “electronically
online.” Facebook could not destroy/devalue Fyk’s businesses/pages, orchestrate
(or facilitate, at minimum) the redistribution of his businesses/pages to a Fyk
competitor who paid Facebook significantly more money than did Fyk, and allow the

App.60a
supposedly (c)(2)(A) violative content of Fyk’s
businesses/pages to go back up on the Internet (and/or the Facebook interactive computer service) when such businesses/pages
became those of Fyk’s competitor.
•

“Roommate’s own acts . . . are entirely its doing
and thus section 230 of the CDA does not
apply to them. Roommate is entitled to no
immunity.” Id. at 1165.
o Facebook’s post-October 2016 acts as it
relates to Fyk’s businesses/pages (because,
again, by then Facebook’s purported “regulation”/“policing” of the supposedly violative content housed therein had ended)
were “entirely [Facebook’s] doing.” Facebook worked directly with Fyk’s competitor
to develop his content for the competitor
(i.e., engaged in activity well beyond “regulation”/“policing” of content). “[Facebook] is
entitled to no immunity.”

•

“But, the fact that users are information content
providers does not preclude Roommate from
also being an information content provider by
helping ‘develop’ at least ‘in part’ the information
in the profiles. As we explained in Batzel, the
party responsible for putting information online
may be subject to liability, even if the information originated with a user. See Batzel v.
Smith, 333 F.3d 1018, 1033 (9th Cir. 2003).”
Id. at 1165 (emphasis in original).
o The fact that Fyk (the user) was also an
information content provider “does not
preclude [Facebook] from also being an

App.61a
information content provider by helping
‘develop’ at least ‘in part’ the information
[in Fyk’s businesses/pages].”
•

“By requiring the subscribers to provide the
information as a condition of accessing its
service, and by providing a limited set of prepopulated answers, Roommate becomes much
more than a passive transmitter of information
provided by others; it becomes the developer,
at least in part, of that information. And
section 230 provides immunity only if the
interactive computer service does not ‘creat[e]
or develop[ ]” the information ‘in whole or in
part.’ See 47 U.S.C. § 230(f)(3).” Id. at 1166.
o By Facebook’s interfering with Fyk’s businesses/pages in unlawful fashion, Facebook
“bec[ame] much more than a passive
transmitter of information provided by
others; it be[came] the developer, at least
in part, of th[e] information [that was Fyk’s
businesses/pages].”

•

“This is no different from a real estate broker
in real life saying, ‘Tell me whether you’re
Jewish or you can find yourself another broker.’
When a business enterprise extracts such
information from potential customers as a
condition of accepting them as clients, it is no
stretch to say that the enterprise is responsible,
at least in part, for developing that information.”
Id. at 1166.
o Facebook’s treatment of Fyk in relation to
his businesses/pages was no different than
telling Fyk, “Tell me whether you are Fyk

App.62a
and, if you are, your businesses/pages will
need to find a new owner in order to have
Facebook as the interactive computer
service broker of same.”
•

“We believe that both the immunity for passive
conduits and the exception for co-developers
must be given their proper scope and, to that
end, we interpret the term ‘development’ as
referring not merely to augmenting the content
generally, but to materially contributing to
it[ ] . . . .” Id. at 1167-1168.
o Facebook was by no means a “passive
conduit” as it pertained to Fyk’s businesses/pages; rather, Facebook “materially
contribut[ed]” to the “development” of the
businesses/pages in devaluing same, having
an active hand in redistributing same, and
having an active hand in allowing the
supposedly (c)(2)(A) violative content supposedly found therein to be published on
the Internet and/or on Facebook once same
found a new home in Fyk’s competitor.

•

“[S]ection 230(c) uses both ‘create’ and ‘develop’
as separate bases for loss of immunity. . . . We
are advised by the Supreme Court that we
must give meaning to all statutory terms,
avoiding redundancy or duplication wherever
possible. See Park ‘N Fly, Inc. v. Dollar Park
& Fly, Inc., 469 U.S. 189, 197, 105 S. Ct. 658,
83 L.Ed.2d 582 (1985).” Id. at 1168.
o In this lawsuit, based on what this lawsuit
is actually about, it matters not who created
the content within Fyk’s businesses/pages.

App.63a
Here, what matters is Facebook’s development, in whole or in part, of Fyk’s businesses/pages, with such “development”
unfolding in myriad illegal and discriminatory ways. The Supreme Court counsels
this Court to again (as in Fair Housing)
recognize the distinction of “developer”
versus “creator” within (f)(3) and the
impact that that has on immunity (or,
rather, lack thereof) under (c). Fair Housing
properly recognizes that “creation” or “development” under (f)(3) serve as independent
bases (per the word “or”) for cutting off (c)
immunity.
•

“A dating website . . . retains its CDA immunity
insofar as it does not contribute to any alleged
illegality.” Id. at 1169.
o The Facebook illegalities that transpired in
relation to Fyk’s businesses/pages in relation to Fyk’s competitor (after October
2016) cut-off any (c) immunity Facebook
may have otherwise enjoyed.

•

“We must keep firmly in mind that this is an
immunity statute we are expounding, a
provision enacted to protect websites against
the evil of liability for failure to remove
offensive content.” Id. at 1174.
o The thrust of this lawsuit is not Facebook’s
removal of Fyk’s content, which, again,
transpired in or before October 2016 (though
such is certainly actionable because Facebook’s (c)(2)(A) “regulation” of Fyk’s content pre-October 2016 was fraudulent/bad

App.64a
faith); i.e., the thrust of this lawsuit is not
Facebook’s de-”creation” of Fyk’s content.
Rather, the thrust of this lawsuit is the
unlawful activities perpetrated by Facebook after October 2016 in relation to
Fyk’s businesses/pages in relation to Fyk’s
competitor; i.e., the thrust of this lawsuit
is Facebook’s illegal and discriminatory
“development” of Fyk’s businesses/pages
(for Fyk’s competitor) and such “development” rendering Facebook an “information
content provider” under (f)(3) subject to no
CDA immunity.
•

“Where it is very clear that the website
directly participates in developing the alleged
illegality . . . immunity will be lost.” Id. at
1175.
o It could not be clearer that Facebook had a
direct hand in illegally and discriminatorily interfering with Fyk after October
2016 in ways far outside the realm of
supposed “regulation”/ “policing” of content;
thus, “immunity [is] lost.”

•

“When Congress passed section 230 it didn’t
intend to prevent the enforcement of all laws
online; rather, it sought to encourage interactive
computer services that provide users neutral
tools to post content online to police that
content without fear that through their ‘good
[S]amaritan . . . screening of offensive material,’
47 U.S.C. § 230(c), they would become liable
for every single message posted by third par-

App.65a
ties on their website.” Id. at 1175 (emphasis in
original).
o Facebook’s post-October 2016 conduct
(which, again, is the conduct at the heart
of this case) had nothing to do with
“polic[ing] [Fyk’s] content,” as evidenced by
Facebook’s having an active hand in the
broadcasting/“developing” of the identical
content through the Internet and/or
through Facebook’s interactive computer
service once somebody not named Fyk (i.e.,
Fyk’s competitor) owned/operated same.
And Perkins, for example, which such decision
Facebook ignored, recognized what the District Court
should have recognized here. See, e.g., Perkins v.
LinkedIn Corp., 53 F. Supp. 3d 1222, 1246 (N.D. Cal.
2014) (in deciding LinkedIn did not enjoy CDA
immunity, the court held, in pertinent part, that
“[i]mportantly, section 230’s ‘grant of immunity applies
only if the interactive computer service provider is
not also an ‘information content provider,’ which is
defined as someone who is responsible, in whole or in
part, for the creation or development of the offending
content,’” citing to Fair Housing); see also, e.g., ER
49 (citing Perkins).
And Fraley, as another example, which such
decision Facebook ignored, recognized what the District
Court should have recognized here. See, e.g., Fraley
v. Facebook, 830 F. Supp. 2d 785, 801-802 (N.D.
Cal. 2011) (in deciding Facebook did not enjoy CDA
immunity, the court held, in pertinent part, that
“Defendant ignores the nature of Plaintiff’s allegations,
which accuse Defendant not of publishing tortious

App.66a
content, but rather of creating and developing
commercial content” and that an information content
provider is “not . . . entitled to CDA immunity,” citing
to Fair Housing and Batzel); see also ER 48 (citing
Fraley).
And, as Fair Housing pointed out, the Batzel
decision, as another example, recognized what the
District Court should have recognized here. See, Fair
Hous., 521 F.3d at 1165 (“As we explained in Batzel,
the party responsible for putting information online
may be subject to liability, even if the information
originated with a user. See Batzel v. Smith, 333 F.3d
1018, 1033 (9th Cir. 2003)”).
Facebook and the District Court “ignore[d] the
nature of Plaintiff’s allegations, which accuse Defendant
not of [(de-)creating] tortious content, but rather
of . . . [tortiously] developing” Fyk’s businesses/pages
(and, necessarily, the supposed violative content
therein) for Fyk’s competitor. Just as in Fair Housing,
for example, here the “interactive computer service”
(Facebook) was also the “information content provider”
by way of its “development” of Fyk’s businesses/pages
and accordingly does not enjoy any CDA immunity.
2. Facebook’s and the District Court’s District
(e.g., Sikhs, Lancaster) Authority Is Inapposite
The Dismissal Order relies heavily (if not entirely)
on Sikhs for Justice, Inc. v. Facebook, Inc., 144 F.
Supp. 3d 1088 (N.D. Cal. 2015). And that is no
surprise because Facebook’s dismissal briefing relies
heavily on Sikhs (and Lancaster v. Alphabet, Inc.,
No. 15-cv-05299-HSG, 2016 WL 3648608 (N.D. Cal.
Jul. 8, 2016), which was/is pretty much the same
thing as Sikhs) and the District Court has already

App.67a
exhibited a bias in favor of Facebook (e.g., the District
Court’s incorporation of the non-fact that was the
red-herring public urination nonsense). Sikhs and
Lancaster (along with all the other content “(de-)
creation” cases) could not be more inapplicable here.
In Sikhs and Lancaster, the plaintiffs were
pursuing an interactive computer service (Facebook
and Alphabet, respectively) over the interactive
computer service’s “regulation”/“policing” of content.
Put differently as it pertains to this case, the plaintiffs
in Sikhs and Lancaster sought redress for activity
akin to what Facebook did to Fyk in October 2016 or
prior. In Sikhs and Lancaster, there was no post-October 2016 unlawful conduct, which, again, such postOctober 2016 unlawful conduct is the heart of this
case. Put differently, in Sikhs and Lancaster, it could
not be said that the interactive computer service was
also functioning as an “information content provider”
in the “development” of businesses/pages (and
necessarily the content housed therein). Facebook’s
post-October 2016 unlawful conduct (i.e., developing
the subject businesses/pages for Fyk’s competitor)
removes this case entirely from the CDA immunity
defense that victimized the plaintiffs in Sikhs and
Lancaster. And, then, as now discussed within the
confines of Sikhs (although such could also be said
for Lancaster), the Sikhs district court (and the District Court here, by extension) erred in applying
(c)(1) to a (c)(2)(A) fact-pattern.
C.

The District Court Erred by Applying (c)(1) in
This Matter

Case law and canons of statutory construction
make clear that, unless (c)(2)(A) is mere surplusage

App.68a
to (c)(1), (c)(1) affords immunity under some “thirdparty” circumstances (e.g., Party 1 is accusing the
“interactive computer service,” Party 2, of content
“policing”/“regulation” failures in relation to Party 3’s
content) whereas (c)(2)(A) affords immunity under
some “first-party” circumstances (e.g., Party 1 is
accusing the “interactive computer service,” Party 2,
of content “policing”/“regulation” failures in relation
to Party 1’s content).
1. Case Law
The great majority of cases cited in Facebook’s
Motion to Dismiss, for the application of (c)(1), are
“third-party” cases. In Nemet Chevrolet, Ltd. v.
Consumeraffairs.com, Inc., 591 F.3d 250 (4th Cir.
2009), for example, cited ER 93, Nemet Chevrolet,
Ltd. was suing Consumeraffairs.com over consumer
reviews that others had posted on the Consumeraffairs.com platform about Nemet Chevrolet, Ltd. Consistent with Fyk’s interpretation of (c)(1), the district
court in Nemet Chevrolet, Ltd. concluded (and the
Fourth Circuit affirmed) that “the allegations contained in the Amended Complaint [d]o not sufficiently
set forth a claim asserting that [Consumeraffairs.com]
[created] the content at issue.” Id. at 253. In affirming,
the Fourth Circuit held that “interactive computer
service providers [are not] legally responsible for information created and developed by third parties.” Id.
at 254 (emphasis added) (citing Fair Hous. Council v.
Roommates.com, LLC, 521 F.3d 1157, 1162 (9th Cir.
2008) (en banc)). Instructively, the Fourth Circuit also
held that “Congress thus established a general rule
that providers of interactive computer services are
liable only for speech [or development] that is properly
attributable to them.” Id. at 254 (citing Universal

App.69a

Commc’n Sys., Inc. v. Lycos, Inc., 478 F.3d 413, 419
(1st Cir. 2007)). Nemet Chevrolet, Ltd. further confirms
reality—that (c)(1) immunity pertains to “third-party”
liability (Party 1 pursuing the interactive computer
service, Party 2, over the interactive computer service’s
conduct relating to Party 3). Our case is a “first-party”
case (Party 1 pursuing the interactive computer
service, Party 2, over the interactive computer service’s
conduct relating to Party 1).
Same with Barnes v. Yahoo!, Inc., 570 F.3d 1096
(9th Cir. 2009), cited at ER 90, 94, 96. In Barnes, as
another example, the plaintiff sued over defendant’s
alleged failure to remove indecent posts of (or pertaining
to) her made by her ex-boyfriend on the Yahoo!, Inc.
platform. Barnes sought to remove Yahoo!, Inc. from
(c)(1) immunity based on her arguments that Yahoo!,
Inc. served as a “publisher” in relation to the subject
indecent posts. The Barnes court concluded, however,
that the “publisher” of the indecent posts was the
third-party ex-boyfriend, thereby finding that (c)(1)’s
“third-party” liability immunity applied to Yahoo!,
Inc. Our case is a “first-party” case involving Facebook’s
wrongful development of Fyk’s businesses/pages, not
a “third-party” case against Facebook over some
notion that someone else’s post about Fyk on Facebook
was indecent and Facebook should have (de-)created
the third-party post.
And there are courts out there that have
affirmatively recognized that (c)(1) immunity does
not fit the (c)(2)(A) paradigm. In e-ventures Worldwide,
LLC v. Google, Inc., 214CV646FTMPAMCM, 2017
WL 2210029, at *1 (M.D. Fla. Feb. 8, 2017), for
example, cited at ER 40, 45, the court, on summary
judgment and accepting as true e-ventures’ allegations

App.70a
that Google’s investigation and removal of e-ventures’
content was motivated not by a concern over web
spam but by Google’s concern that e-ventures was
cutting into Google’s revenues, found that (c)(1) did
not immunize Google’s actions. Under the facts of
that case, the e-ventures court found that (c)(1) did
not immunize Google’s actions and that, while (c)(2)(A)
may provide that immunity, that section only
immunizes actions taken in good faith. And because
the e-ventures court found there was sufficient
circumstantial evidence to raise a genuine issue of
fact as to Google’s good faith, the e-ventures court
denied summary judgment on that basis. More
importantly, the e-ventures court found that interpreting the CDA in a manner that provides general
immunity under (c)(1) to acts similar to those by
Facebook swallowed the more specific immunity in
(c)(2)(A), e-ventures at *3, which violates the surplusage canon of statutory construction as set forth
by the United States Supreme Court, as recognized
by this Court (e.g., Fair Housing) and as discussed
next.
2. Canon of Statutory Construction
It is “a cardinal principle of statutory construction”
that “a statute ought, upon the whole, to be so
construed that, if it can be prevented, no clause,
sentence, or word shall be superfluous, void, or
insignificant.” Duncan v. Walker, 533 U.S. 167, 174,
121 S. Ct. 2120, 150 L.Ed.2d 251 (2001) (internal
quotation marks omitted); see also, e.g., United States
v. Menasche, 348 U.S. 528, 538–539, 75 S. Ct. 513,
99 L.Ed. 615 (1955) (“It is our duty ‘to give effect, if
possible, to every clause and word of a statute,’”
(quoting Montclair v. Ramsdell, 107 U.S. 147, 152, 2

App.71a
S. Ct. 391, 27 L.Ed. 431 (1883)); TRW Inc. v. Andrews,
534 U.S. 19, 31, 122 S. Ct. 441, 449, 151 L. Ed. 2d
339 (2001).
And this Court recognized the applicable canon
in Fair Housing:
More fundamentally, the dissent does nothing
at all to grapple with the difficult statutory
problem posed by the fact that section
230(c) uses both ‘create’ and ‘develop’ as
separate bases for loss of immunity. Everything that the dissent includes within its
cramped definition of ‘development’ fits just
as easily within the definition of ‘creation’—
which renders the term ‘development’ superfluous. The dissent makes no attempt to
explain or offer examples as to how its
interpretation of the statute leaves room for
‘development’ as a separate basis for a
website to lose its immunity, yet we are
advised by the Supreme Court that we must
give meaning to all statutory terms, avoiding
redundancy or duplication wherever possible.

See Park ‘N Fly, Inc. v. Dollar Park & Fly,
Inc., 469 U.S. 189, 197, 105 S. Ct. 658, 83
L.Ed.2d 582 (1985).

Fair Hous., 521 F.3d at 1168.
Since (c)(2)(A) immunizes only an interactive
computer service’s actions “taken in good faith,” if
the interactive computer service’s motives for “regulating”/“policing” content are irrelevant and always
immunized by (c)(1) (as Facebook argues here), then

App.72a
(c)(2)(A) is unnecessary.13 Per all of the above Supreme
Court authority (and as also per this Court in at
least Fair Housing), one portion of a statute cannot
be read in a way that renders another portion of a
statute superfluous/surplusage.
At its core, if Facebook is to be treated merely as
an “interactive computer service” and the CDA is
interpreted to give Facebook blanket immunity for
any conduct, that interpretation eliminates the
requirement of showing “good faith” under (c)(2)(A).
For the purposes of this appeal, we need not analyze
whether Facebook acted in “good faith” (which it did
not) because the District Court did not enter into any
analysis related to “good faith” in its Dismissal Order
and did not find that Facebook would be entitled to
(c)(2)(A) immunity.
Here, although no CDA immunity is available
for this “developer” case per Fair Housing, Perkins,
Fraley, and to some extent Batzel, for examples, if
this Court somehow believes this is a “creation” case,
then the case has to be assessed under the most
appropriate CDA lens—which would plainly be the
“first-party” (c)(2)(A) lens (not the “third-party” (c)(1)
13 But motivation for crippling content does matter under
(c)(2)(A) per, for examples, e-ventures and Song Fi, Inc. v.
Google, Inc., 108 F. Supp. 3d 876 (N.D. Cal. 2015) (determining
that YouTube was not immune under (c)(2) from suit based on
California-law—tortious interference with business relations
claims by users in relation to operators’ decision to remove
users’ music video from publicly accessible section of website).
Hence, the “good faith” language of (c)(2)(A). And, hence,
Facebook’s fighting tooth and nail here to make (c)(1) (where
there is no “good faith”/motivation assessment) fit the (c)(2)(A)
paradigm because there was plainly zero “good faith” underlying
Facebook’s motivation for crippling Fyk.

App.73a
lens) because Fyk is not trying to hold Facebook
liable as a publisher or speaker of any information
provided by another information content provider.
The District Court accordingly erred in applying
(c)(1) immunity to a case that does not fall within its
scope. As to the “(c)(2)(A) lens” (again, if this Court
somehow believes this is a “creation” case and worthy
of any CDA immunity consideration), there has been
no discussion/analysis or a showing of “good faith”
and that the material removed was in fact “obscene,
lewd, lascivious, filthy, excessively violent, harassing,
or otherwise objectionable.” 47 U.S.C. § 230(c)(2)(A).
The District Court’s heavy reliance on the Sikhs district court decision is likewise erroneous since (c)(1)
there was likewise wrongly applied.
D.

Facebook Is Estopped from (Or Has Waived Any
Right to) Leverage (c)(1) Given Its Pre-Suit
“Justification” for Its Actions Was Entirely
(c)(2)(A)

Lest the language of (c)(2)(A) is mere surplusage
to the language of (c)(1), (c)(1) (c)(2)(A) cannot be the
same thing. Meaning, Facebook cannot pull off the
about-face from (c)(2)(A) (its pre-suit “justification”
for its transgressions) to (c)(1) (its post-suit “justification” for its transgressions)—it is one or the other
as a matter of law (discussed above) and as a matter
of equity (now discussed). Such maneuvering would
be equitably untenable under ordinary estoppel and/or
waiver tenets, which are sometimes discussed within
the “Mend the Hold” doctrine.
The United States Supreme Court counsels against
allowing the kind of “bait and switch” that is Facebook’s
seismic shift from (c)(2)(A) to (c)(1), albeit within the

App.74a
phrase of art that is “Mend the Hold,” which is
legalese for estoppel and, to some extent, waiver.14
See, e.g., Railway Co. v. McCarthy, 96 U.S. 258, 6
Otto 258, 24 L.Ed. 693 (1877). Same with circuit
courts. See, e.g., Harbor Ins. Co. v. Continental Bank
Corp., 922 F.2d 357, 363 (7th Cir. 1990) (a party’s
“hok[ing] up a phony defense . . . and then when that
defense fails (at some expense to the other party)
tr[ying] on another defense for size, can properly be
said to be acting in bad faith”); Tonopah & T.R. Co. v.
Commissioner of Internal Revenue, 112 F.2d 970,
972 (9th Cir. 1940); Connally v. Medlie, 58 F.2d 629
(2d Cir. 1932).
As Exhibit B to Fyk’s Response in Opposition to
Motion to Dismiss demonstrated, see ER 62-73,
Facebook’s professed “basis” to Fyk for destroying his
businesses/pages was that the content of same purportedly violated Facebook’s “Community Standards”
or “terms,” which sounds in (c)(2)(A) (contentoriented) if somehow deemed to sound in any
supposed CDA immunity (i.e., if this case is somehow
deemed the de-creation case that it is not rather than
the development case that it is). Fyk heavily relied,
to his detriment in time and money,15 on Facebook’s
professed “basis” for its businesses/pages crippling,
which, again, such “basis” was content-oriented or
intentionally nebulous so as to keep Fyk guessing as
14 Glaringly applicable forms of estoppel include “estoppel,” see
Bryan A. Garner, Black’s Law Dictionary 247 (2001 2d pocket
ed.) (defining same), “equitable estoppel,” see id. (defining
same), “quasi-estoppel,” see id. (defining same), and “estoppel by
silence,” see id. (defining same).
15 See ER 50 at n. 9 for examples of the reliance and detriment
experienced here.

App.75a
to why Facebook was destroying his livelihood. It
would be improper to allow Facebook to cripple Fyk’s
businesses/pages on one ground (purported violation
of “Community Standards”/“terms,” implicating (c)(2)
(A)) and try to avoid liability on different grounds
((c)(1)) when that ground is challenged (this suit).
CONCLUSION
None of the CDA was enacted to enable a social
media giant’s (here, Facebook) destroying a little
guy’s (here, Fyk) businesses, orchestrating (or facilitating, at the very least) the redistribution/”development” of the little guy’s businesses to and for a
bigger guy (here, Fyk’s Los Angeles competitor) who
paid Facebook far more money as part of its “optional”
paid-for-reach program, and revaluing same through
things such as allowed (and pre-arranged) re-publishing
(beyond “passive conduit”) of supposedly CDA/
Community Standards violative content . . . all so that
the social media giant can get richer because, among
other things, the bigger guy pays the giant more
“optional” money for “reach.” That kind of tortious
interference with prospective economic advantage/relations, intertwined with discriminatory (predatory,
even) fraud, unfair competition, and/or civil extortion
is found nowhere in the CDA’s legislative intent.
How could it be? Facebook would really have us live
in a world where 230(c) was enacted and applied to
legalize illegalities directed at, among other things,
knocking down the pillars (such as the American
Dream) that this country was built on?
Facebook’s orchestration (or facilitation, at minimum) of the redistribution of Fyk’s businesses/pages
and Facebook’s revaluation of same for Fyk’s com-

App.76a
petitor (along with Facebook’s actively allowing the
competitor to publish the same content that was
supposedly CDA/Community Standard violative
when owned/operated by Fyk) makes this case much
different than Sikhs, Lancaster, or any case in which
a court afforded CDA immunity under a (de-)creation
(rather than development) analysis. It makes this
case a Fair Housing case, for example.
Facebook took the proposition of acquiring reach
for Fyk’s high-paying competitor too far. Facebook
took Fyk’s reach and promoted the growth of (i.e.,
“developed”) Fyk’s content for his competitor without
any change in the content of the businesses/pages
from which the reach (and all of the related lucrative
advertising and trafficking monies) flowed. This case
falls squarely within the framework of Fair Housing,
for example, because the interactive computer service
(Facebook) went too far into the “development of
information provided through the Internet or any
other interactive computer service,” rendering Facebook
an “information content provider” as to the “development” (not “creation”) of same in direct competition
with Fyk and in forfeiture of any CDA immunity
Facebook may have arguably otherwise enjoyed.16
This Court need not get into the illegalities and
discrimination, that is for the District Court (and the
jury) following remand. Rather, this Court need only
recognize what it (e.g., Fair Housing and Batzel) and
16 As Fyk’s Response in Opposition to Motion to Dismiss
properly pointed out, fully in line with Fair Housing, Batzel,
Fraley, and Perkins holdings (and, indeed, citing to those
cases), the CDA does not immunize a party from itself (i.e., its
own acts) where (as here) that party is the “information content
provider.” See ER 46-49.

App.77a
other California district courts (e.g., Perkins and
Fraley) have recognized in the past—that Facebook
went too far here in its post-October 2016 conduct;
i.e., that Facebook’s active hand in “developing” Fyk’s
businesses/pages lost it any CDA immunity it may
have arguably otherwise enjoyed in relation to its
supposed “regulation”/“policing” of Fyk’s content in
or before October 2016.17 In conjunction with this
Court’s so recognizing, this Court should send this
case back to the District Court for resolution based
on the merits just as this Court did in Fair Housing
(“In light of our determination that the CDA does not
provide immunity to Roommate . . . , we remand for
the district court to determine in the first instance
whether” the conduct complained of was illegal); i.e.,
for discovery and trial on the illegalities and discrimination.
It is time for district courts to stop misinterpreting/misapplying the CDA at the threshold (i.e.,
missing the critical Fair Housing distinction between
“creation” and “development” that takes certain cases,
such as this case, completely out from underneath
any CDA immunity at the outset). It is time for district courts to stop misapplying (c)(1) to “first-party”
scenarios and/or to stop squeezing (c)(1) into (c)(2)(A)
paradigms (e.g., Sikhs, Lancaster, this case so far).
We respectfully request that this Court clear the
muddied water that is the CDA, which such muddied
17 And, again, even Facebook’s pre-October 2016 content “regulation”/“policing” enjoys no immunity when assessed under the
appropriate CDA lens—(c)(2)(A). Because, again, such “regulation”/“policing” was not grounded in “good faith” as evidenced
by (among other things) Facebook’s restoring identical content
for Fyk’s competitor.

App.78a
water giants (e.g., Facebook) are exploiting so as to
drown others (e.g., Fyk) without consequence.
For all of the foregoing reasons, whether
considered separately or together, Plaintiff-Appellant,
Jason Fyk, respectfully requests this Court’s reversal
of the Dismissal Order and remand to the District
Court for resolution on the merits.
STATEMENT OF RELATED CASES
Fyk is unaware of non-CDA immunity cases like
this (i.e., cases like Fair Housing, Batzel, Fraley, and
Perkins) pending before this Court.
CERTIFICATE OF COMPLIANCE
Pursuant to Federal Rule of Appellate Procedure
32, undersigned counsel certifies that this brief complies
with the type-volume limitation of Federal Rule of
Appellate Procedure 32(a)(7)(A) because the principal
brief does not exceed 13,000 words. It includes 11,401
words even including this certificate. This brief complies
with the typeface requirements of Federal Rule of
Appellate Procedure 32(a)(5) and the type style
requirements of Federal Rule of Appellate Procedure
32(a)(6) because this brief has been prepared in a
proportionately spaced typeface using Times New
Roman 14-point font.

App.79a
Respectfully Submitted,
/s/ Michael J. Smikun, Esq
Sean R. Callagy, Esq.
Callagy Law, P.C.
650 From Rd., Ste 565
Paramus, NJ 07652
msmikun@callagylaw.com
scallagy@callagylaw.com
(201) 261-1700 (o)
(201) 261-1775 (f)
Jeffrey L. Greyber, Esq.
Callagy Law, P.C.
1900 N.W. Corporate Blvd., Ste 310W
Boca Raton, FL 33431
jgreyber@callagylaw.com
(561) 405-7966 (o)
(201) 549-8753 (f)
Constance J. Yu, Esq.
Putterman Yu, LLP
345 California St., Ste 1160
San Francisco, CA 94104-2626
cyu@plylaw.com
(415) 839-8779 (o)
(415) 737-1363 (f)

Attorneys for Plaintiff-Appellant, Fyk
Dated: September 18, 2019

App.80a
APPELLEE’S ANSWERING BRIEF
(NOVEMBER 18, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
JASON FYK,

Petitioner-Appellant,
v.
FACEBOOK, INC.

Respondent-Appellee.
________________________
No. 19-16232
On Appeal from the United States District
Court for Northern District of California
Honorable Jeffrey S. White, Presiding
No. 4:18-cv-05159-JSW
Keker, Van Nest & Peters LLP
Paven Malhotra # 258429
pmalhotra@keker.com
William S. Hicks # 256095
whicks@keker.com
633 Battery Street
San Francisco, CA 94111-1809
Telephone: 415 391 5400
Facsimile: 415 397 7188

Attorneys for Respondent-Appellee Facebook Inc

App.81a
CORPORATE DISCLOSURE STATEMENT
Pursuant to Federal Rule of Appellate Procedure
26.1, Defendant Facebook, Inc. states that it has no
parent corporation and that no publicly held corporation owned 10% or more of its stock as of March 31,
2019, the date set forth in its 2019 Proxy Statement.
KEKER, VAN NEST & PETERS LLP
By: /s/ William S. Hicks
Paven Malhotra
William S. Hicks
Attorneys for Respondent-Appellee
Facebook, Inc.
Dated: November 18, 2019
[TOC & TOA Omitted]
INTRODUCTION
Whether in his complaint, his trial court papers,
or his appellate brief, Appellant Jason Fyk substitutes
clarity with complexity and confusion. He transforms
what is an otherwise straightforward business dispute
into an impenetrable yarn brimming with irrelevant
conspiracy theories, meandering asides, page-long
block quotes. None of this is necessary. Indeed, at its
heart, this case is quite simple.

App.82a
Mr. Fyk created a series of Facebook pages. At
some point, Facebook allegedly disabled certain of
those pages for violation of its policies. (Mr. Fyk
thinks it was, instead, to make room for its own
sponsored advertisements and to “strong-arm” him
into paying to advertise.) Mr. Fyk ultimately decided
to sell the pages to a third party. This third party
allegedly then republished some of the pages on the
Facebook platform.
In a well-reasoned order, the District Court dismissed Mr. Fyk’s claims after finding they were
barred by the Communications Decency Act, 47 U.S.C.
§ 230(c)(1) (hereinafter CDA § 230(c)(1)). The District
Court correctly held that the CDA barred all of Mr.
Fyk’s claims because they sought to hold Facebook
liable as the “publisher or speaker” of content created
and provided by Mr. Fyk himself. Undeterred, Mr.
Fyk now brings this appeal.
Although Mr. Fyk asserts a host of arguments
on appeal, his brief trains most of its attention on
two contentions: (1) that Facebook cannot avail itself
of CDA § 230(c)(1) because it somehow “developed”
the content at issue when the purchaser of Mr. Fyk’s
pages allegedly decided to publish those pages on
Facebook; and (2) that CDA § 230(c)(1) is not available
when a defendant removes the plaintiff’s own content
from its platform. Mr. Fyk did not advance the first
argument in the proceedings below and so it is
waived. No matter, it along with the second contention
is without basis. Ninth Circuit authority holds that
Facebook could not have “developed” the content at
issue if it simply permitted another party to use the
Facebook platform to publish content Mr. Fyk had
originally created and developed. Ninth Circuit

App.83a
authority also holds that CDA § 230(c)(1) can be used
to shield a defendant for claims stemming from its
decision to remove from its platform content the
plaintiff developed himself.
This Court should affirm the District Court’s order.
JURISDICTIONAL STATEMENT
This Court has jurisdiction pursuant to 28
U.S.C. § 1291. The District Court had jurisdiction
pursuant to 28 U.S.C. § 1332. The District Court
entered final judgment in this case on June 18, 2019
after granting Facebook’s Motion to Dismiss without
leave to amend. Fyk v. Facebook, Inc., Case No. 1805159-JSW (N.D. Cal. June 18, 2019), Dkt. 39.
ISSUES PRESENTED
(1) Did the District Court err in granting Facebook’s motion to dismiss on the ground that the CDA
§ 230(c)(1) bars Mr. Fyk’s claims?
(2) Did the District Court err in determining that
Facebook was not estopped from asserting a CDA
§ 230(c)(1) defense?
(3) Did the District Court err by failing to convert
Facebook’s motion to dismiss to a Rule 56 motion for
summary judgment?
STATEMENT OF THE CASE
Summary of Factual Allegations
Mr. Fyk was “facing bankruptcy and eviction”
when he started using Facebook’s free platform “in
the hopes of experiencing the American Dream.” ER
10 at ¶ 15; ER 19 at ¶ 32. Mr. Fyk created various

App.84a
“humorous” Facebook pages “designed to get a laugh
out of Fyk’s viewers/followers.” ER 10 at ¶ 15; ER 14
at ¶ 22. Initially, those pages attracted a wide following,
allegedly generating hundreds of thousands of dollars
per month in advertising and net traffic revenue. ER
14 at ¶ 22. According to Mr. Fyk, however, Facebook
devalued those pages over time through various
forms of alleged unlawful interference such that he
was eventually forced to sell them to a competitor
for the “relatively nominal approximate” sum of
$1,000,000. ER 22 at ¶ 42. Those pages were “realistically valuated by some in the nine figure range,”
according to Mr. Fyk. Id. Thus, Mr. Fyk estimates
that Facebook “has deprived” him of hundreds of
millions (“if not billions”) of dollars. ER 26 at ¶ 55.
Mr. Fyk alleges that Facebook’s “meddling” took
myriad forms. Most notably, Facebook allegedly blocked
or deleted content found to violate Facebook’s
Community Standards. E.g., ER 13 at ¶ 20. Mr. Fyk
contends that these actions were “incorrect” and that
Facebook was “unresponsive[ ] to [his] subsequent pleas
for appeal and/or customer service.” ER 14 at ¶ 21.
He also contends that Facebook had no valid basis to
block his content because Facebook did not block
similar content on other users’ Facebook pages. ER
15 at ¶ 23. Instead, Mr. Fyk insists that Facebook
selectively enforced its Community Standards to
strong-arm him into participating in Facebook’s
optional paid reach program,1 which Facebook purportedly implemented “overnight and pursuant to

1 “Paid reach” generally refers to a marketing strategy in which
users pay to reach a wider audience.

App.85a
corporate greed.” ER 10 at ¶ 14; see also ER 11-13 at
¶¶ 18-19.
Mr. Fyk also alleges that Facebook engaged in
unlawful interference during the alleged “fire sale” of
his Facebook pages to a competitor. Specifically, Mr.
Fyk alleges that Facebook “offer[ed] [his] competitor
customer service before, during, and after the fire sale”
in order to “redistribute Fyk’s economic advantage”
to the competitor. ER 22 at ¶ 43. Mr. Fyk further
contends that, after that purported “fire sale,” the
“supposedly CDA violative Fyk businesses/pages that
were fire sold were magically reinstated by Facebook
within days of the fire sale’s consummation.” ER 23
at ¶ 45. According to Mr. Fyk, this shows that “there
was absolutely nothing CDA violative about Fyk’s
businesses/pages” and that “Facebook just wanted to
steer Fyk’s businesses/pages (a/k/a assets, a/k/a
economic advantage) to a competitor and otherwise
eliminate Fyk by any means necessary.” Id.
Procedural History
Mr. Fyk’s Complaint, filed on August 22, 2018,
alleged four causes of action: (1) intentional interference
with prospective economic advantage, (2) violation of
California Business & Professions Code Sections 1720017210 (Unfair Competition), (3) civil extortion, and (4)
fraud/intentional misrepresentation. Facebook moved
to dismiss the Complaint on November 1, 2018, both
because the claims were barred under the Communications Decency Act and because Plaintiff failed to
state a claim for any of his causes of action.
On June 18, 2019, the District Court granted
Facebook’s motion to dismiss after finding that all of
Mr. Fyk’s claims are barred by CDA § 230(c)(1). Fyk,

App.86a
Case No. 18-cv-05159-JSW, Dkt. 38.2 The District
Court found that the claims “arise from the allegations
that Facebook removed or moderated his pages.” ER
4. “Because the CDA bars all claims that seek to hold
an interactive computer service [provider] liable as a
publisher of third party content, the [District] Court
[found] that the CDA precludes Plaintiff’s claims.”
Id.
Mr. Fyk’s Appeal
Mr. Fyk advances three arguments on appeal:
(a) the District Court erred in holding that Mr. Fyk’s
claims were barred by CDA § 230(c)(1); (b) the District
Court erred in determining that Facebook was not
estopped from asserting a CDA § 230(c)(1) defense;
and (c) the District Court applied the incorrect legal
standard when it failed to convert Facebook’s motion
to dismiss to a Rule 56 motion for summary judgment.
STANDARD OF REVIEW
This Court reviews de novo a dismissal under
Rule 12(b)(6) and can affirm on any ground supported
by the record, even if not the ground the district
court relied upon. See Thompson v. Paul, 547 F.3d
1055, 1058–59 (9th Cir. 2008); Cassirer v. ThyssenBornemisza Collection Found., 862 F.3d 951, 974
(9th Cir. 2017). Further, on a motion to dismiss, the
court will take all allegations of material fact as true
and construe them in the light most favorable to the
nonmoving party. See Parks School of Business, Inc.
v. Symington, 51 F.3d 1480, 1484 (9th Cir. 1995).
2 The District Court did not address Facebook’s contention that
the Complaint failed to state any claims.

App.87a
ARGUMENT
This Court should affirm the District Court’s
dismissal of Mr. Fyk’s Complaint. The District Court
correctly ruled that all of Mr. Fyk’s claims were
barred by the CDA. Mr. Fyk’s claims fall squarely
within the safe harbor protections of CDA § 230(c)(1).
Courts have uniformly held that the CDA bars any
claim that seeks to hold an interactive computer
services provider liable for “reviewing, editing, and
deciding whether to publish or to withdraw from
publication third-party content.” Barnes v. Yahoo!,
Inc., 570 F.3d 1096, 1102 (9th Cir. 2009); 47 U.S.C.
§ 230(c)(1). Yet this is exactly what Mr. Fyk seeks to
do here.
A.

The District Court Correctly Held That CDA
§ 230(c)(1) Bars Mr. Fyk’s Claims.

CDA § 230(c)(1) provides that “[n]o provider or
user of an interactive computer service shall be
treated as the publisher or speaker of any information
provided by another information content provider.”
The CDA expressly preempts any cause of action
that would hold an internet platform liable as a
speaker or publisher of third-party speech: “No cause
of action may be brought and no liability may be
imposed under any State or local law that is inconsistent with” the CDA. 47 U.S.C. § 230(e)(3).
In Barnes v. Yahoo!, this Court explained that
CDA § 230 protects the exercise of a “publisher’s
traditional editorial functions” such as “reviewing,
editing, and deciding whether to publish or to withdraw
from publication third-party content.” 570 F.3d at
1102 (emphasis added). “[R]emoving content is
something publishers do, and to impose liability on

App.88a
the basis of such conduct necessarily involves treating
the liable party as a publisher of the content it failed
to remove.” Id. at 1103. “[B]ecause such conduct is
publishing conduct . . . we have insisted that section
230 protects from liability any activity that can be
boiled down to deciding whether to exclude material
that third parties seek to post online.” Id. (internal
quotations omitted).
CDA § 230(c)(1) warrants dismissal if three
conditions are met: (1) Facebook is a provider of an
“interactive computer service,” (2) the content at
issue was “provided by another information content
provider,” and (3) the claims at issue treat Facebook
as the “publisher or speaker” of that content. 47
U.S.C. § 230(c)(1).
Mr. Fyk does not challenge the District Court’s
determination that the first and third conditions are
satisfied. App. Opening Br. at 8-11. Rather, he argues
that the second condition is not met here because (i)
Facebook purportedly “developed” the content at issue,
and (ii) CDA § 230(c)(1) does not confer immunity
where a plaintiff seeks to hold an interactive computer
service provider liable for blocking the plaintiff’s own
content. Both arguments fail.
1. The District Court Did Not Err in Failing to
Find That Facebook “Developed” the Content
at Issue.
For the first time on appeal, Mr. Fyk asserts
that CDA § 230(c)(1) does not apply because Facebook
somehow “developed” the content when, sometime
after October 2016, a “competitor” who purchased
Mr. Fyk’s pages allegedly published those pages on
the Facebook platform. App. Opening Br. at 16-27.

App.89a
An appellate court should not rule on an issue which
was not sufficiently raised in the court below. See
Smith v. Marsh, 194 F.3d 1045, 1052 (9th Cir. 1999)
(“an appellate court will not consider issues not
properly raised before the district court”). For this
reason alone, the District Court’s dismissal should be
affirmed without regard to Mr. Fyk’s “development”
theory. Even if Mr. Fyk had sufficiently raised that
argument in the proceedings below, his claims would
still be barred by the protections that the CDA
affords to Facebook.
As an initial matter, it should be noted that Mr.
Fyk’s fundamental grievance is that Facebook disabled
his pages, thereby allegedly lowering the value of
those pages. But those actions all occurred before the
sale of the pages at issue. And, all of those actions
related to content that Mr. Fyk himself created and
developed. Thus, there can be no contention that
Facebook played any role in “developing” the pages
before October 2016.
As for Mr. Fyk’s speculative assertions regarding
events after October 2016, they fare no better. Mr.
Fyk asserts that “Facebook and the District Court
‘ignore[d] the nature of Plaintiff’s allegations, which
accuse Defendant not of [(de-)creating] tortious content,
but rather of . . . [tortiously] developing Fyk’s businesses/pages (and, necessarily, the supposed violative content therein) for Fyk’s competitor.” App.
Opening Br. at 26. In other words, Mr. Fyk contends
that Facebook somehow became an “information
content provider” and “developed” the pages at issue
when the pages allegedly were published on the
Facebook platform by a third party after it purchased
the pages from Mr. Fyk.

App.90a
But Mr. Fyk does not allege that Facebook did
anything other than display the pre-existing content
that this third party allegedly purchased from Mr.
Fyk. He does not allege that Facebook itself created
that content—which, according to Mr. Fyk, he had
previously created himself. Put another way, the
content at issue after October 2016 purportedly is
the same content that Mr. Fyk already created.3
Putting aside the vague and speculative nature of his
assertions, Mr. Fyk offers no allegations whatsoever
that Facebook did anything to this content other
than display it. To the extent this tardy argument
has not been waived, it should be rejected on the
merits because it contradicts binding Ninth Circuit
precedent.
“[A] website helps to develop unlawful content,
and thus falls within the exception to section 230, if
it contributes materially to the alleged illegality of
the conduct.” Fair Hous. Council of San Fernando
Valley v. Roommates.Com, LLC, 521 F.3d 1157, 1168
(9th Cir. 2008) (emphasis added). The Ninth Circuit’s
“material contribution” test “draw[s] the line at the
crucial distinction between, on the one hand, taking
actions . . . to . . . display . . . actionable content and, on
the other hand, responsibility for what makes the
displayed content [itself] illegal or actionable.” Kimzey
v. Yelp! Inc., 836 F.3d 1263, 1269 n.4 (9th Cir. 2016)
(internal quotations omitted). For instance, in Fair
Housing, upon which Mr. Fyk relies, a website operator
was held liable for specifically requiring subscribers
to provide certain types of information as a condition
3 See, e.g., ER 23 at ¶ 45 (noting that the pages allegedly redisplayed after October 2016 had no “appreciable change (if any
change) in the content” over what Mr. Fyk had previously created).

App.91a
of accessing its service and for filtering search results
in a discriminatory way. 521 F.3d at 1166-67.
Here, in contrast, Mr. Fyk does not allege that
Facebook contributed in any way to the content at
issue. As such, binding Ninth Circuit precedent
forecloses Mr. Fyk’s argument. In Kimzey, for instance,
the Ninth Circuit rejected the contention that Yelp’s
republication of an allegedly defamatory review in
the form of “proactively post[ing] advertisements or
promotional links [to the negative review] on Google”
transformed Yelp into an “information content provider”
as to that review. 836 F.3d at 1270 n. 5. This Court
noted that “[n]othing in the text of the CDA indicates
that immunity turns on how many times an interactive
computer service publishes ‘information provided by
another information content provider.’” Id. at 1270
(quoting 47 U.S.C. § 230(c)(1)). Accordingly, this Court
held that “[j]ust as Yelp is immune from liability
under the CDA for posting user-generated content on
its own website, Yelp is not liable for disseminating
the same content in essentially the same format to a
search engine, as this action does not change the
origin of the third-party content.” Id. (emphasis added);
see also id. at 1271 (“Simply put, proliferation and
dissemination of content does not equal creation or
development of content.”).4
4 See also Dyroff v. Ultimate Software Grp., Inc., 934 F.3d
1093, 1099 (9th Cir. 2019) (“Plaintiff cannot and does not plead
that [Defendant] required users to post specific content, made
suggestions regarding the content of potential user posts, or
contributed to making unlawful or objectionable user posts.
[Defendant] is entitled to immunity under the plain terms of
Section 230 and our case law as a publisher of third-party
content.”); Gonzalez v. Google, Inc., 335 F. Supp. 3d 1156, 1173
(N.D. Cal. 2018) (“As with the Yelp review at issue in Kimzey

App.92a
The district court cases that Mr. Fyk cites are
not to the contrary. In Fraley v. Facebook, for instance,
the district court found that the defendant qualified
as an “information content provider” under 47 U.S.C.
§ 230(f)(2) because it was alleged to have used users’
names, photographs and likenesses “to create new
content that it publishes as endorsements of thirdparty products or services.” 830 F. Supp. 2d 785, 801
(N.D. Cal. 2011) (emphasis added). Similarly, in
Perkins v. Linkedin Corp., the defendant was found
to be a “developer” of content based on allegations
that it had “generated the text, layout, and design” of
certain reminder emails that made use of Plaintiffs’
names and likenesses as personalized endorsements
for LinkedIn without Plaintiffs’ knowledge or consent.
53 F. Supp. 3d 1222, 1247 (N.D. Cal. 2014) (noting
that “the text and layout of these emails were created
by LinkedIn without any input from the user”). No
comparable circumstances are present in this case.
As noted, Facebook is alleged to have simply displayed
the same content that Mr. Fyk had already created.
Unlike in Fraley and Perkins, Facebook did not
that was linked to a different website, Google’s content recommendation tool ‘does not change the origin of the third-party
content’ that it recommends.”); Force v. Facebook, Inc., 934 F.3d
53, 70 (2d Cir. 2019) (rejecting argument that Facebook “developed” content by allegedly making that content “more ‘visible,’
‘available,’ and ‘usable’”; “making information more available
is . . . an essential part of traditional publishing; it does not
amount to ‘developing’ that information within the meaning of
Section 230.” (emphasis in original)); Klayman v. Zuckerberg,
753 F.3d 1354, 1358 (D.C. Cir. 2014) (“a website does not create
or develop content when it merely provides a neutral means by
which third parties can post information of their own independent choosing online”).

App.93a
create any new content—it merely re-displayed third
party content.
In short, Mr. Fyk has not alleged that Facebook
took any action as a “developer” of content that
deprive Facebook of the protections Congress afforded
it under Section 230.
2. The District Court Correctly Held That CDA
§ 230(c)(1) can Protect Interactive Computer
Service Providers Like Facebook When They
Elect to Remove Content from Their Platforms.
Mr. Fyk argues that the District Court erroneously
applied CDA § 230(c)(1) to the facts of this case. He
asserts that CDA § 230(c)(1) does not apply to what
he dubs “first-party” cases—cases where a plaintiff is
contesting the removal of his or her own content by
an internet platform. Such cases, Mr. Fyk asserts,
are, instead, governed by CDA § 230(c)(2)(A). Neither
the caselaw nor the statute support Mr. Fyk.5
a. The Ninth Circuit Has Held That CDA
§ 230(c)(1) applies to Decisions to Withdraw or Remove Content from Publication.
CDA § 230(c)(1) provides: “No provider or user of
an interactive computer service shall be treated as
the publisher or speaker of any information provided
by another information content provider.” In Barnes
5 47 U.S.C. § 230(c)(2)(A) provides: “No provider or user of an
interactive computer service shall be held liable on account of
any action voluntarily taken in good faith to restrict access to or
availability of material that the provider or user considers to be
obscene, lewd, lascivious, filthy, excessively violent, harassing,
or otherwise objectionable, whether or not such material is constitutionally protected.”

App.94a

v. Yahoo!, this Court examined the statutory text
and legislative history of CDA § 230(c)(1) and held
that it applies whenever “the duty that the plaintiff
alleges the defendant violated derives from the
defendant’s status or conduct as a ‘publisher or
speaker.’ If it does, section 230(c)(1) precludes liability.” 570 F.3d at 1102. This Court then held that
“publication involves reviewing, editing, and deciding whether to publish or to withdraw from
publication third-party content” and that “any
activity that can be boiled down to deciding whether
to exclude material that third parties seek to post
online is perforce immune under section 230.” Id.
(internal citations omitted). This Court made clear
that “Subsection (c)(1), by itself, shields from liability
all publication decisions, whether to edit, to remove,
or to post, with respect to content generated entirely
by third parties.”6 Id. at 1105 (emphasis added).
Given these repeated statements in Barnes, it is
clear that CDA § 230(c)(1) applies to decisions to
remove content.

6 See also Klayman, 753 F.3d at 1359 (“the very essence of
publishing is making the decision whether to print or retract a
given piece of content”); Zeran v. America Online, Inc., 129 F.3d
327, 330 (4th Cir. 1997), cert denied, 524 U.S. 937 (1998)
(listing “deciding whether to publish, withdraw, postpone or
alter content” as examples of “a publisher’s traditional editorial
functions”).

App.95a
b. The Ninth Circuit and District Courts
Within the Ninth Circuit Have Applied
CDA § 230(c)(1) to Lawsuits Challenging a
Defendant’s Removal of Plaintiff’s Content.
Given the Ninth Circuit’s clear interpretation of
CDA § 230(c)(1) in Barnes v. Yahoo!, it should come
as no surprise that courts routinely dismiss lawsuits
seeking to hold defendants liable for their decision to
remove plaintiffs’ content.
In Sikhs for Justice, Inc. v. Facebook, Inc., for
example, the Ninth Circuit affirmed the District
Court’s decision to dismiss a suit against Facebook
under CDA § 230(c)(1) filed by a plaintiff whose own
Facebook page was disabled from appearing on the
Facebook platform. 144 F. Supp. 3d 1088, 1093-1095
(N.D. Cal. 2015), aff’d, 697 F. App’x 526, 526 (9th
Cir. 2017). In Riggs v. MySpace, 444 Fed. Appx. 986
(9th Cir. 2011), aff’g in part 2009 WL 10671689, at *3
(C.D. Cal. Sept. 17, 2009), the Ninth Circuit held
that the District Court “properly dismissed” a series
of tort claims filed against an internet platform that
removed plaintiff’s online profiles from its platform.
The Ninth Circuit specifically held that such “claims
were precluded by section 230(c)(1) of the Communications Decency Act.” 444 Fed. Appx. at 987.
Numerous District Courts within the Ninth
Circuit have likewise applied CDA § 230(c)(1) when a
plaintiff challenges removal of its own content by
Internet platforms such as Twitter,7 Google,8 and

7 Brittain v. Twitter, Inc., 2019 WL 2423375, at *4 (N.D. Cal. June
10, 2019).

App.96a
Facebook.9 Courts outside the Ninth Circuit have done
the same.10
Plaintiff cites only one case holding otherwise—

e-Ventures Worldwide, LLC v. Google, Inc., 2017 WL
2210029, at *3 (M.D. Fla. Feb. 8, 2017)—but this is
an unpublished, out-of-circuit district court decision
whose ruling on the CDA has never been reviewed on
appeal and has not been followed by a single court
anywhere in the country.
c. Applying CDA § 230(c)(1) When a Plaintiff’s
Own Content Has Been Removed Does Not
Render CDA § 230(c)(2) Moot.
Plaintiff suggests that the application of CDA
§ 230(c)(1) to cases where plaintiff’s own content has
been removed renders CDA § 230(c)(2) mere “surplusage.” Not so. As the Ninth Circuit already has
held, Subsections (c)(1) and (c)(2) provide separate
and independent grants of immunity. “Subsection
(c)(1), by itself, shields from liability all publication
decisions, whether to edit, to remove, or to post, with
respect to content generated entirely by third parties.”
Barnes, 570 F.3d at 1105 (emphasis added). By
8 Darnaa, LLC v. Google, Inc., 2016 WL 6540452, at *7-8 (N.D.
Cal. Nov. 2, 2016); Lancaster v. Alphabet Inc., 2016 WL 3648608,
at *2-3 (N.D. Cal. July 8, 2016).
9 Fed. Agency of News LLC v. Facebook, Inc., 395 F. Supp. 3d
1295, 1305 (N.D. Cal. 2019); King v. Facebook, Inc., 2019 WL
4221768, at *4-5 (N.D. Cal. Sept. 5, 2019); Ebeid v. Facebook,
Inc., 2019 WL 2059662, at *4-5 (N.D. Cal. May 9, 2019).
10 Cox v. Twitter, Inc., 2019 WL 2513963 (D.S.C. Feb. 8, 2019),
report and recommendation approved, 2019 WL 2514732
(D.S.C. Mar. 8, 2019); Mezey v. Twitter, Inc., 2018 WL 5306769,
at *1 (S.D. Fla. July 19, 2018).

App.97a
contrast, for Subsection (c)(2), “the persons who can
take advantage of this liability shield are not merely
those whom subsection (c)(1) already protects, but
any provider of an interactive computer service.” Id.
(emphasis in original). “Thus, even those who cannot
take advantage of subsection (c)(1), perhaps because
they developed, even in part, the content at issue,”
may be able to take advantage of Subsection (c)(2). Id
d. Mr. Fyk Constitutes an “Information
Content Provider” for Purposes of CDA
§ 230(c)(1).
Both at the District Court and before the Ninth
Circuit, Mr. Fyk has suggested that his own content
cannot qualify as “information provided by another
information content provider.” App. Opening Br. at
27; ER 3. Mr. Fyk never explains how this argument
is distinct from his assertion that CDA § 230(c)(1)
cannot apply to removal of a plaintiff’s own content.
In any event, Facebook’s arguments are the same.
Numerous courts have held that a plaintiff’s content
qualifies as “information provided by another” and
this Court should as well.11
11 Sikhs for Justice, Inc., 144 F. Supp. 3d at 1095, aff’d, 697
Fed. Appx. 526 (9th Cir. 2017); Ebeid, 2019 WL 2059662, at *3
(holding that Facebook was “immune from [Plaintiff’s] claims
because they essentially seek to hold Facebook liable for
restricting what plaintiff can post on the Facebook platform”)
(emphasis added); Fed. Agency of News LLC, 395 F. Supp. 3d at
1305 (holding that Facebook was immune from suit under § 230
where “Plaintiffs do not challenge that the information for
which Plaintiffs seek to hold Facebook liable for removing—
FAN’s Facebook account, posts, and content—was not provided
by Facebook, but rather, by FAN”); Lancaster, 2016 WL
3648608, at *3 (holding that “§ 230(c)(1) of the CDA precludes

App.98a
B.

The District Court Correctly Declined to Hold That
Facebook Is Estopped from Asserting a CDA
§ 230(c)(1) Defense Because It Did Not Identify
That Provision in Pre-Suit Communications with
Mr. Fyk.

Mr. Fyk identifies no authority for the unprecedented proposition that a party is estopped from
asserting arguments in litigation that it did not specifically identify in pre-suit communications with the
plaintiff.
The so-called “mend the hold” doctrine, upon
which Mr. Fyk relies, “provides that a contract party
is not permitted to change is position on the meaning
of a contract in the middle of litigation over it.”
Hartford Fire Ins. Co. v. Gandy Dancer, LLC, 864 F.
Supp. 2d 1157, 1170 n. 9 (D.N.M. 2012) (citing First
Bank & Trust Co. of Illinois v. Cimerring, 365 Fed.
Appx. 5, 8 (7th Cir. 2010)).12 That doctrine has no
application here, among other reasons, because this
is not a contract action. In any event, Facebook has
not changed its position in this litigation; it asserted
CDA § 230(c)(1) immunity in its first response to Mr.
Fyk’s Complaint, and the District Court properly
applied CDA § 230(c)(1) to dismiss this case.13
as a matter of law any claims arising from Defendants’ removal
of Plaintiff’s [YouTube] videos”) (emphasis added).
12 In Harbor Ins. Co. v. Cont’l Bank Corp., upon which Mr. Fyk
relies, the Seventh Circuit explained that the “mend the hold”
doctrine “is the name of a common law doctrine that limits the
right of a party to a contract suit to change his litigating
position.” 922 F.2d 357, 362 (7th Cir. 1990) (emphasis added).
13 Facebook reserves the right to assert CDA § 230(c)(2) in
future proceedings should they be necessary.

App.99a
C.

The District Court Did Not Err in Failing to
Convert Facebook’s Motion to Dismiss to a Rule
56 Motion for Summary Judgment.

In the first paragraph of its dismissal order, the
District Court noted by way of background that
“Plaintiff had used Facebook’s free online platform to
create a series of, among other amusing things,
pages dedicated to videos and pictures of people
urinating.” ER 1. Mr. Fyk asserts that the District
Court’s purported reliance on this “factually inaccurate
and out-of-context red-herring”14 effectively “converted
Facebook’s Rule 12(b)(6) or 12(c) Motion to Dismiss
into a Rule 56 motion for summary judgment.” App.
Opening Br. at 14, 16. According to Mr. Fyk, dismissal
was inappropriate under the Rule 56 standard because
“there is a genuine dispute as to the public urination
‘fact’ . . . ” Id. at 16. Nonsense.
The District Court held that CDA § 230(c)(1)
barred Mr. Fyk’s claims because they “seek to hold
an interactive computer service [provider] liable as a
publisher of third party content.” ER 4. In reaching
that conclusion, the District Court did not rely upon,
or even mention, the so-called “public urination fact.”
In any event, application of Rule 56 would not
have changed the outcome because there is no genuine
issue as to any material fact. See Fed. R. Civ. Proc.
14 Mr. Fyk asserts for the first time on appeal that he “does not
know much about the www.facebook.com/takeapissfunny business/page” (App. Opening Br. at 15, n. 11), but he alleged in
paragraph 22 of his Complaint that Facebook “destroyed and/or
severely devalued” that page, among others. ER 14. As set forth
in Mr. Fyk’s Complaint, that page concerned “take the piss
funny pics and videos” and had approximately 4,300,000 followers.
ER 14.

App.100a
56(c); T.W. Elec. Serv., Inc. v. Pac. Elec. Contractors
Ass’n, 809 F.2d 626, 630 (9th Cir. 1987). “A ‘material’
fact is one that is relevant to an element of a claim or
defense and whose existence might affect the outcome
of the suit.” T.W. Elec. Serv., Inc., 809 F.2d at 630.
The so-called “public urination fact” has no bearing
on whether CDA immunity applies in this case,
which is why neither Facebook nor the District Court
mentioned that “fact” in the analysis of CDA § 230
(c)(1).
D.

Even if Facebook Did Not Enjoy CDA Immunity,
Mr. Fyk’s Complaint Fails to State a Claim.

Although the District Court did not reach
Facebook’s second basis for dismissal— namely, that
Mr. Fyk has failed to state a cause of action for any
of his individual claims—this Court “may affirm the
district court on any basis supported by the record.”
Kohler v. Bed Bath & Beyond of California, LLC, 778
F.3d 827, 829 (9th Cir. 2015). Because Facebook’s
second independent basis for dismissal is fully supported by the record,15 this Court may affirm on this
basis as well.

15 See ER 97-103 (Mot. to Dismiss); 116-121 (Reply i/s/o Mot.
Dismiss).

App.101a
CONCLUSION
The District Court correctly held that all of Mr.
Fyk’s claims are barred by CDA § 230(c)(1) because
each treats Facebook as the publisher or speaker of
Mr. Fyk’s own content. Facebook’s role in allegedly
displaying the exact same content after Mr. Fyk sold
his pages does not transform Facebook into a “developer” of content. And the District Court’s decision to
apply CDA § 230(c)(1) rather than CDA § 230(c)(2)
comports with a long line of Ninth Circuit cases, as
well as the text of the statute itself.
For the foregoing reasons, the judgment of the
District Court should be affirmed.
Respectfully submitted,
KEKER, VAN NEST & PETERS LLP
By: /s/ William S. Hicks
Paven Malhotra
William S. Hicks
Attorneys for Respondent-Appellee
Facebook, Inc.
Dated: November 18, 2019

App.102a
STATEMENT OF RELATED CASES
Counsel for Appellee is not aware of any related
cases pending in this Court.
KEKER, VAN NEST & PETERS LLP
By: /s/ William S. Hicks
Paven Malhotra
William S. Hicks
Attorneys for Respondent-Appellee
Facebook, Inc.
Dated: November 18, 2019

App.103a
CERTIFICATE OF COMPLIANCE
I certify that:
This brief complies with the page limitation of
Fed. R. App. P. 32(a)(7)(A) because it less than 30
pages.
This brief complies with the typeface requirements
of Fed. R. App. P. 32(a)(5) and the type style requirements of Fed. R. App. P. 32(a)(6) because this brief has
been prepared in a proportionately spaced typeface
using Microsoft Word Times New Roman 14-point font.
KEKER, VAN NEST & PETERS LLP
By: /s/ William S. Hicks
Paven Malhotra
William S. Hicks
Attorneys for Respondent-Appellee
Facebook, Inc.
Dated: November 18, 2019

App.104a
APPELLANT’S REPLY BRIEF
(JANUARY 3, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
JASON FYK,

Plaintiff-Appellant,
v.
FACEBOOK, INC.

Defendant-Appellee.
________________________
No. 19-16232
On Appeal from Dismissal with Prejudice and
Judgment of the United States District Court
for the Northern District of California,
No. 4:18-cv-05159-JSW (Hon. Jeffrey S. White)
Callagy Law, P.C.
Sean R. Callagy, Esq.
scallagy@callagylaw.com
Michael J. Smikun, Esq.
msmikun@callagylaw.com
650 From Rd., Ste 565
Paramus, NJ 07652
(201) 261-1700 (o)
(201) 261-1775 (f)

App.105a
Jeffrey L. Greyber, Esq.
jgreyber@callagylaw.com
1900 N.W. Corporate Blvd., Ste 310W
Boca Raton, FL 33431
(561) 405-7966 (o)
(201) 549-8753 (f)
Putterman Yu, LLP
Constance J. Yu, Esq.
cyu@plylaw.com
345 California St., Suite 1160
San Francisco, CA 94104
(415) 839-8779 (o)
(415) 737-1363 (f)

Attorneys for Plaintiff-Appellant
[TOC & TOA Omitted]
I.

Summary of Reply Brief

This case is not about objectionable content.
This case is not about content-based publication decisions, as evidenced by Defendant-Appellee, Facebook,
Inc. (“Facebook”), restoring Plaintiff-Appellant’s, Jason
Fyk’s (“Fyk”), identical information for his competitor
because Fyk’s competitor better compensated Facebook
and had special privileges. This case is not about
“Good Samaritan” blocking or screening of offensive
materials. This case is not about content. This case
exemplifies Facebook’s “bad faith,” “gross negligence,”
and “wanton and willful misconduct.” This case is
about whether Facebook acted as a “Good Samaritan”
when it conspired with Fyk’s competitor to revalue
his information only if his competitor owned his business. This case is about Facebook’s fraud, extortion,
unfair competition, and tortious interference with

App.106a
Fyk’s business. This case is about the development of
Fyk’s own information for Fyk’s competitor. This
case is about Facebook’s lawless misconduct to compensate itself to Fyk’s detriment.
The heart of Fyk’s appeal is whether Facebook is
a “passive” “interactive computer service” when it
takes discretionary “action” to discriminatorily and/or
selectively “enforce” the CDA (offensive content) against
Fyk, while ignoring the identical purported “problematic” content (Fyk’s) for Fyk’s competitor who Facebook
is commercially incentivized to support. Facebook’s
selective application of the CDA as pretext to tortiously
interfere with Fyk’s business amounts to unfair
competition. Facebook is not “passively” displaying
content and uniformly enforcing the CDA as to all
content providers, it is “actively” developing winners
(Fyk’s competitor) and losers (Fyk) based on Facebook’s
own financial compensation. Fyk contends that where
(as here) Facebook’s application of the CDA is purposeful commercial activity, Facebook enjoys no (c)
immunity per (f)(3) and cases properly interpreting
same. See, e.g., Fair Housing Council of San Fernando
Valley v. Roommates.com, LLC, 521 F.3d 1157 (9th
Cir. 2008).
Facebook destroyed Fyk’s business for its own
financial gain. As framed by Fyk’s Opening Brief
[D.E. 12], this appeal asks whether (c)(1) immunizes
Facebook from its own active1 participation in (1)
1 Fair Housing, 521 F.3d at 1162 (“A website operator can be
both a service provider and a content provider: If it passively
displays content that is created entirely by third parties [i.e., if
it is relatively ‘inactive’ in relation to a third party’s content],
then it is only a service provider with respect to that content.
But as to content that it . . . is ‘responsible, in whole or in part’

App.107a
unlawfully destroying/devaluing the subject businesses/pages just because the businesses/pages were then
owned and operated by Fyk;2, 3 (2) unlawfully orchestrating the distribution of the subject businesses/
pages to Fyk’s former competitor and then revaluing
(developing) the businesses/pages the moment they
were owned and operated by someone else who compensated Facebook more than Fyk;4 and (3) discriminatorily allowing (for compensation) this new owner
to operate the businesses/pages with the exact same
content Facebook had previously declared violative of
the CDA/Community Standards and the basis for
restricting access to or availability of materials when
owned by Fyk.
II.

Summary of Facebook’s Answering Brief

In Facebook’s Brief [D.E. 17], two important things
must be highlighted at the outset and are addressed
comprehensively below. First, neither this Court nor
the District Court may rely on Facebook’s misleading
rewrite of Fyk’s allegations. See, e.g., Disability Rights
for . . . developing, the website is also a content provider,”
emphasis added).
2 Such destruction/devaluation was effectuated unlawfully and
discriminatorily. See [D.E. 12] at n. 6.
3 Facebook’s discrimination against Fyk is no different than
“Sorry, sir, but I can’t show you any listings on this block because
you are gay/female/black/a parent.” Fair Hous. at 1167. Here,
Facebook’s saying “Sorry, sir, these businesses/pages cannot be
on Facebook’s block because you are Fyk with the ‘wrong’ or
‘disfavored’ political affiliation, speech, or view and/or just do
not pay us enough money.”
4 Such destruction/devaluation was effectuated unlawfully and
discriminatorily. See [D.E. 12] at n. 8.

App.108a

Montana, Inc. v. Batista, No. 15-35770, 2019 WL
3242038, *4 (9th Cir. Jul. 19, 2019) (“We must ‘take
all allegations of material fact as true and construe
them in the light most favorable to the nonmoving
party,’” internal citations omitted). Facebook’s Brief
relies on proof-texting to invoke CDA immunity by
isolating content of Fyk’s Facebook pages without
providing the context, and simultaneously hiding
Facebook’s discriminatory (and unlawful) application of
the CDA. The most egregious example of Facebook’s
confabulation of Fyk’s allegations is: “Fyk asserts that
CDA § 230(c)(1) does not apply because Facebook
somehow ‘developed’ the content when . . . a ‘competitor’ who purchased [ ] Fyk’s pages allegedly published those pages on the Facebook platform.” [D.E.
17] at 9.
In reality, Fyk alleges that Facebook itself was
directly involved in the quid-pro-quo agreement with
the third-party and published the content for that
third-party. See, e.g., Complaint, ER 9 at ¶ 6, 13 at
¶ 20, 15 at ¶ 23, 22-24 at ¶¶ 42-46. In other words,
the third-party cannot re-publish content created by
Fyk without Facebook’s direct involvement and
development. This is the gravamen of Fyk’s Complaint
and appeal—Facebook is directly involved as an
information content provider (namely, a “developer”
per (f)(3)). Facebook misrepresents that Fyk raises
this argument for the first time on appeal, see [D.E.
17] at 2 and 10, but Fyk raised this issue in the District Court. See Resp. to Mot. to Dismiss, ER 50-52.

App.109a
Any challenge to the sufficiency of Fyk’s factual
allegations may not be raised in this appeal.5
Second, Facebook’s statutory construction requires
this Court to conflate (c)(1) and (c)(2) immunity,
which is neither supported by law nor logic nor
canons of statutory construction. Facebook’s untenable
theory is laid bare in its Brief, see [D.E. 17] at 17,
because Facebook adds terms to the CDA to accomplish
in argument what the statute does not contain in
reality, amounting to: “well, (c)(1) covers everything
we do; but, if not, (c)(2) covers everything we do, but
we added ‘interactive computer service’ to it. Then, if
we even edit or ‘develop in part’ information defined
under (f)(3), (c)(1) covers that too; but, if not, then
(c)(2) covers that as well. Meaning, (c)(1) means the
same thing as (c)(2), and (f)(3)’s definitional distinctions
are meaningless. And, so, yeah, we are entitled to
(c)(1) immunity for everything including actions more
fitting of (c)(2)(A) and actions more fitting under
(f)(3)’s development distinction.”
Fyk’s briefing and this appeal unpack the differences in CDA immunity, and challenge Facebook’s
assertion that it is immunized in relation to the four
claims for relief in Fyk’s Complaint let alone carte
blanche (c)(1) immunized.6 Facebook’s effort to contort
5 Fyk fully incorporates herein by reference the discussion from
his response to Facebook’s motion to dismiss wherein he
explains that Facebook’s motion to dismiss should be treated as
what it really is (a motion for summary judgment) and how the
District Court should have accordingly converted it into a Rule
56 motion and allowed for discovery. See Resp. to Mot. to
Dismiss, ER 42-43.
6 As stated in Fyk’s Opening Brief, if the alleged facts of this
case had to be said to fit any CDA “Good Samaritan” protection

App.110a
Fyk’s “factual” allegations at the dismissal stage
must fail per Batista. See Batista, 2019 WL 3242038,
*4.
In his Opening Brief,7 Fyk discussed the issue of
CDA immunity distinguishing (f)(3) creation versus
development as articulated by Fair Housing (among
other cases) from third-party versus first-party views,
an examination of defamation or false information
cases of a third-party nature where (c)(1) is most
commonly applied, canons of statutory construction
views, and from equitable views. This brief analyzes
CDA immunity from its “Good Samaritan” roots.
CDA immunity has various and distinct applications—and this appeal asks the Ninth Circuit to
clarify those distinctions. Fyk contends that judicial
construction of CDA immunity in cases like Sikhs or
Lancaster, for examples, is misguided because tech
giants (like Facebook) are exploiting the CDA confusion
that they have deliberately created in order to profit
from unfair business practices and interference with
competing business. Instead, Fyk contends that judicial
construction of CDA immunity in cases like Fair
Housing, Perkins, and Fraley, for examples, is correct
and provides the public with clarity on what conduct
by the “enforcer” of the CDA (here, Facebook) is
immunized.
paradigm, it would be the (c)(2)(A) paradigm, not the (c)(1) paradigm.
7 See [D.E. 12] (wherein the bulk of Fyk’s discussion focused on
the Fair Housing Court’s “development” versus “creation”
distinction because such distinction is easy to understand and
to apply here given the facts alleged by Fyk are the perfect
example of “development,” “in whole or in part,” in the Subsection
(f)(3) context).

App.111a
III. Legal Analysis
A. Section A.1 of Answering Brief Is Errant—
The District Court’s Dismissal Order Never
Examined “Development,” It Wrongly Treated
This as a Pure “Creation” Case
Facebook posits that the District Court did not
err in failing to find that Facebook was not a
“developer” of the subject content. See [D.E. 17] at 9.
The District Court’s dismissal order, however, never
examined or considered the concept of “developer” in
the CDA at all, much less in the context of Fair
Housing. As previously described: “Facebook and the
District Court ‘ignored the nature of Plaintiff’s
allegations, which accuse Defendant not of [(de-)
creating tortious content, but rather . . . of [tortiously]
developing’ Fyk’s businesses/pages (and, necessarily,
the supposed violative content therein) for Fyk’s
competitor.” [D.E. 12] at 26. The dismissal order
completely ignored the critical “development” versus
“creation” distinction in wrongly treating Fyk’s case
as a pure “creation” case. See Section V.B of Fyk’s
Opening Brief.8
B. Section A.2 of Answering Brief—Facebook’s
Tortured View of CDA Immunity Is Untenable
Facebook argues that under this Court’s decision
in Barnes, (c)(1) provides immunity for “all publication
8 Facebook again misses the mark with the cases it cites on
pages 11-13 (and footnote 4) of its Brief. This case is not about
Facebook’s “proliferation and dissemination” of Fyk’s content,
let alone across other non-Facebook search engines. Again, this
case is about Facebook being an active hand in commandeering
Fyk’s content and developing same for someone else.

App.112a
decisions, whether to edit, to remove, or to post.” See
[D.E. 17] at 14-15. But in Barnes (and other cases
cited at footnote 6 of Facebook’s Brief), distinguishable
in myriad respects, discrimination between one
preferred party who paid Facebook a lot of money
and another lower paying (and, thus, non-preferred)
party was not at play as it is here. The District
Court’s dismissal order did not distinguish these
cases and Fyk contends that the Barnes opinion,
which refers to (c)(1) as “shield[ing] from liability all
publication decisions,” was not intended to apply to
circumstances where (as here) Facebook cherry-picked
which parties to censor via the CDA (lower paying,
non-preferred parties like Fyk) and not to censor
(higher paying, preferred parties like Fyk’s competitor),
while simultaneously ignoring the same content (Fyk’s
own content) from preferred publishers who paid
Facebook lots of money. This Court should not allow
CDA immunity to be misused when it is not a shield
from liability but a sword to vanquish a non-paying
(or lesser paying) participant to enhance Facebook’s
profit.
Whereas Fyk’s Opening Brief contains a lengthier
discussion of the Fair Housing Court’s well-articulated
“development”/“action” versus “creator” distinction
under (f)(3), this brief will show how Facebook’s Brief
continues to rewrite Fyk’s allegations and misdirect
CDA immunity. The District Court endorsed Facebook’s
skewed interpretation of the CDA (based on a distorted
interpretation of Fyk’s allegations, improper in a
motion on the pleadings), resulting in legitimate concerns that (1) the purpose of the CDA would be
hijacked for commercial exploitation, (2) the additional
havoc Facebook would wreak on Fyk in the meantime

App.113a
would exacerbate the already significant damages he
has suffered as a result of Facebook’s tortious interference, fraud, extortion, and unfair competition, and
(3) the havoc tech giants would wreak on the
Internet community and free market in the meantime
would be devastatingly insuperable.
This Court simply cannot take Facebook’s bait,
especially with so much on the line for Fyk and the
Internet community. Accordingly, this brief focuses
on what this case is really about (as actually pleaded
by Fyk) and what the law really is (as actually
espoused by this Court in at least Fair Housing and/
or as made clear by the germane CDA subtitle itself—

Protection for “Good Samaritan” Blocking And
Screening Of Offensive Material).

Subsection (c) of the CDA, which is what the
early stages of this litigation have entirely revolved
around, is entitled Protection for “Good Samaritan”
Blocking and Screening of Offensive Material. And,
so, we look to California’s Health and Safety Code for
the meaning of “Good Samaritan,” providing, in
pertinent part, as follows:
(a) No person who in good faith, and not for
compensation, renders emergency medical
or nonmedical care at the scene of an
emergency shall be liable for any civil
damages resulting from any act or omission
....
(b)

...
(2) Except for those persons specified in
subdivision (a), no person who in good
faith, and not for compensation, renders
emergency medical or nonmedical care

App.114a
or assistance at the scene of an emergency shall be liable for civil damages
resulting from any act or omission
other than an act or omission constituting gross negligence or willful or
wanton misconduct. . . .
Cal. Health & Safety Code § 1799.102 (emphasis
added).
Per California’s Health and Safety Code, “Good
Samaritanism” involves one of two things: “act[ion]”
or a failure to act (“omission”). If a person’s action or
omission is grounded in good faith, unrelated to compensation, and does not constitute gross negligence or
willful/wanton misconduct, such action or omission
will not subject that person to civil damages.
Again, Subsection (c) of the CDA is entitled Protection for “Good Samaritan” Blocking and Screening
of Offensive Material. The Legislature does not do
things for the heck of it. For example, in Fyk’s
Opening Brief, we discussed the surplusage canon of
statutory construction to underscore that the Legislature could not have intended (c)(1) to mean the
same thing as (c)(2)(A) as Facebook contends.9 The
Legislature placed emphasis on the phrase “Good
Samaritan” (quotation marks) to draw a parallel
between Subsection (c) and “Good Samaritan” laws/
concepts.
“Good Samaritan” assistance laws (e.g., California
Health & Safety Code § 1799.102) revolve around the
concept of (in)action. And so too do the “Good Sam9 Facebook’s Brief, [D.E. 17] at 17, asserts that (c)(1) covers everything, but, if not, (c)(2) somehow picks up the slack.

App.115a
aritan” Internet content policing laws (CDA, Title 47,
United States Code, Section 230(c)). If Jane walks by
a burning vehicle with John inside and pulls John
out of the vehicle, the “Good Samaritan” (Jane) is
free from any liability arising out of such action (e.g.,
if John’s arm is broken when pulled out) if Jane’s
actions were done in good faith and did not otherwise
constitute gross negligence or willful/wanton misconduct. Same with Subsection 230(c)(2)(A), which is
the action prong (“any action taken”) of the Internet’s
“Good Samaritan” content policing law (the CDA).
Not-so-coincidentally, (c)(2)(A) has the words
“action,” “good faith,” and “voluntary” (i.e., free from
compensation) built right into it. Subsection
230(c)(2)(A) immunizes the “provider or user of an
interactive computer service” from any liability associated with taking “good faith” “action” to rid (“block
or screen”) the Internet of filth, for example. This
makes sense—the Internet “Good Samaritan” (i.e.,
“provider or user of an interactive computer service”)
should be encouraged in such actions, not somehow
be subjected to liability for same. That is, so long as
such actions are done in good faith (not so here) and
not motivated by compensation (not so here), which
would strip the user or provider of the interactive
computer service of any “Good Samaritan” protections
he/she/it may have otherwise enjoyed. Having sorted
out the simple meaning/intent/application of 230(c)
(2)(A) within the precise (yet wonderfully simplified)
“Good Samaritan” context that the Legislature plainly
intended (as evidenced by Subsection (c)’s emphasized
title), we now turn to the “Good Samaritan” analysis
of (c)(1).

App.116a
Subsection 230(c)(1) offers some immunity to
those who do not act; i.e., omit. In most jurisdictions,
unless a caretaker relationship exists or the “Good
Samaritan” caused the peril, no person is required to
give aid to someone in need. That is what the
Legislature recognized in relation to 230(c)(1) of the
Internet’s “Good Samaritan” law. Subsection 230(c)(1)
recognizes that a “provider or user of an interactive
computer service” who is a mere “passive conduit” (to
borrow Fair Housing language) to “any information
provided by another information content provider” is
immune from liability arising out of the information
provided by another. That makes sense—it would not
be fair to task Facebook with extinguishing every car
fire that arises on its interactive computer service
and/or rescuing every individual trapped within the
burning car; hence, (c)(1) which does not hold Facebook
liable for information provided by another. That is,
so long as Facebook has nothing to do with the
content (e.g., is not a “developer,” “in whole or in
part,” of the content) and Facebook’s inaction decision
is not motivated by its own compensation, neither of
these situations being present here.
As to the concept of development (captured by
(f)(3)), a “Good Samaritan” is not somebody who
“develops” the burning vehicle by, for example, pouring
gasoline on same. Nor is a “Good Samaritan,” as
another example, somebody who “develops” the situation by extracting the helpless/immobile individual from
the burning vehicle and laying him/her in the middle
of the busy highway to be runover. That is where (f)(3)
steps in.
Per (f)(3)-recognized development (and the Fair
Housing decision, for example, fleshing out the meaning

App.117a
of development and how such falls outside of any
CDA immunity) the provider or user of the “interactive
computer service” becomes an “information content
provider” with no “Good Samaritan” immunity/protection the moment the provider or user engages in
the “development” of information, “in whole or in
part.” The passerby of the burning vehicle does not
enjoy “Good Samaritan” immunity/protection for some
action taken unrelated to the “Good Samaritanism”
(e.g., pouring gasoline on the burning car, akin to
what Facebook did with Fyk’s “car” after Facebook
itself set his car on fire—extinguished the fire,
steered the car to someone else, and refurbished the car
for its financial compensation) and ordinary “Good
Samaritan” laws (like California’s version, supra) reinforce this reality by making clear that any gross
negligence and/or willful/wanton misconduct does not
enjoy “Good Samaritan” immunity.
Here, as discussed in Fyk’s Opening Brief, in the
absence of any affirmative act of commercial preference,
Facebook might have been entitled to (c)(2)(A) “Good
Samaritan” immunity as to its pre-October 2016
destruction of Fyk’s businesses/pages if it had
demonstrated that such destruction flowed from mere
“good faith” content policing/regulation.10 But these
are issues of fact that should not be summarily adju10 In addition to Facebook’s not being able to establish (c)(2)(A)
good faith in relation to its pre-suit crippling of Fyk on purported (c)(2)(A) grounds because there is no way Fyk’s content could
have been CDA-violative for him and not for his competitor,
Facebook’s arbitrary treatment in general of what purportedly
constitutes spam/obscene content that purportedly violates its
community policy also renders the tech giant unable to establish good faith.

App.118a
dicated on a motion on the pleadings. See, e.g., Spy
Phone Labs, LLC v. Google, Inc., No. 15-cv-03756KAW, 2016 WL 6025469, *8 (N.D. Cal. Oct. 14, 2016)
(a (c)(2)(A) immunity defense “cannot be determined
at the pleading stage[,]” but may be raised “at a later
stage, such as summary judgment”). Fyk is entitled to
demonstrate Facebook was not acting in “good faith”
(because, again, there is nothing “good faith” about
deeming Fyk’s content violative of (c)(2)(A) while in
his possession and not violative while in his competitor’s possession). On this appeal, what matters
is Fyk’s Complaint alleges Facebook’s post-October
2016 misconduct (of a willful/wanton nature motivated by commercial gain) was targeted and intended
to injure Fyk’s businesses/pages, removing Facebook
from any “action-” oriented (c)(2)(A) “Good Samaritan” protection and any “inaction-” oriented (c)(1)
“Good Samaritan” protection per (f)(3) (and case law
properly applying same; e.g., Fair Housing, Fraley,
Perkins).
Facebook took action in tortiously interfering
with Fyk’s businesses/pages. Facebook took action by
conspiring with Fyk’s competitor to revalue and
develop Fyk’s information (without his consent) before,
during, and after the fire sale of his businesses/pages
in order to augment its own compensation. Fyk is not
treating Facebook as the publisher, speaker, or creator
of his own content, which such treatment (if present,
which it is not) could perhaps enjoy some (c)(1)
immunity. Rather, Fyk alleges that Facebook was a
“developer” of Fyk’s information “in whole or in part”
(for Fyk’s competitor, and for Facebook’s own enrichment because the competitor was/is Facebook’s valued
participant and advertising partner), rendering Face-

App.119a
book an “information content provider” per (f)(3)
ineligible for “Good Samaritan” protection/immunity
under (c). Put differently, Fyk alleges Facebook took
action (motivated in bad faith and/or in money) as to
his businesses/pages that rose far above a “Good
Samaritan” nature, thereby divesting Facebook of
any “Good Samaritan” immunity/protection rights
under the Internet’s “Good Samaritan” law—
Subsection 230(c) of the CDA.
C. Section B of Answering Brief—Facebook’s Bait
and Switch Should Be Estopped and Fyk’s
Reliance on Fair Housing Was Not Somehow
Waived in the Process
Fyk thoroughly analyzed estoppel in his response
to Facebook’s motion to dismiss, see Resp. to Mot. to
Dismiss, ER at 49-50, and in abbreviated form in his
Opening Brief, see [D.E. 12] at Section V.D, both of
which such discussions are incorporated fully herein
by reference.
Facebook oddly posits that Fyk somehow waived
an argument that he expressly articulated in the
District Court. See, e.g., [D.E. 17] at 2 (“Mr. Fyk did
not advance the [development] argument in the proceedings below and so it was waived”) and 10 (“to the
extent this tardy argument has not been waived”).
Facebook’s assertion is untrue. First, there was plenty
said in Fyk’s response to Facebook’s motion to dismiss
about Facebook’s own conduct (i.e., its “developing”)
rendering it an “information content provider” by
(f)(3) definition subject to no CDA immunity whatsoever
per Fair Housing. See [D.E. 12] at 17-18 (discussing
the motion to dismiss response’s discussion of Fair
Housing, inter alia); see also, e.g., Resp. to Mot. to

App.120a
Dismiss, ER 46-49. Second, any Facebook argument
that Fyk purportedly said too little on a particular
topic at any stage in prior briefing is disingenuous
given, among other things, the District Court’s
dismissal order declined to discuss the merits, instead
relying on the application of a blanket immunity
without analysis.
Facebook obfuscates the facts actually alleged by
Fyk and confuses interpretation of CDA immunity.
All of Facebook’s pre-suit representations to Fyk
were that the content displayed on Fyk’s businesses/pages was purportedly violative of (c)(2)(A). In
an about-face, Facebook’s motion to dismiss pointed to
(c)(1) and advanced an even more audacious position—that (c)(1) purportedly carte blanche immunizes
any Facebook conduct (including intentional and discriminatory conduct for profit) and subsumes (c)(2)
(A) as well as renders (f)(3) worthless fluff. See [D.E.
17] at 17.
Regardless of Facebook’s morphing positions,
neither position is supported by the applicable
authorities or the facts as alleged in Fyk’s Complaint.
Fair Housing, 521 F.3d 1157.
D. Section C of Answering Brief—the District
Court Erred When It Permitted Facebook to
Mischaracterize “Facts” and Create an
Unprecedented Expansion of CDA Immunity
The legal standard the District Court was required
to apply is: “[w]e must ‘take all allegations of material
fact as true and construe them in the light most
favorable to the nonmoving party.’” Batista, 2019 WL
3242038, *4. Despite this standard, Facebook’s Brief
compounds its dismissal motion practice in continuing

App.121a
to rewrite Fyk’s allegations with no support. Contrary
to Facebook’s Brief, the facts (as alleged by Fyk) actually are:11
•

Facebook’s Brief nakedly asserts that it is a
figment of Fyk’s imagination that Facebook
destroyed Fyk’s businesses/pages in order to
make room for its own sponsored (compensated)
advertisements and to strong-arm him into
paying to advertise. [D.E. 17] at 1.
o Wrong. That is not Fyk’s imagination, that
is Fyk’s well-founded allegations. See, e.g.,
Complaint, ER 20-21, at ¶¶ 35-40.

•

Facebook’s Brief nakedly asserts that Fyk
“contends that Facebook had no valid basis to
block his content because Facebook did not
block similar content on other users’ Facebook
pages.” Id. at 2.
o This is a half-truth, which is a half lie. The
half lie is that “similar content” is not Fyk’s
only contention; rather, Fyk’s prior filings
make abundantly clear that Facebook

11 Section V.A of Fyk’s Opening Brief speaks more to Facebook’s
interjection of fudged “facts,” and is incorporated fully herein by
reference. See [D.E. 12] at 12-16. Moreover, Section E of Fyk’s
Response in Opposition to Motion to Dismiss (ER 50-52) speaks
more to Facebook’s interjection of fudged “facts,” and is incorporated fully herein by reference. In sum, Facebook’s dismissal
effort has always been a thinly veiled premature motion for
summary judgment and needs to be treated as such. See Resp.
to Mot. to Dismiss, ER 42-43 (explaining when a motion to
dismiss needs to be converted to a motion for summary judgment and how, necessarily, discovery needs to unfold before
adjudication can occur).

App.122a
blocked “identical content” on other pages
and on his own pages.
•

Facebook’s Brief nakedly asserts that the
competitor who Fyk was forced to fire sell the
businesses/pages to due to Facebook’s crippling
same “republished some of the pages on the
Facebook platform.” Id. Facebook spends a
great deal of time trying to convince the Court
that it was a mere “passive conduit” as to the
competitor’s supposed voluntary re-publishing
of Fyk’s businesses/pages that Facebook had
steered to the competitor. Id. at 9-13.
o Wrong. Fyk’s well-founded allegations are
that Facebook actively developed the businesses/pages (as an “information content
provider” by (f)(3) definition) before, during,
and after they went to the competitor. See,
e.g., Complaint, ER 22-24, at ¶¶ 42-46. The
competitor could not have re-published the
businesses/pages, it was Facebook only that
did so. There is nothing about the Complaint that remotely suggests Facebook
was a mere passive conduit in relation to
the competitor’s re-publication of the subject
businesses/pages. Everything about the
Complaint is that Facebook had the lion’s
share of responsibility for getting the businesses/pages to a higher paying competitor
of Fyk’s and full responsibility in actively
restoring the businesses/pages (not just
sitting back and watching the competitor
do it) once the businesses/pages were with
the competitor.

App.123a
•

Facebook’s Brief nakedly asserts that Fyk is
trying to hold it liable for “reviewing, editing,
and deciding whether to publish or to withdraw
from publication third-party content.” Id. at 7,
14-16.
o This is a half-truth, which is a half lie. First,
part of what is false about this statement
is Fyk is suing in a first-party posture, so
he is not accusing Facebook of thirdparty activities. Second, part of what is
half true about this statement is that Fyk
is holding Facebook accountable for its preOctober 2016 actions. But the half lie is that
Fyk is not seeking to hold Facebook accountable under (c)(1) (which has nothing to do
with content policing) but instead under
(c)(2)(A) because nothing about Facebook’s
pre-October 2016 wanton misconduct was
“good faith.” Third, there is Facebook’s view
that this case is about content. Wrong, that
completely misses the thrust of the lawsuit, which is Facebook’s post-October 2016
“development” of Fyk’s businesses/pages
for a higher Facebook paying competitor of
Fyk’s. Facebook’s chatter about Barnes,
Sikhs, Riggs, et cetera could not be further
amiss. The situations underlying Facebookcited case law are not our situation. This is
not a situation where Fyk is trying to hold
Facebook accountable for what the content
is. Rather, again, Fyk is suing Facebook
for taking the extra (and illegal) development-oriented actions related to his businesses/pages (namely in conjunction with the

App.124a
Los Angeles competitor of Fyk), thereby
removing Facebook from any CDA immunity
according to (f)(3) and cases appropriately
applying same (again, like Fair Housing
where it was recognized that an “interactive
computer service” can lose immunity by
going too far in its actions). Fyk is seeking
to hold Facebook accountable for throwing
gas on the proverbial fire for its own
financial compensation. Again, the District
Court (and this Court) are to accept Fyk’s
allegation as true, not accept as true
Facebook’s bald statement that this case is
all about Facebook’s decision to remove
or “passively” host Fyk’s posts (again,
which would only even relate, at best, to
the pre-October 2016 conduct discussed in
the Complaint, not the post-October 2016
conduct that represents the heart of Fyk’s
case).
•

Facebook’s Brief, distilled, asserts that (c)(1) “by
itself” immunizes any action or illegality in its
entirety, but if not, (c)(2) does so as well even
if it develops the information. Id. at 17.
o Wrong. This is the epitome of circular
rubbish that further bolsters Fyk’s Opening Brief point that Facebook is absurdly
viewing (c)(2) as mere surplusage to (c)(1),
which contravenes canons of statutory
construction. Facebook’s cobbling together
pieces of cases to come up with the absurd
proposition set forth on page seventeen of
its Brief is, well, absurd. The Legislature
intended very different things of (c)(1) and

App.125a
(c)(2)(A), and Fyk has amply laid out the
differences in his Opening Brief and in this
brief within the confines of dumb-downed
“Good Samaritan” concepts tracking the
“Good Samaritan” title of 230(c). And (f)(3)
makes clear that (c) immunity has its
bounds, ending when someone is converted
into an “information content provider” via
development/active hand relating to the
subject content. Facebook’s wild notion on
page seventeen of its Brief would gut (f)(3)
and case law (e.g., Fair Housing) saying all
CDA immunity is lost once one is deemed
to develop and converts oneself into an
information content provider.
E. Section D of Answering Brief—“Failure to
State a Claim” Was Not Decided Below and
Is Not the Crux of This Appeal
In the one paragraph that Facebook’s Brief
dedicates toward rejuvenating its “failure to state a
claim” dismissal chatter, it cites Kohl v. Bed Bath &
Beyond of Cal., LLC, 778 F.3d 827, 829 (9th Cir.
2015) for the notion that this Court can consider its
“failure to state a claim” arguments in this appeal.
See [D.E. 17] at 20. Although the Kohl case is offbase in context, we do not quarrel with the notion
that this Court, although “[t]here is no bright line
rule,” may rule on an issue not ruled on by the District Court if such issue was “raised sufficiently for
the trial court to rule on it.” See In re E.R. Fegert,
Inc., 887 F.2d 955, 957 (9th Cir. 1989) (internal
citations omitted).

App.126a
Here, the “failure to state a claim” issue was
fully briefed in the underlying dismissal motion practice. See, e.g., Resp. to Mot. to Dismiss, ER 52-55. In
the event that this Court, in its discretion, wishes to
venture outside what is truly at issue in this appeal
and in the District Court’s dismissal order (CDA
immunity), then Fyk stands on the “failure to a state
a claim” briefing found in his response to Facebook’s
motion to dismiss. See id.
IV. Conclusion
We respectfully request that this Court put an
end to the complexity and confusion that tech giants
(like Facebook) have worked into the CDA over the
years. The CDA is easy, it is just the Internet’s “Good
Samaritan” law with three very simple outcomes: (1)
“Good Samaritan” action, as to content, is taken and
enjoys (c)(2)(A) immunity so long as (a) the action is
grounded in good faith, (b) the action is not compensation driven, and (c) the action is not infected by
gross negligence and/or willful/wanton misconduct,12 (2)
inaction/omission as to content “unfolds” and enjoys
some (c)(1) immunity so long as (a) the inaction/
omission is grounded in good faith, (b) the inaction/
omission is not compensation driven, and (c) the
inaction/omission is not infected by gross negligence
and/or willful/wanton misconduct,13 or (3) action as
12 This is content policing/regulation whereby an “interactive
computer service” affirmatively restricts content it deems filthy
(for example), which such “action” can enjoy (c)(2)(A) immunity
so long as such is done in “good faith.”
13 This is the “passive conduit” recognized by Fair Housing, inter
alia. In other words, for example, when an “interactive computer
service” does nothing when John is accusing Jane of a defamatory

App.127a
to content unfolds that is not of “Good Samaritan” ilk
and/or develops the situation underlying the “Good
Samaritan” assistance (e.g., pouring gasoline onto
the burning car).14
And yet Facebook’s Brief would have the Court
prescribe to the circular madness punctuated on page
seventeen of its Brief.
When considering 230(c), protections for “Good
Samaritan” blocking and screening of offensive
material, we must ask whether Facebook’s actions
were that of a “Good Samaritan?” No. Were Facebook’s
actions done in “good faith?” No. Were Facebook’s
actions done for its own financial compensation? Yes.
Were Facebook’s actions negligent or wanton and
willful misconduct? Yes. Was this really about content
or really about Facebook’s strategy to unlawfully
destroy less valuable participants (like Fyk) in order
to develop more valuable participants (like Fyk’s
competitor)? The latter. Facebook’s own manager,
Tessa Lyon, said it clearly: “ . . . so, going after actors
and domains (like Fyk) and reducing their distribution,
removing their ability to monetize, removing their
ability to advertise is part of our strategy.” Is this
“strategy” about blocking or screening offensive content
post on the “interactive computer service,” the “interactive
computer service” can enjoy (c)(1) immunity because its “inaction”
cannot be said to morph it into an “information content provider.”
14 This is the “developer” recognized by Fair Housing, inter
alia. In other words, when the “interactive computer service”
actively engages in someone’s content, the “the interactive
computer service” is rendered an “information content provider”
subject to no CDA immunity.

App.128a
or about Facebook’s unlawful behavior underlain by
its own compensation motivations? The latter.
For all of the foregoing reasons, whether considered separately or together, Fyk respectfully
requests this Court’s reversal of the Dismissal Order
and remand to the District Court for resolution on
the merits.

App.129a
CERTIFICATE OF COMPLIANCE
Undersigned counsel certifies that this brief
complies with Federal Rule of Appellate Procedure
32 (a)(7)(B)(ii) because the type-volume limitation
does not exceed 6,500 words (exclusive of this certificate,
cover pages, signature block, and certificate of service).
This Reply Brief includes 6,499 words. This brief
complies with the typeface requirements of Federal
Rule of Appellate Procedure 32(a)(5) and the type
style requirements of Federal Rule of Appellate Procedure 32(a)(6) because this brief has been prepared in
a proportionately spaced typeface using Times New
Roman 14-point font.
Respectfully Submitted,
/s/ Michael J. Smikun, Esq
Sean R. Callagy, Esq.
Callagy Law, P.C.
650 From Rd., Ste 565
Paramus, NJ 07652
msmikun@callagylaw.com
scallagy@callagylaw.com
(201) 261-1700 (o)
(201) 261-1775 (f)
Jeffrey L. Greyber, Esq.
Callagy Law, P.C.
1900 N.W. Corporate Blvd., Ste 310W
Boca Raton, FL 33431
jgreyber@callagylaw.com
(561) 405-7966 (o)
(201) 549-8753 (f)

App.130a
Constance J. Yu, Esq.
Putterman Yu, LLP
345 California St., Ste 1160
San Francisco, CA 94104-2626
cyu@plylaw.com
(415) 839-8779 (o)
(415) 737-1363 (f)

Attorneys for Plaintiff-Appellant, Fyk
Dated: January 3, 2020

App.131a
PETITION FOR REHEARING EN BANC
(JULY 26, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
JASON FYK,

Plaintiff-Appellant,
v.
FACEBOOK, INC,

Defendant-Appellee.
________________________
No. 19-16232
On Appeal from Dismissal with Prejudice and Judgment of the United States District Court
for the Northern District of California,
No. 4:18-cv-05159-JSW (Hon. Jeffrey S. White)
(Before: M. SMITH and HURWITZ, Circuit Judges,
and EZRA, District Judge; Opinion filed June 12, 2020)
Callagy Law, P.C.
Sean R. Callagy, Esq.
scallagy@callagylaw.com
Michael J. Smikun, Esq.
msmikun@callagylaw.com
650 From Rd., Ste 565
Paramus, NJ 07652
(201) 261-1700 (o)
(201) 261-1775 (f)

App.132a
Callagy Law, P.C.
Jeffrey L. Greyber, Esq.
jgreyber@callagylaw.com
1900 N.W. Corporate Blvd., Ste 310W
Boca Raton, FL 33431
(561) 405-7966 (o)
(201) 549-8753 (f)
Putterman Yu, LLP
Constance J. Yu, Esq.
cyu@plylaw.com
345 California St., Suite 1160
San Francisco, CA 94104
(415) 839-8779 (o)
(415) 737-1363 (f)

Attorneys for Plaintiff-Appellant
[TOC & TOA Omitted]
STATEMENT OF COUNSEL
IN SUPPORT OF REHEARING EN BANC
On May 28, 2020, a fortnight before the Ninth
Circuit ruled on Appellant Fyk’s appeal from the District Court’s dismissal of his action (without leave to
amend), a historic event occurred without mention by
the Panel—President Trump entered an Executive
Order (“EO”) challenging Social Media companies’
ability to shield their conduct behind purported CDA
Section 230 immunity.
In conjunction with this EO (which Fyk acknowledges is not controlling on the Ninth Circuit), the
Attorney General of the United States said:
In the years leading up to Section 230,
courts had held that an online platform that

App.133a
passively hosted third-party content was
not liable as a publisher if any of that content
was defamatory, but that a platform would
be liable as a publisher for all its thirdparty content if it exercised discretion to
remove any third-party material.
[***]
At the same time, courts have interpreted
the scope of Section 230 immunity very
broadly, diverging from its original purpose.
This expansive statutory interpretation,
combined with technological developments,
has reduced the incentives of online platforms
to address illicit activity on their services
and, at the same time, left them free to
moderate lawful content without transparency
or accountability. The time has therefore
come to realign the scope of Section 230
with the realities of the modern Internet so
that it continues to foster innovation and free
speech but also provides stronger incentives
for online platforms to address illicit material
on their services. (emphasis added).
In Section I, we discuss the impact of this EO
and AG Barr’s analysis on Fyk’s case and how the
Panel’s Opinion used an unprecedented expansive,
statutory application of the CDA to allow Facebook
immunity from liability without a requisite showing
of good faith while Facebook engaged in all manner
of anticompetitive and abusive actions that in any
other commercial context would give rise to actionable
tort claims. Conversely, the Panel Opinion (in)directly
employed an inappropriately restrictive interpretation
of “development,” in contravention of Ninth Circuit

App.134a
authority; e.g., Fair Housing Council of San Fernando
Valley v. Roommates.com, LLC, 521 F.3d 1157 (9th
Cir. 2008) and Enigma Software Grp. USA, LLC v.
Malwarebytes, Inc., 946 F.3d 1040 (9th Cir. 2019).
The Ninth Circuit’s ruling in Fyk’s case creates a
dissonance in the Ninth Circuit’s statutory interpretation of the CDA, which Judge Fisher in Zango
presciently warned in 2009 would problematically
permit CDA immunity to advance an anticompetitive
agenda. (Zango, Inc. v. Kaspersky Lab, Inc., 568 F.3d
1169, 1178 (9th Cir. 2009).) This is what precisely
happened here.
In Section II, we discuss how Facebook did not
act as a Good Samaritan when Facebook: (1) restricted
Fyk’s information in bad faith; and (2) took action to
solicit a new higher paying participant (Fyk’s competitor), and materially contributed to the development of Fyk’s information for Fyk’s competitor for
commercial profit. Fyk’s case is about Facebook’s
development of Fyk’s information for a competitor for
which Facebook is paid by that competitor. Fyk’s
case seeks to hold Facebook responsible for fraud,
extortion, unfair competition, and tortious interference
with Fyk’s economic advantage based on Facebook’s
anticompetitive animus.
This case is not about free speech, the offensive
nature of content, or about holding an interactive
service provider liable for statements of “the” publisher.
Instead, to fit this square peg into a round hole, the
Panel Opinion created confusion about the interaction
between 230(c)(1) and 230(c)(2). Fyk’s appeal distinguishes Facebook’s liability as “a” publisher for its
unlawful actions from Facebook’s immunity as “the”
publisher (relative inactions) for defamation purposes,

App.135a
thereby avoiding any statutory redundancy between
230(c)(1) and 230(c)(2).
Importantly, regardless of whether Facebook was
“a” publisher or “the” publisher, the protections of
230(c)(1) are unavailing to Facebook because its actions
are inconsistent with 230(c) “Good Samaritan.” Fyk
identified, and the Panel Opinion accurately acknowledged, “Facebook allegedly took its actions for
monetary purposes.” This allegation, taken as true as
it must be on a motion to dismiss, results in Facebook
losing its immunity, consistent with the position of
the Ninth Circuit in Enigma. A Ninth Circuit panel
originally recognized this limitation in its September
12, 2019, Enigma opinion (946 F.3d at 1051). Even
after vigorous opposition by Defendant Malwarebytes
in a Petition for Rehearing En Banc, the Ninth Circuit
rejected that effort, and the Panel issued an amended
opinion reaffirming the good-faith limitation on the
“Good Samaritan” provision of Section 230. The
Ninth Circuit has already found that Section 230
does not immunize blocking and filtering decisions
that are driven by “anti-competitive animus.” Accordingly, the Panel’s ruling on Fyk’s appeal is untenable
under existing Ninth Circuit precedent, and now,
with the Executive Order and Attorney General’s
analysis. Exhs. A (Panel Ruling); B (Executive Order);
and C (AG’s Analysis).
In Section III, we discuss the additional facts
that Fyk could have argued to overcome Plaintiff’s
Section 230 Immunity if leave to amend his original
complaint was not summarily denied by the District
Court.
Accordingly, this case is appropriate for en banc
consideration because: consideration by the full Court

App.136a
is necessary to secure uniformity of the Court’s decisions and the proceeding involves a question of
exceptional importance.
I.

The Panel’s Opinion Overlooked the EO Entered
by President Trump on May 28, 2020, and the
Analysis by Attorney General William Barr That
Comports with Appellant Fyk’s Analysis

The President of the United States’ recent EO
13925 accurately identified the same issue Fyk has
raised in this case. The EO, entitled “Executive
Order on Preventing Online Censorship,” states, in
pertinent part, as follows:
When an interactive computer service provider removes or restricts access to content
and its actions do not meet the criteria of
subparagraph (c)(2)(A), it is engaged in
editorial conduct. It is the policy of the
United States that such a provider should
properly lose the limited liability shield of
subparagraph (c)(2)(A) and be exposed to
liability like any traditional editor and
publisher that is not an online provider.
(i)

the interaction between subparagraphs (c)(1)
and (c)(2) of section 230, in particular to
clarify and determine the circumstances
under which a provider of an interactive
computer service that restricts access to
content in a manner not specifically protected
by subparagraph (c)(2)(A) may also not be
able to claim protection under subparagraph
(c)(1), which merely states that a provider
shall not be treated as a publisher or speaker
for making third-party content available

App.137a
and does not address the provider’s responsibility for its own editorial decisions;
(ii) the conditions under which an action restricting access to or availability of material is not
“taken in good faith” within the meaning of
subparagraph (c)(2)(A) of section 230, particularly whether actions can be “taken in good
faith” if they are:
a.

deceptive, pretextual, or inconsistent with
a provider’s terms of service;

EO 13925 (emphasis added). This EO could have
been drafted by Fyk based off of Fyk’s circumstances.
Facebook’s selective application of the CDA as a
pretext for tortious interference and unfair competition
with Fyk’s business is not the type of conduct that
would qualify as “good faith.” Facebook was not
“passively” displaying content and uniformly enforcing
the CDA as to all content providers; it was “actively”
developing winners (like Fyk’s competitor) and losers
(Fyk) based on Facebook’s financial motivations. Like
the President, Fyk contends that where Facebook’s
application of the CDA is a purposeful commercial
activity, Facebook enjoys no (c)(1) or (c)(2)(A) immunity
whatsoever. See also, e.g., Fair Housing and Enigma.
Here, Facebook is attempting to hide behind its
role of a service provider while hiding its true function
as a developer. The Batzel Court indicated that the
“development of information” that transforms one
into an “information content provider” is “something
more substantial than merely editing portions of an
email and selecting material for publication.” Batzel
v. Smith, 333 F.3d 1018, 1031 (9th Cir. 2003).

App.138a
Both creation and development are publishing
functions which have been conflated terms. The idea
of “the” publisher is “the” creator who brought the
content into existence; i.e., the originator; i.e., the
person who took action. 1 Where, for example, the
creator is the “writer” and the service provider is the
“publication,” the publication would be liable for
what the writer created because the action to publish
the information was taken by the publication. If the
publication does not take any action with regards to
the creation (or development) of the information provided entirely by the writer, the publication cannot be
held liable for what the writer has created. In the
Internet context, this is the protection of 230(c)(1).
However, in the interest of preventing offensive content
being passively hosted on the publication, 230(c)(2)
provided the publication the ability to take action to
restrict what the writer published without fear of
liability. No other actions taken by the publication
are immunized including republication, promoting,
or developing information based on quality or value.
Had Facebook not taken any action to solicit a
new owner or contribute to Fyk’s information in any
way, Facebook would have remained a “passive” host
exercising its discretion to uniformly restrict materials
and 230 immunity would apply. But where (as here)
a website acts as a developer of the information, it is
1 Of note, the majority opinion in Fair Housing spent a great
deal of time explaining the difference between “creation” and
“development” and criticizing the dissenting opinion for the
conflation of the terms. Here, it seems the Panel Opinion (at
least as it concerns “creation” versus “development”) was inappropriately more aligned with the Fair Housing dissent than with
the majority.

App.139a
“a” publisher, even if it is not the originator; i.e.,
“the” publisher of the content. Facebook became a
developer by way of materially contributing to the
growth and distribution of Fyk’s published materials
for Fyk’s competitor predicated on the contingent
removal of Fyk.
How does a factfinder determine where creation
stops and development begins? As explained in Batzel,
the party responsible for putting information online
may be subject to liability, even if the information
originated with a user. See Batzel, 333 F.3d at 1033.
That is the case here. Fyk is not seeking to treat
Facebook as “the” publisher, such as in the context of
a defamation action. Rather, Fyk is seeking to treat
Facebook as “a” publisher, responsible for its own
action as a content provider, manipulating Fyk’s
information in order to compensate itself through the
solicitation of a higher value participant. Actions
taken by a service provider (Facebook) are not immune
when they develop a user’s (Fyk’s) information, as
such turns the service provider into a content provider.
This is where the confusion with the District
Court(and the Panel) apparently exists. Section 230
distinguishes between “passive” or engaging in “good
faith” restrictions under (c)(2)(A) and active republishing, making available, (re)creation, origination, solicitation, advancement or promoting growth of content.
These actions transform a service provider into a
content provider. Said differently, restricting materials
without discrimination is the only “active” publishing
action protected under 230(c), “passive” hosting is
inaction and is protected by 230(c)(1), and any other
actions set forth above are not protected activity
under Section 230.

App.140a
Over time, the disparate application of the CDA
immunity has created a shield for anti-competitive
behavior as AG Barr noted. See Exhibit C: DOJ
Review of CDA. Congress enacted Section 230 in part
to resolve this quandary by providing immunity to
online platforms both for third-party content on their
services [(c)(1)] or for removal of certain categories of
content [(c)(2)].
Here, the Panel in Fyk’s case ignored CDA
distinctions. (See, DOJ’s Memo, Ex. C). Courts around
the nation have provided expansive interpretations
of the CDA that has afforded service providers protections not provided for by law who, like here, went
well beyond a passive hosting service, restricting
offensive materials in “good faith.” (e.g. for financial
incentive). Worse, the Panel ignored Ninth Circuit
precedent and sanctioned Facebook’s pre-textual abuse
of the CDA.
II.

The Ninth Circuit’s Analysis of the CDA Immunity
Is Untenable under Its Own Holding in Enigma
and Canons of Statutory Interpretation

The Panel’s decision is untenable under the
analysis and underlying predicate legal and factual
conclusions used to reach the holding in Enigma.2
See id. In principle, Enigma provides that defendants
are not entitled to CDA 230(c) immunity for anticompetitive conduct, the factual and legal basis for Fyk’s
Complaint against Facebook. Albeit distinguishable
2 The Enigma Panel’s decision was published on September 12,
2019, a mere six days before Fyk filed his opening brief in this
Court and the amended opinion on rehearing denial was issued
on December 31, 2019, just a few weeks before Fyk filed his reply
brief.

App.141a
in certain respects, which could (but should not)
result in a default rejection of the discussion in this
section, Enigma provides substantial support for rehearing and careful reconsideration of this matter.
As a threshold matter, the Panel Opinion disregarded a critical distinction that underscores why
Enigma was unique for the Ninth Circuit: like the
Enigma litigants, Fyk and Facebook were direct
competitors. As articulated in Fyk’s complaint,
Facebook promised users (like Fyk) free reach and
distribution in return for their data if they joined and
built their audience on Facebook’s service platform.
Unlike most websites, Facebook did not advertise on
the sides or top of the page, instead Facebook offered
News Feed space for sale which directly displaces its
own users for profit. Facebook in partnership with
advertisers became a direct competitor with its own
users and was incentivized to remove lower value
“organic” participation (Fyk’s) in favor of higher
value “quality” participants who better compensate
Facebook (like Fyk’s competitor).
Moreover, like Fyk here, Plaintiff Enigma’s complaint accused Defendant Malwarebytes of deceptive
business practices, tortious interference with business, and contractual relations in violation of state
and common law. See id. at 1048.
As emphasized in Fyk’s opening and reply briefs,
this case is about anti-competitive activity by Facebook.
It is not about free speech, the offensive nature of
content, or holding an interactive service provider
liable for statements of “the” publisher. As the Enigma
Panel noted, the concurring opinion by Judge Fisher
in Zango, warned that extending immunity beyond
the facts of that case could “pose serious problems”

App.142a
where a provider is charged with using § 230 immunity
to advance an anticompetitive agenda. (Zango, 568
F.3d at 1178). This 2009 opinion proved remarkably
prescient, as Facebook’s sharp practices, unchecked,
have become more brazen over time despite Congressional and law enforcement inquiries (see EO, DOJ
memorandum (Exhs. B, C)), focused on tech giant
abuses such as the abuses Facebook inflicted on Fyk.
Judge Fisher further stated that an “unbounded”
reading of the phrase “otherwise objectionable” would
allow a content provider to “block content for
anticompetitive purposes or merely at its malicious
whim.” Id. That is exactly Facebook’s pre-text for
their anti-competitive and tortious behavior.
As the Panel in Enigma noted:
We must today recognize that interpreting
the statute to give providers unbridled discretion to block online content would, as
Judge Fisher warned, enable and potentially
motivate Internet-service providers to act
for their own, and not the public, benefit.
See 568 F.3d at 1178 (Fisher, J., concurring).
Immunity for filtering practices aimed at
suppressing competition, rather than protecting Internet users, would lessen user
control over what information they receive,
contrary to Congress’s stated policy. See
§ 230(b)(3) (to maximize user control over
what content they view) . . . Users would not
reasonably anticipate providers blocking
valuable online content in order to stifle
competition. Immunizing anticompetitive
blocking would, therefore, be contrary to
another of the statute’s express policies:

App.143a
“removing disincentives for the utilization
of blocking and filtering technologies.” Id.
§ 230(b)(4).

Enigma Software Grp., 946 F.3d at 1051. We agree.
Section 230(c), which is entitled “Protection for
“Good Samaritan” Blocking and Screening of Offensive
Material,” is what the early stages of this litigation
have entirely revolved around.
Looking to the Health and Safety Code for the
State of California—which is simply a proximate
analog—“Good Samaritanism” involves one of two
fundamental things: (“act[ion]”) or a failure to act
(“omission”). So long as a person’s action or omission
is grounded in (a) good faith, (b) unrelated to compensation, and (c) does not constitute gross negligence or willful/wanton misconduct, such action or
omission will not subject that person to civil damages.
The analogous language of 230(c)(2)(A), which is
the action prong (“any action taken”) of the Internet’s
“Good Samaritan” content policing law (the CDA).
Unsurprisingly, 230(c)(2)(A) has the words “action,”
“good faith,” and “voluntary” (i.e., free from compensation) expressly stated. 230(c)(2)(A) immunizes the
“provider or user of an interactive computer service”
from any liability associated with taking “good faith”
“action” to rid (“block or screen”) the Internet of filth,
for example. This is consistent with Congressional
Intent as noted by Enigma, specifically, that the
Internet “Good Samaritan” should be encouraged in
such actions, not somehow be subjected to liability for
such actions. That is, of course, so long as such
actions are not done in bad faith, uniformly applied,
and not motivated by competitive motive like in

App.144a

Enigma and Fyk’s case. This animus voids any “Good
Samaritan” protections it may have otherwise
enjoyed.
230(c)(1) offers immunity to those who do not
act, or omit. No person is required to give aid of any
sort to someone in need absent a special relationship.
230(c)(1) recognizes that a “provider or user of an
interactive computer service” who is a mere “passive
conduit” to “any information provided by another
information content provider” is immune from any
liability arising out of the information provided by
another. Hence, 230(c)(1) does not hold Facebook
liable for what information is spoken by “another,” so
long as Facebook took no action with regards to the
creation or development of the content of the “another”
(e.g., is not a “developer” or “a” publisher, “in whole
or in part,” of the content) and so long as Facebook’s
inaction decision is not motivated by its own compensation. Neither situation applies here.
This is where the definition of a content provider
defined in 230(f)(3) becomes pertinent. Facebook
materially contributed to Fyk’s peril by discriminatorily
unpublishing and developing his information for profit.
Facebook rendered actions in bad faith, for its own
compensation and did not act as a Good Samaritan.
Once Facebook “perhaps developed in part” Fyk’s
information, immunity is lost. 230(f)(3) recognized
development, even in part, where the provider or
user of the “interactive computer service” becomes an
“information content provider,” “This grant of immunity
[230(c)] applies only if the interactive computer service
provider is not also an ‘information content provider,’
which is defined as someone who is ‘responsible, in
whole or in part, for the creation or development of’

App.145a
the offending content. Id. § 230(f)(3).” Fair Hous., 521
F.3d at 1162.
As discussed in Fyk’s Opening Brief, in the
absence of any affirmative act of commercial discrimination, Facebook might have been entitled to
(c)(2)(A) “Good Samaritan” immunity, but that is not
the case with Fyk. Under the correct interpretation
of section 230, any action or omission by the service
provider must be taken in Good Faith, not for compensation, devoid of gross negligence or wanton and
willful misconduct. If any (in)action meets the
criteria of 230(c) “Good Samaritan,” we then look to
230(c)(1). 230(c)(1) protects a service provider when
it takes “no action” and only “passively” hosts materials
entirely created, originated and or developed by “the”
publisher (another). If a service provider takes “any
action” voluntarily and in “Good Faith,” as a “Good
Samaritan” to restrict offensive content, we then look
to 230(c)(2). A service provider is protected under
230(c)(2)(A) for its own actions to restrict materials
or 230(c)(2)(B) for enabling a user to restrict materials.
If a service provider takes “any” action as a publisher
to create or develop any information in whole or in
part it shall lose immunity with the exception actions
protected by 230(c)(2).
Fyk is not asking this Court to take any action
except allowing for rehearing to secure a reversal,
and remand to the District Court to allow for Fyk to
amend his Complaint. Fyk is entitled to add factual
allegations to demonstrate that Facebook would not
have qualified as acting in “good faith” because, most
glaringly, there is nothing “good faith” about deeming
Fyk’s content violative of (c)(2)(A) while in his possession and not violative while in the possession of his

App.146a
competitor. In the instant appeal, what matters is
that Fyk’s Complaint alleges Facebook’s post-October
2016 misconduct, which was motivated by commercial
gain, was targeted and intended to injure Fyk, removing Facebook from any “action-oriented” (c)(2)(A) “Good
Samaritan” protection, and any “inaction-oriented”
(c)(1) “Good Samaritan” protection per 230(f)(3).
III. The Panel Erroneously Asserted That Fyk Could
Not Raise Facts in His Complaint That Would
Overcome Section 230 Immunity
In addition to the preceding challenges with the
Panel’s Opinion is the fact that the Panel asserted,
without any basis, that Fyk could not raise facts in
his Complaint that would overcome purported Section
230 Immunity. This is simply not true.
Facebook targeted Fyk’s business through conduct
that supports a finding of tortious, fraudulent,
extortionate, and anti-competitive activity. The purpose
of a Complaint is not to set forth each and every fact,
and anticipate every single argument, but to provide
notice of the causes of action and, with regard to
certain causes of action, state them with specificity.
Notwithstanding, had Fyk been given an opportunity to articulate additional facts, the Panel could
not ignore the following instances of conduct by
Facebook that would give rise to Facebook’s loss of
immunity:
• On January 4, 2019, Mark Zuckerberg
stated it was Facebook’s purpose, “to
dramatically increase the distribution and if
successful, the monetization to high quality
participants.” He went on to say, “[b]uild a

App.147a
service that is contributing to high quality
journalism through increasing monetization.”
Translated, Facebook materially contributes to
the development of information by way of
increased distribution and monetization of
participants Facebook deems to be quality.
Here, the “quality” standard was the relative
monetary value to Facebook. As a result, his
content was eliminated through the pre-text of it
being offensive. Later, that exact same
content was deemed not offensive in the
hands of a “high-quality” participant (Fyk’s
competitor).
• On April 13, 2013, Tessa Lyons, Facebook
Newsfeed manager, explained Facebook’s underlying strategy in a public forum: “ . . . so going
after actors who repeatedly share this type of
content [financially motivated] and reducing
[low quality participants] distribution, removing their ability to monetize, and removing
their ability to advertise is part of our
strategy.” Translated, Facebook’s strategy is
not based on restriction of offensive materials
in “good faith,” it is based on reducing the
financial incentives (i.e., tortious interference)
that low value/low quality participants have to
create content in the first place. Facebook’s
strategy is proactive, not reactive, and targets
economics. The rules change however if you pay
more.
• On April 13, 2013, Tessa Lyons confirmed
Facebook’s proactive behavior: “For the
financially motivated actors, their goal is to
get a lot of clicks so they can convert people to

App.148a
go to their websites, which are often covered
in low quality ads, and they can monetize and
make money from those people’s views, and if
we reduce the spread of those links, we reduce
the number of people who click through and
we reduce the economic incentives that they
have to create that content in the first place.”
Translated, Facebook does not want people to
make money so Facebook can demand money
from its users. But this is contrary to what
was promised to users.
• Per an April 16, 2019, NBC report, Chris
Daniels, a Facebook business development
director, wrote the following in an August
2012 email: “Today the fundamental trade is
‘data for distribution’ whereas we want to
change it to either ‘data for $’ and/or ‘$ for
distribution’.” Translated, Facebook is selecting
which businesses get developed and which
businesses get restricted, not based on offensive
content but based on profit motives.
The above facts, and a multitude of others, show
that Facebook’s conduct was not motivated by removing
offensive or obscene materials, but was driven entirely
by proactive development and “anti-competitive
animus.” Facebook’s publicly admitted strategy is to
proactively reduce the financial incentives publishers
have to create content in order to displace their
content (like Fyk’s) and materially contribute to the
development of content for higher quality, higher
paying participants.

App.149a
CONCLUSION
In his Complaint and all underlying briefing (at
the District and Ninth Circuit Court levels), Fyk
detailed Facebook’s “bad faith” content restriction
decisions predicated on Facebook’s own monetary
purposes. The Courts should never have entertained
a 230(c)(1) defense, as it is inapplicable because Fyk
does not seek to treat Facebook as “the” publisher/
speaker/creator/originator of his own content. Fyk
seeks to hold Facebook liable as “a” publisher/developer
for its own legally repugnant and unimmunized
actions. Facebook did not act as a “Good Samaritan”
and Facebook was responsible, at least in part, for its
action to solicit Fyk’s competitor with the promise of
materially contributing to the development of Fyk’s
information for Fyk’s competitor.
The conceptual dissonance of the Panel’s Opinion
and existing Ninth Circuit authority on the inapplicability of CDA immunity for anticompetitive conduct,
compels granting this petition for rehearing en banc.

App.150a
CERTIFICATE OF COMPLIANCE
Pursuant to Federal Rule of Appellate Procedure
32 and Ninth Circuit Rule 40-1, undersigned counsel
certifies that this document complies with the word
limitation because it does not exceed 4,200 words. It
includes 4,196 words, not including the first three pages
or this certificate. This document complies with the
typeface requirements of Federal Rule of Appellate
Procedure 32(a)(5) and the type style requirements of
Federal Rule of Appellate Procedure 32(a)(6) because
this brief has been prepared in a proportionately
spaced typeface using Times New Roman 14-point font.
Respectfully Submitted,
/s/ Michael J. Smikun, Esq.
Michael J. Smikun, Esq.
Sean R. Callagy, Esq.
Callagy Law, P.C.
650 From Rd., Ste 565
Paramus, NJ 07652
msmikun@callagylaw.com
scallagy@callagylaw.com
(201) 261-1700 (o)
(201) 261-1775 (f)
Jeffrey L. Greyber, Esq.
Callagy Law, P.C.
1900 N.W. Corporate Blvd., Ste 310W
Boca Raton, FL 33431
jgreyber@callagylaw.com
(561) 405-7966 (o)
(201) 549-8753 (f)

App.151a
Constance J. Yu, Esq.
Putterman Yu, LLP
345 California St., Ste 1160
San Francisco, CA 94104-2626
cyu@plylaw.com
(415) 839-8779 (o)
(415) 737-1363 (f)

Attorneys for Plaintiff-Appellant, Fyk

App.152a
VERIFIED COMPLAINT AND
DEMAND FOR JURY TRIAL
(AUGUST 22, 2018)
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
________________________
JASON FYK,

Plaintiff,
v.
FACEBOOK, INC.,

Defendant.
________________________
Case No. 3:18-cv-05159-JSW
Plaintiff, Jason Fyk (“Fyk”), respectfully brings this
action for damages and relief against Defendant,
Facebook, Inc. (“Facebook”), and alleges as follows:1
NATURE OF THE ACTION
1. This case asks whether Facebook can, without
consequence, engage in brazen tortious, unfair and
anti-competitive, extortionate, and/or fraudulent practices that caused the build-up (through years of hard
work and entrepreneurship) and subsequent destruction of Fyk’s multi-million dollar business with over
1 As litigation and discovery progress, Fyk reserves the right to
amend this complaint should additional causes of action manifest.

App.153a
25,000,000 followers merely because Facebook “owns”
its “free” social media platform. So as to put in perspective just how large Fyk’s following was, one
source ranked Fyk’s primary business/page as the
fifth most active page on Facebook, ranking one spot
ahead of CNN, for example.
2. Fyk, believing in Facebook’s promise of a “free”
social media platform to connect the world, was a
remarkable success story. Fyk created and posted
humorous content on Facebook’s “free” social media
platform. Fyk’s content was extremely popular, as
evidenced by over 25,000,000 followers. The success
of Fyk’s Facebook pages resulted in these pages
becoming business ventures, generating hundreds of
thousands of dollars a month in advertising and/or
web trafficking earnings flowing from Fyk’s valuable
high-volume fan base.
3. Fyk developed a significant “voice” in reliance
on Facebook’s inducement to build his businesses on its
“free” social media platform. Fyk invested tremendous
time, energy, and resources in reliance on Facebook’s
promises. Facebook’s promises made it one of the
most lucrative and valuable economic and influential
forces in the world.
4. Facebook has broken its promise to everyone
and committed significant wrongs specific to Fyk.
Facebook’s systemic and specific wrongs are both
wrongs with remedies.
5. More specifically, Facebook induced many
(including Fyk) to build the Facebook empire and
then, in a classic bait and switch, stole the value for
its own commercial gain by changing its operating
system and forcing itself into the business arenas

App.154a
others had developed. Fyk suffered damages as a result
of this bait and switch. So as to put in perspective
just how much Facebook damaged Fyk, former Fyk
competitors (who were smaller and/or less successful
than Fyk before Facebook destroyed Fyk’s businesses/
pages) have been valued between $100,000,000.00 and
$1,500,000,000.00.
6. Amidst its bait and switch, Facebook damaged
Fyk (and likely many others) by pretextually wielding
the Communications Decency Act (“CDA”), Title 47,
United States Code, Section 230(c)(2), against Fyk in
order to unfairly and unlawfully destroy and/or severely
devalue Fyk’s businesses/pages. This case asks whether
Facebook can manipulate its users’ content and direct
preferential treatment to certain users to the detriment
of other users by applying discretionary “enforcement”
policies and practices (under the guise of the CDA, for
example) because Facebook exercises plenary control
over its “free” social media platform. So as to put in
perspective just how different Facebook’s treatment of
Fyk was compared to others, Facebook flew representation to Los Angeles, California to aid and abet a
Fyk competitor in the competitor’s Facebook-driven
acquisition of the Fyk businesses/pages that Facebook had destroyed.
7. In stark contrast to its public claims (before
Congress, for example) of freely and openly connecting
the world, Facebook is unlawfully silencing people
(including Fyk) for its own financial gain.
8. Despite Facebook’s claims of being able to fully
and completely control anything and everything that
occurs on its “free” social media platform, Facebook
is not above the law and must be held accountable
for its wrongs.

App.155a
9. Our system of justice is what prevents the
strongest and most powerful in our nation from
trampling on those who are weaker and less powerful.
It would be hard to imagine a clearer illustration of
why our justice system must protect the weak from the
powerful than this case where the mighty (Facebook)
has destroyed the weaker’s (Fyk’s) businesses and
American Dream. This is a true case of David versus
Goliath.
PARTIES
10. At all material times, Fyk was/is a citizen
and resident of Cochranville, Pennsylvania.
11. Upon information and belief and at all
material times, Facebook was/is a company incorporated in the State of Delaware, with its principal
place of business in Menlo Park, California. While
there is some question as to whether the California
forum selection and choice of law provisions embedded
in Facebook’s terms of service are applicable to this
action (which does not relate to the terms of service
akin to a breach of contract), Fyk does not wish to
squander time and resources (his or the Court’s)
quarreling with venue.
JURISDICTION AND VENUE
12. This Court possesses original jurisdiction
pursuant to Title 28, United States Code, Section
1332, as the parties are diverse and the amount in
controversy exceeds $75,000.00 exclusive of fees, costs,
interest, or otherwise.
13. Venue is proper in the Northern District
Court of California pursuant to Title 28, United

App.156a
States Code, Section 1391(b), since this judicial district
is where Facebook maintains its principal place of
business, since various events or omissions which
give rise to and/or underlie this suit occurred within
this judicial district, and/or since the (in)applicability
of the forum selection and choice of law provisions in
Facebook’s terms of service are not worth fighting
about.
COMMON ALLEGATIONS
14. For a period of many years, Fyk maintained
businesses/pages on Facebook’s purportedly “free” social
media platform. That is until Facebook unilaterally,
systematically, systemically, and/or capriciously (in
tortious, unfair, anti-competitive, extortionate, and/or
fraudulent fashion) changed the Facebook “free” social
media platform model almost overnight and pursuant
to corporate greed, playing judge, jury, and executioner
as to the continued existence of businesses/pages of
those like Fyk who had developed a livelihood on the
platform.
15. Fyk’s businesses were made up of many
Facebook pages, with over 25,000,000 viewers/
followers/audience at their peak. These businesses/
pages were humorous in nature, designed to get a laugh
out of Fyk’s viewers/followers audience. The intended
nature of the subject businesses/pages worked–at his
peak, Fyk’s primary business/page was, according to
some ratings, the fifth largest Facebook viewership
presence in the entire world (ahead of competitors like
BuzzFeed, College Humor, and Upworthy, for examples,
and ahead of other large media presences like CNN,
for example) and making hundreds of thousands of

App.157a
dollars a month in advertising and/or web trafficking
earnings.
16. Indeed, the primary source of income
generated by Fyk’s businesses/pages was through
advertisement earnings and/or web traffic to other sites
(for valuable increased fanbase)–naturally, companies
were inclined to pay Fyk to associate with his pages
consisting of millions of viewers/followers.2
17. For many years in the 2010-2016 range (or
thereabouts), Facebook had systematically and systemically welcomed folks into the seemingly warm waters
of making a living on the “free” Facebook social media
platform.

2 Companies that paid Fyk to advertise and/or traffic their
companies (that is, before Facebook destroyed such economic
relationships) included, but were not necessarily limited to, the
following: (a) College Humor, (b) Guff, (c) Memez, (d) Mylikes,
(e) Smarty Social, (f) Diply, (g) Top Ten Hen, (h) LOLWOT, (i)
Cybrid Media, (j) PBH Media, (k) Liquid Social, (l) Red Can, (m)
Ranker, (n) Bored Panda, and (o) Providr. And, then, there were
many other realistic ways in which Fyk could have increased his
economic advantage (i.e., made money) but for Facebook’s
wrongdoing, which such realistic ways would have included, but
not necessarily been limited to, the following: (a) an application
called APPularity, further discussed below, (b) a TV series and/or
movie, and (c) a book. Facebook was/is well aware that Fyk had
business relations with companies like these, as Facebook’s new
mission is to demonetize folks like Fyk out of these relations by
crushing folks like Fyk under the guise of CDA, filtering of
purportedly low-quality content. See, e.g., footnote 11, infra; see
also, e.g., June 22, 2016, https://www.c-span.org/video/?411573-1/
facebook-coo-sheryl-sandberg-discusses-technological-innovation;
July 1, 2015, http://fortune.com/2015/07/01/facebook-videomonetization; and Tessa Lyons’ April 13, 2018 (https://www.
youtube.com/watch?v=X3LxpEej7gQ).

App.158a
18. Upon information and belief, it was towards
the latter part of the aforementioned 2010-2016
timeframe that Facebook unilaterally, systematically,
systemically, and/or capriciously (in tortious, unfair,
anti-competitive, extortionate, and/or fraudulent
fashion) decided to implement an “optional” paid for
reach program, rather than the organic reach program
(i.e., “free” Facebook social media platform) that Fyk
and many other Facebook businessmen and businesswomen had been part of for years. Why? Because
Facebook all-of-a-sudden no longer cared to continue
to make business smooth for those who declined the
“optional” paid for reach program. Why? Because
Facebook was now of the unilateral, systematic,
systemic, and/or capricious mindset (in tortious, unfair,
anti-competitive, extortionate, and/or fraudulent
fashion) that it was time to make its “free” social
media platform profitable at the expense of those like
Fyk upon whose backs the “free” Facebook social
media platform succeeded and notwithstanding
nothing explicitly making the “optional” paid for
reach program “mandatory.”3 What did this create
for Fyk and likely the myriad other businessmen and
businesswomen on Facebook’s “free” social media
3 Although there is nothing explicitly making the “optional”
paid for reach program “mandatory” that we are presently
aware of sans the benefit of discovery, the threat is there that if
people do not pay Facebook, they will not play with Facebook. For
example, some news outlets report that Facebook (through the
likes of Facebook’s head of global news partnerships, Campbell
Brown) is advising behind “closed doors” that Facebook will put
people on “hospice” if people do not work with Facebook; i.e., if
payments are not received. See, e.g., August 14, 2018, https://
www.thesun.co.uk/news/7014408/facebook-threatens-presssaying-work-with-us-or-end-up-in-hospice.

App.159a
platform? Fear. Fear (analogized in averments twentyfive through thirty-five, infra, to “claim jumping”)
that if Fyk did not engage in Facebook’s new
“optional” paid for reach program, he would be
blacklisted in the form of having his businesses
heavily curtailed or altogether eliminated. And, for
Fyk, this fear was heightened when a high-ranking
Facebook executive advised him that his business
was not one Facebook much cared to work with when
compared to other businesses (specific names intentionally omitted from this public record) who relented
to Facebook’s new “optional” paid for reach program
to the tune of tens of millions of dollars in payments
a year to Facebook.
19. So, with the very real fear hanging over him
of losing his businesses/pages and the incredibly
hard work that went into same in the spirit of the
American Dream (most likely like many other
Americans/administrators who, like Fyk, had built
their businesses/pages on the premise that Facebook
was indeed what it proclaimed and/or held itself out
to be—a “free” social media platform), Fyk attempted
to placate Facebook (and accordingly avoid putting
his businesses/pages at risk of Facebook-created
destruction) by entering Facebook’s new “optional”
paid for reach program for a period of time, investing
approximately $43,000.00 into Facebook’s “optional”
paid for reach program. Such Fyk investment was
underway and ongoing until Facebook unilaterally,
systematically, systemically, and/or capriciously (in
tortious, unfair, anti-competitive, extortionate, and/or
fraudulent fashion) deactivated Fyk’s “ads account,”
making it such where Fyk could no longer be a
protected or chosen one under Facebook’s “optional”

App.160a
paid for reach program. Because of Facebook, Fyk
was left with no reasonable alternative other than to
return to an organic reach model. Then Facebook’s
interference, unfair competition, civil extortion, and/or
fraud increased—starting in small increments and
escalating into destruction and/or severe devaluation
of at least eleven of Fyk’s businesses/pages (discussed
further below).
20. Facebook’s misconduct (again, implemented
gradually by Facebook so as to not be so obvious)
included, for examples, unilateral, systematic, systemic,
and/or capricious (pretty much overnight) page and
content outlawing, Facebook Messenger disconnection,
page and content banning, reduction of organic views
(reach) of pages and content, reduction of website link
views (reach), advertising account deletion, page and
content unpublishing, page and content deletion, deletion of individual Facebook administrative profiles,
and/or splitting of posts into four categories (text,
picture, video, and website links) and systematically
directing its tortious inference the hardest at links
because links were what made others (like Fyk) the
most money and Facebook the least money. This
misconduct was grounded, in whole or in part, in
Facebook’s overarching desire to redistribute reach
and value (e.g., wiping out Fyk and orchestrating the
handing over of his businesses/pages to a competitor,
discussed in greater detail below) through the disproportionate implementation of “rules” (e.g., treating
Fyk’s page content differently for Fyk than for the
competitor to whom Fyk’s content was redistributed).
Part and parcel with Facebook’s disproportionate
implementation of “rules” was a disproportionate
implementation of Facebook’s appeal and/or customer

App.161a
service programs for Fyk (discussed in greater detail in
the following averment, and punctuated by things like
Facebook arranging meetings between its representatives and other businessmen and businesswomen,
not named Fyk, in order to assist them but not Fyk).
Of course, inoperable pages consisting of millions of
viewers who are no longer engaged in such pages due
to the inoperativeness of same does not make for an
environment in which high paying advertisers and/or
web traffickers (from whom Fyk and his employees
had made a living) were interested in continuing to be
a part of.
21. Not thinking much of Facebook’s misconduct
early on (again, Facebook’s misconduct unfolded
gradually and covertly), Fyk availed himself time
and time again of the appeal and/or customer service
programs supposedly in place at Facebook to remedy
incorrect page and content outlawing, Facebook
Messenger disconnection, page and content banning,
reduction of organic views (reach) of pages and content,
reduction of website link views (reach), advertising
account deletion, page and content unpublishing,
page and content deletion, and/or deletion of individual
Facebook administrative profiles. These programs
worked for Fyk for a period of time; i.e., Facebook would
capriciously breathe life back into Fyk’s businesses/pages, conceding in the process that its page and
content outlawing, Facebook Messenger disconnection, page and content banning, reduction of organic
views (reach) of pages and content, reduction of
website link views (reach), advertising account deletion, page and content unpublishing, page and content deletion, and/or deletion of individual Facebook
administrative profiles was, in fact, incorrect. Fyk’s

App.162a
businesses/pages would operate relatively smoothly
for a while, until Facebook meddled again with Fyk’s
businesses/pages (with millions of viewers, reach in
the billions, and hundreds of thousands of monthly
advertisement and/or web trafficking earnings at
issue). Then, Fyk would appeal and/or work with
customer service again. Then, Facebook would breathe
life back into the subject businesses/pages. Then,
Facebook would meddle again. Then, Facebook would
breathe life back into the subject businesses/pages.
So on and so forth for years, not tipping Fyk off as to
what he was truly experiencing (or what Facebook’s
ulterior motives were, which such motives are still
not entirely known sans the benefit of discovery)
until Facebook’s meddling culminated with the
complete destruction and/or severe devaluation of
eleven of Fyk’s businesses/pages in October 2016 and
unresponsiveness to Fyk’s subsequent pleas for appeal
and/or customer service.
22. More specifically, in October 2016, Facebook
destroyed and/or severely devalued eleven of Fyk’s
pages (made up of over 25,000,000 viewers/followers),
sending his millions of viewers and hundreds of
thousands of dollars of monthly advertisement and/or
web trafficking earnings down the proverbial drain.
More specifically, the Fyk businesses/pages that
Facebook destroyed and/or severely devalued (along
with the viewer/follower count associated with each)
were as follows: (a) Funniest pics–approx. 2,879,000,
https://www.facebook.com/FunniestPicsOfficial,
(b)
Funnier pics–approx. 3,753,000, https://www.facebook.
com/FunnierPics, (c) Take the piss funny pics and
videos–approx. 4,300,000, https://www.facebook.com/
takeapissfunny, (d) She ratchet–approx. 1,980,000,

App.163a
https://www.facebook.com/sheratchetwtf, (e) All things
Disney–approx. 1,173,000, https://www.facebook.com/
Smilingloveyou, (f) Cleveland Brown–approx. 2,062,000,
https://www.facebook.com/ClevelandBrownsfans, (g)
Quagmire–approx. 1,899,000, https://www.facebook.
com/quagmirefans, (h) Peter Griffin–approx. 532,000,
https://www.facebook.com/petergriffinfans, (i) WTF
Magazine–approx. 2,600,000, https://www.facebook.
com/wtfmagazine, (j) Truly Amazing–approx. 1,800,000,
https://www.facebook.com/trulyamazingpage, and (k)
APPularity–approx. 2,200,000, https://www.facebook.
com/appularity. These page URL addresses were the
original addresses, they may have subsequently
changed, and they may accordingly not direct to the
original locations.
23. Facebook’s professed “justification” for its
destruction and/or severe devaluation of Fyk’s eleven
businesses/pages was that the content of such businesses/pages was supposedly violative of the CDA. We
now illustrate the ludicrousness of Facebook’s CDArelated basis for destroying and/or severely devaluing
Fyk’s businesses/pages and interfering with his prospective economic advantage/relations (e.g., advertisement and/or web trafficking earnings). As discussed
in greater detail below, Facebook selectively “enforced”
the CDA against Fyk by, for example, deeming
identical content CDA-violative as it related to Fyk but
not CDA-violative as it related to a Fyk competitor.
24. In or around the end of 2016, Facebook
deleted one of Fyk’s pages (with millions of viewers
and thousands of advertising and/or web trafficking
earnings at issue) because, for example, it contained
a posted screenshot from the Disney movie Pocahontas.
Facebook claimed that this screenshot (from a Disney

App.164a
children’s movie) was racist and accordingly violative
of the CDA; i.e., to use Facebook terminology, the
Pocahontas screenshot post constituted a “strike”
(the “strike” notion is discussed in greater detail at
footnote 8, infra). Meanwhile, for comparison’s sake,
Facebook allowed other businesses/pages at that same
time (in or around the end of 2016) and thereafter for
that matter to maintain, for examples, a posted screenshot of a mutilated child or instant article Facebook
advertisements (moneymakers for Facebook) of
things like sexual activities, among other things that
really were violative of the CDA.4 And, for purposes of
a public record, these are “benign” examples com4 Fyk even reported the disgusting posted screenshot of the
mutilated child to Facebook and in December 2016 Facebook
advised Fyk that such disgusting post was perfectly ok. Of note,
Fyk has routinely reported unsavory content to Facebook in an
effort to keep Facebook a “safe and welcoming” community. More
specifically as to Fyk’s reporting of the mutilated child post,
Facebook advised Fyk as follows: “Thank you taking the time to
report something that you feel may violate our Community
Standards. Reports like yours are an important part of making
Facebook a safe and welcoming environment. We reviewed the
photo you reported for being annoying and uninteresting and
found it doesn’t violate our Community Standards.” An example
of a BuzzFeed (a Fyk competitor) post that Facebook apparently
deemed perfectly ok was BuzzFeed’s July 23, 2017, post entitled

27 NSFW Movie Sex Scenes That’ll Turn You The Fu[$#] On.

Ironically, “NSFW” stands for “Not Safe for Work,” and remember
that Facebook was purportedly concerned with maintaining “a
safe and welcoming environment.” Other examples (and the list
could go on) of BuzzFeed posts that Facebook deemed “safe and
welcoming” amidst its “Community Standards” include: 12 Sex
Positions Everyone In A Long-Term Relationship Should Try on
May 7, 2016, Here’s How Most People Have Anal Sex on April
25, 2017, These Insane Sex Stories Will Blow Your Fu[$#]ing
Mind on May 12, 2017, and 15 Sex + Poop Horror Stories That’ll
Make You Feel Better About Yourself on August 11, 2017.

App.165a
pared to the other examples we have. And, meanwhile,
for comparison’s sake within Fyk’s own businesses
/pages, Facebook allowed other Fyk businesses/pages
(of incredibly similar nature to the business/page
with the Pocahontas screenshot post) to stand. Translated, there was absolutely positively nothing about
Fyk’s pages violative of the CDA warranting Facebook’s crippling of Fyk’s livelihood (and the livelihood of his employees), certainly no “good faith”
basis for Facebook’s wreaking havoc on Fyk under
the pretext of the CDA, which such “good faith”
language is straight out of Section 230(c)(2) of the
CDA. But the best proof in the “there was nothing
CDA violative about Fyk’s businesses/pages” pudding
is set forth in averments forty-two through forty-six,
infra, in relation to Fyk’s fire sale of eight of his businesses/pages (out of the subject eleven businesses/
pages noted above) to a similar (if not identical)
competitor because of Facebook’s irrational and
unwarranted tortious interference, unfair and anticompetitive conduct, extortion, and/or fraud leaving
him with no other reasonable alternative.
25. Another way to properly classify and better
illustrate Facebook’s conduct (when one properly disregards Facebook’s wayward CDA contention) is “claim
jumping,” which is more of a lay description of tortious
interference with prospective economic advantage/relations.
26. A locally rooted example of “claim jumping”
in this country’s history was California gold mining.
Analogous to Facebook’s conduct here, centuries ago
in California a small percentage of smalltime miners
struck gold/staked claims. Then, it was not uncommon
for a stronger, richer mining company to swoop in

App.166a
and “jump the claim” of the smalltime miner. Put differently, it was not uncommon for the stronger,
richer mining company to make the smalltime miner
an offer he or she could not refuse (often backed by
direct or indirect threat for livelihood, striking fear
in the miner), strong-arming the smalltime miner out of
his or her realized economic advantage (or prospective
economic advantage associated with the extraction of
the found gold) developed by his or her hard work in
the vein of the American Dream.
27. Here, the land that was/is replete with resources was/is the worldwide web. Facebook does not
own the worldwide web, Facebook manages/ services
a space on the worldwide web (called a platform) in
which people (like Fyk) can stake claims (create pages,
see averment number twenty-two, supra). Staking a
claim first involves the discovery of a valuable
“mineral” in quantity. Here, the “mineral” (gold) that
Fyk discovered on the land (the worldwide web) was
advertising earnings, distribution value, news feed
space, and/or the like. Fyk prudently invested time
and resources in recovering the “mineral” and otherwise
staked claims within Facebook’s “free” social media
platform through the development of boundaries (i.e.,
development of businesses/pages, web URLs, page
identity numbers).
28. Facebook (worldwide web manager/servicer)
realized there was a lot of money to be made in the
“gold mining” (advertising and web trafficking spaces),
so Facebook began mining gold for itself in tortious,
unfair, extortionate, fraudulent competition with claim
stakeholders like Fyk. Most of the best gold claims
(pages, news feeds), however, had been staked by
people like Fyk. With past being prologue, Facebook

App.167a
wanted more and more and more . . . and, then, some
more. And, so, Facebook (the land manager/servicer
turned mining company) changed its strategy to
suppress the resources of the larger claim stakeholders
(Fyk). Facebook did not want to get caught sapping
the resources of other claim stakeholders, so Facebook
came up with “rules and regulations” to be disproportionately implemented/enforced depending on whether
or not the claim stakeholder (Fyk) was favorable to or
preferred by the land manager/servicer (Facebook).
The rules and regulations that Facebook made up were
so nebulous in nature that any and all types of gold
mining effectively became violative of the land manager’s/servicer’s new rules and regulations, justifying
the Facebook “claim jumping” that ensued in “we can
do whatever we want because we are Facebook”
fashion.
29. Facebook’s “claim jumping” was effectuated
by Facebook’s doing a variety of things, for examples
(a) closing the mine gates (Fyk’s businesses/pages) until
the land management/service company (Facebook) was
paid more by the claim stakeholder (Fyk)—unpublishing pages so as to tortiously interfere, unfairly
compete, and/or extort, (b) closing the mine down or
cancelling the claim—deleting pages so as to tortiously interfere, unfairly compete, and/or extort, (c)
cutting off resources to the mine—reducing reach/
distribution so as to tortiously interfere, unfairly
compete, and/or extort, (d) replacing individual miners
with management/service company (Facebook) miners
—replacing Fyk news feeds with Facebook ads so as
to tortiously interfere, unfairly compete, and/or extort, and/or (e) imposing regulations that made the
mine financially unsound with the intent to usher in

App.168a
a new mining company (Fyk competitor) who paid the
management/servicing company (Facebook) a higher
percentage—unpublishing, reducing reach, deleting
pages, and assisting a competitor in purchasing the
pages so as to tortiously interfere, unfairly compete,
and/or extort.
30. As Facebook CEO, Mark Zuckerberg, has
proclaimed, Facebook is a “platform for all ideas”
(just as California land was once a platform for all gold
miners).5 Land management/servicing was Facebook’s
business, whereas mining the land was Fyk’s business.
Once Facebook saw how lucrative Fyk’s business was,
Facebook jumped the claims that Fyk had staked.
Like big mining companies did to the little gold miner
in California centuries ago, Facebook crushed Fyk
who had staked successful claims through hard work
and had not volunteered himself to being crushed.

5 Mr. Zuckerberg disingenuously proclaimed at his Harvard
commencement speech last summer, Facebook “understand[s] the
great arc of human history bends towards people coming together
in greater even numbers—from tribes to cities to nations—to
achieve things we couldn’t on our own . . . . This is my story
too—a student at a dorm connecting one community at a time
and keeping at it until one day we connect the whole world.”
Mr. Zuckerberg’s disingenuous lip service also included this:
“Finding your purpose isn’t enough. The challenge for our
generation is to create a world where everyone has a sense of
purpose.” Sounds so rosy, sounds so nice . . . but, alas, Facebook
talks that talk and then walks the Fyk walk. Fyk found his
sense of purpose, Facebook destroyed it. Facebook disconnected
Fyk, rather than connected Fyk. Facebook is destroying and/or
disconnecting businesses/pages (like Fyk’s) that generate advertising and/or web trafficking earnings so that Facebook can
bleed away such monies for itself in legally untenable ways.

App.169a
31. One key common denominator between “claim
jumping” (like the gold mining example) and Facebook’s
conduct here is the involuntariness of same–the
crushed little guy in each instance (including Fyk
here) had no choice or alternative in the business
world other than to swallow the difficult pill that the
mighty (here, Facebook) had force-fed. Here, Facebook
welcomed Fyk (as well as many others, for that
matter) into a “free” social media platform and lurked
around until someone became the so-called miner
who found gold on the Facebook platform; i.e., until
someone like Fyk did tremendously well on the “free”
Facebook social media platform by building his assets/
economic advantage (e.g., audience and distribution,
akin to the aforementioned gold). Then, Facebook
swooped in with an “optional” paid for reach program
(i.e., an offer people were not supposed to refuse),
devalued and redistributed Fyk’s economic advantage
without Fyk volunteering himself or his businesses
to same.
32. Fyk had hardly anything to his name when
he launched his businesses/pages on Facebook’s “free”
social media platform. More specifically, Fyk was facing
bankruptcy and eviction when he joined the “free”
Facebook social media platform in the hopes of experiencing the American Dream and building a future
for his family. He dedicated all the money he had on
building a Facebook audience, rather than buying
food and other household necessities for him and his
family. Kudos to Fyk for building successful businesses/
pages through very hard work in the vein of the
American Dream.
33. Then, Facebook sent Fyk’s American Dream
up in smoke, pretty much overnight, without Fyk

App.170a
volunteering himself or his businesses to same. What
is next if Facebook’s conduct is allowed to stand? Will
fast food restaurant franchisors, for example, lurk
around to find the most successful franchisees (built
upon the hard work of the franchisee prescribing to
the American Dream) and swoop in to “jump the
claim;” i.e., steal or destroy the franchisee’s restaurant
and redistribute the franchisee’s restaurant to the
franchisor mothership or some other franchisee who
the franchisor likes better as Facebook did to Fyk
here? Those are not the pillars upon which this
country and the associated American Dream were built.
34. “Claim jumping” (predicated on force exerted
by the mighty that the little guy could not reasonably
evade in the business world) is not the economic model
upon which this country has functioned since its
existence, as “claim jumping” makes for a highly
unstable economy. Thankfully, in today’s legal world
the little guy has legal recourse to rectify the wrongful
forced conduct experienced at the hands of the mighty
in the business world. Today, we call this kind of legal
recourse claims for relief, infra, which sound in
Facebook’s tortious interference with prospective
economic advantage/relations (First Claim for Relief),
unfair competition (Second Claim for Relief), civil extortion (Third Claim for Relief), and/or fraud (Fourth
Claim for Relief). As noted in averment numbers one
through nine, supra, these legal actions are designed
to protect the weaker from the stronger; i.e., meant
as legal checks and balances to the unbridled “we can
do anything we want because we are stronger”
mentality of those like Facebook.
35. Another way to view one of Facebook’s
seeming motivations for jumping the claims of those

App.171a
(like Fyk) who did well for themselves on the “free”
Facebook social media platform was/is to steal the
advertising and/or web trafficking earnings generated
on successful pages like Fyk’s pages; i.e., take the
Fyk-built reach from which the advertising and/or
web trafficking monies enjoyed by Fyk flowed and
redistribute same to other “sponsors.”
36. One need only look to one’s Facebook news
feed to see examples of such. There stands a good
chance that there will be a post on one’s news feed
from an unknown source; i.e., from somebody or
some company unknown to the user of the news feed.
This unknown, mystery post will likely have the
word “sponsored” in light print. The “sponsor” is a
paid advertiser on Facebook.
37. Facebook is now making money in the
advertising space (like Fyk did) by unilaterally,
systematically, systemically, and/or capriciously
replacing Fyk with “sponsors.” In order to clear space
for Facebook’s advertising efforts, Facebook had to
clear out posts on Facebook user news feeds that the
users actually wanted to see. For example, users
wanted to see Fyk’s content—that is why he had over
25,000,000 viewers across the subject eleven businesses/pages. Accordingly, Fyk’s posts would take up a
sizable portion of users’ news feeds. So, in order for
users to see the random Facebook-sponsored posts that
they did not care to see, Facebook had to eliminate
(or heavily curtail) the posts that people liked seeing
on their news feeds (e.g., Fyk’s posts) and force
Facebook-sponsored posts onto user news feeds
whether the user wanted that or not.
38. In an effort to insulate itself from this misconduct, Facebook initially forced out folks like Fyk

App.172a
under the guise that Fyk’s content was “spam.” Per
Merriam-Webster’s Dictionary, “spam” is defined as
“unsolicited usually commercial messages (such
as . . . Internet postings) sent to a large number of
recipients or posted in a large number of places.”6
Fyk’s audience chose to be his audience at the threshold and then had to choose to click on any content
website link found in Fyk’s businesses/pages which
would then lead to content on the website in which
an advertisement could be seen that would earn Fyk
money; i.e., there was nothing “unsolicited” about Fyk’s
businesses/pages and associated content website links.
Put differently, there was nothing “spammy” about
Fyk’s businesses/pages and associated content website
links upon which Facebook could have legitimately
justified muscling him out under the guise of “spam.”
39. By way of this misconduct, Facebook was/is
making money from whatever advertisers and/or web
traffickers are associating themselves with the random
Facebook-sponsored posts it is forcing onto user news
feeds while strong-arming out user-friendly news
feed posts like Fyk’s. What Facebook is doing (the
forced removal of Fyk-like posts on user news feeds
and the forced insertion of Facebook-sponsored posts)
is the definition of “spam.”7
6 https://www.merriam-webster.com/dictionary/spam
7 As another example of Facebook’s forcing itself upon users in
“spammy” fashion, when a user scrolls through their news feed
and has their audio setting set to “off,” some advertisements
will mysteriously pop up and disregard the user’s audio “off”
setting (i.e., force the user’s audio setting to “on”). This kind of
mystery advertisement, of course, is a Facebook-sponsored
advertisement and Facebook is blatantly and unilaterally disregarding the user’s settings so as to loudly announce (literally)

App.173a
40. So, as best we can presently tell sans the
benefit of discovery, Facebook’s effort to crush the
American Dream of hard workers like Fyk who built
a life for themselves (and their employees, since laid
off in Fyk’s case due to Facebook’s crippling) on the
“free” Facebook social media platform all boils down
to Facebook’s crooked corporate greed: (a) Muscle out
(through interference, unfair competition, extortion,
fraud, and/or et cetera) those who do not wish to (or
could no longer, in Fyk’s case) partake in Facebook’s
“optional” paid for reach program, and (b) Delete the
news feed posts that Facebook users want to see and
inject news feed Facebook-sponsored posts (i.e., “spam”)
that Facebook users do not want to see and/or have
the ability to avoid. The methods by which Facebook
is accomplishing such amount to unfair competition,
extortion, and fraud, which badly interferes with the
prospective economic advantage/relations of hard
working Americans who built lives for themselves,
their families, their employees, and their employees’
families around Facebook’s false promises of a “free”
social media platform.
41. In relation to Facebook’s October 2016 destruction and/or severe devaluation of Fyk’s eleven
something that makes Facebook money. Facebook’s manipulation of users’ news feeds hurts the user just as much as the
content provider and, to call a fig a fig, amounts to censorship.
In lay terms, Facebook is no longer allowing the user to see
what he/she wants to see and hear what he/she wants to hear.
Many “loved” that they could watch videos with sound off, see,
e.g., July 1, 2015, http://fortune.com/2015/07/01/facebook-videomonetization, that is until Facebook unilaterally force-changed
users’ preferences. This Facebook force-feeding as it relates to
the user cripples the content provider (like Fyk) in tortious,
unfair, anti-competitive, extortionate, and/or fraudulent fashion.

App.174a
businesses/pages, Fyk’s efforts to unravel Facebook’s
misconduct (akin to the procedure set forth in averment
twenty-one, supra) was regrettably to no avail–Facebook had now officially decided it was time to
completely destroy Fyk’s business and interfere with his
prospective economic advantage/relations. Facebook’s
interference and unfair competition even went so far
as to lock Fyk out of his advertisement account; i.e.,
not allowing Fyk to continue his participation in the
“optional” paid for reach program.
42. After a few months of Fyk’s inability to
breathe life back into the businesses/pages that Facebook had destroyed and/or severely devalued (eleven
pages consisting of over 25,000,000 viewers/ followers) and after Fyk regrettably had to lay off employees due to Facebook’s crippling interference, Fyk
was left with no reasonable alternative other than to
fire sell eight of his crippled pages (realistically
valuated by some in the nine figure range) for a
relatively nominal approximate $1,000,000.00 in
January 2017 to a competitor located in Los Angeles,
California with that competitor already having been
advised by Facebook that Facebook would breathe
life back into the subject eight pages only if such were
purchased by the competitor. This proves, among
other things, that there was nothing CDA violative
about these eight Fyk businesses/pages that Facebook crippled, as further discussed below.
43. Facebook offered the competitor customer
service before, during, and after the fire sale of Fyk’s
eight business/pages so as to effectuate the fire sale
(i.e., so as to redistribute Fyk’s economic advantage)
to the competitor. In fact, the Facebook customer
service offered to the competitor (but never to Fyk at

App.175a
any such level, or, really, at any meaningful level)
rose to the level of Facebook flying representation
down to Los Angeles to meet with the competitor to
make sure the Facebook-induced redistribution of
Fyk’s economic advantage (fire sale of the audience and
reach that made up the subject eight businesses/pages)
went through.
44. Reason being, Facebook plainly wanted to
play a direct role in ushering Fyk out of the Facebook
“free” social media platform business world in favor of
Fyk’s competitor. Facebook made clear that the subject
eight Fyk businesses/pages that Facebook had blacklisted would have no chance of having life breathed
back into them until the sale of the businesses/pages
was completed with Fyk’s competitor—indeed, this is
what Facebook represented to the Fyk competitor out
of Los Angeles. Facebook worked with the competitor
to orchestrate and carry out the sale.
45. Almost immediately after the fire sale to the
Fyk competitor went through (thanks, in whole or in
part, to Facebook’s interactions with the competitor
before, during, and after the fire sale process), the
supposedly CDA violative Fyk businesses/pages that
were fire sold were magically reinstated by Facebook
within days of the fire sale’s consummation (i.e., contract completion between Fyk and the competitor)
with no appreciable change (if any change) in the
content of the pages that were supposedly violative of
the CDA. Meaning, again, there was absolutely nothing
CDA violative about Fyk’s businesses/pages . . . Facebook just wanted to steer Fyk’s businesses/pages (a/k/a
assets, a/k/a economic advantage) to a competitor and
otherwise eliminate Fyk by any means necessary.
Facebook did so–it severely devalued Fyk’s eleven

App.176a
businesses/pages (economic advantage) to the point
of Fyk having no reasonable alternative other than to
fire sell eight of the businesses/pages for a relatively
low sum and then it revalued the same businesses/
pages for the Fyk competitor to whom the businesses/
pages were sold.8
8 The three businesses/pages that Fyk still maintains (Truly
Amazing, WTF Magazine, APPularity) are valueless from
advertising and/or web trafficking perspectives (which were the
real moneymakers) because of Facebook. Though these three
businesses/pages were crippled by Facebook along with the
other eight businesses/pages in October 2016, Facebook’s more
recent disproportionate implementation and/or shell-gaming of
“rules” pertaining to branded content is what is causing the
current advertising and/or web trafficking valuelessness of these
three pages. To further illustrate Facebook’s discriminatory
treatment of Fyk, the chronology concerning Facebook’s new
branded content rules is noteworthy. Facebook was to roll out
its new branded content “rules” starting March 1, 2018, and yet
further crippled one of Fyk’s remaining three pages prior in
February 2018 for two posts purportedly violative of Facebook’s
new branded content “rules.” A certain number of “violations”
(called “strikes” by Facebook) on a page could result in the page
being banned (lost), Facebook does not tell folks how many such
strikes are afforded until there is a ban, and Facebook has kept
arbitrarily levying strikes against Fyk (still to this day on his
remaining three pages) until it accomplishes what it wants–Fyk’s
being banned, which cripples his reach. See https://newsroom.fb.
com/news/2018/08/enforcing-our-community-standards/. The writing
is on the wall as to this vicious circular cycle predicated on Facebook whim. Moreover as to Facebook’s continued wrongdoing
related to Fyk’s remaining three businesses/pages, Facebook is
still treating Fyk unlike others. For example, on August 13,
2018, Fyk’s WTF Magazine business/page received a post ban
by Facebook. Fyk’s profile was subsequently banned for thirty
days due to the purported inappropriate content of the aforementioned post, which such post was doing quite well for Fyk
until Facebook’s interference. So, Fyk went to the original post of
the aforementioned post (on another’s page where he originally

App.177a
46. And the timing of Facebook’s ultimate Fyk
crippling in October 2016 is no coincidence to the
timing of the Facebook-aided fire sale of Fyk’s
business/pages to the Fyk competitor who was in
Facebook’s good, paying graces. Put differently, the
proximity of this cause and effect further demonstrates
the relevant connection to Facebook’s wrongdoing
(interference with prospective economic advantage/
relations, unfair or deceptive practices, unfair competition, civil extortion, and/or fraud)
47. Fyk was wrongly singled out by Facebook,
even per the admission of a high-ranking Facebook
employee (Chuck Rossi, director of engineering at
Facebook) kind enough to communicate reality to
Fyk because Mr. Rossi seemingly does not share
Facebook’s devious and publicly harmful agendas.9
found the post) and reported that identical post to Facebook.
Facebook found the identical post acceptable for another. More
specifically, by message dated August 15, 2018, Facebook
advised Fyk as follows as to the identical post on another’s page
that Fyk reported to Facebook: “Thanks for letting us know
about this. We looked over the photo, and though it doesn’t go
against one of our specific Community Standards, you did the
right thing by letting us know about it. . . . ” Moreover as to
damages, Fyk built the APPularity business/page to support an
application called APPularity and Fyk personally invested
approximately $50,000.00 (and countless hours) in this ap
endeavor. Facebook’s crippling (again, still to this day) of
APPularity (which, again, is one of the three businesses/pages
Fyk still maintains) has rendered the APPularity application
worthless; i.e., robbed Fyk of his approximate $50,000.00
investment and all the future monies (i.e., prospective economic
advantage) he would have doubtless enjoyed from same.
9 In October 2016, Fyk’s Peter Griffin business/page had been
unpublished by Facebook. Mr. Rossi helped Fyk restore the Peter
Griffin business/page that had been wrongfully unpublished by

App.178a
Indeed, Mr. Rossi, whether known to Facebook or not,
administers a group dedicated to restoring businesses/
pages that Facebook has wrongly shut down. Such
singling out of Fyk by Facebook might rightly be
characterized as discrimination
48. In sum, Facebook’s actions with Fyk were
unlawful.
FIRST CLAIM FOR RELIEF—INTENTIONAL
INTERFERENCE WITH PROSPECTIVE
ECONOMIC ADVANTAGE/RELATIONS
49. Fyk re-alleges Paragraphs 1 through 48 as
if fully set forth herein.
50. Facebook intentionally interfered with economic relationships between Fyk and his various
advertising companies and/or web traffickers (see
footnote 2, supra, for a non-exhaustive list of such
companies) associated with the aforementioned eleven
businesses/pages that Facebook intentionally interfered
with, which such economic relationships would have
doubtless continued to result in an economic benefit/
advantage to Fyk.
51. Facebook knew of Fyk’s advertising and/or
web trafficking relationships . . . advertising and/or web
trafficking in general on the Facebook “free” social
media platform is no secret, that is how most (if not all)
businesses/pages make money through the Facebook
social media platform. In fact, Facebook was/is so
aware of advertising and/or web trafficking relationships and the lucrativeness of same that Facebook
Facebook. Regrettably, very soon thereafter, Facebook again shut
Peter Griffin down.

App.179a
has muscled its way into that line of work while
muscling out the very folks who cultivated that line
of work all the way back in the days when Facebook
was akin to baron land or an unchartered frontier.
Recall, Facebook is not that old,10 and it needed worker
bees (like Fyk) to make it what it is today over a
relatively short period of time–that is until the honey
was produced and Facebook figured it would kill the
bees and take the honey and/or redistribute the
honey to other worker bees.
52. Facebook engaged in wrongful conduct separate from the interference with Fyk itself. For example, as discussed in the above common allegations
and below other causes of action, Facebook implemented its interference with Fyk via the separately
wrong conduct of civil extortion (e.g., coercing Fyk to
pay approximately $43,000.00 towards worthless
“optional” paid for reach amidst threat and fear that
his businesses/pages would be crippled if he did not
and then not allowing Fyk to continue in the
“optional” paid for reach program). As another example,
as discussed in the above common allegations and
below other causes of action, Facebook implemented
its interference with Fyk via the separately wrong
conduct of unfair competition (e.g., unilaterally deleting
Fyk posts from users’ news feeds that garnered
significant advertising and/or web trafficking monies
so as to begin forcing random “spammy” Facebook10 Although Facebook is so interwoven into the fabric of our
society (to the point of obsession, in particularly with society’s
youth) that one might think it has been around since Creation
or the Big Bang (depending on belief systems), it has only been
around since February 4, 2004, the same day the United States
government (Darpa) nixed its LifeLog program.

App.180a
sponsored posts into users’ news feeds). And, no,
there is no competition privilege at play here somehow
justifying Facebook’s conduct—that privilege only
applies when the competition is by fair play; i.e.,
devoid of independently wrongful conduct. Put differently and for example, there was, in theory, nothing
wrong with Facebook entering the advertising and/or
web trafficking realms on its platform if that is all
Facebook had done side-by-side, mano-a-mano with
other advertising and/or web trafficking competitors;
but, Facebook did not just enter the advertising
and/or web trafficking realms in side-by-side, manoa-mano competition with other companies earning
advertising and/or web trafficking income (like Fyk),
Facebook instead engaged in a calculated, systematic,
systemic campaign to eliminate its competition by,
for examples, (a) unilateral deletion of competitors’
news feed posts and unilateral force-placing of
“spammy” Facebook-sponsored posts into the news
feeds of users who did not invite same (at least not
consciously, since so much of the Facebook paradigm
is cryptic beyond ordinary comprehension or recognition), (b) deletion of competitor businesses/pages (to
which advertisements and/or web trafficking were
tied) under misrepresentative pretext like CDA violation, and (c) splitting of posts into four categories (text,
picture, video, and website links) and systematically
directing its tortious inference the hardest at links
because links were what made others (like Fyk) the
most money and Facebook the least money.
53. Facebook, in engaging in the aforementioned
interference via myriad methods of conduct wrongful
in and of itself, either intended or knew that the
advertising and/or web trafficking disruption expe-

App.181a
rienced by Fyk (not to mention other lost economic
opportunities set forth in footnote 2, supra) was
certain or substantially certain to occur as a result of
such interference.
54. Fyk’s relationships with myriad advertising
and/or web trafficking companies was significantly
disrupted (in fact, eliminated) due to Facebook’s interference. Again, Fyk had to fire sell eight businesses/
pages (out of the eleven Facebook had crippled) to a
competitor amidst Facebook’s direct involvement in
effectuating that sale; i.e., amidst Facebook’s steering
of competition.
55. Facebook has deprived Fyk of hundreds of
millions of dollars (if not billions of dollars–case in
point, BuzzFeed, a Fyk competitor, now being worth
approximately $1,500,000,000.00 according to some
sources) by way of Facebook’s interference and disruption of his advertising and/or web trafficking
monies. At a peak and prior to Facebook’s interference,
Fyk earned approximately $300,000.00 in one month
in advertising and/or web trafficking monies, for
example. There was no realistic end in sight to Fyk’s
economic gain before Facebook’s interference; rather,
all signs pointed towards Fyk earning even more
advertising money but for Facebook’s interference. to
illustrate, competitors who have survived Facebook’s
onslaught and were far less successful than Fyk at
the time of Facebook’s devastating interference (i.e.,
had millions less followers and accordingly earning
significantly less advertising earnings than Fyk) have,
upon information and belief, had their businesses on
Facebook’s platform professionally valuated in the
hundreds of millions to billions of dollars range. And,
yet, Fyk had to fire sell eight of his hard-earned

App.182a
businesses/pages for many zeros less than what they
should have been worth but for Facebook’s interference;
i.e., for a relatively nominal approximate $1,000,000.00
due to Facebook’s interference.
56. Not only was Facebook’s conduct a substantial
factor in Fyk’s significant loss of business income
and prospective economic advantage, it was the only
factor. Facebook’s interference with Fyk’s economic
advantage imposes liability on Facebook for improper
methods of disrupting or diverting Fyk’s business
relationships (e.g., advertising and/or web trafficking
companies, see footnote 2, supra) outside the boundaries
of fair competition. In actuality, one of Facebook’s
motives (collecting “optional” paid for reach monies
on a purportedly “free” social media platform) amounts
to extortion, which, in turn, has a chilling effect on
fair competition. When it comes to Facebook’s desire
to take over the advertising and/or web trafficking
businesses through forced and unwanted Facebooksponsored “spammy” posts on users’ news feeds by
muscling out the posts users want (like Fyk posts),
that is where glaring unfair competition comes into
play. Users cannot avoid the forced, “spammy”
Facebook-sponsored posts, and Facebook is no longer
the “free,” “give the people a voice” social media
platform it purports to be;11 rather, it, again, has
11 “Purports” because of the kind of false rhetoric Facebook
disseminates to the public with a brainwashing aim based, in part
(sans the benefit of discovery), on supposed feedback from mystery
Facebook focus groups. See, e.g., Tessa Lyons’ April 13, 2018
(https://www.youtube.com/watch?v-X3LxpEej7gQ), May 23, 2018
(https://www.bloomberg.com/news/videos/~2018-05-23/facebooks-fight-against-misinformation-and-fake-news-video), and June 21,
2018 (https://www.youtube.com/watch?v-DEVZeNESiqw). Ms.
Lyons is Facebook’s product manager; see also, e.g., June 22, 2016,

App.183a
become a platform predicated on redistribution of
assets (through legally untenable means) developed
by folks (like Fyk) under the pillar of our society that
is the American Dream.
57. Tortious interference with prospective economic advantage/relations is intended to protect
stable economic relationships; again, the United States
of America was built on fostering stable economic
relationships developed in the spirit of the American
Dream. Facebook’s conduct with Fyk (and many
others, for that matter) frustrates such stability and
the underlying American Dream, akin to the crooked
“claim jumping” scheme set forth above.
WHEREFORE, Plaintiff Jason Fyk respectfully
requests the entry of judgment against Defendant
Facebook, Inc. for damages including, but not necessarily limited to, (a) compensatory damages well in
excess of the $75,000.00 amount in controversy
threshold, (b) punitive damages, (c) any awardable
attorneys’ fees and costs incurred in relation to this
action, (d) any awardable forms of interest, and (e)
other relief as this Court deems equitable (e.g., injunction), just, and/or proper.
SECOND CLAIM FOR RELIEF—VIOLATION OF
CALIFORNIA BUSINESS & PROFESSIONS CODE
SECTIONS 17200-17210 (UNFAIR COMPETITION)
58. Fyk re-alleges Paragraphs 1 through 48 as
if fully set forth herein.

https://www.c-span.org/video/?411573-1/facebook-coo-sherylsandberg-discusses-technological-innovation.

App.184a
59. California Business & Professions Code Section 17203 provides, in pertinent part, as follows:
Any person who engages, has engaged, or
proposes to engage in unfair competition
may be enjoined in any court of competent
jurisdiction. The court may make such orders
or judgments, including the appointment of
a receiver, as may be necessary to prevent
the use or employment by any person of any
practice which constitutes unfair competition,
as defined in this chapter, or as may be
necessary to restore to any person in interest
any money or property, real or personal,
which may have been acquired by means of
such unfair competition.
60. California Business & Professions Code Section 17201 provides, in pertinent part, as follows: “As
used in this chapter, the term person shall mean and
include natural persons, corporations, firms, partnerships, joint stock companies, associations and other
organizations of persons.”
61. California Business & Professions Code Section 17200 provides, in pertinent part, as follows: “As
used in this chapter, unfair competition shall mean
and include any unlawful, unfair or fraudulent business
act or practice and unfair, deceptive, untrue or misleading advertising . . . .”
62. California’s unfair competition law affords a
private right of action where (as here) the conduct is
predicated on “unfair” conduct.
63. Here, there was nothing fair about Facebook’s
steering Fyk’s business/pages to the competitor to
whom Fyk had to fire sell eight businesses/pages due

App.185a
to Facebook’s leaving Fyk with no reasonable alternative. Such is the epitome of unfair competition, conducive of economic instability and antithetical to the
American Dream.
64. Again, Facebook wished to eliminate one
competitor (Fyk) in favor of another competitor (the
company Fyk was forced to fire sell to because of
Facebook) because, for example, the other competitor
paid Facebook lucrative sums under Facebook’s
“optional” paid for reach program. Again, Facebook’s
excuse for eliminating Fyk was of course not its preference to steer his businesses/pages to a competitor
who paid Facebook lots of money notwithstanding a
purportedly “free” social media platform, but was
instead the nonsense about the content of Fyk’s
businesses/pages being violative of the CDA (mainly,
supposedly “spammy”). But, again, as discussed in
greater detail above, this was a lie as evidenced by
the fact that Facebook immediately reinstated the
supposedly CDA violative pages for the competitor
who Fyk was forced to sell to because of Facebook
without any appreciable change, if any change, in the
content of the subject pages.
65. And there is more to Facebook’s unfair
competition. Facebook wished to enter into the lucrative
advertising and/or web trafficking businesses for
itself once it saw how successful those businesses
had become for folks like Fyk. Facebook did not fairly
enter into competition with Fyk in this regard, such
as by building a massive fanbase as Fyk did from the
ground up and then reaping the benefits of the
advertising and/or web trafficking earnings that flowed
from such hard work in the vein of the American
Dream. Rather, Facebook imposed its might in anti-

App.186a
competitive fashion by muscling out the Fyk-related
posts from user news feeds that users actually wanted
and muscling the “spammy” Facebook-sponsored posts
into user news feeds that users had not asked for.
This is the epitome of unfair competition.
66. Moreover, Facebook’s unfair competition
contravenes its own policies–for examples, Facebook
has policies of public neutrality in filtering content,
giving people a “voice” (as Ms. Lyons, for example,
disingenuously proclaims, see footnote 11, supra), and
“connecting” people (as Mr. Zuckerberg, for example,
disingenuously proclaims, see footnote 5, supra). Where
(as here) there is, for example, no neutrality employed
in content filtering so as to filter out a competitor (Fyk)
and his businesses/pages, predicated on Facebook’s
false advertising (among other things), California
law geared towards safeguarding fair competition is
turned upside down. Facebook should be held (whether
that is legally, equitably, or both) to its professed
policies of public neutrality, voice, and connection;
i.e., Facebook should not be allowed to arbitrarily
throw its professed public policies aside so as to engage
in case-by-case unfair competition that singles out and
destroys one person (Fyk) both by unfairly steering
the hard work of one competitor (Fyk) to another
competitor (e.g., Facebook’s aiding and abetting the
fire sale of eight Fyk businesses/pages to another
competitor), by muscling Fyk’s advertisement-backed
posts off of users’ news feeds and muscling in
unwanted random “spammy” Facebook-sponsored posts
laced with advertising money, and who knows what
else sans the benefit of discovery.
WHEREFORE, Plaintiff Jason Fyk, pursuant to
California Business & Professions Code Section 17203,

App.187a
respectfully requests the entry of judgment against
Defendant Facebook, Inc., for damages including, but
not necessarily limited to, (a) restitution in an amount
appropriate to restore Fyk’s loss of advertising and/or
web trafficking monies at the hands of Facebook’s
unfair competition (e.g., restore Fyk for every bit of
lost advertising and/or web trafficking money associated
with every one of his posts on user news feeds that
Facebook unilaterally supplanted with its “spammy”
sponsored news feed posts), (b) an order enjoining
the methods, acts, or practices complained of in this
complaint (e.g., Facebook’s unsubstantiated banning,
reduction of organic views (reach) of pages and content,
reduction of website link views (reach), advertising
account deletion, page and content unpublishing,
page and content deletion, deletion of individual
Facebook administrative profiles, and/or the like of
Fyk businesses/pages), (c) any awardable attorneys’
fees and costs incurred in relation to this action, (d)
any awardable forms of interest, and (e) other relief
as this Court deems equitable, just, and/or proper.
THIRD CLAIM FOR RELIEF—CIVIL EXTORTION
67. Fyk re-alleges Paragraphs 1 through 48 as
if fully set forth herein.
68. Facebook implemented its “optional” paid
for reach program, in out-of-the-blue fashion for
those (like Fyk) who had functioned under an organic
reach program on the purportedly “free” Facebook
social media platform for years, backed by a transparent
“threat” that those who did not engage in the “optional”
paid for reach program would suffer (see, e.g., averment
number eighteen, supra, in regards to the high-ranking
Facebook representative advising Fyk that one has

App.188a
to pay Facebook in order to play with Facebook).
Then, to boot, Facebook would not even allow Fyk to
continue participating in the “optional” paid for
reach program beyond his approximate $43,000.00
investment into same.
69. In so implementing, Facebook knew its
“threat” was wrongful or had no basis in fact.
Facebook’s unilateral “optional” paid for reach program
was anything but “optional,” as Fyk learned the hard
way after his approximate $43,000.00 investment in
the “optional” paid for reach program proved worthless
and Facebook subsequently kicked him out of the
“optional” paid for reach program. “The hard way”
because, not-so-coincidentally, Facebook’s elimination
of Fyk from the “optional” paid for reach program
coincided with the financially detrimental merry-goround that Facebook then subjected him to as outlined
in averment number twenty-one, supra, and culminating in Facebook’s October 2016 destruction
and/or severe devaluation of eleven of Fyk’s very
lucrative businesses/pages and the Facebook-aided
fire sale of eight of Fyk’s business/pages to a Fyk
competitor in January 2017.
70. The “threat” that was the “optional” paid for
reach program was coupled with an express demand
for money. Fyk reasonably feared for the sustainability
of his business/pages if he did not relent to Facebook’s
“optional” paid for reach program “threat.” Because
of that fear, Fyk relented to the “optional” paid for
reach program for a period of time (to the tune of
approximately $43,000.00) in an effort to placate
Facebook; i.e., in an effort to inspire Facebook not to
meddle with (or eventually crush) this businesses/
pages. Again, Fyk noticed no appreciable increase in

App.189a
his already sizable viewership. Again, then Facebook
excluded Fyk from the “optional” paid for reach
program. And, again, this is when “threat” and related
fear became very real. Once Fyk’s “optional” payments to Facebook went away, Facebook’s “threat”
materialized into what Fyk had feared—the very real
hardships outlined in the preceding averment and
detailed throughout this complaint.
71. Again, as with all of the Facebook misconduct
set forth in this complaint, Facebook’s civil extortion
undermines the pillars upon which America was
built–hard work invested by the proverbial little guy
like the gold miner (here, Fyk) to accomplish the
American Dream and economic stability crushed (via
extortion or otherwise) by the powerful like big mining
(here, Facebook) bent on snuffing out the little guy’s
American Dream.12
WHEREFORE, Plaintiff Jason Fyk respectfully
requests the entry of judgment against Defendant
Facebook, Inc., for damages including, but not
necessarily limited to, (a) Facebook’s reimbursement
to Fyk of the approximate $43,000.00 Fyk paid to
Facebook in conjunction with Facebook’s “optional”
paid for reach program, (b) punitive damages, (c) any
awardable attorneys’ fees and costs incurred in relation
to this action, (d) any awardable forms of interest,
and (e) other relief as this Court deems equitable,
just, and/or proper.

12 Public record reflects that the vast majority of Facebook’s
shareholder population is made up of institutions rather than
individuals.

App.190a
FOURTH CLAIM FOR RELIEF—
FRAUD/INTENTIONAL MISREPRESENTATION
72. Fyk re-alleges Paragraphs 1 through 48 as
if fully set forth herein.
73. Facebook made myriad false representations
to Fyk that harmed him. For example, Facebook
represented to Fyk that the “free” organic reach
program was perfectly acceptable when, in reality,
only the “optional” paid for reach program is acceptable
(see, e.g., footnote 3, supra). As another example,
Facebook represented to Fyk that he was welcomed
to participate in the “optional” paid for reach program
when, in reality, that was false. As another example,
Facebook represented to Fyk that the businesses/pages
Facebook crippled in or around October 2016 were
violative of the CDA when, in reality, there was
nothing CDA violative about such businesses/pages.
74. Facebook either knew its representations to
Fyk (exemplified in the preceding averment) were
false or Facebook made such representations to Fyk
recklessly and without regard for the truth of such
representations
75. Facebook intended for Fyk to rely on its
representations. For example, Facebook wished to
bait Fyk into the “optional” paid for reach program
knowing that it would be quick to pull that rug out
from underneath Fyk, and Fyk relied on Facebook’s
representations that he was welcomed in the “paid
for” reach program to the tune of a $43,000.00 investment into same. As another example, Facebook
wished for Fyk to rely on its representation that his
businesses/pages were violative of the CDA knowing
such representation to be false, and Fyk relied on

App.191a
Facebook’s representation that his businesses/pages
were CDA violative in fire selling eight of same to the
competitor who Facebook steered the fire sale towards.
76. Fyk’s reliance on Facebook’s representation
was reasonable, especially considering the unequal
balance of power between the parties. Fyk had no
reasonable alternatives other than to try the “optional”
paid for reach program and fire sell eight of his
crippled businesses/pages, for example.
77. Fyk was harmed by his reliance. For example,
Fyk’s $43,000.00 investment into the “optional” paid
for reach program proved useless. As another example,
Fyk’s fire sale of eight pages for a relatively nominal
approximate $1,000,000.00 to a competitor when
competitors (once smaller and/or less successful than
Fyk) are now valued anywhere from hundreds of
millions of dollars to billions of dollars.
78. Fyk’s reliance on Facebook’s misrepresentations was not only a substantial factor in Fyk’s losing
substantial economic advantage (realized and prospective), we submit it was the only factor.
WHEREFORE, Plaintiff Jason Fyk respectfully
requests the entry of judgment against Defendant
Facebook, Inc., for damages including, but not
necessarily limited to, (a) compensatory damages
well in excess of the $75,000.00 amount in controversy
threshold, (b) punitive damages, (c) any awardable
attorneys’ fees and costs incurred in relation to this
action, (d) any awardable forms of interest, and (e)
other relief as this Court deems equitable (e.g.,
injunction/enjoinder), just, and/or proper.

App.192a
JURY DEMAND
Fyk hereby demands jury trial on all matters so
triable as a matter of right.
Respectfully submitted,
PUTTERMAN LANDRY + YU LLP
By: /s/ Constance J. Yu
and
CALLAGY LAW, P.C.
Sean R. Callagy, Esq.

Pro Hac Vice Application Pending
Michael J. Smikun, Esq.

Pro Hac Vice Application Pending
msmikun@callagylaw.com
Jeffrey L. Greyber, Esq.

Pro Hac Vice Application Pending
jgreyber@callagylaw.com

Attorneys for Plaintiff

App.193a
VERIFICATION
I, Jason Fyk declare:
I am the plaintiff in the above-entitled matter.
I have read the foregoing Verified Complaint
and know the contents thereof. The same is true of
my own knowledge, except as to those matter which
are therein stated on information and belief, and, as
to those matters, I believe it to be true.
I declare (or certify) under penalty of perjury
under the laws of the State of California and the
United States that the foregoing is true and correct.
Executed on August 22, 2018.
/s/ Jason Fyk

App.194a
CONFORMED RESPONSE
IN OPPOSITION TO DEFENDANT’S
NOVEMBER 1, 2018, MOTION TO DISMISS
(DECEMBER 14, 2018)
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
________________________
JASON FYK,

Plaintiff,
v.
FACEBOOK, INC.,

Defendant.
________________________
Case No. 4:18-CV-05159-JSW
Conformed Response in Opposition to Defendant’s
November 1, 2018, Motion to Dismiss
Hearing: Feb. 1, 2019, 9:00 A.M.
Before: Hon. Jeffrey S. WHITE,
United States District Judge.
Location: Oakland, Ct. 5, Fl. 2
SEAN R. CALLAGY (Pro Hac Vice Admitted)
Email: scallagy@callagylaw.com
MICHAEL J. SMIKUN (Pro Hac Vice Admitted)
Email: msmikun@callagylaw.com
CALLAGY LAW, P.C.

App.195a
650 From Rd., Suite 565
Paramus, NJ 07652
Telephone: (201) 261-1700
Facsimile: (201) 261-1775
JEFFREY L. GREYBER (Pro Hac Vice Admitted)
Email: jgreyber@callagylaw.com
CALLAGY LAW, P.C.
1900 N.W. Corporate Blvd., Suite 310W
Boca Raton, FL 33431
Telephone: (561) 405-7966
Facsimile: (201) 549-8753
CONSTANCE J. YU (SBN 182704)
E-mail: cyu@plylaw.com
PUTTERMAN LANDRY+ YU LLP
345 California Street, Suite 1160
San Francisco, CA 94104-2626
Telephone: (415) 839-8779
Facsimile: (415) 737-1363
Attorneys for Plaintiff
JASON FYK
[Table of Contents and Table of Authorities Omitted]

ADDITIONAL ONE PAGE
SUMMARY OF ARGUMENT
Facebook’s Motion to Dismiss (“M2D”) is based
on an untenable theory that its actions are entitled
to blanket, unbridled “just because” immunity under
47 U.S.C. § 230(c)(1) (“CDA”). But the express language

App.196a
of the CDA (and case law, see Section C, citing Nemet,

Barnes, Levitt, Jurin, Perfect 10, Carafano, Song Fi,
e-ventures, Atl. Recording Corp., Fraley, Fair Hous.
Council, Batzel, Perkins) makes clear that Subsection (c)(1) only immunizes a “provider . . . of an interactive computer service” (Facebook) from third-party
liability concerning information (i.e., content) published or spoken by “another information content provider” on the “interactive computer service(’s]” platform.
47 U.S.C. § 230(c)(1) (emphasis added). This is not a
third-party case where (1) someone else is suing
Facebook over Fyk publications or speeches found on
the Facebook platform, or (2) Fyk is suing Facebook
over something someone else published or spoke.
Subsection (c)(1) (and case law) says that Facebook is
not liable for “information provided by another information content provider” simply because “another”
publishes or speaks on the Facebook platform because,
again, the language of Subsection (c)(1) does not classify Facebook as the per se publisher or speaker of
“another’s” content. Subsection (c)(1) does not, however, immunize Facebook from first-party liability
concerning content published or spoken by the “content
provider” (Fyk)—this case is first-party.
And Facebook is estopped from advancing and/or
has waived its ability to advance its wayward Subsection (c)(1) theory given the sole pre-suit “basis” for its
destruction of Fyk’s businesses/pages was Subsection
(c)(2)(A); i.e., Facebook “Community Standards” or
“terms.” See Section D.1 See [D.E. 20] at n. 1. To

1 The nature of “information provided”/content is what Subsection (c)(2)(A) pertains to. Facebook’s suggestion that there was
something “filthy” about Fyk’s businesses/pages via its glancing

App.197a
allow such a shift would work an injustice/inequity.
Moreover, the Court should deny the Subsection (c)(1)
aspect of the M2D (1) pursuant to Rules 12(c) and 12(d)
(see Section 8), and (2) since a lot of what is said in
the M2D is false, misrepresentative, misleading, and/
or incoherent (see Section E).
As for the Rule 12(b)(6) aspect of the M2D, there
are plenty of supportive averments in the Complaint
(see Section F). See, e.g., [D.E. 1] at ¶¶ 1-2, 14-16, 18,
20, 22-23, 25-34, 42-47, 49-57 (1st Claim for Relief);
¶¶ 6, 14, 18, 20, 35-41, 43-45, 47, 58-66 (2d Claim for
Relief); ¶¶ 14, 18-20, 37-40, 67-71 (3d Claim for
Relief); ¶¶ 4-7, 14, 17-18, 20-21, 23-24, 30, 35-40, 4547, 72-78 (4th Claim for Relief).
STATEMENT OF RELEVANT FACTS
On August 23, Fyk filed his Verified Complaint
(the “Complaint”), [D.E. 1], detailing Facebook’s brazen
tortious, unfair and anti-competitive, extortionate,
and/or fraudulent practices that caused the destruction
of his multi-million dollar business with over
25,000,000 followers, Id. at ¶ 1. Facebook’s November
1 Motion to Dismiss (“M2D”), [D.E. 20], is disingenuous
and inapposite because this lawsuit is about the
“content provider” (Fyk) pursuing an “interactive
computer service” (Facebook) in a first-party posture
for destruction of his livelihood. On December 7, Fyk
filed his M2D Response [D.E. 25], inadvertently
tracking Local Rule rather than Standing Order page
limitations; thus, this conformed brief.

reference to a takeapissfunny page, see [D.E. 20] at 1, is misplaced,
inaccurate, and out-of-context; i.e., is not “good faith.”

App.198a
Fyk’s businesses/pages at their height were
generating him hundreds of thousands of dollars a
month, and his growth potential was limitless. See,
e.g., [D.E. 1] at ¶¶ 1-2, 15-16, n. 2 and n. 8. Competitors who Facebook did not cripple, as it did Fyk, are
now valued in the hundreds of millions to billions of
dollars range. See, e.g., [D.E. 1] at ¶ 5. The M2D
argues that Facebook is immune under Subsection
(c)(1) of the CDA, omitting that such immunity is
available when another “content provider” sues Facebook in a third-party posture (e.g., car manufacturer
suing a consumer website, Consumer Affairs, for
hosting third-party consumer reviews about their
car).2 Again Fyk is suing in a first-party posture
 Legislative intent is critical for understanding Facebook’s
misuse of the CDA. The CDA was enacted in 1996 to regulate
internet pornography. See, e.g., 141 Cong. Reg. 88088 (1995)
(“ . . . the heart and soul of the [CDA] is to provide much-needed
protection for families and children”); 66 N.Y.U. Ann. Surv. Am.
L. 371, 379 (2010) (same); 35 Hastings Comm. & Ent. L.J. 455,
456 (2013) (same, adding that “Section 230 was added to
support and encourage the proliferation of information on the
Internet”). At Mr. Zuckerberg’s April 10, 2018, Congressional
Testimony, Senator Ted Cruz acutely and accurately pointed
out to Mr. Zuckerberg that “the predicate for Section 230
immunity under the CDA is that you are a neutral public
forum.” But Facebook is anything but neutral—Facebook’s Tessa
Lyons, for example, publicly states the polar opposite of Senator
Cruz’s correct statement, yet further evidencing Facebook’s
misunderstanding, misapplication, and/or systemic abuse of the
CDA: “And we approach integrity in really three ways. The first
thing that we would do is we remove anything that violates our
Community Standards,” which such Facebook “Community
Standards” are found nowhere in the express language of the
CDA, which such legislation Facebook conflates with its own
de-neutralizing business decisions aimed at re-distributing the
hard-earned money of others (like Fyk) to Facebook and/or Fyk
competitors who pay Facebook a lot more money than Fyk (see

App.199a
over Facebook’s own extensive wrongdoing. The
M2D’s CDA nonsense is flawed procedurally (Section
B), legally (Section C), equitably (Section D), and
factually (Section E). Facebook’s Rule 12(b)(6) nonsense
is legally, procedurally, and factually flawed (Section
F). The M2D must be denied.
STATEMENT OF ISSUES TO BE DECIDED
Legally, equitably, procedurally, and/or factually
speaking, can Facebook somehow enjoy the limited
third-party immunity prescribed by Subsection
230(c)(1) of the CDA in this first-party action? And
has Fyk somehow “fail[ed] to state a claim upon
which relief can be granted” pursuant to Rule 12(b)(6)?
MEMORANDUM OF LAW
A.

Legal Standards

Federal Rule of Civil Procedure 12(b) provides,
in pertinent part, that “ . . . a party may assert the
following defenses by motion: . . . (6) failure to state a
claim upon which relief can be granted . . . ” Id.; see
also Finkelstein, M.D. v. AXA Equitable Life Ins. Co.,
325 F. Supp. 3d 1061 (N.D. Cal. 2018); Cunningham
v. Mahoney, No. C 10-03211 JSW, 2010 WL 11575083
(N.D. Cal. Dec. 7, 2010). A Rule 12(b)(6) motion tests
the formal sufficiency of a claim, it is not for resolving
a fact/merit contest between the parties. See, e.g., 5B
[D.E. 1] and below). A “neutral” thing is not something to wield
against others in a non-neutral “immunity” fashion (as here).
2 This third-party understanding of Subsection (c)(1) immunity
is so elementary that it finds its way into Wikipedia. See https:/
/en.wikipedia.org/wiki/Communications_Decency_Act.

App.200a
Wright & Miller, Fed. Prac. & Proc. 3d § 1356, 354.
For brevity’s sake, the CDA is attached as Exhibit A
and incorporated herein.
B.

Facebook’s M2D Is a Thinly Veiled Pre-Discovery
Motion for Summary Judgment (Fed. R. Civ. P.
12(c) and 12(d))

We assume the procedural underpinning of Facebook’s Subsection (c)(1) dismissal effort is Rule 12(c),
which brings Rule 12(d) into play. In stark contrast to
a Subsection (c)(1) third-party posture, Fyk (“information content provider”) is suing Facebook (“interactive
computer service”) in a first-party posture based on
Facebook’s wrongful destruction (actionable under
all four claims for relief) of Fyk’s businesses/pages
(i.e., destruction of Fyk’s past and future publications
or speeches) via banning, ads account blocking,
domain blocking, unpublishing, and/or deleting of Fyk’s
businesses/pages, silencing his voice and/or eliminating his reach and distribution. Facebook’s destruction
of Fyk’s businesses/pages was based on a pre-suit
contention that Fyk’s content violated “Community
Standards” or “terms;” i.e., violated Subsection (c)(2)
(A).3 See [D.E. 1] at ¶ 23. Because Facebook’s novel
3 Attached as Exhibit B (incorporated herein) is a representative sampling of screenshots of the written representations Fyk
received from Facebook pre-suit in relation to its crippling of
his businesses/pages. Exhibit B evidences that Facebook’s
“justification” for the crippling of the businesses/pages was that
the content of same purportedly violated Facebook’s “Community
Standards”/“terms,” which, if anything, implicates Subsection
(c)(2)(A). There is no hint in Exhibit B that Facebook’s crippling
of Fyk’s businesses/pages was based on Facebook being pursued
by other third-parties based on the content of Fyk’s businesses/
pages. Facebook plainly cannot pull that off because, among
other things, it re-established the (virtually) identical content of

App.201a
Subsection (c)(1) argument is a “matter outside the
pleadings,” the Court should “exclude[ ]” the Subsection (c)(1) argument or treat the argument “as one
for summary judgment under Rule 56 [and allow] [a]ll
parties a reasonable opportunity [i.e., discovery] to
present all material that is pertinent to the motion
[for summary judgment].” Fed. R. Civ. P. 12(d).4
C.

Facebook’s Interpretation/Application of Subsection (c)(1) “Immunity” Is Legally Amiss

The legal untenableness of Facebook’s novel Subsection (c)(1) twist is twofold. First, it is readily
apparent from even just Wikipedia (citing the
Harvard Journal of Law & Technology), see n. 2,
supra , that Subsection (c)(1) affords third-party
immunity under some circumstances, but by no
means first-party immunity. Second, Subsection
(c)(1) does not immunize folks from themselves.
1. Subsection (c)(1) of the CDA Affords Some
Third-Party Immunity, Not First-Party
Subsection (c)(1) and the well-settled case interpretation of same in no way immunizes Facebook from its
destructive acts here. Subsection (c)(1) immunity is
Fyk’s businesses/pages for the new owner of same after Fyk’s
Facebook-induced fire sale of same to a competitor who
Facebook apparently liked better at the time. See, e.g., [D.E. 1]
at ¶ 45. “At the time” because, since this suit, Facebook is now
making things very difficult for the new owner.
4 See also, e.g., Spy Phone Labs, LLC v. Google, Inc., No. 15-cv03756-KAW, 2016 WL 6025469, at *8 (N.D. Cal. Oct. 14, 2016)
(a CDA immunity defense, at least as to Subsection (c)(2)(A),
“cannot be determined at the pleading stage[,]” but may be
raised “at a later stage, such as summary judgment”).

App.202a
afforded to Facebook where (as not here) it is being
pursued by someone else for Fyk’s publications or
speeches (i.e., content/“information provided”) or by
Fyk for someone else’s publications or speeches (i.e.,
content/“information provided”).
The cases cited in the M2D are inapposite or
misconstrued by Facebook. In Nemet Chevrolet, Ltd.
v. Consumeraffairs.com, Inc., 591 F.3d 250 (4th Cir.
2009), cited at page four of the M2D, Nemet Chevrolet,
Ltd. was suing Consumeraffairs.com over consumer
reviews that others had posted on the Consumeraffairs.com platform about Nemet Chevrolet, Ltd.
Consistent with Fyk’s interpretation of Subsection
(c)(1), the district court in Nemet Chevrolet, Ltd.
concluded (and the Fourth Circuit affirmed) that “the
allegations contained in the Amended Complaint [d]o
not sufficiently set forth a claim asserting that
[Consumeraffairs.com] authored the content at issue.”
Id. at 253. In affirming, the Fourth Circuit held, in
pertinent part, that Consumeraffairs.com was an
“‘information content provider’ under § 230(f)(3) of
the CDA,” and, most critically, that “interactive computer service providers [are not] legally responsible for
information created and developed by third parties.”
Id. at 254 (emphasis added) (citing Fair Hous.
Council v. Roommates.com, LLC, 521 F.3d 1157,
1162 (9th Cir. 2008) (en banc)). Instructively, the
Fourth Circuit also held that “Congress thus established a general rule that providers of interactive
computer services are liable only for speech that is
properly attributable to them.” Id. at 254 (citing
Universal Commc’n Sys., Inc. v. Lycos, Inc., 478 F.3d
413, 419 (1st Cir. 2007)). Nemet Chevrolet, Ltd. further
confirms reality—that Subsection (c)(1) immunity

App.203a
pertains to third-party liability. The case sub judice
is a first-party case.
Same with Barnes v. Yahoo!, Inc., 570 F.3d 1096
(9th Cir. 2009), cited at pages one, five, and seven of
the M2D. In Barnes, the plaintiff sued over defendant’s
alleged failure to remove indecent posts of (or pertaining
to) her made by her ex-boyfriend on the Yahoo!, Inc.
platform. Barnes sought to remove Yahoo!, Inc. from
Subsection (c)(1) immunity based on her arguments
that Yahoo!, Inc. served as a “publisher” in relation
to the subject indecent posts, which such removal is
doable under certain circumstances (discussed below).
The Barnes court concluded, however, that the
“publisher” of the indecent posts was the third-party
ex-boyfriend, thereby finding that Subsection (c)(1)’s
third-party liability immunity applied to Yahoo!, Inc.
Again, the case sub judice is a first-party case
involving Facebook’s wrongful destruction of Fyk’s
businesses/pages, not a third-party case against
Facebook over some notion that someone else’s post
about Fyk on the Facebook platform was indecent
and Facebook should have taken the third-party’s
post down.
This remains true for Levitt v. Yelp! Inc., Nos.
C-10-1321 EMC, C-10-2351 EMC, 2011 WL 5079526
(N.D. Cal. Oct. 26, 2011), Jurin v. Google, Inc., 695 F.
Supp. 2d 1117 (E.D. Cal. 2010), Perfect 10, Inc. v.
CCBill, LLC, 481 F.3d 751 (9th Cir. 2007)/Perfect 10,
Inc. v. CCBill, LLC, 488 F.3d 1102 (9th Cir. 2007),
and Carafano v. Metrosplash.com, Inc., 339 F.3d 1119
(9th Cir. 2003). This case is about the content of a
first-party (Fyk) being wrongly destroyed by an
“interactive computer service” (Facebook).

App.204a
And there is more case law supportive of Fyk’s
position that Subsection (c)(1) is inapplicable here.
For example, in Song Fi, Inc. v. Google, Inc., 108 F.
Supp. 3d 876 (N.D. Cal. 2015), the Court determined
that YouTube was not immune under the CDA. In
Song Fi, action was brought against operators of
video-sharing website, alleging that the operators’
decision to remove plaintiffs’ music video from the
publicly-accessible section of the website was inappropriate. The Song Fi court found that the phrase
“otherwise objectionable” as used in Subsection (c)(2)
did not extend so far as to make operators of videosharing website immune from suit based on
California-law . . . tortious interference with business
relations claims by users in relation to operators’
decision to remove users’ music video from publicly
accessible section of website. The Song Fi court went
on to find that the “obscene, lewd, lascivious, filthy,
excessively violent [and] harassing” material suggested
lack of congressional intent to immunize operators
from removing materials from a website simply because
materials posed a “problem” for operators. Though
Facebook viewed Fyk as some sort of “problem,” that
does not mean he violated the CDA.5
5 Facebook’s goal is to eliminate businesses and competition by
labeling them as “problems.” Ms. Lyons has publicly said so:
“The second area is reducing the spread of problematic content,
and if we can reduce the spread of those links we reduce the
number of people who click through and we reduce the
economic incentive that they have to create that content in the
first place.” Reducing the economic advantage of folks like Fyk
is what the First Claim for Relief is all about. More on the point
of Facebook’s strategy to interfere with the economic advantage
of the approximate 70,000,000 businesses on Facebook that Mr.
Zuckerberg disingenuously says he wishes to promote (see n. 7,

App.205a
Then there is e-ventures Worldwide, LLC v.
Google, Inc. , 214CV646FTMPAMCM, 2017 WL
2210029, at *1 (M.D. Fla. Feb. 8, 2017) as another
example, where, accepting as true e-ventures’ allegations that Google’s investigation and removal of eventures’ content was motivated not by a concern over
web spam, but by Google’s concern that e-ventures
was cutting into Google’s revenues, the Court found
Subsection (c)(1) did not immunize Google’s actions.
Then there is Fair Housing Council, 521 F.3d 1157
as another example, where Section 230 of the CDA
was found inapplicable because Roomates.Com’s own
acts (posting surveys and requiring answers) were
entirely Roomates.Com’s doing. Then there is Atl.
Recording Corp. v. Project Playlist, Inc., 603 F. Supp.
2d 690 (S.D.N.Y. 2009), as another example, where it
was found that where the interactive computer
service was not acting as the information content
provider and suit was based on state law claims of
unfair business practices, the situation falls under
the immunity carve out set forth in Subsection 230(e)
of the CDA. See Ex. A.
As discussed in Section D and in the Complaint
(and depicted in Exhibit B), the Subsection (c)(2)
underpinning of Song Fi was the only pretext professed
by Facebook when crippling Fyk’s businesses/pages.
infra), Ms. Lyons has publicly stated as follows: “So going after
the instances of actors who repeatedly share this kind of
content and reducing their distribution, removing their ability
to monetize, removing their ability to advertise is part of our
strategy.” And Mr. Zuckerberg hypocritically shares that
sentiment, stating at his April 10, 2018, Congressional
Testimony that “ . . . advertisers and developers will never take
priority . . . as long as I’m running Facebook.” “Hypocritically”
when compared to that set forth in footnote seven below.

App.206a
Facebook’s Subsection (c)(1) carte blanche blanket
immunity about-face from Subsection (c)(2)(A) contravenes the CDA’s content “proliferation” intent, see n. 1,
supra, and Subsection (c)(1)’s well-settled application
as a limited third-party immunity tool. Subsection
(c)(1)’s limited third-party immunity is inapplicable
in this pure first-party case. The M2D must be denied
as a matter of law.
2. Subsection (c)(1) Was Not Meant to Immunize
a Party from Itself When the Party Was
Acting, in Whole or in Part, as the “Information
Content Provider”
The legislature certainly did not enact Subsection
(c)(1) to immunize bad actors from themselves. More
specifically and for example, Facebook deleted some
of Fyk’s businesses/pages, which is different from
Facebook’s unpublishings, bannings, ads account
blocking, domain blocking, for examples. For example,
Facebook deleted (without explanation) the She Ratchet
business/page, which was a business/page that consisted of approximately 1,980,000 viewers/followers at
the time of Facebook’s foul play. See [D.E. 1] at
¶¶ 20-24. Facebook’s deletion cut Fyk off from the
business/page but preserved his page content on its
own and for itself (as evidenced by Facebook’s later
publishing the same She Ratchet content for the Los
Angeles competitor to whom Fyk’s Facebook-induced
fire sale was made). Then the following occurred: (1)
The competitor to whom Fyk would eventually fire
sell the She Ratchet business/page to (along with
other businesses/pages, as detailed in the Complaint,
see, e.g., [D.E. 1] at ¶¶ 22, 42-45) requested Facebook’s assurance of recovering the business/page
following the fire sale; and (2) Facebook restored the

App.207a
value of the deleted She Ratchet business/page by
publishing (yes, publishing) same for the Fyk competitor around the time the Facebook-induced fire sale
of same went through, with the page content being
(virtually) identical to that which it was when under
Fyk’s ownership. See, e.g., [D.E. 1] at ¶ 45.
At the time of SheRatchet deletion, Facebook
illegally acquired “ownership” of Fyk’s content (i.e.,
“information provided” by Fyk on the Facebook
“interactive computer service” platform). 6 When
Facebook published She Ratchet for the Fyk competitor
to whom the Facebook-induced fire sale was made,
Facebook became the independent “publisher”/“information content provider” of the same content it had
stolen from Fyk. Facebook’s theft and re-publishing of
the (virtually) identical content Fyk had published
was motivated by Facebook’s desire to enrich Fyk’s
competition, thereby enriching Facebook as it enjoyed
a far more lucrative relationship with that competitor
than with Fyk . . . that competitor has paid Facebook
millions whereas Fyk paid Facebook approximately
$43,000.00. See, e.g., [D.E. 1] at ¶¶ 19, 46, 52.7
6 Facebook publicly recognizes Fyk as the “owner” of his content
/“information provided.” See, e.g. , https://www.facebook.com/
communitystandards (“[y]ou own all of the content and
information you post”).
7 These actions are in stark contrast to what Facebook’s professed
mission (or “social contract”) supposedly is: “Our mission is all
about embracing diverse views. We err on the side of allowing
content, even when some find it objectionable, unless removing
the content can prevent a specific harm. Moreover, at times we
allow content that might otherwise violate our standards if we
feel it is newsworthy, significant, or important to the public
interest.” See Facebook’s public domain “Community Standards,”
https://www.facebook.com/communitystandards (emphasis added);

App.208a
Moreover, in addition to indirectly interfering and
competing with Fyk, Facebook is a direct competitor
that is not entitled to CDA immunity. In addition to
serving as an “interactive computer service” for which
CDA immunity may apply (though not in this context), Facebook also serves as an “information
content provider” (defined in CDA Subsection (f)(3), see
Ex. A) at least with respect to its Sponsored Story
Advertising News Feed scheme, and accordingly enjoys
no CDA immunity. See, e.g., Fraley, 830 F. Supp. 2d
at 802-803. In this vein, Facebook directly interferes
with the economic advantage of others who are doing
nothing wrong (First Claim for Relief) in an unfairly
and deceptively competitive manner (Second and
Fourth Claims for Relief) directly for its own benefit.
Mr. Zuckerberg stated in his April 10, 2018, Congressional Testimony that “what we allow is for advertisers to tell us who they want to reach and then we
do the placement.” (emphasis added). For context on
Facebook’s “placement,” Fyk has blocked on his
personal News Feed, for example, sites called NowThis and UNILAD, and yet Facebook keeps forcing
those sites into Fyk’s personal News Feed, further
evidencing that the user has no control of the user’s
News Feed (contrary to Facebook’s pronouncements
about user control) and Facebook jams its sponsored
unsolicited material (i.e., “spam”) into the user’s News
Feed anyway to make Facebook money (NowThis and
UNILAD doubtless pay Facebook money). Judge Koh
see also Mr. Mark Zuckerberg’s April 10, 2018, Congressional
Testimony (“I am very committed to making sure that Facebook
is a platform for all ideas, that is a very important founding
principle of what we do”); id. (“For most of our existence, we
focused on . . . and for building communities and businesses”).

App.209a
recognized or acknowledged as much too: “Although
Facebook’s Statement of Rights and Responsibilities
provides that members may alter their privacy
settings to ‘limit how your name and [Facebook]
profile picture may be associated with commercial,
sponsored, or related content (such as a brand you
like) served or enhanced by us,’ members are unable to
opt out of the Sponsored Stories service altogether.”
Id at 792.
The “placement,” in one form, is Facebook’s
steering/displacing of businesses that do not pay
Facebook as much money (like Fyk’s businesses/pages)
to competitors who pay Facebook millions (like the
Fyk competitor out of Los Angeles who was the
benefactor in the Facebook-induced fire sale of Fyk’s
businesses), The “placement,” in another form, is
Facebook’s manipulation of the News Feed to bring
its sponsored posts (i.e., posts in which Facebook is
the money-making partner) to the top and shove
other News Feed posts down where users are less
likely to see same despite the News Feed supposedly
being something wherein the user is allowed to read
what he/she chooses . . . in Facebook’s words:
It is helpful to think about [News Feed] for
what it is, which is a ranking algorithm . . .
and the problem that the News Feed ranking
algorithm is solving is what order should I
show your stories in News Feed. The News
Feed ranking algorithm prioritizes them . . .
now we do this whole process for every story
in your inventory . . . inventory is the collection of stories from the people that you
friend and the pages that you follow . . .
You’re a lot more likely to see a story that’s

App.210a
in the first spot on your News Feed than the
one that’s in the 3000th spot.
Ms. Lyons’ public speech, uploaded on April 13, 2018.
In that same public speech, Ms. Lyons elaborates on
Facebook’s direct competition mindset: “If [a News
Feed post] says sponsored that means that someone
spent money in order to increase its distribution.”
One of the benefactors of a sponsored News Feed
post is the introducer/supporter/partner of the post
(in many cases, Facebook), as Judge Koh recognized.
See Fraley, 830 F. Supp. 2d at 790 (“Facebook generates its revenue through the sale of advertising [i.e.,
sponsored ads with Facebook as the paid sponsor
/partner] targeted at its users”).
Facebook’s unilateral placement of its “spam”
News Feed material (from which Facebook profits) to
the top of a user’s News Feed, see, e.g., [D.E. 1] at
¶¶ 35-40, and burying the News Feed material users’
want/solicit (like Fyk’s material) in the “3000th spot”
(as Facebook’s Tessa Lyons admits in the commentary cited above) is the epitome of the Second Claim
for Relief (Unfair Competition) and quite deceitful in
the vein of the Fourth Claim for Relief (fraud/
intentional misrepresentation), tying in directly to the
destruction of economic advantage (the First Claim
for Relief) of folks (like Fyk) who earn ad and webtrafficking monies through posts that users actually
want to see . . . entitling Facebook to no immunity.
See, e.g., Fraley and Fair Hous. Council.
Subsection (c)(1) immunity is only afforded to an
“interactive computer service” under some situations,
not to the “publisher” (i.e., “information content provider”). But Facebook’s conduct as to the She Ratchet
business/page and Sponsored Stories advertisements

App.211a
News Feed scheme, for examples, took it outside the
shoes of an “interactive computer service” and inside
the shoes of “information content provider,” in whole
or in part; thus, Facebook is not Subsection (c)(1)
immune. See, e.g., Fair Hous. Council, 521 F.3d at
1165 (“the party responsible for putting information
online may be subject to liability, even if the information originated with a user,” citing Batzel v.
Smith, 333 F.3d 1018, 1033 (9th Cir. 2003)); Fraley,
830 F. Supp. 2d 785 (denying the CDA motion to
dismiss, as Facebook’s being both an “interactive
computer service” and an “information content
provider” went beyond a publisher’s traditional editorial
functions when it allegedly took members’ information
without their consent and used same to create new
content published as endorsements of third-party
products or services); Perkins v. LinkedIn Corp., 53
F. Supp. 3d 1222, 1247 (N.D. Cal. 2014) (denying the
CDA motion to dismiss wherein LinkedIn sought
immunity as an interactive computer service, with
the court endorsing, at least at the dismissal stage,
plaintiffs’ claim that LinkedIn provided no means by
which a user could edit or otherwise select the language
included in reminder emails and that true authorship of the reminder emails laid with LinkedIn);
Jurin, 695 F. Supp. 2d at 1122 (holding, in part, that
“[u]nder the CDA an interactive computer service
qualifies for immunity so long as it does not also
function as an ‘information content provider’ for the
portion of the statement or publication at issue,”
citing Carafano, 339 F.3d at 1123). Facebook’s
attempt to distance itself from the “information
content provider” role in have its cake and eat it too
fashion translates to: “Accuse your enemy of what you
are doing. As you are doing it to create confusion.” ~

App.212a
Karl Marx. The M2D must be denied as a matter of
law.
D.

Facebook’s Subsection (c)(1) Litigation Arguments
Must Be Estopped and/or Have Been Waived

Facebook is estopped from enjoying (or has
waived) Subsection (c)(1) immunity. The United States
Supreme Court counsels against allowing the kind of
“bait and switch” that is Facebook’s seismic shift
from Subsection (c)(2)(A) to (c)(1), albeit within the
phrase of art that is “Mend the Hold,” which is
legalese for estoppel and, to some extent, waiver.8
See, e.g., Railway Co. v. McCarthy, 96 U.S. 258, 6
Otto 258, 24 L.Ed. 693 (1877). See also Harbor Ins.
Co. v. Continental Bank Corp., 922 F.2d 357, 363 (a
party’s “hok[ing] up a phony defense . . . and then when
that defense fails (at some expense to the other
party) tr[ying] on another defense for size, can properly
be said to be acting in bad faith”); Tonopah & T.R.
Co. v. Commissioner of Internal Revenue, 112 F.2d
970, 972 (9th Cir. 1940); Connally v. Medlie, 58 F.2d
629 (2d Cir. 1932).
As Exhibit B illustrates, Facebook’s professed
“basis” to Fyk for destroying his businesses/pages
was that the content of same purportedly violated
Facebook’s “Community Standards” or “terms,” see,
e.g., [D.E. 1] at ¶ 23, which sounds in Subsection
(c)(2)(A) (content-oriented). Fyk heavily relied, to his
detriment in time and money, on Facebook’s professed
8 Glaringly applicable forms of estoppel include “estoppel,” see
Bryan A. Garner, Black’s Law Dictionary 247 (2001 2d pocket
ed.) (defining same), “equitable estoppel,” see id. (defining
same), “quasi-estoppel,” see id. (defining same), and “estoppel
by silence,” see id. (defining same).

App.213a
“basis” for its businesses/pages crippling,9 which,
again, such “basis” was content-oriented or intentionally
nebulous so as to keep Fyk guessing as to why Facebook
was destroying his livelihood. It would be improper
to allow Facebook to cripple Fyk’s businesses/pages on
one ground (purported violation of “Community Standards”/“terms,” implicating Subsection (c)(2)(A)) and
try to avoid liability on different grounds (Subsection
(c)(1)) when that ground is challenged (this suit).
Moreover, Facebook’s inequitable recast from
Subsection (c)(2)(A) to (c)(1) would still fail under
9 As to “reliance,” we point to the sale of the subject businesses/
pages to a competitor, this lawsuit, and/or a pre-suit letter writing
campaign with defense counsel, as examples. As to “monetary
detriment,” Facebook’s Motion scoffs at our classification of the
approximate $1,000,000.00 being “relatively nominal.” See, e.g.,
[D.E. 20] at 1-2. The “relatively nominal” nature of the monies
recovered by Fyk in relation to his Facebook-induced fire sale of
the subject businesses/pages, however, is very serious and real.
There was no letup in sight of Fyk’s impressive growth curve,
see, e.g., [D.E. 1] at n. 2, but for Facebook’s unlawful destruction of his businesses/pages. The competitor who reaped the
benefits of the Facebook-induced fire sale of the subject
businesses/pages was smaller than/less successful than Fyk at
the time of Facebook’s destruction of the subject businesses/
pages. It is believed that that competitor grew to a worth of ~
$100,000,000.00. See [D.E. 1] at ¶¶ 5, 15. As another example,
it is believed that another Fyk competitor (BuzzFeed) who
Facebook did not mess with like it did with Fyk and who Fyk
was once bigger than/more successful than is presently valued
at ~ $1,700,000,000.00. See [D.E. 1] at ¶¶ 5, 15, The range of
Fyk’s value (and, thus, some of his damages in this case) but for
Facebook’s wrongful destruction of his businesses/pages was
between $100,000,000.00 and $1,700,000,000.00 (maybe more).
So, put in proper perspective (see, e.g., [D.E. 1] at ¶¶ 5, 42), the
approximate $1,000,000.00 relating to Fyk’s Facebook-induced
fire sale (when Facebook had rendered the subject businesses/
pages valueless) was, in fact, “relatively nominal.”

App.214a
ordinary statutory construction principles. If Facebook’s
interpretation of Subsection (c)(1) was correct (which
it is not), Subsection (c)(1) and Subsection (c)(2)(A)
would be the exact same thing under these circumstances (or perhaps altogether). The legislature would
not put redundant law on the books; i.e., our interpretation/application of Subsection (c)(1) (and related
case law) is correct.
E.

Facebook’s M2D Is Replete with Skewed Statements

Here is a sampling of things said by Facebook in
its M2D that are wrong:
Facebook’s Representation
Facebook falsely suggests that the Complaint
takes issue with Facebook not treating “similar”
content of others (like Fyk competitors) the way it
treated Fyk. See, e.g., [D.E. 20] at p. 1, ln. 27; p. 3.
ln. 6; p. 6, ln. 10.
The Truth
Actually, the Complaint speaks of Facebook not
interfering with the content of others that was
“identical” to Fyk’s content; i.e., wrongly discriminating against or singling out Fyk. See, e.g.,
[D.E. 1] at p. 8, lns. 10-12; n. 8, p. 16, lns. 24-28-n.
8, p. 17, lns. 21-23; p. 16, lns. 3-8.
Facebook’s Representation
Facebook implies Facebook is not a direct competitor, so as to try to capture this case in the
CDA net it has cast in the entirely wrong
direction. [D.E. 20] at p. 6, ln. 13 (calling itself,
intentionally so, the “unidentified advertiser”); p.

App.215a
6, ln. 23 (misrepresenting that Facebook did not
create content).
The Truth
Actually, Facebook has acted as a direct competitor (or “information content provider”), and
the Complaint says plenty about that reality. See,
e.g., [D.E. 1] at 18, ln. 23-p. 19, ln. 11; p. 9, ln. 13p. 13, ln 1 (discussing Facebook’s “claim jumping”
scheme); p. 13, ln. 2-p. 14, ln. 20 (discussing Facebook’s Sponsored Story advertisement News Feed
scheme); p. 15, ln, 1-p. 17, ln. 6 (discussing Facebook’s stealing and re-distributing of Fyk’s businesses to a Los Angeles competitor who paid Facebook more money than Fyk); p. 20, lns. 10-19; p.
21, ln. 25-p. 23, ln. 7 (punctuating Facebook’s direct
competition schemes).
Facebook’s Representation
Facebook misleads/downplays what it did to Fyk’s
content by calling itself a mere “moderator.” [D.E.
20] at p. 4, ln. 7
The Truth
Actually, Facebook did not just “moderate” Fyk’s
content, it destroyed/devalued, stole, and/or redistributed his content. See, e.g., [D.E. 1] at p. 1,
lns. 6-7; p. 1, lns. 23-26; p. 2, lns. 4-7, 15-16; p. 7.
3, lns. 16-20; p. 5, ln. 21-p. 6, ln. 2; p. 6, lns. 3-22;
p. 7, lns. 11-16; p. 7, ln. 17-p. 9, ln. 12; p. 10, ln,
24-p. 11, ln. 7; p. 11, lns. 10-13-p. 12, ln. 3; p. 13,
lns. 2-6, 16-19; p. 14, lns. 1-3, 9-20 and n. 7; p. 15,
ln. 8-p. 17, ln, 12.
Facebook’s Representation
Facebook misrepresents that Facebook “delet[ed]

App.216a
content from [Fyk’s] page,” so as to downplay its
destruction of Fyk. [D.E. 20] at p. 7, lns. 16-17.
The Truth
Actually, Facebook did not just delete some Fyk
content on his businesses/pages, it crushed all of
Fyk’s businesses/pages. See, e.g., [D.E. 1] at p. 7,
ln. 17-p. 8, ln. 4; p. 15, ln. 8-p. 17, ln. 6
Facebook’s Representation
Facebook misrepresents that Fyk’s Facebookinduced fire sale of the subject businesses/pages
was “voluntar[y].” [D.E. 20] at p. 11, ln. 19.
The Truth
Actually, the Complaint says what the M2D says
a few sentences later, that Facebook left Fyk
“with no reasonable alternative” other than to fire
sell the subject businesses/pages that Facebook’s
wrongdoing had rendered valueless (for Fyk at
least, but not for the Los Angeles competitor in
Facebook’s good graces at the time). See, e.g.,
[D.E. 1] at p. 5, lns. 20-21; p. 9, lns. 7-12; p. 15,
lns. 8-17; p. 16, lns. 8-14; p. 21, lns. 25-27; p. 26,
lns. 1-4.
Facebook’s Representation
Facebook misrepresents part of the fraud/intentional misrepresentation that the Complaint takes
issues with, trying to take the sting out of the
Fourth Claim for Relief by contending that Facebook never represented to Fyk that his participation in the Facebook paid for reach program
extended into “perpetuity.” See [D.E. 20] at p. 13,
lns. 6-10.

App.217a
The Truth
Actually, the fraud/intentional misrepresentation
concerning the Facebook paid for reach program
was, for examples, (1) the sham worthlessness
(i.e., fraud) of same, see, e.g., [D.E. 1] at p. 18, lns.
12-17; p. 24, lns. 3-11; (2) the supposed optional
nature of the not-so 17; p. 24, lns. 3-11; (2) the
supposed optional nature of the not-so optional
paid for reach program, see, e.g., [D.E. 1] at p. 5,
lns. 2-9; p. 5, n. 3, (3) Facebook’s never telling Fyk
(i.e., misrepresentation) that it could at any time
completely shut him out of his ads account,
thereby disallowing his participation in the paid
for reach program, and/or (4) never providing Fyk
with an explanation (i.e., misrepresentation) as to
why he was shut out of his ads account, see, e.g.,
[D.E. 1] at p. 5, ln. 19; p. 6, lns. 7, 27; p. 7, lns. 4-5;
p. 15, lns. 5-7; p. 23, ln. 16.
It would be unjust (at minimum) to afford any
relief to an untruthful, misrepresentative, misleading,
and/or incoherent movant. The M2D must be denied
as a matter of fact.
F.

The Complaint’s Averments Sufficiently Support
Each Claim for Relief (Fed. R. Civ. P. 12(b)(6))

Preliminarily, it is important to note that the
elements for each of the four claims for relief set
forth in the Complaint are taken from the California
Civil Jury Instructions and/or California Code.10 There

10 As to elements of the First Claim For Relief, see, e.g., Cal. Civ.
Jury Inst. 2202; Second Claim for Relief, see, e.g., Cal. Code
§§ 17200-17210; Third Claim for Relief, see, e.g., Cal. Penal

App.218a
are a wealth of supportive averments for each claim
for relief in the Complaint, especially when viewed in
a light most favorable to the complainant (which is
the law). And there is far more Facebook wrongdoing;
but, even amidst a Twombly backdrop, we did our
best to adhere to Federal Rule of Civil Procedure
8(a)(2)—“a short and plain statement of the claim
showing that the pleader is entitled to relief.” Id. Per
this Court’s recitation of Twombly in Cunningham
and Finkelstein, MD. (see Section A, supra), Fyk
pleaded plenty “factual content t[o] allow[ ] the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Cunningham,
2010 WL 11575083 at *2.
All of Facebook’s arguments set forth in the
M2D (at pages eight through fourteen) are the epitome
of premature, unsubstantiated red-herrings. Facebook
can someday try to persuade the Court that the facts
of this case are analogous to whatever facts were
present in the 12(b)(6) case law cited in the M2D;
but, on a legal sufficiency motion, that time is not
now. For now, Twombly is the measure, and the
incredibly detailed Complaint has plainly stated causes
of action upon which relief can someday be granted.
But, to be safe, we now address the cause of action
elements the M2D glossily claims are missing.
1. Civil Extortion (Pages 8-10 of the M2D)
Facebook claims that Fyk fails to state a Civil
Extortion claim “because he does not and cannot
allege that Facebook wrongly threatened to withhold
Code §§ 518-519 (also applies to civil extortion); Fourth Claim
for Relief, see, e.g., Cal. Civ. Jury Inst. §§ 1900-1902.

App.219a
from him anything that he had a right to possess.”
[D.E. 20 at 8]. Onward in this vein, Facebook misrepresents that “the Complaint does not identify any
contractual provision or any law giving him the right
to maintain content on Facebook or to prevent Facebook from promoting the content of other Facebook
users or advertisers.” Id. at 9. Wrong—Facebook
publicly admits Fyk’s “ownership” of his content. See
n. 6 supra; see also Mr. Zuckerberg’s April 10, 2018
Congressional Testimony.11 Facebook’s own words
(footnote six above and Mr. Zuckerberg’s Congressional
Testimony) would create a contract (at best) or work
an estoppel (at worst), but, either way, Facebook
cannot legitimately disclaim its own words in order
to throw this lawsuit out.
Then, Facebook tries to delegitimize Fyk’s “fear”
and its “threat” by misrepresenting to the Court that
the Complaint only contains a “vague allegation” about
representations made to Fyk by a “high ranking
Facebook executive.” First, that is enough at the 12
(b)(6) stage and the fact that we were respectful
enough not to include that individual’s name in the
Complaint by no means renders that individual’s
critical statement to Fyk “vague.” Second, the
Complaint is replete with detailed allegations of
“fear” and “threat.” See, e.g., [D.E. 1] at ¶¶ 18-19, 25-

11 Senator Hatch: “Now, Mr. Zuckerberg, I remember well your
first visit to Capitol Hill, back in 2010. You spoke to Senate
Republican High-Tech Task Force, which I chair. You said back
then that Facebook would always be free. Is that still your
objective?” Mr. Zuckerberg: “Senator, yes.”

App.220a
35, 47, 67-71.12 This 12(b)(6) aspect of the M2D must
be denied.
2. Unfair Competition (Pages 10-12 of the M2D)
Perhaps the most instructive case to look at (not
cited in the M2D) is Fraley. There, as discussed
above, the unfair competition was in the form of
Facebook’s Sponsored Story advertisement News Feed
scheme, and the Fraley court denied Facebook’s
attempt to dismiss the unfair competition aspect of
that complaint. Here, the Complaint is replete with
allegations as to that scheme and how that scheme
crippled Fyk’s ad and web-trafficking money-making
abilities with Facebook burying his posts underneath
its own sponsored posts contrary to and in disregard
for users’ preferences. See, e.g., [D.E. 1] at ¶¶ 35-40.
But, here, there is more to Facebook’s unfair competition than that which was present in Fraley. Here, for
example, the Complaint thoroughly avers that
Facebook steered Fyk’s businesses/pages to a Los
Angeles competitor who paid Facebook more money.
12 ¶ 18 (discussing Facebook’s unilateral implementation of a
not-so-optional “paid for reach program,” creating Fyk’s “[f]ear
(analogized in averments twenty-five through thirty-five, infra,
to ‘claim jumping’) that if Fyk did not engage in Facebook’s new
‘optional’ paid for reach program, he would be blacklisted in the
form of having his businesses heavily curtailed or altogether
eliminated . . . ”); ¶ 19 (discussing that Fyk’s very real fear induced
him into relenting to Facebook’s extortion; i.e., investing
$43,000.00 into the worthless paid for reach program); ¶¶ 25-35
(discussing the very real fear/threat of Facebook’s jumping
Fyk’s claim; i.e., hijacking his businesses/pages); ¶ 47 (discussing Fyk’s fear of or the threat of Facebook’s singling him
out); id at n. 3 (discussing how Facebook aimed to put folks on
“hospice” who did not work with/pay Facebook—putting one on
“hospice” equals fear); ¶¶ 67-71 (summary/punctuation).

App.221a

See, e.g., [D.E. 1] at ¶¶ 16, 41-46, Then Paragraphs 5866 of the Complaint thoroughly sum up or punctuate
Facebook’s unfair competition.
Oddly, the M2D tries to conflate the Second Claim
for Relief (unfair competition, cognizable under California Business & Professions Code Sections 1720017210) with anti-trust. The Complaint’s Second
Claim for Relief is not an anti-trust action. The
Fraley court points out what an unfair competition
cause of action is (which is not an anti-trust action):
[The] UCL . . . does not prohibit specific
activities but instead broadly prescribes
‘any unfair competition, which means any
unlawful, unfair or fraudulent business practice or act. The UCL is designed to ensure
‘fair business competition’ and governs both
anti-competitive business practices and
consumer injuries. Its scope is ‘sweeping,’ and
its standard for wrongful business conduct
is ‘intentionally broad’ . . . Each of the three
UCL prongs provides a ‘separate and distinct theory of liability’ and an independent
basis for relief.

Fraley, 830 F. Supp. 2d at 810 (internal citations,
which include Ninth Circuit cases, omitted and
emphasis added). Even the case cited by Facebook in
its M2D (Levitt II) says that there can be an antitrust undertone to a UCL claim, but that a UCL
claim also (as here) deals with things that “otherwise
significantly threaten[ ] or harm[ ] competition.” [D.E.
20] at 10.13 And then the M2D inappositely states
13 And it is not just us talking about Facebook’s unfair direct
competitive tactics. See Exhibit C.

App.222a
that a UCL claim has to be tied to some sort of
legislative policy. Wrong—Facebook’s own case
(Levitt II) states, a UCL claim can also emanate from
“actual or threatened impact on competition,” which,
again, is what the Second Claim for Relief of the
Complaint is about. There being plenty of supportive
averments in the Complaint for the UCL claim, the
UCL being intentionally broad, and Facebook’s
twisting its case law in the wrong direction, this
12(b)(6) aspect of the M2D must be denied.
3. Fraud/Intentional Misrepresentation (Pages
12-13 of the M2D)
The M2D sparsely tries to focus the Court in on
a small percentage of Complaint averments to create
the misimpression that the Complaint is not specific
enough. So, then, we show the Court how many
averments support the Fourth Claim for Relief, though
just about everything said about Facebook and what
it has done to Fyk has a fraud/intentional misrepresentation undercurrent.14 See, e.g., [D.E. 1] at ¶¶ 14,
17, 19, ¶¶ 20-24, 30, 35-40, 42-45, 72-78 n. 4-5.15
This 12(b)(6) aspect of the M2D must be denied.
14 And it is not just us talking about Facebook’s fraudulent/
misrepresentative ways. See Exhibit D.
15 ¶¶ 14, 17 (going to the purported “free” nature of Facebook,
which such freeness was false); ¶ 19 (discussing Fyk’s approximate $43,000.00 investment in a Facebook product, the paid
for reach program, which was supposed to increase Fyk’s reach
and distribution, which proved false); ¶¶ 20-24 (discussing
Facebook’s Subsection (c)(2)(a) “justification” for crippling Fyk’s
businesses/pages, which such “justification” was the epitome of
fraud and/or intentional misrepresentation because there was
nothing Subsection (c)(2)(A) violative about Fyk’s content); n. 4
(discussing Facebook’s lies about the safe and welcoming nature

App.223a
4. Intentional Interference with Prospective
Economic Advantage/Relations (Pages 13-14
of the M2D)
The M2D sparsely states that because the
Complaint’s other three claims for relief fail (which
they plainly do not), the “derivative” First Claim for
Relief cannot stand. The Complaint is very detailed
as to how Facebook has destroyed Fyk’s economic
advantage/relations (both actual and prospective).
Whether Facebook’s destruction of Fyk’s economic
advantage/relations was underlain by Facebook’s
civil extortion, unfair competition, 16 and/or fraud/
intentional misrepresentation, the First Claim for
Relief must stand. The M2D does not quarrel with
the fact that Facebook destroyed Fyk’s economic
advantage/relations—reason being, Facebook cannot
genuinely do so . . . it undeniably destroyed Fyk’s
economic advantage/relations.17 Rather, the M2D
of the disgusting content on other pages compared to Facebook’s
intentionally misrepresentative disproportionate treatment of
Fyk’s content); ¶ 30 and n. 5 (discussing Mr. Zuckerberg’s
misrepresentations about what Facebook supposedly is, whereas
it was nothing of the sort when it came to Facebook’s treatment
of Fyk); ¶¶ 35-40 (discussing the purported misrepresentative
“free” nature of Facebook, whereas the truth is that Facebook
uses the platform to shift the hard-earned wealth of others into
its pocket through myriad illegal methods or “strategies” as
Facebook would call it); ¶¶ 42-45 (discussing Facebook’s lies to
Fyk that his content was supposedly CDA violative—“lies”
because Facebook re-published the (virtually) identical content);
¶¶72-78 (summary/punctuation).
16 For more on the First and Second Claims for Relief squaring,
see footnotes five and nine.
17 Facebook’s intentional interference with Fyk’s prospective
economic advantage continues to this day—Facebook has stolen

App.224a
simply says “well, we think the other three claims for
relief fail, though we are not going to provide detail
as to how that is so, so the First Claim for Relief has
gotta go.” Such docs not rise to the level of colorable
argument, and it is pure argument nevertheless—no
case (let alone one as serious as this) should be
thrown out based on naked lawyer argument. This
12(b)(6) aspect of the M2D must be denied.
WHEREFORE, Plaintiff, Jason Fyk, respectfully
requests entry of an order (1) denying the M2D [D.E.
20] filed by Defendant, Facebook, Inc., on November
1, 2018,18 and (2) awarding any other relief to Fyk
that the Court deems equitable, just, or proper.

/converted/embezzled two successful Instagram accounts (Instagram Account Nos. 522601519 and 2817831134, and Facebook
owns Instagram) in which Fyk is a partner and re-distributed
them to a person named Sommer Ray Beaty (who is making
millions because of Facebook’s re-distribution), then telling Fyk
that action would not be taken “without a valid court order.”
18 To the extent the Court somehow finds that there are insufficient facts to support his claims for relief, Fyk respectfully
requests leave to amend his Complaint pursuant to Federal
Rule of Civil Procedure 15.

App.225a
Respectfully submitted,
CALLAGY LAW, P.C.
/s/ Jeffrey L. Greyber

Pro Hac Vice Admitted
jgreyber@callagylaw.com
Sean R. Callagy, Esq.

Pro Hac Vice Admitted
scallagy@callagylaw.com
Michael J. Smikun, Esq.

Pro Hac Vice Admitted

msmikun@callagylaw.com
Attorneys for Plaintiff
and
PUTTERMAN LANDRY + YU, LLP
Constance J. Yu, Esq.
SBN 182704
cyu@plylaw.com
Dated: December 14, 2018

App.226a

EXHIBIT A
TO CONFORMED RESPONSE IN OPPOSITION

EXHIBIT A, THE TEXT OF 47 U.S.C. § 230, IS NOT
INCLUDED HERE, AS IT IS ALREADY REPRODUCED IN THE
STATUTORY SECTION TO THE APPENDIX AT APP.16A

App.227a
EXHIBIT B(1) TO TO
CONFORMED RESPONSE IN OPPOSITION
FACEBOOK SCREENSHOTS

App.228a

EXHIBIT B(2) TO
CONFORMED RESPONSE IN OPPOSITION

App.229a
EXHIBIT B(3) TO
CONFORMED RESPONSE IN OPPOSITION

App.230a
EXHIBIT B(4) TO
CONFORMED RESPONSE IN OPPOSITION

App.231a
EXHIBIT B(5) TO
CONFORMED RESPONSE IN OPPOSITION

App.232a
EXHIBIT C TO
CONFORMED RESPONSE IN OPPOSITION

FACEBOOK EMAILS SHOW ITS REAL MISSION:
MAKING MONEY AND CRUSHING COMPETITION
(DECEMBER 5, 2018)
By Kevin Roose
New York Times
December 5, 2018
British lawmakers on Wednesday gave a gift
to every Facebook critic who has argued that the
company, while branding itself as a do-gooder enterprise, has actually been acting much like any other
profit-seeking behemoth.
That gift was 250 pages’ worth of internal
emails, in which Facebook’s executives are shown
discussing ways to undermine their competitors,
obscure their collection of user data and — above all
— ensure that their products kept growing.
The emails, which span 2012 to 2015, were originally sealed as evidence in a lawsuit brought
against Facebook by Six4Three, an app developer.
They were part of a cache of documents seized by a
British parliamentary committee as part of a larger
investigation into Facebook’s practices and released
to the public on Wednesday.
It should not come as a surprise that Facebook
— a giant, for-profit company whose early employees
reportedly ended staff meetings by chanting “domination!” — would act in its own interests.
But the internal emails, a rare glimpse into
Facebook’s inner workings, show that the image the
company promoted for years — as an idealistic enter-

App.233a
prise more dedicated to “bringing the world closer
together” than increasing its own bottom line — was
a carefully cultivated smoke screen.
These emails reveal that in the formative years
of Facebook’s growth, the company’s executives were
ruthless and unsparing in their ambition to collect
more data from users, extract concessions from
developers and stamp out possible competitors.
“It shows the degree to which the company
knowingly and intentionally prioritized growth at all
costs,” said Ashkan Soltani, a privacy researcher and
former chief technologist of the Federal Trade
Commission.
In a blog post on Wednesday, Facebook said the
documents included in the lawsuit were a cherrypicked sample that “tells only one side of the story
and omits important context.”
Here are four revelations from the emails that
detail Facebook’s aggressive quest for growth:
1.

The company engineered ways to collect Android
users’ data without alerting them.
In February 2015, Facebook had a privacy dilem-

ma.
The company’s growth team — a powerful force
within Facebook — wanted to release an update to
the Android app that would continually collect users’
entire SMS and call log history. That data would be
uploaded to Facebook’s servers, and would help Facebook make better recommendations, such as suggesting new friends to Android users based on the people
they’d recently called or texted. (This feature, called

App.234a
“People You May Know,” has been the subject of
much controversy.)
But there was a problem: Android’s privacy
policies meant that Facebook would need to ask users
to opt in to having this data collected. Facebook’s
executives worried that asking users for this data
could bring a public backlash.
“This is a pretty high risk thing to do from a PR
perspective but it appears that the growth team will
charge ahead and do it,” one executive, Michael
LeBeau, wrote.
He outlined the nightmare scenario: “Screenshot
of the scary Android permissions screen becomes a
meme (as it has in the past), propagates around the
web, it gets press attention, and enterprising journalists dig into what exactly the new update is
requesting, then write stories about ‘Facebook uses
new Android update to pry into your private life in
ever more terrifying ways.’”
Ultimately, Facebook found a workaround. Yul
Kwon, the head of Facebook’s privacy program, wrote
in an email that the growth team had found that if
Facebook’s upgraded app asked only to read Android
users’ call logs, and not request other types of data
from them, users would not be shown a permission
pop-up.
“Based on their initial testing, it seems that this
would allow us to upgrade users without subjecting
them to an Android permissions dialog at all,” Mr.
Kwon wrote.
In a blog post on Wednesday, Facebook said that
it collects call and text message logs only from
Android users who opt in, and that as of 2018, it

App.235a
keeps this information only temporarily, since “the
information is not as useful after about a year.”
2.

Mark Zuckerberg personally approved cutting
off a competitor’s data access.

In January 2013, one of Mr. Zuckerberg’s lieutenants emailed him with news about Twitter, one of
Facebook’s biggest competitors. The company had
introduced a video-sharing service called Vine, which
allowed users to create and post six-second video
clips.
When new users signed up for Vine, they were
given the option of following their Facebook friends
— a feature enabled through Facebook’s application
program interface, or API. This feature was widely
used, and had become a valuable tool for new apps to
accelerate user growth. But in Vine’s case, Facebook
played hardball.
“Unless anyone raises objections, we will shut
down their friends API access today,” wrote the
lieutenant, Justin Osofsky, now a Facebook vice
president.
Mr. Zuckerberg, the chief executive, replied: “Yup,
go for it.”
On Wednesday, Rus Yusupov, one of Vine’s cofounders, said on Twitter, “I remember that day like
it was yesterday.”
Facebook’s decision to shut off Vine’s API access
proved fateful. Months later, Instagram released its
own short-form video feature, which many saw as a
further attempt by Facebook to hobble Vine’s growth.
Vine shut down in 2016, after stagnant growth and

App.236a
heavy competition led many of its stars and users to
go elsewhere.
On Tuesday, Facebook changed its developer
policies, ending the prohibition on apps that competed with the company’s own features.
3.

Facebook used a privacy app to collect usage
data about its competitors.

In 2013, Facebook acquired Onavo, an Israeli
analytics company, announcing that Onavo’s tools
“will help us provide better, more efficient mobile
products.”
One of those tools, an app called Onavo Protect,
was especially helpful in helping Facebook sniff out
potential competitors. The app, which was billed to
users as a way to keep their internet browsing private,
also collected data about which apps those people
used the most — including apps not owned by Facebook — and fed that information back to Facebook.
According to the emails released on Wednesday,
Facebook executives received reports about the performance of rival apps, using data obtained through Onavo.
Sometimes, those reports revealed up-and-coming
competitors. One report included in the email cache,
dated April 2013, said that WhatsApp, the mobile
messaging app, was gaining steam. According to
Onavo’s proprietary data, WhatsApp was being used
to send 8.2 billion messages a day, whereas Facebook’s own mobile app was sending just 3.5 billion
messages daily.
Ten months later, Facebook announced that it
was acquiring WhatsApp in a deal valued at $14
billion.

App.237a
In August, Facebook pulled Onavo Protect from
the App Store, after Apple reportedly said that it
violated the company’s privacy rules.
4.

Facebook executives wanted more social
sharing, as long as it happened on Facebook.

In November 2012, Mr. Zuckerberg sent a lengthy
note to several top executives called “Platform Model
Thoughts.” It outlined how intensely he wanted
Facebook to be the center of everyone’s social life
online.
The email addressed a debate that was raging
inside Facebook at the time, about whether outside
app developers should have to pay to connect their
apps to Facebook’s developer platform. Mr. Zuckerberg said that he was leaning away from a chargefor-access model, and toward what he called “full
reciprocity” — giving third-party developers the
ability to connect their apps to Facebook free, in
exchange for those apps’ giving data back to
Facebook, and making it easy for users to post their
activity from those services on their Facebook
timelines.
By giving away access, Mr. Zuckerberg said,
Facebook could entice more developers to build on its
platform. And by requiring app developers to send data
back to Facebook, it could use those apps to increase
the value of its own network. He wrote that social
apps “may be good for the world but it’s not good for
us unless people also share back to Facebook.”
Facebook later put in place a version of this
“reciprocity rule” that required developers to make it
possible for users of their apps to post their activity
to Facebook, but did not require them to send usage

App.238a
data back to Facebook. (Not coincidentally, this
“reciprocity rule” explains why for several years, it
was virtually impossible to go on Facebook without
seeing dozens of updates about what your friends
were watching on Hulu or listening to on Spotify.)
In a Facebook post on Wednesday, after the
emails were made public, Mr. Zuckerberg wrote that
the company had tightened its developer policies in
2014 in order to protect users from “sketchy apps” that
might misuse their data.
But back in 2012, the company’s worry was not
about data misuse. Instead, the company was chiefly
concerned with how to use those developers’ apps to
spur its own growth.
Sheryl Sandberg, Facebook’s chief operating
officer, wrote back to concur with Mr. Zuckerberg’s
approach to data reciprocity.
“I think the observation that we are trying to
maximize sharing on Facebook, not just sharing in
the world, is a critical one,” she wrote.

App.239a
EXHIBIT D TO
CONFORMED RESPONSE IN OPPOSITION

FACEBOOK INTERNAL EMAILS SHOW
ZUCKERBERG TARGETING COMPETITOR VINE
(DECEMBER 5, 2018)
By Donie O’Sullivan and Hadas Gold
CNN Business
December 5, 2018
New York and London (CNN Business) Mark
Zuckerberg and his colleagues were apparently
concerned enough about Vine, a video app from
Twitter, that on the day it launched in January 2013,
they moved to restrict its access to Facebook user
data, a trove of internal Facebook emails released by
the U.K. Parliament on Wednesday shows.
The decision to restrict Vine’s access to data,
which would have allowed its users to invite their
Facebook friends to join the app, was in line with a
company policy at the time, Facebook told CNN on
Wednesday. That policy restricted apps’ access to
Facebook data when the company deemed that the
apps “replicated” Facebook’s “core functionality.” In
other word, apps that Facebook thought might compete
with them.
“Twitter launched Vine today which lets you shoot
multiple short video segments to make one single, 6second video,” Facebook vice-president Justin Osofsky wrote to Zuckerberg and others the day Vine
launched, according to the emails released by the UK
Parliament.

App.240a
“Unless anyone raises objections, we will shut
down their friends API access today. We’ve prepared
reactive PR,” Osofsky added.
“Yup, go for it,” Zuckerberg responded.
Facebook said Wednesday that Zuckerberg and
his colleagues were only following Facebook’s policy
protecting against competitors. But the company
changed the policy on Tuesday, one day before the
emails were released.
“As part of our ongoing review we have decided
that we will remove this out of date policy so that our
platform remains as open as possible. We think this
is the right thing to do as platforms and technology
develop and grow,” a Facebook spokesperson said
Wednesday.
“We built our developer platform years ago to pave
the way for innovation in social apps and services. At
that time we made the decision to restrict apps built on
top of our platform that replicated our core functionality,” the spokesperson said, adding, “These kind
of restrictions are common across the tech industry
with different platforms having their own variant
including YouTube, Twitter, Snap and Apple.”
Vine, which allowed users to shoot and posts six
second looped videos, shut down in 2017. Twitter did
not immediately respond to a request for comment.
Apparently responding to Wednesday’s revelations,
Vine co-founder Rus Yusupov tweeted, “Competition
sucks, right? No. It allows for products to improve,
become available to more people, at lower costs.
Strive to build new things that people want and
influence other creators for the cycle to continue.”

App.241a
Zuckerberg talks
The email discussion about Vine is part of a trove
of internal Facebook documents the company fought
to keep secret.
The documents include conversations among
senior Facebook executives.
The cache stems from a lawsuit brought against
Facebook by a small app company called Six4Three.
In a blog post Wednesday, Facebook said “The documents were selectively leaked to publish some, but
not all, of the internal discussions at Facebook.”
Zuckerberg himself posted on Facebook as well,
writing, “I understand there is a lot of scrutiny on
how we run our systems. That’s healthy given the
vast number of people who use our services around the
world, and it is right that we are constantly asked to
explain what we do. But it’s also important that the
coverage of what we do-including the explanation of
these internal documents-doesn’t misrepresent our
actions or motives. This was an important change to
protect our community, and it achieved its goal.”
The Documents
A California judge had placed the documents
under seal. But when Six4Three’s CEO, Ted Kramer,
was in London last month, he was escorted to Parliament and told to produce the documents or be held in
contempt.
Six4Three — which had an app that allowed users
to search for pictures of their friends in swimsuits —
has accused the social media giant of having little
regard for user privacy and claimed that Zuckerberg
devised a plan that forced some of Facebook’s rivals,

App.242a
or potential rivals, out of business. Facebook says the
lawsuit is without merit.
The UK parliamentary committee, led by Damian
Collins, asked for the documents as part of a larger
investigation into Facebook, fake news, disinformation
and data privacy that has been going on for more than
a year. The committee has repeatedly asked Zuckerberg to give evidence, but thus far he’s avoided the
committee, even when it brought together lawmakers
from nine different countries for an unprecedented
“International Grand Committee on Disinformation.”
“I believe there is considerable public interest in
releasing these documents. They raise important
questions about how Facebook treats users data,
their policies for working with app developers, and
how they exercise their dominant position in the
social media market,” Collins said on Twitter. “We
don’t feel we have had straight answers from Facebook on these important issues, which is why we are
releasing the documents.”
A Facebook spokesperson said in a statement
after the release of the documents, “As we’ve said many
times, the documents Six4Three gathered for their
baseless case are only part of the story and are
presented in a way that is very misleading without
additional context. We stand by the platform changes
we made in 2015 to stop a person from sharing their
friends’ data with developers. Like any business, we
had many of internal conversations about the various
ways we could build a sustainable business model for
our platform. But the facts are clear: we’ve never
sold people’s data.”

App.243a
EXHIBIT E TO
CONFORMED RESPONSE IN OPPOSITION

FACEBOOK EMAILS SUGGEST COMPANY
EXPLORED SELLING PEOPLE’S DATA
DESPITE PLEDGES NOT TO
(DECEMBER 5, 2018)
Jessica Guynn
USA TODAY
December 5, 2018
SAN FRANCISCO – Internal Facebook emails
published online by U.K. lawmakers, some involving
CEO Mark Zuckerberg, paint a picture of a company
aggressively hunting for ways to make money from
the reams of personal information it was collecting
from users.
Wednesday’s release of some 250 pages of emails
from 2012 to 2015 – a period of dramatic growth for
the newly publicly traded company – provides a rare
glimpse into Facebook’s internal conversations,
suggesting the social media giant gave preferential
access to some third-party app developers such as
Airbnb, Lyft and Netflix, while restricting access for
others. It also considered charging app developers for
access to data, despite pledges that it would never do
so.
There is no indication that Facebook went
forward with a proposal to charge app developers for
access to the personal information of Facebook
users. On Wednesday, Zuckerberg denied Facebook
ever sold or considered selling the data of its more
than 2 billion users.

App.244a
“Like any organization, we had a lot of internal
discussion and people raised different ideas. Ultimately, we decided on a model where we continued
to provide the developer platform for free and
developers could choose to buy ads if they wanted,”
he wrote in a Facebook post responding to the release
of the internal emails by U.K. lawmakers. “Other
ideas we considered but decided against included
charging developers for usage of our platform,
similar to how developers pay to use Amazon AWS or
Google Cloud. To be clear, that’s different from selling
people’s data. We’ve never sold anyone’s data.”
According to some of the emails, Facebook discussed cutting off access to rival companies and
giving app developers who bought advertising special
access to data. It also provided access to app developers that encouraged Facebook users to spend more
time on the social network.
The revelations that shed light on previously
unknown Facebook practices were included in internal documents seized by U.K. lawmakers from the
developer of a now-defunct bikini photo searching
app, Pikinis, as part of an investigation into fake
news. The emails were sealed in a California lawsuit
filed by Six4Three. Six4Three sued Facebook in
2015, alleging the social network’s data policies
favored some companies over others.
“I’ve been thinking about platform business model
a lot this weekend. . . . if we make it so (developers)
can generate revenue for us in different ways, then it
makes it more acceptable for us to charge them quite
a bit more for using platform,” Zuckerberg wrote in
one email.

App.245a
In another email in 2012, Zuckerberg seemed to
shrug off concerns about the security of Facebook
users’ data. “I think we leak info to developers, but I
just can’t think of any instances where that data has
leaked from developer to developer and caused real
issue for us,” he wrote.
Facebook called the Six4Three lawsuit “baseless”
and says the company “cherrypicked” documents.
“The set of documents, by design, tells only one
side of the story and omits important context,” the
company said in a statement.
Public trust in Facebook’s handling of people’s
personal information has been shaken by a series of
crises. Chief among them is Cambridge Analytica, a
political consulting firm hired by Donald Trump’s
presidential campaign that has been accused of
improperly accessing millions of Facebook accounts
without users’ consent.
A British researcher and his firm, Global
Science Research, legitimately gained access to the
personal data of Facebook users and their friends in
2013 while working on a personality app, and passed
that data to Cambridge Analytica. Facebook began
restricting app developers’ access user data in 2014
and 2015.
“We still stand by the platform changes we made
in 2014/2015, which prevented people from sharing
their friends’ information with developers like the
creators of Pikinis,” Facebook said in a statement.
“The extensions we granted at that time were short
term and only used to prevent people from losing
access to specific functions as developers updated

App.246a
their apps. Pikinis didn’t receive an extension, and
they went to court.”
Damian Collins, chairman of the digital, culture,
media and sport parliamentary committee investigating Facebook, said lawmakers released the
documents because “we don’t feel we have had
straight answers from Facebook on these important
issues.”
Last week, Collins announced he planned to
release the emails after forcing Ted Kramer, the
founder of Six4Three, to hand them over during a
business trip to London. On Friday, California
Superior Court Judge V. Raymond Swope ordered
Kramer to turn over his laptop to a forensic expert
after Kramer admitted he had turned over the
Facebook documents to lawmakers.
“I believe there is considerable public interest in
releasing these documents. They raise important
questions about how Facebook treats users data,
their policies for working with app developers, and
how they exercise their dominant position in the
social media market,” he wrote in a Twitter post.

App.247a

Among the details in the Facebook emails:
–

Facebook staffers explored how to use access to
Facebook users’ data to get companies to spend
more on advertising. In 2012, Facebook staffers
debated removing restrictions on user data for
developers who spent $250,000 or more on ads.

Facebook’s response: “We explored multiple ways
to build a sustainable business with developers
who were building apps that were useful to
people. . . . We ultimately settled on a model where
developers did not need to purchase advertising.”
–

When competitor Twitter launched Vine in 2013,
Facebook shut down access to keep the mobile
video app from growing through friends on the
platform and competing with Instagram, which
it owns. “Unless anyone raises objections, we
will shut down their friends API access today.
We’ve prepared reactive PR,” Facebook executive Justin Osofsky wrote to Zuckerberg. “Yup,
go for it,” Zuckerberg replied.

App.248a
Facebook’s response: “We built our developer platform years ago to pave the way for innovation in
social apps and services. At that time we made the
decision to restrict apps built on top of our
platform that replicated our core functionality.
These kind of restrictions are common across the
tech industry.”
–

In 2015, the company began uploading call and
text logs from Android phones. Collins’ committee says Facebook tried to make it “as hard
as possible” for users to understand that their
calls and texts would be collected. At the time, a
Facebook engineer said the practice was a “highrisk thing to do from a PR perspective.” The data
offered a comprehensive look into how users
communicated on their mobile devices.

Facebook’s response: The company says it allowed
Facebook users to opt into giving the social network access to their call and text logs, but did it in
the Facebook app, not on Android. “This was not a
discussion about avoiding asking people for permission,” it said.
–

Facebook used its security app, Onavo, to gather
information on how many people used certain
apps and how often they used them to help
Facebook decide which companies it should
acquire, including messaging app WhatsApp for
$19 billion, and which to view as a competitive
threat.

Facebook’s response: “We’ve always been clear when
people download Onavo about the information
that is collected and how it is used, including by
Facebook. . . . People can opt-out via the control in

App.249a
their settings and their data won’t be used for
anything other than to provide, improve and
develop Onavo products and services.”

App.250a
ORDER DENYING DEFENDANT’S
NOVEMBER 1, 2018, MOTION TO DISMISS
(PROPOSED, UNSIGNED)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
JASON FYK,

Plaintiff,
v.
FACEBOOK, INC.,

Defendant.
________________________
Case No. 4:18-CV-05159-JSW-KAW
Before: Hon. Jeffrey S. WHITE,
United States District Judge.
This cause having come before the Court on
Defendant’s November 1, 2018, Motion to Dismiss
[D.E. 20] and related responsive briefing, and the
Court having had the benefit of examination of the
record and oral argument, the Court hereby denies
Defendant’s Motion to Dismiss and instructs Defendant
to answer the Complaint within ___ days.
DONE AND ORDERED in Chambers on this
___ day of ___, 2019.
United States District Judge

App.251a
DEFENDANT FACEBOOK’S
MOTION TO DISMISS
(NOVEMBER 1, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
JASON FYK,

Plaintiff,
v.
FACEBOOK, INC.,

Defendant.
________________________
Case No. 4:18-CV-05159-JSW
Defendant Facebook’s Motion to Dismiss
Date: December 14, 2018
Time: 9:00 a.m.
Before: Hon. Jeffrey S. WHITE,
United States District Judge.
Dept.: Courtroom 5
Date Filed: August 22, 2018
Trial Date: Not Set

App.252a
KEKER, VAN NEST & PETERS LLP
PAVEN MALHOTRA-# 258429
pmalhotra@keker.com
MATAN SHACHAM - # 262348
msbacham @keker.com
WlLLLAM S. HICKS - # 256095
whicks@keker.com
633 Battery Street
San Francisco, CA 94111-1809
Telephone: 415 391 5400
Facsimile: 415 397 7188
Attorneys for Defendant
FACEBOOK, INC.
[ Table of Contents and
Table of Authorities Omitted ]
NOTICE OF MOTION AND MOTION
Notice is hereby given to Plaintiff Jason Fyk
that Defendant Facebook, Inc. hereby moves the
Court to dismiss the Complaint pursuant to Federal
Rule of Civil Procedure 12(b)(6). This motion is
noticed for hearing on December 14, 2018 at 9:00
a.m., in Courtroom 5, 2nd Floor, 1301 Clay Street,
Oakland, California, 94612.
MEMORANDUM OF POINTS AND AUTHORITIES
SUMMARY OF ARGUMENT
Plaintiff has filed a business tort case against
Facebook that seeks to hold the company liable for
actions that allegedly undermined the value of certain
Facebook pages Plaintiff created. Plaintiff sold these

App.253a
pages for about $1 million, but believes that they
were worth “billions” of dollars absent Facebook’s
conduct.
Plaintiff’s claims should be dismissed for two
reasons. First, each claim is barred by Section 230(c)(1)
of the Communications Decency Act. That statute
immunizes internet platforms like Facebook for claims
that seek to target them for moderation of third-party
content on the platform such as “reviewing, editing,
and deciding whether to publish or to withdraw from
publication third-party content.” Barnes v. Yahoo!,
Inc., 570 F.3d 1096, 1102 (9th Cir. 2009). Second,
Plaintiff fails to state a cause of action for each of the
claims he asserts. Accordingly, as explained below,
this case should be dismissed with prejudice.
I.

Introduction

Plaintiff Jason Fyk used Facebook’s free platform
to create a series of Facebook pages such as one
dedicated to photos and videos of people urinating.
See Complaint (“Compl.”), ¶ 22 (describing Fyk’s
page www.facebook.com/takeapissfunny). Foregoing
“food and other household necessities for him and his
family,” Plaintiff alleges that he “dedicated all the
money he had” to creating a collection of such “funny”
pages. Plaintiff alleges that Facebook took action
that hindered the success of such pages. This alleged
“unlawful interference,” consisted of, among other
things, blocking content posted by Plaintiff found to
violate Facebook’s community standards, failing to
block similar content on his competitors’ Facebook
pages, and “muscling out” some of Plaintiff’s content
to make room for sponsored ads. Because of these

App.254a
alleged improprieties, Plaintiff allegedly was forced
to “fire sell” his pages for one million dollars.
Notwithstanding Plaintiff’s inflated claim that
this is a “true case of David versus Goliath,” Compl.,
¶ 9, his Complaint is a pedestrian business tort case
that should end before it gets started. The Complaint
must be dismissed with prejudice for two reasons.
First, Facebook enjoys immunity under Section 230
(c)(1) of the Communications Decency Act, which
protects internet platforms from claims targeting the
exercise of their traditional editorial functions.

Second, the Complaint fails to state any plausible
claim for relief: (1) Plaintiff’s claim for civil extortion
fails because the Complaint does not allege any
actionable threat of unlawful injury; (ii) Plaintiff’s
claim for violation of the Unfair Competition Law is
facially deficient because the Complaint does not
plausibly allege that the purported “unfair” conduct
violates antitrust principles or significantly harms
competition; (iii) Plaintiff’s claim for fraud and
misrepresentation fails because Plaintiff does not
plausibly allege any actionable misrepresentation;
and (iv) Plaintiff’s claim for intentional interference
with prospective economic relations fails because it is
entirely derivative of Plaintiff’s other deficient claims.
II.

Background

Facebook operates the world’s leading social media
service. Over two billion people worldwide use
Facebook to create personal profiles, build community, and share content.
Plaintiff was “facing bankruptcy and eviction”
when he started using Facebook’s free platform “in

App.255a
the hopes of experiencing the American Dream.”
Compl., ¶ 32. Plaintiff created various “humorous”
Facebook pages-such as www.facebook.com/takeapiss
funny.com—“designed to get a laugh out of Fyk’s
viewers/followers.” Id., ¶¶ 15, 22. Initially, those pages
attracted a wide following, allegedly generating
hundreds of thousands of dollars per month in
advertising and net traffic revenue. Id. , ¶ 22.
According to Plaintiff, however, Facebook severely
devalued those pages over time through various
forms of alleged unlawful interference such that he
was eventually forced to sell them for the “relatively
nominal approximate” sum of $1,000,000. Id., ¶ 42.
Those pages were “realistically valuated by some in
the nine figure range,” according to Plaintiff. Id.,
¶¶ 42, 43. Thus, Plaintiff estimates that Facebook
“has deprived” him of hundreds of millions (“if not
billions”) of dollars. Id., ¶ 55.
Plaintiff alleges that Facebook’s “meddling” took
myriad forms. Most notably, Facebook allegedly blocked
or deleted content found to violate Facebook’s
community standards. E.g., Compl., ¶ 20. Plaintiff
contends that these actions were “incorrect” and that
Facebook was “unresponsive to [his] subsequent pleas
for appeal and/or customer service.” Id., ¶ 21. He also
contends that Facebook had no valid basis to block
his content because Facebook did not block other
similar content on other users’ Facebook pages. Id.,
¶ 23. Instead, Plaintiff insists that Facebook’s alleged
selective enforcement of its standards was calculated
only to strong-arm him into participating in Facebook’s optional paid reach program, which Facebook
purportedly implemented “overnight and pursuant to
corporate greed,” Id., ¶¶ 14, 18-19, 68. Fyk did ulti-

App.256a
mately invest $43,000 in Facebook’s paid reach
program “out of fear of losing his business/pages.”
Id., ¶ 19. But then Facebook allegedly “deactivated
[his] ads account,” leaving him “no reasonable alternative other than to return to an organic reach
model.” Id.
Facebook’s alleged interference also took the
form of “muscling out” some of the content on Plaintiff’s
Facebook pages to make room for sponsored ads from
Facebook’s own advertisers. In particular, Plaintiff
alleges that “in order for users to see random Facebooksponsored posts that they did not care to see, Facebook
had to eliminate (or heavily curtail) the posts that
people liked seeing on their news feeds (e.g., Fyk’s
posts) and force Facebook-sponsored posts onto user
feeds whether the user wanted that or not.” Id., ¶ 37.
“By way of this misconduct, Facebook [allegedly] was/
is making money from . . . random Facebook sponsored posts” while “strong-arming out user-friendly
news feed posts like Fyk’s.” Id., ¶ 39.
Finally, Plaintiff alleges that Facebook engaged
in unlawful interference during the alleged “fire sale”
of his Facebook pages to a competitor. Specifically,
Plaintiff alleges that Facebook “offer[ed] [his] competitor
customer service before, during, and after the fire
sale” in order to “redistribute Fyk’s economic
advantage” to the competitor. Id., ¶ 43. Plaintiff
complains that the “customer service offered to the
competitor . . . rose to the level of Facebook flying
representation down to Los Angeles to meet with the
competitor to make sure the Facebook-induced
redistribution of Fyk’s economic advantage . . . went
through.” Id.

App.257a
Based on these allegations, Fyk asserts four
claims: (1) intentional interference with prospective
business advantage/relations; (2) unfair competition
under California Business & Professions Code § 17200;
(3) civil extortion; and (4) fraud/misrepresentation.
Compl., ¶¶ 49-78.
III. Argument
A. Plaintiff’s Claims Are Barred by Section
230(c)(1) of the CDA
Plaintiff’s claims fail at the outset, and should
be dismissed with prejudice, because they are barred
by Section 230(c)(1) of the CDA. 47 U.S.C. § 230(c)(1).
The Complaint seeks to hold Facebook liable for
moderating what content it permits on its platform—
something that Section 230(c)(1) directly prohibits.
CDA Section 230(c)(1) immunity, “like other
forms of immunity, is generally accorded effect at the
first logical point in the litigation process,” because
“immunity is an immunity from suit rather than a
mere defense to liability.” Nemet Chevrolet, Ltd. v.
Consumeraffairs.com, Inc., 591 F.3d 250, 254 (4th
Cir. 2009) (quoting Brown v. Gilmore, 278 F.3d 362,
366 n.2 (4th Cir. 2002)) (internal quotation marks
omitted) (emphasis in original); accord Levitt v. Yelp!
Inc. (“Levitt I), 2011 WL 5079526, at *8-9 (N.D. Cal.
Oct. 26, 2011). Accordingly, courts routinely dismiss
at the pleading stage claims like those asserted here
under Section 230(c)(1). See, e.g., Perfect 10, Inc. v.
CCBill LLC, 488 F.3d 1102, 1121 (9th Cir. 2007)
(affirming dismissal of § 17200 unfair competition
claim); Levitt I, 2011 WL 5079526, at *8-9 (dismissing
claims for civil extortion and § 17200 unfair com-

App.258a
petition); Jurin v. Google, Inc., 695 F. Supp. 2d 1117,
1122-23 (E.D. Cal. 2010) (dismissing intentional interference and fraud claims).
Section 230(c)(1) provides that “[n]o provider or
user of an interactive computer service shall be
treated as the publisher or speaker of any information
provided by another information content provider.”
47 U.S.C. § 230(c)(1).1 Section 230(c)(1) “establish[es]
broad federal immunity to any cause of action that
would make service providers liable for information
originating with a third-party user of the service.”
Perfect 10, Inc. v. CCBill LLC, 481 F.3d 751, 767 (9th
Cir. 2007) (internal quotations and citations omitted),
opinion amended and superseded on denial of reh’g,
488 F.3d 1102 (9th Cir. 2007). Immunity extends to
activities of a service provider that involve its
moderation of third-party content, such as “reviewing,
editing, and deciding whether to publish or to withdraw
from publication third-party content.” Barnes, 570
F.3d at 1102. “So long as a third party willingly
provides the essential published content, the interactive
service provider receives full immunity regardless of
the editing or selection process.” Carafano v. Metro
splash.com, Inc., 339 F.3d 1119, 1124 (9th Cir. 2003).
Facebook is entitled to immunity under Section
230(c)(1) if (1) it is a “provider . . . of an interactive
computer service,” (2) the allegedly offending content
was “provided by another information content provider,”
1 The CDA provides a second form of immunity under Section
230(c)(2). While Facebook reserves the right to assert Section
230(c)(2) immunity at a later stage, if necessary, it relies solely
on Section 230(c)(1) for purposes of this motion, in the interest
of judicial economy.

App.259a
and (3) Plaintiffs’ claim treats Facebook as the “publisher” of that content. 47 U.S.C. § 230(c)(1); accord
Kimzey v. Yelp! Inc., 836 F.3d 1263, 1268 (9th Cir.
2016). The Complaint reveals that all three requirements for Section 230(c)(1) immunity are met.
1. Facebook Is an Interactive Computer
Service Provider
Facebook undoubtedly qualifies as a “provider”
of an “interactive computer service.” The CDA defines
“interactive computer service” as “any information
service, system, or access software provider that
provides or enables computer access by multiple users
to a computer server.” 47 U.S.C. § 230(c)(2). Not
surprisingly, every court to consider whether Facebook meets this definition has rightly concluded that it
does. See e.g., Sikhs for Justice, Inc. v. Facebook,
Inc., 144 F. Supp. 3d 1088, 1093 (N.D. Cal. 2015);
Caraccioli v. Facebook, Inc., 167 F. Supp. 3d 1056,
1065 (N.D. Cal. 2016); Cross v. Facebook, Inc., 14
Cal. App. 5th 190, 206 (2017).
Here, the Complaint itself alleges that Facebook
provides an internet-based platform where millions
of individual users can access third party content,
including content uploaded by Plaintiff. See, e.g.,
Compl. ¶ 2. The first requirement for Section 230(c)(1)
immunity is thus met.
2. The Content at Issue Was Provided by
Someone Other than Facebook
For the second requirement, the content at issue
must come from an “information content provider”
other than Facebook. “Information content provider”
is broadly defined as “any person or entity that is

App.260a
responsible, in whole or in part, for the creation or
development” of the content at issue. 47 U.S.C.
§ 230(c)(3); see also Jefferson v. Zukerberg, 2018 WL
3241343, at *5 (D. Md. July 3, 2018) (requirement
met where “nothing in the Complaint suggests that
Facebook was itself ‘responsible’ for the ‘creation’ or
‘development’ of any content”). Facebook’s users,
including Fyk, fit this definition, as numerous courts
have held. See, e.g., Klayman v. Zuckerberg, 753 F.3d
1354, 1358-59 (D.C. Cir. 2014); Sikhs for Justice, 144
F. Supp. 3d at 1093-94.
Here, Fyk’s claims arise almost entirely out of
content created by Fyk or other Facebook users. Fyk’s
claims are based primarily on allegations that Facebook wrongfully removed content from various pages
that Fyk created on Facebook. E.g., Compl., ¶¶ 20-22,
42, 47, 52, 64, 66, 69. That content indisputably meets
the second requirement for application of Section
230(c)(1) immunity. See, e.g., Sikhs for Justice, 144
F. Supp. 3d at 1093-94. Klayman, 753 F.3d at 135859; Jefferson, 2018 WL 3241343, at *5.
The Complaint also alleges that Facebook has
treated Plaintiff unfairly by failing to block similar
content on his competitors’ Facebook pages. Compl.,
¶¶ 23-24, 42, 45. Such third-party content also satisfies
the second requirement for Section 230(c)(1) immunity.
Klayman, 753 F.3d at 1358-59; Jefferson, 2018 WL
3241343, at *5.
Finally, Plaintiff’s claims are based on allegations
that Facebook improperly “muscled out” some of his
content to make room for sponsored posts from
certain unidentified advertisers. E.g., Compel., ¶¶ 3740, 51, 65, 66. The content from those advertisers
likewise satisfies the second requirement for Section

App.261a
230(c)(1) immunity. See, e.g., Pennie v. Twitter, Inc.,
281 F. Supp. 3d 874, 890 (N.D. Cal. 2017) (rejecting
argument that defendants, including Facebook, were
liable as creators of content because they allegedly
“select advertisements to pair with content on their
services”); see also Kimzey, 836 F.3d at 1270-71 (user
content republished by Yelp! as advertisements meets
second requirement); Jurin, 695 F. Supp. 2d at 1123
(Google’s “Sponsored Link” advertisements program
meets second requirement because Google does not
“provide the content” of the advertisements).
Because the Complaint does not allege that
Facebook created any content, but rather concedes
that the relevant content was created by Facebook
users (including Fyk) and advertisers, the second
requirement for Section 230(c)(2) immunity is met.
3. Plaintiff’s Claims Seek to Hold Facebook
Liable for “Exercise of a Publisher’s
Traditional Editorial Functions”
The third requirement for Section 230(c)(1) immunity is met if a plaintiff “seek[s] to hold a service
provider liable for its exercise of a publisher’s
traditional editorial functions—such as deciding
whether to publish, withdraw, postpone or alter
content.” Zeran v. Am. Online, Inc., 129 F.3d 327, 330
(4th Cir. 1997). In determining whether the third
requirement is met, “what matters is not the name of
the cause of action” but rather “whether the cause of
action inherently requires the court to treat the
defendant as the ‘publisher or speaker’ of content
provided by another.” Barnes, 570 F.3d at 1101-02. If
“the duty that the plaintiff alleges the defendant
violated derives from the defendant’s status or

App.262a
conduct as a ‘publisher or speaker,’” then “[S]ection
230(c)(1) precludes liability.” Id. at 1102.
Here, each of Plaintiff’s claims seeks to hold
Facebook liable for, and is derived from, Facebook’s
“exercise of a publisher’s traditional editorial functions—such as deciding whether to publish, withdraw,
postpone or alter content.” Zeran, 129 F.3d at 330.
The civil extortion and § 17200 unfair competition
claims are based on allegations that Facebook threatened to and/or did manipulate third-party content—
deleting content from Plaintiff’s pages, refusing to
delete content from competitors, or promoting paid ads
from others—to force Plaintiff to pay for advertising
or benefit others who did. Compl. ¶¶ 63-65, 68-70.
The intentional interference claim is derived from the
same alleged conduct: Plaintiff alleges that Facebook
interfered with his ability to get advertisers on his
Facebook page by threatening to delete and/or actually
deleting content from his page while promoting
content from its own advertisers. Compl. ¶¶ 50-56.
The fraud claim is no different. Plaintiff asserts that
Facebook fraudulently claimed that it could properly
take down content from his pages, when actually it
did so to try to gain advertising revenue. Compl.,
¶¶ 73-75. In other words, the fraud claim simply
repackages his allegations that Facebook wrongfully
threatened to and/or did take down content from his
page.

Levitt I offers a useful analog for why Plaintiff’s
claims fall squarely within the scope of Section
230(c)(1)’s protections. In Levitt I, certain business
owners alleged that Yelp pressured them into paying
for its advertising program by threatening to manipulate, and actually manipulating, third-party content on

App.263a
the site to hurt them and/or help their competitors.
2011 WL 5079526, at *1-2,2 The plaintiffs asserted
claims of civil extortion and § 17200 unfair competition based on these allegations. Id. The Court
dismissed both claims at the pleading stage under
Section 230(c)(1), finding that they derived from the
exercise of traditional editorial functions. Id. at *6
(“Plaintiffs’ allegations of extortion based on Yelp’s
alleged manipulation of their review pages—by
removing certain reviews and publishing others or
changing their order of appearance—falls within the
conduct immunized by § 230(c)(1).”); id. at *9 (same
for § 17200 claim). Plaintiffs’ allegations that Yelp
acted out of improper financial motives made no
difference, because “traditional editorial functions
often include subjective judgments informed by . . .
financial considerations,” and “[d]etermining what
motives are permissible and what are not could prove
problematic” and undermine the purpose of Section
230(c)(1). Id. at *7-8. The Ninth Circuit affirmed the
dismissal on other grounds, without reaching Section
230(c)(1), as discussed further below. See Levitt v.
Yelp! Inc. (“Levitt II” ), 765 F.3d 1123, 1129 (9th Cir.
2014).
Here, just as in Levitt I, Plaintiff alleges that
Facebook has improperly exercised traditional editorial
functions to advance its own financial interests. Just
as in Levitt I, Plaintiff’s claims based on those
allegations are barred by Section 230(c)(1).

2 The plaintiffs in Levitt I also made claims based on allegations
that Yelp itself created certain content, and the court rejected
those claims as insufficiently pled. 2011 WL 5079526, at *5, 9.

App.264a
B. Plaintiff Fails to Adequately Allege any Claim
Even if Fyk’s claims were not barred entirely by
Section 230(c)(1) of the CDA, they would have to be
dismissed because they fail to state any plausible
claim for relief.
1. The Complaint Fails to State a Claim for
Civil Extortion
Plaintiff fails to state a claim for civil extortion
because he does not and cannot allege that Facebook
wrongfully threatened to withhold from him anything
that he had a right to possess.
To the extent courts have recognized an independent cause of action for civil extortion, “it is based
on the same elements as criminal extortion.” Levitt I,
2011 WL 5079526, at *9 n.5 (noting that some courts
have refused even to recognize such a cause of action).
Under California law, “[e]xtortion is the obtaining of
property from another, with his consent . . . induced
by a wrongful use of force or fear.” Cal. Penal Code
§ 518 (emphasis added). “California law also provides
that ‘[f]ear, such as will constitute extortion, may be
induced by a threat . . . [t]o do an unlawful injury to
the person or property of the individual threatened,’
thus excluding fear induced by threat to do a lawful
injury.’” Levitt II, 765 F.3d at 1132-33 (quoting Cal.
Penal Code § 519(1) and People v. Beggs, 178 Cal. 79,
83 (1918)) (emphasis, omission, and alterations in
original). Accordingly, “to state a claim of economic
extortion under both federal and California law, a
litigant must demonstrate either that he had a preexisting right to be free from the threatened harm, or
that the defendant had no right to seek payment for
the service offered.” Id. at 1133. “[A]ny less stringent

App.265a
standard would transform a wide variety of legally
acceptable business dealings into extortion.” Id.
Plaintiff’s claim is premised on his “fear” that
Facebook would remove his content or promote content
of others if he declined to enroll in Facebook’s paid
reach program. Compl., ¶¶ 18, 68-70. But the Complaint does not identify any contractual provision or
any law giving him the right to maintain content on
Facebook or to prevent Facebook from promoting the
content of other Facebook users or advertisers. Furthermore, the only purported “threat” identified in the
Complaint at all is an alleged remark by an unnamed
“high ranking Facebook executive” purportedly
advising him that “one has to pay Facebook in order
to play with Facebook.” Compl., ¶ 68; see also id.,
¶ 18. This vague allegation is insufficient to state a
plausible claim for relief.3
Once again, the Ninth Circuit’s decision in Levitt
II is on point. There, the plaintiffs alleged that Yelp
tried to force them to pay for its advertising program
by threatening to manipulate content on its site to
hurt their business and/or promote their competitors.
The Ninth Circuit held that “any implicit threat by
Yelp to remove positive reviews absent payment for
advertising was not wrongful within the meaning of
the extortion statutes,” because the plaintiffs had no
3 Plaintiff also alleges that alter enrolling in the optional paid
reach program he “noticed no appreciable increase in his already
sizeable viewership,” Compl., ¶ 70. But Plaintiff does not contend
that the optional program in which he voluntarily enrolled was
“a valueless sham,” nor does he assert that he “was already
entitled to the . . . privileges [Facebook] induced h[im] to buy.”
Levitt II, 765 F.3d at 1134. This allegation is therefore also
insufficient. See id.

App.266a
preexisting right to have positive reviews appear on
Yelp’s website. Id. at 1134. Plaintiffs there “allege[d]
no contractual right pursuant to which Yelp must
publish positive reviews, nor does any law require Yelp
to publish them.” Id. at 1133. As the court explained,
“[b]y withholding the benefit of these positive reviews,
Yelp is withholding a benefit that Yelp makes possible and maintains,” but “[i]t has no obligation to do
so.” Id. The Court also rejected vague allegations that
Yelp itself created negative reviews as insufficient to
plausibly state a claim for relief. Id. at 1135.
The Court should reach the same conclusion here.
Just as in Levitt II, what Fyk alleges Facebook withheld from him is “a benefit that [Facebook] makes
possible and maintains,” and, like the claim in Levitt
II, Fyk’s claim fails because it does not demonstrate
any “pre-existing right to be free from the threatened
harm.” Levitt II, 765 F.3d at 1132-33. Accordingly,
Plaintiff’s claim fails to satisfy the “stringent standard” for stating a claim of civil extortion.
2. The Complaint Fails to State a Claim for
Violation of California Business and
Professions Code Sections 17200-17210
(Unfair Competition)
Plaintiff’s unfair competition claim is predicated
on the UCL’s “unfair” prong. See Compl., ¶ 62
(“California’s unfair competition law affords a private
right of action where (as here) the conduct is predicated
on ‘unfair’ conduct.”). But Plaintiff fails to plead
allegations that would support the assertion of an
“unfair” conduct claim under the applicable test.
The Ninth Circuit set forth the requirements for
pleading an “unfair” prong UCL claim in Levitt II.

App.267a
“At least with respect to business-competitor cases, to
state a claim under the UCL’s ‘unfair’ prong the
alleged unfairness must ‘be tethered to some legislatively declared policy or proof of some actual or
threatened impact on competition.’” Levitt II, 765 F.3d
at 1136 (quoting Cel-Tech Commc’ns, Inc. v. L.A.
Cellular Tel. Co., 20 Cal. 4th 163, 186-187 (1999)). That
standard, known as the Cel-Tech standard, applies
where “the crux of [the] complaint is that [defendant’s] conduct unfairly injures [the plaintiff’s] economic interests to the benefit of other businesses.” Id.;
see also, e.g., Compl., ¶¶ 63-65. Accordingly, to state
a claim under the “unfair” prong, a plaintiff must
sufficiently allege “conduct that threatens an incipient
violation of an antitrust law, or violates the policy or
spirit of one of those laws because its effects are
comparable to or the same as a violation of the law,
‘or otherwise significantly threatens or harms
competition.’” Levitt II, 765 F.3d at 1136. In Levitt
II, the Ninth Circuit affirmed the dismissal of a
UCL claim predicated on “unfair” conduct where the
plaintiffs had alleged that Yelp “harms competition
by favoring businesses that submit to Yelp’s manipulative conduct and purchase advertising to the
detriment of competing businesses that decline to
purchase advertising.” Id.
Plaintiff’s claim here likewise fails to meet the
standard for pleading an unfair competition claim.
First, he does not allege that Facebook violated any
“legislatively declared policy” other than the prohibitions on extortion discussed above. As discussed above,
the facts pled do not sufficiently allege a direct
extortionate threat, nor do they support an inference
of extortion.

App.268a
Moreover, Plaintiff does not allege conduct rising
to the level of an antitrust violation. Plaintiff asserts
that Facebook’s conduct is “conducive of economic
instability and [is] antithetical to the American Dream.”
Compl., ¶ 63. But this general allegation “does not
satisfy Cel-Tech’s requirement that the effect of
[Facebook’s] conduct amounts to a violation of antitrust
laws ‘or otherwise significantly threatens or harms
competition.’” Levitt II, 765 F.3d at 1136-37.
None of the other alleged “unfair” conduct satisfies,
or is even relevant to, the Cel-Tech inquiry. Plaintiff
alleges, for instance, that Facebook unfairly “reinstat[ed] the supposedly CDA violative pages for
[Plaintiff’s] competitor” (Compl., ¶ 64) and “muscl[ed]
out the Fyk-related posts from user news feeds that
users actually wanted” (Compl., ¶ 65). Those allegations
do not plausibly suggest that Facebook has violated
antitrust laws. See Levitt II, 765 F.3d at 1136-37.
Plaintiff also generally asserts that Facebook
“steer[ed] Fyk’s business/pages to the competitor to
whom Fyk had to fire sell eight businesses/pages due
to Facebook’s leaving Fyk with no reasonable
alternative.” Compl., ¶ 63. This vague allegation also
does not state a claim for unfair competition under
Cel-Tech, or any other standard, particularly given
Fyk’s own averment that he voluntarily sold his pages
for approximately one million dollars. Compl., ¶ 55. Fyk
asserts, without support, that this sum is “relatively
nominal” (id.), but he provides no factual basis for
the bald assertion that Facebook’s alleged unfair
competition left him “with no reasonable alternative”
but to make the million-dollar sale. Id., ¶ 63. Fyk also
alleges that Facebook “fl[ew] representation down to
Los Angeles” to “effectuate” the “fire sale” by “offer-

App.269a
[ing] the competitor customer service” and that Facebook purportedly advised the competitor that it would
“breath life back into the subject eight pages only if
such were purchased by the competitor.” Id., ¶¶ 42,43.
But such vague allegations do not demonstrate an
entitlement to relief under the “unfair” prong, Fyk
was a voluntary participant in the purported sevenfigure “fire sale,” and there is nothing unfair or
unlawful about providing customer service to a
competitor. In any event, that allegation does not
plausibly suggest that Facebook has engaged in
conduct that violates antitrust laws or principles.
Levitt II, 765 F.3d at 1136-37.
Accordingly, Plaintiff has failed to state a claim
under the UCL’s “unfair” prong.4
3. The Complaint Fails to State a Claim for
Fraud/Intentional Misrepresentation
Plaintiff’s fraud claim fails because he does not
plead any actionable misrepresentation, and certainly
not with the level of specificity required under Rule
9(b).5 “Rule 9(b) demands that the circumstances
4 To the extent Plaintiff contends that Facebook has engaged in
deceptive advertising (see Compl., ¶ 66), the Complaint fails both
to satisfy Rule 9(b) and to satisfy statutory standing requirements. In re Arris Cable Modem Consumer Litig., 2018 WL
288085, at *6 (N.D. Cal. Jan. 4, 2018) (plaintiff must have actually
relied on the misrepresentation, and suffered economic injury
as a result of that reliance, in order to have standing to sue); id.
(UCL claims premised on misleading advertising must comply
with Rule 9(b)).
5 To state a claim for fraud, a plaintiff must plead: “(a) misrepresentation (false representation, concealment, or nondisclosure);
(b) knowledge of falsity (or ‘scienter’); (c) intent to defraud, i.e., to
induce reliance; (d) justifiable reliance; and (e) resulting

App.270a
constituting the alleged fraud be specific enough to
give defendants notice of the particular misconduct
. . . so that they can defend against the charge.” Id.
(quotations and citations omitted). “Averments of
fraud must be accompanied by ‘the who, what, when,
where, and how’ of the misconduct charged.” Id.
Plaintiff does not and cannot satisfy this standard.
First, Plaintiff alleges that “Facebook represented
to Fyk that businesses/pages Facebook crippled in or
around October 2016 were violative of the CDA
when, in reality, there was nothing CDA violative about
such businesses/pages.” Compl., ¶ 73. This allegation
is incomprehensible because there is no such thing as
speech that “violates” the CDA; rather, as detailed
above, the CDA provides immunity to Facebook when
the claims seek to treat Facebook as “the publisher
. . . of any information provided by another information content provider.” 47 U.S.C. § 230(c)(1). Regardless, alleged “misrepresentations of law are not
actionable as fraud.” Sosa v. DIRECTV, Inc., 437 F.3d
923, 940 (9th Cir. 2006).
Second, Plaintiff alleges that “Facebook represented to Fyk that the ‘free’ organic reach program
was perfectly acceptable when, in reality, only the
‘optional’ paid for reach program is acceptable.” Compl.,
¶ 71 But he admits elsewhere in his Complaint that, in
fact, “there is nothing explicitly making the ‘optional’
paid for reach program ‘mandatory’ that we are
presently aware of sans the benefit of discovery,” and
that his allegation is based merely on what he has
seen in “some news outlets report.” Compl. ¶ 18 n.3.
damage.” Kearns v. Ford Motor Co., 567 F.3d 1120, 1126 (9th
Cir. 2009).

App.271a
This allegation is also directly contradicted by his
allegations that Facebook caused him to believe that
he had no choice but to participate in the “optional”
program. E.g., Compl. ¶¶ 18-19, 68. This speculative
and contradictory allegation is thus insufficient to
plausibly state a claim for relief. Levitt II, 765 F.3d
at 1135.
Third, Plaintiff alleges that Facebook falsely told
him “he was welcomed to participate in the ‘optional’
paid for reach program” and “wished to bait [him]
into” that program. Compl., ¶¶ 73, 75. But, again, he
admits elsewhere that he in fact was able to participate in that program, at least for some time. E.g.,
Compl. ¶¶ 19. Plaintiff does not allege that Facebook
represented that he could participate in the program
in perpetuity, regardless of anything else.
Finally, Plaintiff fails to allege with specificity
the “who, what, when, where, and how” for any of the
three theories outlined above thereby falling short of
Rule 9(b)’s heightened pleading standard. For all of
these reasons, Plaintiff’s claim for fraud must be
dismissed.
4. The Complaint Fails to State a Claim for
Intentional Interference with Prospective
Economic Relations
Plaintiffs claim for intentional interference rises
or falls with all of the other claims he pleads.
Because those other claims fail, as explained above,
so too must the interference claim.
To state a claim for intentional interference with
prospective economic relations under California law,
a plaintiff must plead, among other things, “that the

App.272a
defendant engaged in an independently wrongful act
in disrupting the relationship.” Reeves v. Hanlon, 33
Cal. 4th 1140, 1152 (2004). “An act is not independently
wrongful merely because defendant acted with an
improper motive.” Korea Supply Co. v. Lockheed
Martin Corp., 29 Cal. 4th 1134, 1158 (2003). Rather,
the defendant’s conduct must be “unlawful”—i.e.,
“proscribed by some constitutional, statutory, regulatory, common law, or other determinable legal
standard.” Id.
Here, Plaintiff alleges that Facebook’s conduct
was independently wrongful because it constituted
civil extortion and/or unfair competition. Compl.,
¶ 52. But, as discussed above, his Complaint fails to
state a plausible claim for relief for extortion, unfair
competition, or fraud. Accordingly, his derivative claim
for intentional interference must likewise be dismissed. Name, Space, Inc. v. Internet Corp. for
Assigned Names & Numbers, 795 F.3d 1124, 1134 (9th
Cir. 2015) (affirming dismissal of intentional interference claim where plaintiff failed to sufficiently
allege predicate antitrust and trademark claims).
IV. Conclusion
For the foregoing reasons, Facebook respectfully
requests that the Court dismiss Plaintiff’s claims.

App.273a
KEKER, VAN NEST & PETERS LLP
By: /s/ William Hicks
Paven Malhotra
Matan Shacham
William S. Hicks
Attorneys for Defendant
Facebook, Inc.
Dated: November 1, 2018

App.274a
ORDER GRANTING DEFENDANT
FACEBOOK’S MOTION TO DISMISS
(PROPOSED, UNSIGNED)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
JASON FYK,

Plaintiff,
v.
FACEBOOK, INC.,

Defendant.
________________________
Case No. 4:18-CV-05159-JSW
Before: Hon. Jeffrey S. WHITE,
United States District Judge.
The above matter having come before the Court
on Defendant Facebook, Inc.’s Motion to Dismiss,
and the Court having considered the motions and the
arguments in support thereof and any opposition
thereto, hereby GRANTS the Motion.
It is ORDERED that Plaintiff’s Complaint is dismissed with prejudice.
By:
Honorable Jeffrey S. White
United States District Judge

App.275a
REPLY IN SUPPORT OF
FACEBOOK’S MOTION TO DISMISS
(DECEMBER 28, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
OAKLAND DIVISION
________________________
JASON FYK,

Plaintiff,
v.
FACEBOOK, INC.,

Defendant.
________________________
Case No. 4:18-CV-05159-JSW
Reply in Support of
Facebook’s Motion to Dismiss
Date: April 5, 2018
Time: 9:00 a .m.
Judge: Hon. Jeffrey S. White
Dept.: Courtroom 5
Date Filed: August 22, 2018
Trial Date: Not set

App.276a
KEKER, VAN NEST & PETERS LLP
MATAN SHACHAM - # 262348
mshacham@keker.com
WILLJAM S. HICKS -#256095
whicks@keker.com
633 Battery Street
San Francisco, CA 94111-1809
Telephone: 415 391 5400
Facsimile: 415 397 7188Wi
Attorneys for Defendant
FACEBOOK, INC.
[ Table of Contents and
Table of Authorities Omitted ]
I.

Introduction and Summary of Argument

Plaintiff’s “conformed” opposition brief is an
exercise in misdirection. It fails to effectively rebut
the two principal reasons why this lawsuit should be
dismissed.

First, the claims are barred by CDA Section
230(c)(1) immunity. Plaintiff’s principal argument is
that Section 230(c)(1) immunity does not apply when
a plaintiff asserts claims that his own content was
removed from a platform. No so. Plaintiff fails to cite
a single case that actually holds as much because
that is not the law. Courts, including those in this
District, repeatedly dismiss claims against interactive
computer service providers like Facebook when they
are sued by users who complain about their own
content being taken down. Sikhs for Justice “SFJ”,
Inc. v. Facebook, Inc., 144 F. Supp. 3d 1088 (N.D. Cal.
2015); Lancaster v. Alphabet, Inc., 2016 WL 3648608,
at *3 (N.D. Cal. July 8, 2016).

App.277a

Second, putting aside the immunity afforded
under the CDA, Plaintiff’s individual causes of action
suffer from their own defects, all of which require
dismissal. Plaintiff has failed to address Facebook’s
arguments (or the relevant case law), but instead urges
the Court to accept his bald assurances, supported by
unexplained string citations, that the Complaint is
“replete with detailed allegations.” See, e.g., Opp. at
13, 14. Plaintiff’s inability to explain in any coherent
way how his “detailed allegations” state any valid
claim for relief simply confirms that his claims are
legally baseless.
For the reasons set forth below and in Facebook’s
opening brief, the Court should dismiss the Complaint
in its entirety without leave to amend.
II.

Argument
A. Section 230(c)(1) Bars Plaintiff’s Complaint
in Its Entirety
1. Facebook’s Communications Decency Act
Defense Is Properly Considered on a
Motion to Dismiss

As a preliminary matter, Plaintiff improperly
suggests that Facebook’s CDA Section 230 defense
requires discovery and is properly considered only on
a motion for summary judgment. Opp. at 2-3. But
courts routinely hold that if the elements of a defense
are apparent from the face of a complaint, then resolution of the defense on a motion to dismiss is proper.1
1 Holomaxx Techs. v. Microsoft Corp., 783 F. Supp. 2d 1097, 110304 (N.D. Cal. 2011) (“[t]he assertion of an affirmative defense
properly may be considered on a Rule 12(b)(6) motion where the

App.278a
And as explained in Facebook’s opening papers and
further below, each of the requirements needed to
trigger the protections under the CDA is apparent on
the face of Plaintiff’s Complaint, namely that (i)
Facebook is an interactive computer service provider;
(ii) the content at issue came from a third party; and
(iii) Plaintiff’s claims all seek to treat Facebook as
the publisher of various content. Courts in the Ninth
Circuit and this District routinely dismiss lawsuits
against interactive computer service providers given
the protections afforded under the CDA.2 This is
especially so given that Congress enacted the CDA
not just to afford protections to service providers but
to ensure that those protections guard against
protracted litigation.3 In short, resolution of the CDA
defense is apparent from the face of the [c]omplaint”) (citing
Goddard v. Google, Inc., 640 F. Supp. 2d 1193, 1200 n. 5 (N.D.
Cal. 2009) (internal citation omitted); Jones v. Bock, 549 U.S. 199,
215 (2007) (finding “[w]hether a particular ground for opposing
a claim may be the basis for dismissal for [a 12(b)(6) motion]
depends on whether the allegations in the complaint suffice to
establish that ground. . . . ”).
2 See Mot. at 4; Igbonwa v. Facebook Inc., 2018 WL 4907632 (N.D.
Cal. Oct. 9, 2018) (granting motion to dismiss under Section
230(c)(1)); Pennie v. Twitter, Inc., 281 F. Supp. 3d 874, 888 (N.D.
Cal. 2017) (same); Caraccioli v. Facebook, Inc., 167 F. Supp. 3d
1056 (N.D. Cal. 2016) (same) Sikhs for Justice, Inc., 144 F. Supp.
at 1094-96 (same); Levitt v. Yelp! Inc. (“Levitt I”), 2011 WL
5079526, at *6 (N.D. Cal. Oct. 26, 2011) (same); kimzey v, Yelp!
Inc., 836 F.3d 1263, 1270 (9th Cir. 2016) (affirming grant of motion
to dismiss based on CDA Section 230(c)(1)); Barnes v. Yahoo!,
Inc., 570 F.3d 1096 (9th Cir. 2009) (same).
3 “Section 230(c)(1) immunity, like other forms of immunity, is
generally accorded effect at the first logical point in the
litigation process” because “immunity is an immunity from suit
rather than a mere defense to liability.” Nemet Chevrolet, Ltd.
v. Consumeraffairs.com, Inc., 591 F.3d 250, 254 (4th Cir. 2009)

App.279a
Section 230 defense is appropriate at the pleading
stage and, given what Plaintiff has pled, requires
dismissal of Plaintiff’s Complaint now.
2. Each Element of the Section 230(c)(1)
Defense Is Satisfied
a. Plaintiff Concedes That Facebook Is an
Interactive Service Provider
Plaintiff does not dispute that Facebook is an
interactive computer service provider. See Opp. at 1,
4. Accordingly, the first requirement for Section
230(c)(1) immunity is satisfied.
b. Plaintiff Concedes That the Content at
Issue Was Provided by Someone Other
than Facebook
The second requirement for Section 230(c)(1)
immunity is that the content at issue must come
from someone other than Facebook. See, e.g., Carafano
v. Metrosplash.com, Inc., 339 F.3d 1119, 1125 (9th
Cir. 2003) (Section 230(c)(1) “precludes treatment as
a publisher or speaker for ‘any information provided
by another information content provider.’” (emphasis
in original) (quoting 47 U.S.C. § 230(c)(1)). Plaintiff
repeatedly concedes that he (not Facebook) is the
provider of the content at issue. He asserts that “this
lawsuit is about the ‘content provider’ (Fyk) pursuing
(emphasis in original) (internal quotes and citations omitted).
Courts “aim to resolve the question or § 230 immunity at the
earliest possible stage of the case because that immunity
protects websites not only from ultimate liability, but also from
having to fight costly and protracted legal battles.” Id. (internal
quotations and citations omitted).

App.280a
an ‘interactive computer service’ (Facebook).” Opp. at
1; see also id. at 4 (“This case is about the content of
a first-party (Fyk) being wrongfully destroyed by an
‘interactive computer service’ (Facebook).”); Summary
of Argument (Facebook is not immunized from “liability
concerning content published or spoken by the ‘content
provider’ (Fyk)”) (emphasis in original). Accordingly,
the second requirement is satisfied as a matter of
law.
Plaintiff advances two arguments in response.
First, he contends that Section 230(c)(1) applies only
when the content at issue was provided by someone
other than the plaintiff. Opp. at 3-6. Second, he urges
the Court to deny Facebook’s motion on the basis
that Facebook is itself an “information content
provider.” Id. at 6-7. Each of these arguments fails as
a matter of law and should be rejected.
(i) Section 230(c)(1) Immunity Applies
to Content Provided By Plaintiff
Nothing in the statute or the caselaw supports
Plaintiff’s flawed argument that Section 230(c)(1)
applies only when the content at issue was provided
by someone other than the plaintiff. Indeed, this
Court has held otherwise. In Sikhs for Justice, Inc.,
for example, the court held that Section 230(c)(1)
barred the plaintiff’s Title II claim alleging that
Facebook had engaged in “blatant discriminatory
conduct by blocking Plaintiff’s content in the entire
India.” 144 F. Supp. at 1094-96 (emphasis added). In
affirming that ruling, the Ninth Circuit explained
that because [the plaintiff], not Facebook, is the party
solely responsible for creating and developing the
content on [its] webpage, “Facebook cannot be deemed

App.281a
an ‘information content provider,’ and it is therefore
entitled to the immunity conferred under § 230.” See
Sikhs for Justice, Inc. v. Facebook, Inc., 697 F. App’x
526 (9th Cir. 2017) (noting also that the plaintiff
sought “to hold Facebook liable as a publisher for
hosting, and later blocking, [the plaintiff’s] online
content)”). Likewise, in Lancaster v. Alphabet Inc., this
Court held that “§ 230(c)(1) of the CDA precludes as
a matter of law any claims arising from Defendants’
removal of Plaintiff’s [YouTube] videos.” 2016 WL
3648608, at *3 (emphasis added).4
And none of Plaintiff’s cases supports his novel
proposition that Section 230(c)(1) immunity cannot
apply when the content at issue was provided by the
plaintiff.
•

Song Fi, Inc. v. Google, Inc., 108 F. Supp. 3d 876
(N.D. Cal. 2015): The court did not even mention Section 230(c)(1). Rather, it based its
decision entirely on Section 230(c)(2). Id. at
882-84.

•

Atlantic Recording Corporation v. Project Playlist, Inc., 603 F. Supp. 2d 690 (S.D.N.Y. 2009):
The court declined to dismiss the complaint
under Section 230(c)(1) only because the claims
at issue fell within the carveout for claims
based on intellectual property. Id. at 702-03

4 See also, e.g., Riggs v. MySpace, Inc., 444 Fed. Appx. 986, 987
(9th Cir. 2011) (Section 230(c)(1) immunizes “decisions to delete
[plaintiff’s] user profiles”); Mezey v. Twitter, Inc., 2018 WL
5306769, at *1 (S.D. Fla. July 19, 2018) (holding that Section
230(c)(1) immunized Twitter from liability for blocking the
plaintiff’s content; noting that “Plaintiff is the information
content provider” of the content at issue “as he created the
relevant content associated with his Twitter account”).

App.282a
(citing Section 230(e)(2)). There was no
suggestion that Section 230(c)(1) immunity is
unavailable when plaintiff’s own content has
been removed.
•

Fair Housing Council of San Fernando Valley
v. Roommates.com, LLC, 521 F.3d 1157 (9th
Cir. 2008) There, the Ninth Circuit held that
Section 230(c)(1) did not apply because the
defendant was an “information content provider”
for the content at issue. 521 F.3d at 1166.5
Contrary to Plaintiff’s contention, the court
did not hold that Section 230(c)(1) immunity
cannot apply when claims are predicated on
content provided by the plaintiff.6

5 In particular, the court explained that “[b]y requiring subscribers
to provide the [discriminatory] information as a condition of
accessing its service, and by providing a limited set of prepopulated answers, [the defendant] becomes much more than a
passive transmitter of information provided by others; it
becomes the developer, at least in part, of that information.”
Fair Housing Council, 521 F.3d at 1166; see also id. at 1167.
6 In e-ventures Worldwide, LLC v. Google, Inc., 2017 WL 2210029
(M.D. Fla. Feb. 8, 2017), the court specifically noted that courts
in the Ninth Circuit “have found that CDA immunity [can]
attach[ ] when the content involved was created by the plaintiff.”
Id. at *3 (citing Sikhs for Justice, 144 F. Supp. 3d at 1093). To
the extent the e-ventures Worldwide court applied a different
understanding, its decision is contrary to the plain language of
the statute and inconsistent with reasoned decisions by courts
in this District and elsewhere.

App.283a
(ii) Facebook Is Not an “Information
Content Provider” for the Content
at Issue
The Court should likewise reject Plaintiff’s argument that Section 230(c)(1) does not apply because
Facebook purportedly is an “information content
provider.” See Opp. at 6-7. First, as noted above, it is
undisputed that Plaintiff (not Facebook) created the
content at issue in this case.
Notwithstanding that concession, Plaintiff contends that Facebook somehow became the “information content provider” because, after Plaintiff sold his
Facebook pages to a competitor, Facebook purportedly “published” the same content. Opp. at 7. Not so.
An interactive service provider does not become an
“information content provider,” for purposes of the
CDA, when it publishes content created by third
parties—indeed, Section 230(c)(1) was intended to
provided immunity in this precise scenario. See, e.g.,
Jurin v. Google Inc., 481 F. Supp. 2d 1117, 1122 (E.D.
Cal. 2010) (“The CDA provides complete immunity to
any ‘provider or user of an interactive computer
service’ from liability premised on ‘information provided by another `information content provider.’”).
Not surprisingly, Plaintiff’s cases all involve the
fundamentally different situation in which the
defendant allegedly had created and/or developed the
content at issue. In Fraley v. Facebook, Inc. , for
instance, the plaintiffs accused Facebook of “creating
and developing commercial content that violates their
statutory right of publicity” through its “Sponsored
Story” feature. 830 F. Supp. 2d 785, 801 (N.D. Cal.
2011) (emphasis added). Specifically, the plaintiffs
alleged that Facebook “creates content” by translating

App.284a
“members’ actions, such as clicking on the ‘Like’
button on a company’s page, into the words ‘Plaintiff
likes [Brand],’” and further combining that text with
Plaintiff’s photograph, the company’s logo, and the
label “Sponsored Story.” Id. at 802. The court held
that Facebook could be considered an “information
content provider” under those particular circumstances
because it allegedly had taken users’ names, photographs and likenesses “to create new content that it
publishes as endorsements of third-party products or
services.” Id. at 801 (emphasis added); see also id. at
802. Here, in contrast, the Complaint does not allege
any injury based on the Sponsored Story feature, nor
does Plaintiff allege that Facebook created any
content whatsoever.
In Perkins v. LinkedIn Corporation, on which
Plaintiff also relies, the court held that LinkedIn was
not immune from suit under Section 230(c)(1) because
it allegedly was “solely responsible for the creation
and development” of the content at issue. 53 F. Supp.
3d 1222, 1247 (N.D. Cal. 2014) (emphasis added)
(noting also that each reminder email at issue allegedly
“was new, original, and unique content created and
developed in whole or in part by LinkedIn”).
In Fair Housing Council, as noted above, the
court held that Section 230(c)(1) immunity did not
apply because the defendant had developed the content
at issue. Here, in contrast to Fair Housing Council,
Fraley, and Perkins, there is no comparable allegation
that Facebook created or developed any of the content
at issue. To the contrary, Plaintiff has repeatedly
confirmed that “[t]his case is about the content of a
first party (Fyk).” Opp. at 4.

App.285a
Moreover, to the extent Plaintiff contends that
Facebook’s alleged placement of sponsored advertisements in News Feed makes Facebook an “information
content provider” (see Opp. at 7-8), that contention has
no basis in law or fact. Plaintiff does not allege that
Facebook created or developed any content for those
advertisements. Moreover, courts have consistently
held that interactive service providers, like Facebook, do not become “information content providers”
simply by placing advertisements, or rearranging
content, created by others. See Pennie, 281 F. Supp.
3d at 890-91 (rejecting Plaintiff’s contention that the
defendants (including Facebook) “c[ould] be held liable
as creators of content, rather than merely interactive
service providers, because [they] select advertisements to pair with content on their services . . .
based on what is known about the viewer and what
the viewer is looking at”); Gonzalez v. Google, Inc.,
282 F. Supp. 3d 1150, 1167-68 (N.D. Cal. 2017)
(holding that Google could not be held liable as an
“information content provider” by allegedly selecting
advertisements “to be displayed alongside user content
based on information it gathers about the viewer and
the posting”; noting that plaintiff’s “theory finds no
support in the case law”); see also, e.g., Levitt I, 2011
WL 5079526, at *6; Jurin, 695 F. Supp. 2d at 1122-23.
c. Plaintiff Concedes That the Complaint
Seeks to Hold Facebook Liable for
Exercising Traditional Editorial
Functions
The final requirement for Section 230(c)(1)
immunity—that the Complaint seeks to hold Facebook
liable for exercising traditional editorial functions—
is also satisfied. Plaintiff does not dispute, and therefore

App.286a
concedes, that all of his claims seek to hold Facebook
liable for its decisions regarding whether or not to
publish third-party content—including, in particular,
content provided by Plaintiff. Mot. at 6-8. Nor does
he dispute that these sorts of decisions fall squarely
within the traditional editorial function. Id.; see also
Zeran v. Am. Online, Inc., 129 F.3d 327, 330 (4th Cir.
1997).
To the extent Plaintiff contends that Section 230
(c)(1) does not apply here because Facebook is an
alleged competitor whose decisions purportedly were
financially motivated (see Opp. at 7), Plaintiff is
wrong. As explained in Facebook’s opening brief,
courts in the Ninth Circuit have repeatedly confirmed
that there is no intent-based exception to Section
230(c)(1) immunity and have applied the immunity
in cases where the defendant was alleged to have
acted for competitive or even discriminatory reasons.
See, e.g., Levitt I, 2011 WL 5079526, at *7 (decision
allegedly motived by improper business reasons);
Sikhs for Justice, 144 F. Supp. 3d at 1095 (decision
allegedly motivated by discrimination).
For instance, in Levitt I, which Plaintiff studiously
ignores, the court held that Yelp was entitled to
Section 230(c)(1) immunity despite allegations that it
had pressured the plaintiff’s into paying for advertising
by threatening to manipulate, and actually manipulating, third-party content on the site to hurt the
plaintiffs and/or help their competitors who agreed to
pay for advertising. Mot. at 7; Levitt I, 2011 WL
5079526, at *7. The court specifically rejected the
plaintiffs’ argument that Section 230(c)(1) includes
an intent requirement, explaining that “traditional
editorial functions often include subjective judgments

App.287a
informed by . . . financial considerations,” and “[d]etermining what motives are permissible and what are
not could prove problematic” and undermine the
purpose of Section 230(c)(1). Levitt I, 2011 WL 5079526,
at *7-8. The court also noted that “the text of the two
subsections of § 230(c) indicates that (c)(1)’s immunity applies regardless of whether the publisher acts
in good faith.” Id. at *7.
Here, just as in Levitt I, Plaintiff’s claims are
predicated on allegations that Facebook improperly
exercised its editorial function to advance its own
financial interests. And just as in Levitt I, those
claims are barred by Section 230(c)(1).
In sum, all three requirements for Section 230(c)(1)
immunity are satisfied. Accordingly, each of Plaintiffs
claims fails as a matter of law and must be dismissed.
B. Plaintiff’s Argument That Facebook Should
Be Estopped from Asserting Section 230(c)(1)
Immunity Is Baseless
Plaintiff identifies no authority for the unprecedented proposition that a party is estopped from
asserting arguments in litigation that it did not
specifically identify in pre-filing communications with
the plaintiff. Once again, Plaintiff is simply asking
the Court to make radical new law without any legal
or logical basis.
The so-called “mend and hold” doctrine, upon
which Plaintiff relies, “provides that a contract party
is not permitted to change is position on the meaning
of a contract in the middle of litigation over it.”
Hartford Fire Ins. Co. v. Gandy Dancer, LLC, 864 F.
Supp. 2d 1157, 1170 n. 9 (D.N.M. 2012) (citing First

App.288a

Bank & Trust Co. of Illinois v. Cimerring, 365 Fed.
Appx. 5, 8 (7th Cir. 2010)). That doctrine has no
application here, among other reasons, because this
case does not involve the meaning of a contract. In
any event, Facebook has not changed its position in
this litigation; it asserted Section 230(c)(1) immunity
in its first response to Plaintiff’s Complaint, while
“reserve[ing] the right to assert Section 230(c)(2) immunity at a later stage.” Mot. at 4, n. 1.
Accordingly, the Court can and should apply
Section 230(c)(1) to dismiss this case, even though,
for the sake of judicial economy, Facebook chose not
to assert Section 230(c)(2) immunity at this time.
C. Plaintiff Has Failed to Sufficiently Allege
Any Claim for Relief
1. The Complaint Fails to State a Claim for
Civil Extortion
Plaintiff concedes that, to state a valid claim for
civil extortion against Facebook, he is required to
allege (among other things) that Facebook wrongfully
threatened to withhold from him something that he
has a right to possess. See Mot. at 8; Levitt v. Yelp!
Inc. (Levitt II), 765 F.3d 1123, 1135 (9th Cir. 2014).
Nevertheless, Plaintiff asserts that Congressional
testimony by Facebook’s CEO, Mark Zuckerberg,
somehow creates a legally enforceable obligation
supporting his civil extortion claim. Opp. at 13.
Plaintiff is wrong. Not only does the Complaint fail
even to mention this supposed testimony, Plaintiff
fails to explain how the testimony confers a legally
cognizable right, nor does he identify the nature of

App.289a
that right, or otherwise explain how it purportedly
relates to his civil conspiracy claim.
Plaintiff also cites Facebook’s terms of service to
support the notion that he purportedly “owns” the
content on his Facebook page. Opp. at 13 (citing n.
6). Putting aside the issue that Plaintiff’s Complaint
never once mentions the terms of service as the
source of any legal obligation on the part of Facebook,
the provision to which Plaintiff refers simply provides
permission to share content posted on Facebook with
others. Nothing in Facebook’s terms of service gives
Plaintiff the unfettered right to maintain content on
Facebook or to prevent Facebook from featuring
advertising on its platform—and Plaintiff does not
contend otherwise. Rather, consistent with the Ninth
Circuit’s opinion in Levitt II (which Plaintiff disregards
entirely), the benefit that Facebook allegedly withheld
from Plaintiff is “a benefit that [Facebook] makes
possible and maintains.” 765 F.3d at 1132-33; Mot. at
9-10. Because Plaintiff has no “preexisting right to be
free from the threatened harm,” his claim for civil
extortion fails as a matter of law. Levitt II, 765 F.3d
at 1132-33.7

7 Moreover, as noted in Facebook’s opening brief, the only
purported “threat” identified in the Complaint at all is an
alleged remark by an unnamed executive allegedly advising
Plaintiff that “one has to pay Facebook in order to play with
Facebook.” Mot. at 9. This vague, barebones allegation is
insufficient to state a claim for civil extortion under the “stringent
standard” announced by the Ninth Circuit in Levitt II. See 765
F.3d at 1133.

App.290a
2. The Complaint Fails to State a Claim for
Unfair Competition
Plaintiff does not dispute that, to state a valid
claim for unfair competition under the “unfair” prong,
he must sufficiently allege “conduct that threatens
an incipient violation of an antitrust law, or violates
the policy or spirit of one of those laws because its
effects are comparable to or the same as a violation
of the law, or otherwise significantly threatens or
harms competition.” Levitt II, 765 F.3d at 1136; Mot.
at 10.8 But in his opposition brief, Plaintiff fails to
identify any factual allegations in the Complaint
that could plausibly satisfy this standard.
Plaintiff asserts, for instance, that Facebook has
given preferential treatment to a competitor of Plaintiff
who paid Facebook more money, thereby injuring
Plaintiff. Opp. at 13. But that allegation is virtually
identical to the business owners’ allegation in Levitt
that “Yelp’s conduct ‘harms competition by favoring
businesses that submit to Yelp’s manipulative conduct
and purchase advertising to the detriment of competing
businesses that decline to purchase advertising.”
Levitt II, 765 F.3d at 1137. As the Ninth Circuit has
already held, that sort of “very general allegation
does not satisfy Cel-Tech’s requirement that the
effect of [Facebook’s] conduct amounts to a violation
of antitrust laws ‘or otherwise significantly threatens
or harms competition.’” Id.

8 Nor can he. The Ninth Circuit held in Levitt II that this standard
applies in business-competitor cases, 765 F.3d at 1136, and
Plaintiff has argued that “Facebook is a direct competitor.” Opp.
at 7.

App.291a
Plaintiff’s argument also assumes erroneously
that an alleged competitive impact on him personally
is sufficient to state a claim under the “unfair” prong.
Not so. Courts have consistently held that “the harms
alleged must be ‘significant’ and have impacts on
‘competition,’ not merely on a competitor.” DirecTV,
LLC v. E&E Enters. Glob., Inc., 2018 WL 707964, at
*5 (C.D. Cal. Feb. 5, 2018) (emphasis added). In
DirectTV, for instance, the court dismissed a UCL
claim because the “specific harms alleged in the
[Complaint] chiefly impact [Plaintiff] as DirecTV’s
competitor rather than ‘significantly threaten[ing]
or harm[ing] competition.’” Id.; see also, e.g., Glob.
Plastic Sheeting v. Raven Indus., 2018 WL 3078724,
at *6 (S.D. Cal. Mar. 14, 2018) (granting motion to
dismiss UCL claim under the “unfair” prong where
Plaintiff’s allegations “merely indicate Defendant’s
conduct resulted in harm to its commercial interests
rather than harm to competition”).
So too here. Because Plaintiff alleges that Facebook’s alleged conduct has injured him personally, not
that Facebook’s conduct has threatened or harmed
competition generally, the Complaint fails as a matter
of law to state a plausible claim for relief under the
UCL’s “unfair” prong.
Plaintiff relies heavily on Fraley (see Opp. at 1314), but that case is readily distinguishable. There,
the court found that the plaintiffs had sufficiently
pled a claim for misappropriation under California
Civil Code § 3344 based on alleged nonconsensual
use of their names, photographs, and likenesses. 830
F. Supp. 2d at 803. Based on that predicate cause of
action, the court went on to find that the plaintiffs
also had alleged an unlawful commercial practice

App.292a
under the UCL’s “unlawful” prong, and a violation of
a “statutorily declared public policy” under the “unfair”
prong. Id. at 812, 813. Here, in contrast, Plaintiff has
not sufficiently alleged any predicate UCL violation,
nor has Plaintiff alleged that Facebook has violated
any “statutorily declared public policy” other than
the prohibitions on extortion, discussed above.
Moreover, to the extent Plaintiff contends that
the Complaint sufficiently pleads a UCL violation
under the “fraudulent” prong, he is wrong. A claim
under the fraudulent prong of the UCL is governed
by the “reasonable consumer” standard, which requires
the plaintiff to “show that members of the public are
likely to be deceived.” Williams v. Gerber Prods. Co.,
552 F.3d 934, 938 (9th Cir. 2008) (citation and internal
quotation marks omitted). In addition, the plaintiff
must “allege actual reliance, that the defendant’s
misrepresentation or nondisclosure was an immediate
cause of the plaintiff’s injury-producing conduct . . .
[such that] in its absence the plaintiff in all reasonable probability would not have engaged in the
injury-producing conduct[.]” Block v. eBay, Inc., 747
F.3d 1135, 1140 (9th Cir. 2014) (internal quotation
marks and citations omitted). Here, Plaintiff has failed
to allege any of the required elements, much less
with the specificity required by Rule 9(b). See Kearns
v. Ford Motor Co., 567 F.3d 1120, 1125 (9th Cir. 2009)
(when a UCL claim rests on allegations of fraud, it
must satisfy Rule 9(b)).
Accordingly, Plaintiff’s unfair competition claim
must be dismissed.

App.293a
3. The Complaint Fails to State a Claim for
Fraud/Misrepresentation
As explained in Facebook’s opening brief, the
Complaint fails to allege any actionable misrepresentation, nor does the Complaint plead any of the
other essential elements of a fraud claim under Rule
9’s heightened pleading standard. Mot. 12-13. Plaintiff’s response fails to address any of Facebook’s
arguments, but instead posits that “just about everything said about Facebook and what it has done to
Fyk has a fraud/intentional misrepresentation undercurrent.” Opp. at 14.
It is undisputed that the Complaint fails to
provide “the who, what, when, where, and how”
needed to plead a fraud claim under Rule 9(b). See
Kearns, 567 F.3d at 1126. Thus, this claim must be
dismissed.
4. The Complaint Fails to State a Claim for
Intentional Interference with Prospective
Economic Relations
Plaintiff does not dispute that his claim for
intellectual interference with prospective economic
relations rises and falls with his other three claims.
Opp. at 15. Because Plaintiff has failed to sufficiently
plead any of those three claims, as explained above,
Plaintiff’s derivative claim for intentional interference
must be dismissed as well. Mot. at 13; Name.Space,
Inc. v. Internet Corp. for Assigned Names & Numbers,
795 F.3d 1124, 1134 (9th Cir. 2015).

App.294a
D. Leave to Amend Should Be Denied
Given the robust immunities afforded under the
CDA, courts in this district have previously denied
leave to amend complaints asserting claims against
internet service providers like Facebook that are
predicated on content provided by third parties. See,
e.g., Caraccioli v. Facebook, Inc., 167 F. Supp. 3d 1056,
1067 (N.D. Cal. 2016) (“Because Plaintiff’s claims
against Facebook are barred as a matter of law by
§ 230(c), the court finds that allowing for their amendment would be futile.”); Sikhs for Justice, 144 F. Supp.
3d. at 1095-96 (same). Moreover, Plaintiff has not
explained how he could possibly cure by amendment
the other deficiencies identified in Facebook’s motion
to dismiss. Because amendment would be futile,
Plaintiff’s Complaint should be dismissed with prejudice.
III. Conclusion
For the foregoing reasons, as well as those set
forth in Facebook’s opening brief, the Court should
grant Facebook’s motion to dismiss without leave to
amend.

App.295a
Respectfully submitted,
KEKER, VAN NEST & PETERS LLP
By: /s/ William S. Hicks
Matan Shacham
William S. Hicks
Attorneys for Defendant
Facebook, Inc.
Dated: December 28, 2018

App.296a
U.S. DISTRICT COURT DOCKET DETAILS
U.S. District Court
California Northern District (Oakland)
CIVIL DOCKET FOR CASE #: 4:18-cv-05159-JSW
________________________
Fyk v. Facebook, Inc.
Assigned to: Hon. Jeffrey S. White
Case in other court:
Ninth Circuit Court of Appeals, 19-16232
Cause: 28:1332 Diversity-(Citizenship)
Date Filed: 08/22/2018
Date Terminated: 06/18/2019
Jury Demand: Plaintiff
Nature of Suit: 370 Other Fraud
Jurisdiction: Diversity
Plaintiff
Jason Fyk
represented by
Jeffrey Lewis Greyber
Callagy Law, P.C.
1900 NW Corporate Boulevard
Suite 310W
Boca Raton, FL 33431
(561) 405-7966
Email: jgreyber@callagylaw.com
Michael Smikun
650 From Rd.
Paramus, NJ 07652
(201) 261-1700
Email: msmikun@callagylaw.com

App.297a
Sean R Callagy
650 From Rd.
Paramus, NJ 07652
(201) 261-1700
Email: scallagy@callagylaw.com
Constance Jiun-Yee Yu
Futterman Landry Yu LLP
345 California Street
Suite 1160
San Francisco, CA 94104
(415) 685-0729
Fax: (415) 737-1363
Email: cyu@plylaw.com
V.
Defendant
Facebook Inc.
represented by
Matan Shacham
Keker & Van Nest LLP
633 Battery Street
San Francisco, CA 94111-1804
415-391-5400
Fax: 415-397-7188
Email: mshacham@keker.com
William Sellers Hicks
Keker & Van Nest LLP
633 Battery Street
San Francisco, CA 94111-1809
415-391-5400
Fax: 415-397-7188
Email: whicks@kvn.com
_________________________________________

App.298a
08/22/2018
1)

COMPLAINT VERIFIED COMPLAINT AND
DEMAND FOR JURY TRIAL against
Facebook, Inc. (Filing fee $400, receipt
number 0971-12618798.). Filed by Jason
Fyk. (Attachments: # 1 Summons, # 2 Civil
Cover Sheet) (Yu, Constance) (Filed on
8/22/2018) (Entered: 08/22/2018)

08/22/2018
2)

MOTION for leave to appear in Pro Hac
Vice Application for Admission of Attorney
Pro Hac Vice (Filing fee $310, receipt
number 0971-12618807.) filed by Jason Fyk.
(Yu, Constance) (Filed on 8/22/2018) (Entered:
08/22/2018)

08/22/2018
3)

MOTION for leave to appear in Pro Hac
Vice Application for Admission of Attorney
Pro Hac Vice (Michael Smikun) (Filing fee
$310, receipt number 0971-12618812.) filed
by Jason Fyk. (Yu, Constance) (Filed on
8/22/2018) (Entered: 08/22/2018)

08/22/2018
4)

MOTION for leave to appear in Pro Hac
Vice Application for Admission of Attorney
Pro Hac Vice (Jeffrey Greyber) (Filing fee
$310, receipt number 0971-12618814.) filed
by Jason Fyk. (Yu, Constance) (Filed on
8/22/2018) (Entered: 08/22/2018)

App.299a
08/23/2018
5)

Case assigned to Magistrate Judge Kandis
A. Westmore.
Counsel for plaintiff or the removing party
is responsible for serving the Complaint or
Notice of Removal, Summons and the assigned
judge’s standing orders and all other new
case documents upon the opposing parties.
For information, visit E-Filing A New Civil
Case at http://cand.uscourts.gov/ecf/case
opening.
Standing orders can be downloaded from
the court’s web page at www.cand.uscourts.
gov/judges. Upon receipt, the summons will
be issued and returned electronically. Counsel
is required to send chambers a copy of the
initiating documents pursuant to L.R. 51(e)(7). A scheduling order will be sent by
Notice of Electronic Filing (NEF) within two
business days. Consent/Declination due by
9/6/2018. (as, COURT STAFF) (Filed on
8/23/2018) (Entered: 08/23/2018)

08/23/2018
6)

Proposed Summons. (Yu, Constance) (Filed on
8/23/2018) (Entered: 08/23/2018)

08/24/2018
7)

Summons Issued as to Facebook, Inc. (jmlS,
COURT STAFF) (Filed on 8/24/2018)
(Entered: 08/24/2018)

App.300a
08/24/2018
8)

Initial Case Management Scheduling Order
with ADR Deadlines: Case Management
Statement due by 11/13/2018. Initial Case
Management Conference set for 11/20/2018
01:30 PM. (jmlS, COURT STAFF) (Filed on
8/24/2018) (Entered: 08/24/2018)

08/28/2018
9)

CERTIFICATE OF SERVICE by Jason Fyk
re 2 MOTION for leave to appear in Pro Hac
Vice Application for Admission of Attorney
Pro Hac Vice (Filing fee $310, receipt
number 0971-12618807.), 3 MOTION for
leave to appear in Pro Hac Vice Application

for Admission of Attorney Pro Hac Vice

(Michael Smikun) (Filing fee $310, receipt
number 0971-12618812.), 7 Summons Issued,
1 Complaint, 4 MOTION for leave to appear
in Pro Hac Vice Application for Admission
of Attorney Pro Hac Vice (Jeffrey Greyber)
(Filing fee $310, receipt number 0971-1261
8814.), 8 Initial Case Management Scheduling Order with ADR Deadlines Proof of
Service on Facebook, Inc. (Yu, Constance)
(Filed on 8/28/2018) (Entered: 08/28/2018)
09/04/2018
10) Amended MOTION for leave to appear in
Pro Hac Vice Application for Admission of

Attorney Pro Hac Vice previously filed
Docket #2 (Filing fee $310, receipt number

0971-12618807.) Filing fee previously paid on
08/22/18 filed by Jason Fyk. (Yu, Constance)
(Filed on 9/4/2018) (Entered: 09/04/2018)

App.301a
09/04/2018
11) ORDER by Magistrate Judge Kandis A.
Westmore granting 3 Motion for Pro Hac
Vice for Michael Smikun. (sisS, COURT
STAFF) (Filed on 9/4/2018) (Entered: 09
/04/2018)
09/04/2018
12) ORDER by Magistrate Judge Kandis A.
Westmore granting 4 Motion for Pro Hac
Vice for Jeffrey Greyber. (sisS, COURT
STAFF) (Filed on 9/4/2018) (Entered: 09/
04/2018)
09/04/2018
13) ORDER by Magistrate Judge Kandis A.
Westmore granting 10 Motion for Pro Hac
Vice for Sean Callagy. (sisS, COURT STAFF)
(Filed on 9/4/2018) (Entered: 09/04/2018)
09/11/2018
14) STIPULATION (Joint) to Extend Facebook,
Inc.’s Time to Respond to Complaint filed by
Facebook, Inc. and Jason Fyk. (Shacham,
Matan) (Filed on 9/11/2018) Modified on
9/12/2018 (jmlS, COURT STAFF). (Entered:
09/11/2018)
09/25/2018
15) DECLINATION to Proceed Before a US
Magistrate Judge by Facebook, Inc.
(Shacham, Matan) (Filed on 9/25/2018)
Modified on 9/26/2018 (jmlS, COURT STAFF).
(Entered: 09/25/2018)

App.302a
09/26/2018
16) CLERK’S NOTICE OF IMPENDING
REASSIGNMENT TO A U.S. DISTRICT
COURT JUDGE; The Clerk of this Court
will now randomly reassign this case to a
District Judge because either (1) a party has
not consented to the jurisdiction of a Magistrate Judge, or (2) time is of the essence in
deciding a pending judicial action for which
the necessary consents to Magistrate Judge
jurisdiction have not been secured. You will be
informed by separate notice of the district
judge to whom this case is reassigned.
ALL HEARING DATES PRESENTLY
SCHEDULED BEFORE THE CURRENT
MAGISTRATE JUDGE ARE VACATED AND
SHOULD BE RE-NOTICED FOR HEARING
BEFORE THE JUDGE TO WHOM THIS
CASE IS REASSIGNED.

This is a text only docket entry; there is no
document associated with this notice. (sisS,
COURT STAFF) (Filed on 9/26/2018)
(Entered: 09/26/2018)
09/26/2018
17) ORDER REASSIGNING CASE. Case reassigned to Judge Jeffrey S. White for all
further proceedings. Magistrate Judge Kandis
A. Westmore no longer assigned to the case.
This case is assigned to a judge who
participates in the Cameras in the Courtroom
Pilot Project. See General Order 65 and
http://cand.uscourts.gov/cameras. Signed by
Executive Committee on 9/26/2018. (Attach-

App.303a
ments: # 1 Notice of Eligibility for Video
Recording) (jmlS, COURT STAFF) (Filed on
9/26/2018) (Entered: 09/26/2018)
10/29/2018
18) NOTICE of Appearance by William Sellers
Hicks (Hicks, William) (Filed on 10/29/2018)
(Entered: 10/29/2018)
10/29/2018
19) NOTICE of Appearance by Matan Shacham
(Shacham, Matan) (Filed on 10/29/2018)
(Entered: 10/29/2018)
11/01/2018
20) MOTION to Dismiss filed by Facebook, Inc.,
Motion Hearing set for 12/14/2018 09:00 AM
in Oakland, Courtroom 5, 2nd Floor before
Judge Jeffrey S. White. Responses due by
11/15/2018. Replies due by 11/23/2018.
(Attachments: # 1 Proposed Order) (Hicks,
William) (Filed on 11/1/2018) (Entered:
11/01/2018)
11/12/2018
21) STIPULATION REGARDING ENLARGEMENT OF THE NOVEMBER 15, 2018,
DEADLINE FOR PLAINTIFF TO RESPOND TO DEFENDANTS NOVEMBER 1,
2018, MOTION TO DISMISS AND RELATED DEADLINES filed by Jason Fyk,
Facebook, Inc. (Attachments: # 1 Proposed
Order) (Yu, Constance) (Filed on 11/12/2018)
Modified on 11/13/2018 (cjlS, COURT
STAFF). (Entered: 11/12/2018)

App.304a
11/13/2018
22) ORDER GRANTING AS MODIFIED 21
STIPULATION REGARDING ENLARGEMENT OF THE NOVEMBER 15, 2018,
DEADLINE FOR PLAINTIFF TO RESPOND
TO DEFENDANTS NOVEMBER 1, 2018,
MOTION TO DISMISS AND RELATED
DEADLINES. Signed by Judge Jeffrey S.
White on 11/13/18. Responses due by 11/30/
2018. Replies due by 12/14/2018. Motion
Hearing set for 1/25/2019 09:00 AM in Oakland, Courtroom 5, 2nd Floor before Judge
Jeffrey S. White. (jjoS, COURT STAFF) (Filed
on 11/13/2018) (Entered: 11/13/2018)
11/28/2018
23) MOTION for Extension of Time to File
Response/Reply as to 20 MOTION to Dismiss
filed by Jason Fyk, Facebook, Inc. (Attachments: # 1 Proposed Order) (Greyber, Jeffrey) (Filed on 11/28/2018) Modified on 11/
28/2018 (cjlS, COURT STAFF). (Entered:
11/28/2018)
11/30/2018
24) ORDER GRANTING AS MODIFIED 23
MOTION for Extension of Time to File
Response/Reply as to 20 MOTION to Dismiss.
Signed by Judge Jeffrey S. White on 11/30/18.
Responses due by 12/7/2018. Replies due by
12/21/2018. Motion Hearing set for 2/1/2019
09:00 AM in Oakland, Courtroom 5, 2nd
Floor before Judge Jeffrey S. White. (jjoS,
COURT STAFF) (Filed on 11/30/2018)
(Entered: 11/30/2018)

App.305a
12/07/2018
25) RESPONSE IN OPPOSITION TO 20
DEFENDANT’S NOVEMBER 1, 2018, MOTION TO DISMISS filed by Jason Fyk. (Yu,
Constance) (Filed on 12/7/2018) Modified on
12/7/2018 (cjlS, COURT STAFF). (Entered:
12/07/2018)
12/07/2018
26) PLAINTIFF’S REQUEST FOR JUDICIAL
NOTICE IN SUPPORT OF 25 HIS RESPONSE IN OPPOSITION TO 20 DEFENDANT’S MOTION TO DISMISS filed by
Jason Fyk. (Yu, Constance) (Filed on 12/7/
2018) Modified on 12/7/2018 (cjlS, COURT
STAFF). (Entered: 12/07/2018)
12/14/2018
27) REPLY (re 20 MOTION to Dismiss) filed by
Jason Fyk. (Attachments: # 1 Proposed Order)
(Greyber, Jeffrey) (Filed on 12/14/2018)
(Entered: 12/14/2018)
12/14/2018
28) Request for Judicial Notice re 27 Reply to
Motion to Dismiss filed by Jason Fyk.
(Related document(s) 27 (Greyber, Jeffrey)
(Filed on 12/14/2018) Modified on 12/14/2018
(cjlS, COURT STAFF). (Entered: 12/14/2018)

App.306a
12/14/2018
29) STIPULATION WITH [PROPOSED] ORDER
Regarding One Week Enlargement of Time
for Plaintiff to File a Brief in Response to
Facebooks Motion to Dismiss that Complies
with Applicable Page Limits, and Enlargement of Related Deadlines filed by Facebook, Inc., Jason Fyk. (Hicks, William) (Filed
on 12/14/2018) Modified on 12/14/2018 (cjlS,
COURT STAFF). (Entered: 12/14/2018)
12/17/2018
30) ORDER by Judge Jeffrey S. White granting
AS MODIFIED 29 Stipulation Regarding
One Week Enlargement of Time for Plaintiff
to File a Brief in Response to Facebooks
Motion to Dismiss that Complies with
Applicable Page Limits, and Enlargement of
Related Deadlines. (jjoS, COURT STAFF)
(Filed on 12/17/2018) (Entered: 12/17/2018)
12/17/2018
Set/Reset Deadlines as to 20 MOTION to
Dismiss. Responses due by 12/14/2018. Replies
due by 12/28/2018. Motion Hearing set for
4/5/2019 09:00 AM in Oakland, Courtroom
5, 2nd Floor before Judge Jeffrey S. White.
(jjoS, COURT STAFF) (Filed on 12/17/2018)
(Entered: 12/17/2018)
12/28/2018
31) REPLY (re 20 MOTION to Dismiss) filed by
Facebook, Inc., (Hicks, William) (Filed on
12/28/2018) (Entered: 12/28/2018)

App.307a
12/28/2018
32) Opposition to 28 Plaintiff’s Request for
Judicial Notice filed by Facebook, Inc. (Hicks,
William) (Filed on 12/28/2018) Modified on
12/28/2018 (cjlS, COURT STAFF). (Entered:
12/28/2018)
03/19/2019
33) Clerk’s Notice of Video Recording Request.
Video Camera hearing set for 4/5/2019 09:00
AM. Objections to Video Recording due 3/26
/2019. (jjoS, COURT STAFF) (Filed on
3/19/2019) (Entered: 03/19/2019)
03/25/2019
34) CLERK’S NOTICE CONTINUING HEARING ON 20 MOTION TO DISMISS: Motion
Hearing set for 6/21/2019 09:00 AM in Oakland, Courtroom 5, 2nd Floor before Judge
Jeffrey S. White. (jjoS, COURT STAFF) (Filed
on 3/25/2019) (Entered: 03/25/2019)
04/15/2019
35) Clerk’s Notice of Video Recording Request.
Video Camera hearing set for 6/21/2019
09:00 AM. Objections to Video Recording
due 4/22/2019. (jjoS, COURT STAFF) (Filed
on 4/15/2019) (Entered: 04/15/2019)
04/29/2019
36) Clerks Notice of Video Recording Decision
(Related documents(s) 35 ) (jjoS, COURT
STAFF) (Filed on 4/29/2019) (Entered: 04/
29/2019)

App.308a
06/17/2019
37) CLERK’S NOTICE VACATING HEARING
ON 20 MOTION TO DISMISS (jjoS, COURT
STAFF) (Filed on 6/17/2019) (Entered: 06/
17/2019)
06/18/2019
38) ORDER by Judge Jeffrey S. White granting
20 Motion to Dismiss. (jjoS, COURT STAFF)
(Filed on 6/18/2019) (Entered: 06/18/2019)
06/18/2019
39) JUDGMENT. Signed by Judge Jeffrey S.
White on 6/18/19. * * * Civil Case Terminated. (jjoS, COURT STAFF) (Filed on
6/18/2019) (Entered: 06/18/2019)
06/19/2019
40) NOTICE OF APPEAL to the 9th Circuit
Court of Appeals filed by Jason Fyk. Appeal
of Order on Motion to Dismiss 38, Judgment,
Terminated Case, Terminate Deadlines and
Hearings 39 (Appeal fee of $505 receipt
number 0971-13450908 paid.) (Greyber, Jeffrey) (Filed on 6/19/2019) (Entered: 06/19/
2019)
06/20/2019
41) USCA Case Number 19-16232 Ninth Circuit
Court of Appeals for 40 Notice of Appeal,
filed by Jason Fyk. (cjlS, COURT STAFF)
(Filed on 6/20/2019) (Entered: 06/20/2019)

App.309a
NOTICE OF APPEAL FROM A JUDGMENT OR
ORDER OF A UNITED STATES DISTRICT COURT
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
Form 1. Notice of Appeal from a Judgment or Order
of a United States District Court
Name of U.S. District Court:
Northern District of California
U.S. District Court case number:
C-18-05159 JSW
Date case was first filed in U.S. District Court:
08/22/2018
Date of the judgment or order you are appealing:
06/18/2019
Fee paid for appeal? Yes
List all Appellants
Jason Fyk
Is this a cross-appeal? No
Was there a previous appeal in this case? No
Your mailing address:
50 Gibble Road
Cochranville, PA 19330
Signature: Jason Fyk
Date: Jun 19, 2019

App.310a
Form 6. Representation Statement
Instruction for this form: http://www.ca9.uscourts.gov/
forms/form06instructions.pdf
Appellant(s)
(List each party filing the appeal, do not use “et al.”
or other abbreviations.)
Name(s) of party/parties: Jason Fyk
Name(s) of counsel (if any):
Callagy Law, P.C. – Sean Callagy, Esq.;
Michael J. Smikun, Esq.;
Jeffrey Greyber, Esq.
Address:
650 From Road, Suite 565,
Paramus, NJ 07652
Telephone number(s): 201-261-1700
Email(s): scallagy@callagylaw.com
Is counsel registered for Electronic Filing in the 9th
Circuit? Yes
Appellee(s)
(List only the names of parties and counsel who will
oppose you on appeal. List separately represented
parties separately.)
Name(s) of party/parties: Facebook, Inc.
Name(s) of counsel (if any):
Keker, Van nest & Peters, LLP
William Hicks, Esq.;
Paven Malhotra, Esq.;
Matan Shacham, Esq.

App.311a
Address:
633 Battery Street,
San Francisco, CA 94111
Telephone number(s): 415-391-5400
Email(s): whicks@keker.com
Appellants
Name(s) of party/parties: Jason Fyk
Name(s) of counsel (if any):
Putterman, Yu LLP – Constance Yu, Esq.
Address:
345 California Street,
Suite 1160, San Francisco, CA 94104
Telephone number(s): 415-839-8779
Email(s): cyu@plylaw.com
Is counsel registered for Electronic Filing in the 9th
Circuit? Yes
Appellees

Name(s) of party/parties: N/A
Name(s) of counsel (if any): N/A
Name(s) of party/parties: N/A
Name(s) of counsel (if any): N/A

App.312a
JUSTICE THOMAS’ STATEMENT IN

MALWAREBYTES, INC. v.
ENIGMA SOFTWARE GROUP USA, LLC
(OCTOBER 13, 2020)
SUPREME COURT OF THE UNITED STATES
Cite as: 592 U. S. ____ (2020)
________________________
MALWAREBYTES, INC.
v.
ENIGMA SOFTWARE GROUP USA, LLC,
________________________
No. 19–1284.
Decided October 13, 2020
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
The petition for a writ of certiorari is denied.
Statement of JUSTICE THOMAS respecting the
denial of certiorari.
This petition asks us to interpret a provision
commonly called § 230, a federal law enacted in 1996
that gives Internet platforms immunity from some
civil and criminal claims. 47 U.S.C. § 230. When
Congress enacted the statute, most of today’s major
Internet platforms did not exist. And in the 24 years
since, we have never interpreted this provision. But
many courts have construed the law broadly to confer
sweeping immunity on some of the largest companies
in the world.

App.313a
This case involves Enigma Software Group USA
and Malwarebytes, two competitors that provide
software to enable individuals to filter unwanted
content, such as content posing security risks. Enigma
sued Malwarebytes, alleging that Malwarebytes
engaged in anticompetitive conduct by reconfiguring
its products to make it difficult for consumers to
download and use Enigma products. In its defense,
Malwarebytes invoked a provision of § 230 that states
that a computer service provider cannot be held
liable for providing tools “to restrict access to material”
that it “considers to be obscene, lewd, lascivious, filthy,
excessively violent, harassing, or otherwise objectionable.” § 230(c)(2). The Ninth Circuit relied heavily on
the “policy” and “purpose” of § 230 to conclude that
immunity is unavailable when a plaintiff alleges anticompetitive conduct.
The decision is one of the few where courts have
relied on purpose and policy to deny immunity under
§ 230. But the court’s decision to stress purpose and
policy is familiar. Courts have long emphasized nontextual arguments when interpreting § 230, leaving
questionable precedent in their wake.
I agree with the Court’s decision not to take up this
case. I write to explain why, in an appropriate case,
we should consider whether the text of this increasingly important statute aligns with the current state
of immunity enjoyed by Internet platforms.
I
Enacted at the dawn of the dot-com era, § 230
contains two subsections that protect computer service
providers from some civil and criminal claims. The
first is definitional. It states, “No provider or user of

App.314a
an interactive computer service shall be treated as
the publisher or speaker of any information provided
by another information content provider.” § 230(c)(1).
This provision ensures that a company (like an e-mail
provider) can host and transmit third-party content
without subjecting itself to the liability that sometimes
attaches to the publisher or speaker of unlawful
content. The second subsection provides direct immunity from some civil liability. It states that no computer
service provider “shall be held liable” for (A) goodfaith acts to restrict access to, or remove, certain
types of objectionable content; or (B) giving consumers
tools to filter the same types of content. § 230(c)(2).
This limited protection enables companies to create
community guidelines and remove harmful content
without worrying about legal reprisal.
Congress enacted this statute against specific
background legal principles. See Stewart v. Dutra
Constr. Co., 543 U.S. 481, 487 (2005) (interpreting a
law by looking to the “backdrop against which Congress” acted). Traditionally, laws governing illegal
content distinguished between publishers or speakers
(like newspapers) and distributors (like newsstands
and libraries). Publishers or speakers were subjected
to a higher standard because they exercised editorial
control. They could be strictly liable for transmitting
illegal content. But distributors were different. They
acted as a mere conduit without exercising editorial
control, and they often transmitted far more content
than they could be expected to review. Distributors
were thus liable only when they knew (or constructively
knew) that content was illegal. See, e.g., Stratton
Oakmont, Inc . v. Prodigy Services Co ., 1995 WL
323710, *3 (Sup. Ct. NY, May 24, 1995); Restatement

App.315a
(Second) of Torts § 581 (1976); cf. Smith v. California,
361 U.S. 147, 153 (1959) (applying a similar principle
outside the defamation context).
The year before Congress enacted § 230, one
court blurred this distinction. An early Internet company was sued for failing to take down defamatory
content posted by an unidentified commenter on a
message board. The company contended that it merely
distributed the defamatory statement. But the company
had also held itself out as a family-friendly service
provider that moderated and took down offensive
content. The court determined that the company’s
decision to exercise editorial control over some content
“render[ed] it a publisher” even for content it merely
distributed. Stratton Oakmont, 1995 WL 323710, *3–
*4.
Taken at face value, § 230(c) alters the Stratton
Oakmont rule in two respects. First, § 230(c)(1)
indicates that an Internet provider does not become
the publisher of a piece of third-party content—and
thus subjected to strict liability—simply by hosting
or distributing that content. Second, § 230(c)(2)(A)
provides an additional degree of immunity when
companies take down or restrict access to objectionable
content, so long as the company acts in good faith.
In short, the statute suggests that if a company
unknowingly leaves up illegal third-party content, it
is protected from publisher liability by § 230(c)(1);
and if it takes down certain third-party content in
good faith, it is protected by § 230(c)(2)(A).
This modest understanding is a far cry from
what has prevailed in court. Adopting the too-common
practice of reading extra immunity into statutes where
it does not belong, see Baxter v. Bracey, 590 U.S. ___

App.316a
(2020) (THOMAS, J., dissenting from denial of certiorari), courts have relied on policy and purpose arguments to grant sweeping protection to Internet
platforms. E.g., 1 R. Smolla, Law of Defamation § 4:86,
p. 4–380 (2d ed. 2019) (“[C]ourts have extended the
immunity in § 230 far beyond anything that plausibly
could have been intended by Congress); accord,
Rustad & Koenig, Rebooting Cybertort Law, 80 Wash.
L. Rev. 335, 342–343 (2005) (similar). I address several areas of concern.
A
Courts have discarded the longstanding distinction
between “publisher” liability and “distributor” liability.
Although the text of § 230(c)(1) grants immunity only
from “publisher” or “speaker” liability, the first
appellate court to consider the statute held that it
eliminates distributor liability too—that is, § 230
confers immunity even when a company distributes
content that it knows is illegal. Zeran v. America
Online, Inc., 129 F.3d 327, 331–334 (CA4 1997). In
reaching this conclusion, the court stressed that
permitting distributor liability “would defeat the two
primary purposes of the statute,” namely, “immuniz[ing] service providers” and encouraging “selfregulation.” Id., at 331, 334. And subsequent decisions,
citing Zeran, have adopted this holding as a categorical
rule across all contexts. See, e.g., Universal Communication Systems, Inc. v. Lycos, Inc., 478 F.3d 413,
420 (CA1 2007); Shiamili v. Real Estate Group of
NY, Inc., 17 N. Y. 3d 281, 288–289, 952 N. E. 2d
1011, 1017 (2011); Doe v. Bates, 2006 WL 3813758,
*18 (ED Tex., Dec. 27, 2006).

App.317a
To be sure, recognizing some overlap between
publishers and distributors is not unheard of Sources
sometimes use language that arguably blurs the
distinction between publishers and distributors. One
source respectively refers to them as “primary
publishers” and “secondary publishers or disseminators,” explaining that distributors can be “charged
with publication.” W. Keeton, D. Dobbs, R. Keeton, &
D. Owen, Prosser and Keeton on Law of Torts 799,
803 (5th ed. 1984).
Yet there are good reasons to question this interpretation.
First, Congress expressly imposed distributor
liability in the very same Act that included § 230.
Section 502 of the Communications Decency Act makes
it a crime to “knowingly . . . display” obscene material
to children, even if a third party created that content.
110 Stat. 133–134 (codified at 47 U.S.C. § 223(d)).
This section is enforceable by civil remedy. 47 U.S.C.
§ 207. It is odd to hold, as courts have, that Congress
implicitly eliminated distributor liability in the very
Act in which Congress explicitly imposed it.
Second, Congress enacted § 230 just one year
after Stratton Oakmont used the terms “publisher”
and “distributor,” instead of “primary publisher” and
“secondary publisher.” If, as courts suggest, Stratton
Oakmont was the legal backdrop on which Congress
legislated, e.g., FTC v. Accusearch Inc., 570 F.3d 1187,
1195 (CA10 2009), one might expect Congress to use
the same terms Stratton Oakmont used.
Third, had Congress wanted to eliminate both
publisher and distributor liability, it could have
simply created a categorical immunity in § 230(c)(1):

App.318a
No provider “shall be held liable” for information provided by a third party. After all, it used that exact
categorical language in the very next subsection,
which governs removal of content. § 230(c)(2). Where
Congress uses a particular phrase in one subsection
and a different phrase in another, we ordinarily presume that the difference is meaningful. Russello v.
United States, 464 U.S. 16, 23 (1983); cf. Doe v.
America Online, Inc., 783 So.2d 1010, 1025 (Fla. 2001)
(Lewis, J., dissenting) (relying on this rule to reject
the interpretation that § 230 eliminated distributor
liability).
B
Courts have also departed from the most natural
reading of the text by giving Internet companies
immunity for their own content. Section 230(c)(1) protects a company from publisher liability only when
content is “provided by another information content
provider.” (Emphasis added.) Nowhere does this provision protect a company that is itself the information content provider. See Fair Housing Council of
San Fernando Valley v. Roommates.Com, LLC, 521
F.3d 1157, 1165 (CA9 2008). And an information
content provider is not just the primary author or
creator; it is anyone “responsible, in whole or in part,
for the creation or development” of the content
§ 230(f)(3) (emphasis added).
But from the beginning, courts have held that
§ 230(c)(1) protects the “exercise of a publisher’s traditional editorial functions—such as deciding whether
to publish, withdraw, postpone or alter content.”
E.g., Zeran, 129 F.3d, at 330 (emphasis added); cf.
id., at 332 (stating also that § 230(c)(1) protects the

App.319a
decision to “edit”). Only later did courts wrestle with
the language in § 230(f)(3) suggesting providers are
liable for content they help develop “in part.” To
harmonize that text with the interpretation that
§ 230(c)(1) protects “traditional editorial functions,”
courts relied on policy arguments to narrowly construe
§ 230(f)(3) to cover only substantial or material edits
and additions. E.g., Batzel v. Smith, 333 F.3d 1018,
1031, and n. 18 (CA9 2003) (“[A] central purpose of
the Act was to protect from liability service providers
and users who take some affirmative steps to edit
the material posted”).
Under this interpretation, a company can solicit
thousands of potentially defamatory statements,
“selec[t] and edi[t] . . . for publication” several of those
statements, add commentary, and then feature the
final product prominently over other submissions—
all while enjoying immunity. Jones v. Dirty World
Entertainment Recordings LLC, 755 F.3d 398, 403,
410, 416 (CA6 2014) (interpreting “development”
narrowly to “preserv[e] the broad immunity th[at
§ 230] provides for website operators’ exercise of traditional publisher functions”). To say that editing a
statement and adding commentary in this context does
not “creat[e] or develo[p]” the final product, even in
part, is dubious.
C
The decisions that broadly interpret § 230(c)(1) to
protect traditional publisher functions also eviscerated the narrower liability shield Congress included in
the statute. Section 230(c)(2)(A) encourages companies to create content guidelines and protects those
companies that “in good faith . . . restrict access to or

App.320a
availability of material that the provider or user
considers to be obscene, lewd, lascivious, filthy, excessively violent, harassing, or otherwise objectionable.”
Taken together, both provisions in § 230(c) most
naturally read to protect companies when they unknowingly decline to exercise editorial functions to edit or
remove third-party content, § 230(c)(1), and when they
decide to exercise those editorial functions in good
faith, § 230(c)(2)(A).
But by construing § 230(c)(1) to protect any decision to edit or remove content, Barnes v. Yahoo!, Inc.,
570 F.3d 1096, 1105 (CA9 2009), courts have curtailed
the limits Congress placed on decisions to remove
content, see e-ventures Worldwide, LLC v. Google, Inc.,
2017 WL 2210029, *3 (MD Fla., Feb. 8, 2017) (rejecting the interpretation that § 230(c)(1) protects removal
decisions because it would “swallo[w] the more specific
immunity in (c)(2)”). With no limits on an Internet
company’s discretion to take down material, § 230
now apparently protects companies who racially discriminate in removing content. Sikhs for Justice, Inc. v.
Facebook, Inc., 697 Fed. Appx. 526 (CA9 2017), aff’g 144
F.Supp.3d 1088, 1094 (ND Cal. 2015) (concluding that
“‘any activity that can be boiled down to deciding
whether to exclude material that third parties seek
to post online is perforce immune’” under § 230(c)(1)).
D
Courts also have extended § 230 to protect
companies from a broad array of traditional productdefect claims. In one case, for example, several victims
of human trafficking alleged that an Internet company
that allowed users to post classified ads for “Escorts”
deliberately structured its web-site to facilitate illegal

App.321a
human trafficking. Among other things, the company
“tailored its posting requirements to make sex
trafficking easier,” accepted anonymous payments,
failed to verify e-mails, and stripped metadata from
photographs to make crimes harder to track. Jane
Doe No. 1 v. Backpage.com, LLC, 817 F.3d 12, 16–21
(CA1 2016). Bound by precedent creating a “capacious
conception of what it means to treat a website
operator as the publisher or speaker,” the court held
that § 230 protected these web-site design decisions
and thus barred these claims. Id., at 19; see also M.
A. v. Village Voice Media Holdings, LLC, 809 F.Supp.2d
1041, 1048 (ED Mo. 2011).
Consider also a recent decision granting full
immunity to a company for recommending content by
terrorists. Force v. Facebook, Inc., 934 F.3d 53, 65
(CA2 2019), cert. denied, 590 U.S. ___ (2020). The
court first pressed the policy argument that, to pursue
“Congress’s objectives, . . . the text of Section 230(c)(1)
should be construed broadly in favor of immunity.”
934 F.3d, at 64. It then granted immunity, reasoning
that recommending content “is an essential result of
publishing.” Id., at 66. Unconvinced, the dissent
noted that, even if all publisher conduct is protected
by § 230(c)(1), it “strains the English language to say
that in targeting and recommending these writings to
users . . . Facebook is acting as ‘the publisher of
. . . information provided by another information
content provider.’” Id., at 76–77 (Katzmann, C.J.,
concurring in part and dissenting in part) (quoting
§ 230(c)(1)).
Other examples abound. One court granted
immunity on a design-defect claim concerning a dating
application that allegedly lacked basic safety features

App.322a
to prevent harassment and impersonation. Herrick v.
Grindr LLC, 765 Fed. Appx. 586, 591 (CA2 2019),
cert. denied, 589 U.S. ___ (2019). Another granted
immunity on a claim that a social media company
defectively designed its product by creating a feature
that encouraged reckless driving. Lemmon v. Snap,
Inc., 440 F.Supp.3d 1103, 1107, 1113 (CD Cal. 2020).
A common thread through all these cases is that
the plaintiffs were not necessarily trying to hold the
defendants liable “as the publisher or speaker” of
third-party content. § 230(c)(1). Nor did their claims
seek to hold defendants liable for removing content
in good faith. § 230(c)(2). Their claims rested instead
on alleged product design flaws—that is, the defendant’s own misconduct. Cf. Accusearch, 570 F.3d, at
1204 (Tymkovich, J., concurring) (stating that § 230
should not apply when the plaintiff sues over a
defendant’s “conduct rather than for the content of
the information”). Yet courts, filtering their decisions
through the policy argument that “Section 230(c)(1)
should be construed broadly,” Force, 934 F.3d, at 64,
give defendants immunity.
II
Paring back the sweeping immunity courts have
read into § 230 would not necessarily render defendants
liable for online misconduct. It simply would give
plaintiffs a chance to raise their claims in the first
place. Plaintiffs still must prove the merits of their
cases, and some claims will undoubtedly fail. Moreover,
States and the Federal Government are free to update their liability laws to make them more appropriate for an Internet-driven society.

App.323a
Extending § 230 immunity beyond the natural
reading of the text can have serious consequences.
Before giving companies immunity from civil claims
for “knowingly host[ing] illegal child pornography,”
Bates, 2006 WL 3813758, *3, or for race discrimination,
Sikhs for Justice, 697 Fed. Appx., at 526, we should
be certain that is what the law demands.
Without the benefit of briefing on the merits, we
need not decide today the correct interpretation of
§ 230. But in an appropriate case, it behooves us to
do so.

App.324a
MARK ZUCKERBERG, UNDERSTANDING

FACEBOOK’S BUSINESS MODEL
(JANUARY 24, 2019)
By Mark Zuckerberg, Founder, Chairman and Chief
Executive Officer
Facebook turns 15 next month. When I started
Facebook, I wasn’t trying to build a global company.
I realized you could find almost anything on the
internet—music, books, information—except the thing
that matters most: people. So I built a service people
could use to connect and learn about each other.
Over the years, billions have found this useful, and
we’ve built more services that people around the
world love and use every day.
Recently I’ve heard many questions about our
business model, so I want to explain the principles of
how we operate.
I believe everyone should have a voice and be
able to connect. If we’re committed to serving everyone,
then we need a service that is affordable to everyone.
The best way to do that is to offer services for free,
which ads enable us to do.
People consistently tell us that if they’re going to
see ads, they want them to be relevant. That means
we need to understand their interests. So based on
what pages people like, what they click on, and other
signals, we create categories—for example, people
who like pages about gardening and live in Spain—
and then charge advertisers to show ads to that category. Although advertising to specific groups existed
well before the internet, online advertising allows

App.325a
much more precise targeting and therefore morerelevant ads.
The internet also allows far greater transparency
and control over what ads you see than TV, radio or
print. On Facebook, you have control over what
information we use to show you ads, and you can
block any advertiser from reaching you. You can find
out why you’re seeing an ad and change your preferences to get ads you’re interested in. And you can use
our transparency tools to see every different ad an
advertiser is showing to anyone else.
Still, some are concerned about the complexity of
this model. In an ordinary transaction, you pay a
company for a product or service they provide. Here
you get our services for free—and we work separately
with advertisers to show you relevant ads. This
model can feel opaque, and we’re all distrustful of
systems we don’t understand.
Sometimes this means people assume we do things
that we don’t do. For example, we don’t sell people’s
data, even though it’s often reported that we do. In fact,
selling people’s information to advertisers would be
counter to our business interests, because it would
reduce the unique value of our service to advertisers.
We have a strong incentive to protect people’s information from being accessed by anyone else.
Some worry that ads create a misalignment of
interests between us and people who use our services.
I’m often asked if we have an incentive to increase
engagement on Facebook because that creates more
advertising real estate, even if it’s not in people’s
best interests.

App.326a
We’re very focused on helping people share and
connect more, because the purpose of our service is to
help people stay in touch with family, friends and
communities. But from a business perspective, it’s
important that their time is well spent, or they won’t
use our services as much over the long term. Clickbait
and other junk may drive engagement in the near
term, but it would be foolish for us to show this
intentionally, because it’s not what people want.
Another question is whether we leave harmful
or divisive content up because it drives engagement.
We don’t. People consistently tell us they don’t want
to see this content. Advertisers don’t want their
brands anywhere near it. The only reason bad content
remains is because the people and artificial-intelligence
systems we use to review it are not perfect—not
because we have an incentive to ignore it. Our
systems are still evolving and improving.
Finally, there’s the important question of whether
the advertising model encourages companies like
ours to use and store more information than we otherwise would.
There’s no question that we collect some information for ads—but that information is generally
important for security and operating our services as
well. For example, companies often put code in their
apps and websites so when a person checks out an
item, they later send a reminder to complete the
purchase. But this type of signal can also be important
for detecting fraud or fake accounts.
We give people complete control over whether
we use this information for ads, but we don’t let
them control how we use it for security or operating

App.327a
our services. And when we asked people for permission
to use this information to improve their ads as part
of our compliance with the European Union’s General
Data Protection Regulation, the vast majority agreed
because they prefer more relevant ads.
Ultimately, I believe the most important principles
around data are transparency, choice and control.
We need to be clear about the ways we’re using information, and people need to have clear choices about
how their information is used. We believe regulation
that codifies these principles across the internet
would be good for everyone.
It’s important to get this right, because there are
clear benefits to this business model. Billions of
people get a free service to stay connected to those
they care about and to express themselves. And
small businesses—which create most of the jobs and
economic growth around the world—get access to
tools that help them thrive. There are more than 90
million small businesses on Facebook, and they make
up a large part of our business. Most couldn’t afford
to buy TV ads or billboards, but now they have
access to tools that only big companies could use
before. In a global survey, half the businesses on
Facebook say they’ve hired more people since they
joined. They’re using our services to create millions
of jobs.
For us, technology has always been about putting
power in the hands of as many people as possible. If
you believe in a world where everyone gets an opportunity to use their voice and an equal chance to be
heard, where anyone can start a business from
scratch, then it’s important to build technology that

App.328a
serves everyone. That’s the world we’re building for
every day, and our business model makes it possible.

App.329a

IS FACEBOOK A PUBLISHER IN PUBLIC IT
SAYS NO, BUT IN COURT IT SAYS YES
(OCTOBER 28, 2020)
Sam Levin
The Guardian
July 3, 2018
IN ITS DEFENSE AGAINST A FORMER APP STARTUP,
FACEBOOK IS CONTRADICTING ITS LONG-HELD CLAIM TO
BE SIMPLY A NEUTRAL PLATFORM

Facebook has long had the same public response
when questioned about its disruption of the news
industry: it is a tech platform, not a publisher or a
media company.
But in a small courtroom in California’s Redwood
City on Monday, attorneys for the social media company presented a different message from the one
executives have made to Congress, in interviews and
in speeches: Facebook, they repeatedly argued, is a
publisher, and a company that makes editorial decisions, which are protected by the first amendment.

App.330a
The contradictory claim is Facebook’s latest tactic
against a high-profile lawsuit, exposing a growing
tension for the Silicon Valley corporation, which has
long presented itself as neutral platform that does
not have traditional journalistic responsibilities.
The suit, filed by an app startup, alleges that
Mark Zuckerberg developed a “malicious and fraudulent scheme” to exploit users’ personal data and force
rival companies out of business. Facebook, meanwhile, is arguing that its decisions about “what not to
publish” should be protected because it is a
“publisher”.
In court, Sonal Mehta, a lawyer for Facebook,
even drew comparison with traditional media: “The
publisher discretion is a free speech right irrespective
of what technological means is used. A newspaper
has a publisher function whether they are doing it on
their website, in a printed copy or through the news
alerts.”
The plaintiff, a former startup called Six4Three,
first filed the suit in 2015 after Facebook removed
app developers’ access to friends’ data. The company
had built a controversial and ultimately failed app
called Pikinis, which allowed people to filter photos
to find ones with people in bikinis and other swimwear.
Six4Three attorneys have alleged that Facebook
enticed developers to create apps for its platform by
implying creators would have long-term access to the
site’s huge amounts of valuable personal data and
then later cut off access, effectively defrauding them.
The case delves into some of the privacy concerns
sparked by the Cambridge Analytica scandal.

App.331a
Facebook has rejected all claims. Mehta argued
in court Monday that Facebook’s decisions about
data access were a “quintessential publisher function”
and constituted “protected” activity, adding that this
“includes both the decision of what to publish and
the decision of what not to publish”.
David Godkin, an attorney for Six4Three, later
responded: “For years, Facebook has been saying
publicly that it’s not a media company. This is a complete
180.”
Questions about Facebook’s moral and legal responsibilities as a publisher have escalated surrounding
its role in spreading false news and propaganda,
along with questionable censorship decisions.
Eric Goldman, a Santa Clara University law
professor, said it was frustrating to see Facebook
publicly deny that it was a publisher in some contexts
but then claim it as a defense in court.
“It’s politically expedient to deflect responsibility
for making editorial judgements by claiming to be a
platform,” he said, adding, “But it makes editorial
decisions all the time, and it’s making them more
frequently.”
Facebook may be resistant to embrace its role as
a publisher due to stricter laws and regulations outside of the US that could cause the company trouble,
Goldman said.
Still, he argued, Facebook should have the right
to make these kinds of decisions about data access
and predicted that the company would prevail in
court: “Facebook should have the power to stop apps

App.332a
like Pikinis . . . Facebook was far too loose with its
data, and now it’s having to clean it up.”

In the Six4Three case, Facebook has also cited
Section 230 of the Communications Decency Act, US
legislation that paved the way for the modern internet
by asserting that platforms cannot be liable for
content users post on their sites. In court filings,
Facebook quoted the law saying providers of a
“computer service” should not be “treated as the
publisher” of information from others.
“It just strikes me as fundamentally problematic,”
said Jane Kirtley, a professor of media ethics and
law at the University of Minnesota. “On one hand,
you’re trying to argue you’re this publisher making
editorial judgments. But then they turn around and
claim they are protected under [Section 230] because
they are not publishers.”
Natalie Naugle, Facebook’s associate general
counsel for litigation, defended the company’s legal

App.333a
strategy in a statement to the Guardian, saying:
“Facebook explained in today’s hearing that we decide
what content to make available through our platform,
a right protected by Section 230. Like many other
technology companies, we rely on the discretion protected by this law to police bad behavior on our
service.”
Facebook spokespeople declined to answer questions about its insistence outside of court that it is
not a publisher or media entity.
Daphne Keller, of the Stanford Center for Internet
and Society, said Section 230 was designed to allow
platforms like Facebook to do some moderation and
make editorial decisions without generally being liable
for users’ posts: “They need to be able to make discretionary choices about content.”
The law seemed to be on Facebook’s side, she
said, but added that it was an unusual case given the
focus on app data access while previous cases have
centered on more straight forward censorship claims.
Rebecca Tushnet, a Harvard law school professor,
said it seemed Facebook was “owning up to the
reality that we all see, that it has an important place
in the media environment”.
Kathleen Culver, a University of WisconsinMadison journalism professor, said Facebook must
consider its ethical obligations outside of its legal
responsibilities.
But, she added, it was difficult to define Facebook’s
media role using traditional terms like publisher:
“What we’re navigating is a space where the language

App.334a
we have to date does not match the technology that
has now been developed.”

